<html>
<title> - NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, SECOND SESSION, 107TH CONGRESS</title>
<body><pre>[Senate Hearing 107-810]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 107-810

        NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE,
                     SECOND SESSION, 107TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

                             NOMINATIONS OF

ADM. THOMAS B. FARGO, USN; LT. GEN. LEON J. LaPORTE, USA; GEN. RALPH E. 
   EBERHART, USAF; LT. GEN. JAMES T. HILL, USA; VICE ADM. EDMUND P. 
GIAMBASTIANI, JR., USN; GEN. JAMES L. JONES, JR.; ADM. JAMES O. ELLIS, 
JR., USN; LT. GEN. MICHAEL W. HAGEE, USMC; CHARLES S. ABELL; REAR ADM. 
           THOMAS F. HALL, USN (RET.); AND CHARLES E. ERDMANN

                               ----------                              

             APRIL 26; JUNE 20; JULY 26; SPETEMBER 27, 2002

                               ----------                              

         Printed for the use of the Committee on Armed Services





                                                        S. Hrg. 107-810
 
        NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE,
                     SECOND SESSION, 107TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

                             NOMINATIONS OF

ADM. THOMAS B. FARGO, USN; LT. GEN. LEON J. LaPORTE, USA; GEN. RALPH E. 
   EBERHART, USAF; LT. GEN. JAMES T. HILL, USA; VICE ADM. EDMUND P. 
GIAMBASTIANI, JR., USN; GEN. JAMES L. JONES, JR.; ADM. JAMES O. ELLIS, 
JR., USN; LT. GEN. MICHAEL W. HAGEE, USMC; CHARLES S. ABELL; REAR ADM. 
           THOMAS F. HALL, USN (RET.); AND CHARLES E. ERDMANN

                               __________

             APRIL 26; JUNE 20; JULY 26; SPETEMBER 27, 2002

                               __________

         Printed for the use of the Committee on Armed Services



                         U.S. GOVERNMENT PRINTING OFFICE
83-791                        WASHINGTON : 2003
-------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001











                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director
              Judith A. Ansley, Republican Staff Director

                                  (ii)









                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES

                                                                   Page

                             April 26, 2002

Nominations of Adm. Thomas B. Fargo, USN, for Reappointment to 
  the Grade of Admiral and to be Commander in Chief, United 
  States Pacific Command; and Lt. Gen. Leon J. LaPorte, USA, for 
  Appointment to the Grade of General and to be Commander in 
  Chief, United Nations Command/Combined Forces Command/
  Commander, United States Forces Korea..........................     1

Statements of:

Fargo, Adm. Thomas B., USN, Nominee for Reappointment to the 
  Grade of Admiral and to be Commander in Chief, United States 
  Pacific Command................................................     9
LaPorte, Lt. Gen. Leon J., USA, Nominee for Appointment to the 
  Grade of General and to be Commander in Chief, United Nations 
  Command/Combined Forces Command/Commander, United States Forces 
  Korea..........................................................    10

                             June 20, 2002

Nomination of Gen. Ralph E. Eberhart, USAF, for Reappointment to 
  the Grade of General and to be Combatant Commander, United 
  States Northern Command/Commander, North American Aerospace 
  Defense Command................................................    55

Statement of:

Eberhart, Gen. Ralph E., USAF, Nominee for Reappointment to the 
  Grade of General and to be Combatant Commander, United States 
  Northern Command/Commander, North American Aerospace Defense 
  Command........................................................    62

                             July 26, 2002

Nominations of Lt. Gen. James T. Hill, USA, for Appointment to 
  the Grade of General and Assignment as Commander in Chief, 
  United States Southern Command; and Vice Adm. Edmund P. 
  Giambastiani, Jr., USN, for Appointment to the Grade of Admiral 
  and Assignment as Commander in Chief, United States Joint 
  Forces Command.................................................    87

Statements of:

Graham, Hon. Bob, a U.S. Senator from the State of Florida.......    91
Hill, Lt. Gen. James T., USA.....................................    99
Giambastiani, Vice Adm. Edmund P., Jr., USN......................   100

                                 (iii)
                           September 27, 2002

Nominations of Gen. James L. Jones, Jr., USMC, for Reappointment 
  to the Grade of General and to be Commander, United States 
  European Command and Supreme Allied Commander, Europe; Adm. 
  James O. Ellis, Jr., USN, for Reappointment to the Grade of 
  Admiral and to be Commander, United States Strategic Command; 
  Lt. Gen. Michael W. Hagee, USMC, for Appointment to the Grade 
  of General and to be Commandant of the Marine Corps; Charles S. 
  Abell to be Deputy Under Secretary of Defense for Personnel and 
  Readiness; Rear Adm. Thomas F. Hall, USN (Ret.), to be 
  Assistant Secretary of Defense for Reserve Affairs; and Charles 
  E. Erdmann to be a Judge of the United States Court of Appeals 
  for the Armed Forces...........................................   145
Statements of:

Hutchison, Hon. Kay Bailey, a U.S. Senator from the State of 
  Texas..........................................................   147
Ellis, Adm. James O., Jr., USN, Nominee for Reappointment to the 
  Grade of Admiral and to be Commander, United States Strategic 
  Command........................................................   154
Jones, Gen. James L., Jr., USMC, Nominee for Reappointment to the 
  Grade of General and to be Commander, United States European 
  Command and Supreme Allied Commander, Europe...................   156
Hagee, Lt. Gen. Michael W., USMC, Nominee for Appointment to the 
  Grade of General and to be Commandant of the Marine Corps......   157
Burns, Hon. Conrad, a U.S. Senator from the State of Montana.....   173
Abell, Hon. Charles S., Nominee to be Deputy Under Secretary of 
  Defense for Personnel and Readiness............................   176
Hall, Rear Adm. Thomas F., USN (Ret.), Nominee to be Assistant 
  Secretary of Defense for Reserve Affairs.......................   177
Erdmann, Charles E., Nominee to be a Judge of the United States 
  Court of Appeals for the Armed Forces..........................   177

APPENDIX.........................................................   291
                                     



  NOMINATIONS OF ADM. THOMAS B. FARGO, USN, FOR REAPPOINTMENT TO THE 
 GRADE OF ADMIRAL AND TO BE COMMANDER IN CHIEF, UNITED STATES PACIFIC 
  COMMAND; AND LT. GEN. LEON J. LaPORTE, USA, FOR APPOINTMENT TO THE 
 GRADE OF GENERAL AND TO BE COMMANDER IN CHIEF, UNITED NATIONS COMMAND/
     COMBINED FORCES COMMAND/COMMANDER, UNITED STATES FORCES KOREA

                              ----------                              


                         FRIDAY, APRIL 26, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m. in room 
SR-222, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Cleland, Reed, 
Akaka, Dayton, Warner, and Sessions.
    Committee staff members present: David S. Lyles, staff 
director; and Gabriella Eisen, nominations clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Richard D. DeBobes, counsel; Evelyn 
N. Farkas, professional staff member; Creighton Greene, 
professional staff member; Jeremy L. Hekhuis, professional 
staff member; Maren Leed, professional staff member; Gerald J. 
Leeling, counsel; Peter K. Levine, general counsel; and Michael 
McCord, professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Charles W. Alsup, professional staff 
member; Edward H. Edens IV, professional staff member; Gary M. 
Hall, professional staff member; Ambrose R. Hock, professional 
staff member; Patricia L. Lewis, professional staff member; 
Thomas L. MacKenzie, professional staff member; Scott W. 
Stucky, minority counsel; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Leah C. Brewer and Andrew Kent.
    Committee members' assistants present: Andrew 
Vanlandingham, assistant to Senator Cleland; Elizabeth King, 
assistant to Senator Reed; Davelyn Noelani Kalipi and Richard 
Kessler, assistants to Senator Akaka; William Todd Houchins, 
assistant to Senator Dayton; Arch Galloway II, assistant to 
Senator Sessions; and Kristine Fauser and Michael Bopp, 
assistants to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning everybody. The committee meets 
this morning to consider the nominations for U.S. Military 
Commands in the Asia Pacific region. Adm. Thomas Fargo has been 
nominated to be Commander in Chief, U.S. Pacific Command. Lt. 
Gen. Leon LaPorte has been nominated to be Commander in Chief, 
United Nations Command/Combined Forces Command/Commander, 
United States Forces Korea.
    I welcome both of you here and congratulate you, on behalf 
of the committee, on your nominations. I want to recognize each 
of your family members in advance for the sacrifices that they 
are going to be asked to make on behalf of this Nation. The 
members of this committee know the strains that public service 
can put on a normal family life. None of our nominees would be 
able to serve in these positions without the support of their 
families. We thank you in advance for the hardships that you 
will be putting up with during the service of your loved one in 
command.
    At this time, I would like to ask both of our nominees to 
introduce family members or guests that you have with you here 
this morning. Could you do that for us, please?
    Admiral Fargo. Mr. Chairman, I have my wife's aunt and 
uncle, Joan Lewis and Grant Lewis, and my wife's cousin Diane 
and her husband John Mosher, and they are here from Virginia.
    Chairman Levin. We have someone else who is very prominent 
in Virginia who is going to be introducing you in a moment.
    Senator Warner. Mr. Chairman, I think at this point the 
record should reflect that--if you would stand, Sir--this fine 
gentleman, Grant Lewis, served in the Battle of the Bulge as a 
U.S. soldier.
    Chairman Levin. We are honored to have you. [Applause.]
    We are honored that you have joined us here this morning. 
General.
    General LaPorte. Mr. Chairman, Senators, it is my privilege 
to introduce my wife, Judy. We have been married 34 years, and 
grew up in Federal Hill, Providence, Rhode Island.
    Chairman Levin. We have a proud Rhode Islander here with us 
this morning.
    General LaPorte. She has been a veteran of 33 moves.
    Chairman Levin. Well, thank you all for that service and 
commitment. Our nominees will be assuming command of U.S. 
military forces stationed from the demilitarized zone (DMZ) in 
Korea to the furthest reaches of the Pacific Ocean. Both our 
nominees face significant challenges in their new commands, and 
they are well-prepared for those challenges.
    The Pacific Command region is becoming a new front in the 
war on international terrorism. At the request of President 
Arroyo of the Philippines, U.S. Special Operations Forces are 
helping to train the Philippines Army to more effectively fight 
terrorists and insurgents. Meanwhile, there is growing concern 
that international terrorist groups are moving more operations 
to Southeast Asia.
    On the Korean Peninsula, U.S. military forces and their 
South Korean counterparts must continue to deter conflict along 
the most heavily fortified boundary in the world. We should 
continue to work with our South Korean allies to reduce North 
Korea's threatening offensive military posture, to stop their 
proliferation of ballistic missile technology, and to bring 
them into the world community of nations.
    As I said, our nominees are well-qualified for the 
positions that they will assume. They both have extensive 
experience in the regions that they will command. Admiral Fargo 
is currently Commander in Chief, U.S. Pacific Fleet, and 
therefore already very familiar with the Pacific Command area. 
Admiral Fargo has extensive command experience at sea, and has 
also served in important joint and staff assignments, including 
Director of Operations, U.S. Atlantic Command, and Deputy Chief 
of Naval Operations for Plans, Policies, and Operations.
    Lt. Gen. Leon LaPorte is currently Deputy Commanding 
General, Chief of Staff, U.S. Army Forces Command. Among other 
assignments, General LaPorte commanded the National Training 
Center in Fort Irwin, California, the First Cavalry Division, 
and the III Corps. He has deployed to Korea many times in the 
last decade, and has also served as Assistant Deputy Chief of 
Staff for Operations and Plans, Headquarters Department of the 
Army.
    Our ranking member, Senator Warner, will be introducing 
Admiral Fargo to the committee this morning, and then two of 
our colleagues, Senators Cleland and Reed, will be introducing 
both our nominees.
    I would now like to recognize our good friend and 
distinguished ranking member, Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you very much, Mr. Chairman. I am 
deeply grateful to Admiral Fargo for asking me to make his 
introduction to the committee today. He proudly reflects that 
Virginia is the place he has lived for most--how many moves did 
you make?
    Admiral Fargo. Not quite as many as General LaPorte. I have 
made 26 moves.
    Senator Warner. Fortunately during the course of Admiral 
Fargo's career much of this time has been spent in Virginia, 
and who knows, following this distinguished career to which the 
President has designated you, you may return. I want to pause 
for a moment to join you, Mr. Chairman, in reflecting on how 
fortunate we are as a Nation to have two such highly qualified 
individuals step forward at the request of the President of the 
United States to assume these important posts.
    As we look over their curricula vitae, we see that these 
gentlemen, together with their families, have devoted more than 
three decades of service to our Nation, and by that service 
have gained experience to undertake these two highly sensitive 
and important positions. So Admiral, I again thank you for 
allowing a third class petty officer to introduce a four-star 
admiral.
    Mr. Chairman, it is my pleasure to introduce the Admiral to 
this committee. While Ms. Fargo could not be here, you 
indicated there are other family members here today, and I 
share in welcoming them. The summary of assignments indicates 
the extraordinary career that this fine naval officer has had. 
We also point out that his father was a naval aviator during 
World War II. It is my recollection that at the same period his 
mother was a nurse in the United States Navy. It is little 
wonder that he is well-qualified to take on these 
responsibilities.
    After graduating from the United States Naval Academy in 
1970--I note that I was then the Navy Secretariat--you 
responded that you stayed as far away from Washington and the 
Secretary of the Navy as you possibly could in those days. 
[Laughter.]
    But you passed the test, and I say this with a good deal of 
knowledge and experience. You passed the test of the late 
Admiral Hyman Rickover, who reputedly and, indeed, did select 
only the best and the finest to serve in the Submarine Service, 
and that service involved service on the attack submarines as 
well as the ballistic missile submarines.
    Admiral Fargo's service culminated in his command of the 
U.S.S. Salt Lake City and Submarine Group SEVEN. He then served 
with distinction as Commander of the United States Fifth Fleet 
in Bahrain, where we met again when I visited with various 
congressional delegations during that period. I believe you 
were with me, Mr. Chairman, when we visited him in Bahrain.
    Admiral Fargo's headquarters tours in the Bureau of Naval 
Personnel, in the Office of the Chief of Naval Operations, and 
in the United States Atlantic Command have prepared him well 
for the duties he will be assuming in the Pacific Command, if 
confirmed by the Senate--and I think we have every reason to 
believe that will occur.
    Most recently, as Commander of the United States Pacific 
Fleet, Admiral Fargo has faced some extraordinary challenges--
the EP-3 incident with China which resulted in a brave Navy 
crew being held by the Chinese government for 11 days, and with 
your work and the work of the President on down, we were 
fortunate to have their safe return; the tragic collision 
between the U.S.S. Greeneville, a U.S. submarine, and a 
Japanese research vessel which resulted in the loss of nine 
young lives; and supporting the Navy's superb performance in 
Operation Enduring Freedom. I compliment you, Admiral, for your 
leadership.
    Mr. Chairman, I urge that this committee indicate to the 
full Senate our approval of these two outstanding individuals.
    General LaPorte, I will yield to my colleagues here, but I 
very much enjoyed our extensive visit together, and I join in 
the observation of the chairman that you are eminently 
qualified.
    Chairman Levin. Thank you so much, Senator Warner.
    Senator Cleland, let me turn it over to you now.
    Senator Cleland. Thank you very much, Senator Levin, 
Senator Warner, and fellow members of the committee. Before I 
formally introduce Lieutenant General LaPorte, I would just 
like to add my welcome to Admiral Fargo, the nominee for the 
position of the Commander in Chief, United States Pacific 
Command. It was my distinct pleasure to meet Admiral Fargo 
during a previous visit to his command in Hawaii. As we know, 
for 2\1/2\ years, Admiral Fargo has served as the Commander of 
the world's largest combined fleet command, the Pacific Fleet, 
so he knows full well the unique challenges that face Pacific 
Command today.
    As a matter of fact, my father was stationed at Pearl 
Harbor after the attack, and once saluted Admiral Nimitz. I 
grew up with that whole legend of the CINC in Hawaii being 
pretty much equivalent to God, and we appreciate you taking on 
that position today. [Laughter.]
    The son of a Navy Captain and a Naval Academy graduate, he 
served in a variety of sea assignments, to include five 
assignments in both attack and ballistic missile submarines, 
and he has commanded the United States Fifth Fleet, the Naval 
Forces of the Central Command, and served with the U.S. 
Atlantic Fleet as well. More than any other officer, Admiral 
Fargo is fully prepared to assume the duties of CINC Pacific 
Command. I endorse his nomination heartily, and welcome him 
before the committee.
    I would like to now introduce a soldier's soldier, and the 
nominee for appointment to the rank of general and assignment 
as Commander in Chief, United Nations Command Combined Forces 
Command and Commander, U.S. Forces Korea, Lt. Gen. Leon 
LaPorte.
    He is joined today by his lovely wife, Judy. Judy, we 
welcome you today, and thank you for your years of support both 
to your husband and to soldiers and families around the world. 
Mr. Chairman, one of these days we may want to have some awards 
and recognition for the highest number of moves by a spouse.
    As we fight this war on terror, it is critical that we not 
lose sight of the ever-present danger that still exists on the 
Korean Peninsula. Command of the United Nations and U.S. forces 
in the region provides an officer a unique skill and vision as 
a leader, diplomat, and warfighter. General LaPorte is such a 
man.
    A native of Rhode Island, General LaPorte has enjoyed a 
long and distinguished career as an Army officer. He is a 
combat veteran who has led soldiers in Vietnam, in Germany at 
the height of the Cold War, during Operations Desert Shield and 
Desert Storm, at the National Training Center, and as 
Commanding General of the Army's III Corps at Fort Hood, Texas.
    As III Corps Commander, he commanded the Nation's elite 
counteroffensive force prepared to deploy in support of 
operations around the globe with operational plans, and 
supported the Korean area of operations.
    He currently serves as the Deputy Commanding General of 
forces headquartered in Atlanta, and it is in this role that I 
first met General LaPorte. Throughout his distinguished 32 
years in uniform, General LaPorte has demonstrated his 
unwavering commitment to soldiers and their families, and is 
fully supportive of the initiatives and improvements that have 
been made and continue to be made, and I think need to continue 
to be made in Korea, to attract the best and the brightest to 
serve there.
    He is a straight shooter, a man who tells it like it is. I 
am confident that General LaPorte is the right person to 
maintain the peace, deter aggression, and improve the quality 
of life for our servicemen and women in the region.
    General LaPorte, again, welcome this morning, a fellow 
First Cav officer. I appreciate your support for this country 
and your service of it, and I personally appreciate your 
continued sacrifice for the Nation.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Cleland.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and before 
I join Senator Cleland in formally introducing General LaPorte, 
let me say a few words about Admiral Tom Fargo.
    Admiral Fargo graduated from the Naval Academy in 1970. 
Despite that, he has----[Laughter.]
    Chairman Levin. For those few who may not know what the 
reference is, perhaps we should explain that Senator Reed is a 
graduate of West Point.
    Senator Reed. Despite that, Admiral Fargo has accomplished 
a great deal in his extraordinary career. He is a superb 
sailor, and I had the occasion to be with Admiral Fargo in 
Quingdao, China, where I observed firsthand not only his skill 
as a sailor but his skill as a high-level representative of the 
United States dealing with representatives of the People's 
Republic of China. It was an impressive performance. His 
obvious professionalism and his tact and diplomacy and all 
those assets which will come into play in your new command were 
evident there, Admiral, and I commend you for that, and I wish 
you well. I know you are going to be a superb Commander of the 
Pacific, and we thank you for your efforts.
    Admiral Fargo. Thank you very much, Senator.
    Senator Reed. Both Lt. Gen. Leon LaPorte and his wife Judy 
are natives of Providence, Rhode Island. They both graduated 
from Mount Pleasant High School. I do not want to suggest Rhode 
Island is a small place, but my father also graduated from 
Mount Pleasant High School. We are very closely knit in Rhode 
Island.
    General LaPorte went on to graduate from the University of 
Rhode Island, another great institution in our State, and then 
he went on to an extraordinary career in the United States 
Army. He is, as Senator Cleland said, a soldier's soldier, an 
aviator, cavalry officer, Commander of the Third Brigade of the 
First Cav, Chief of Staff of the First Cavalry Division in 
Operation Desert Storm, Operation Desert Shield, and Commanding 
General of the First Cavalry Division.
    He has led with great distinction in every assignment that 
he has been given. He also taught for 3 years at the Military 
Academy. He is somebody that represents the extraordinary 
professionalism of our military forces. The greatest testimony, 
I think, not only for General LaPorte's professionalism and 
skill and service comes from his subordinates, who universally 
praise him as a great leader, as a great developer of other 
leaders, and as someone who inspires young soldiers to be the 
best for this great country.
    He could not do it without Judy. They have been soul mates 
and life mates since high school. She represents what is so 
important to our military services, the fact that there are 
families that serve the Nation, not just individual soldiers or 
sailors, and it is a distinct honor and pleasure for me to be 
here today to recognize this great soldier, this great sailor 
and their families for what they have done for this Nation, and 
what they will do in very demanding assignments.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you for holding this hearing, and for trying to move 
these nominations as quickly as we can.
    I want to welcome the families and friends of our highly 
qualified nominees, and also their supporters who are here. I 
want to thank both General LaPorte and Admiral Fargo for 
spending time with me chatting about your duties in the Pacific 
area.
    I want to tell you, General LaPorte, I was quite impressed 
to know that you and Judy met in the seventh grade, and since 
then you have been married and had a family, and you are still 
together. You have moved 33 times in your career, and that is 
quite impressive. I am looking forward to working with you as 
Commander in Chief for the United Nations Command, the Combined 
Forces Command, and United States Forces in Korea. General 
LaPorte, I want to wish you well and wish you the best.
    It is with great pride that I participate today, Mr. 
Chairman, in the nomination of Adm. Thomas Fargo to be 
Commander in Chief of the U.S. Pacific Command. Admiral Fargo 
has done a tremendous job in his current capacity as Commander 
of the Pacific Fleet, and I mention this because he has done so 
well in Hawaii, and with the people of Hawaii.
    We have had a number of challenging situations in the 
Pacific over the past few years. Admiral Fargo, together with 
Admiral Blair, has done an outstanding job in ensuring our 
national security. They have both worked well with the 
community and businesses in Hawaii, and I look forward to 
continuing to work with Admiral Fargo. I have a deep 
appreciation for his knowledge and experience with the 
countries in Asia and the Pacific. I want both of you to know 
you have my strong support, and I want to congratulate you.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Senator Akaka, thank you very much.
    Senator Warner.
    Senator Warner. Mr. Chairman, given the time, I am going to 
put my opening statement in the record.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Senator Levin.
    I join you in welcoming Admiral Fargo and General LaPorte and their 
families. Gentlemen, congratulations to you and your families on your 
nomination.
    Mr. Chairman, it's my great pleasure to introduce Admiral Fargo to 
the committee today. While Mrs. Fargo could not be here today, her aunt 
and uncle, Josephine and Grant Lewis, and her cousin, Diane Mosher--
who, I'm pleased to note, are residents of the Commonwealth of 
Virginia--are in attendance, and we welcome them.
    As Admiral Fargo's summary of assignments indicates, he has had a 
remarkable career. His father was a naval aviator and his mother a Navy 
nurse, so it's no surprise he was drawn to a life of naval service.
    After graduating from the Naval Academy in 1970, he served under 
the late Admiral Hyman Rickover in various attack and ballistic missile 
submarines. Admiral Fargo's submarine service culminated in his command 
of U.S.S. Salt Lake City and Submarine Group SEVEN. He then served with 
distinction as Commander of the United States Fifth fleet in Bahrain, 
where he hosted the chairman and me in the late 1990s.
    Admiral Fargo's headquarters tours, in the Bureau of Naval 
Personnel, in the Office of the Chief of Naval Operations, and in the 
United States Atlantic Command have prepared him well for the duties he 
will be assuming in PACOM, if confirmed by the Senate.
    Most recently, as Commander, United States Pacific Fleet, Admiral 
Fargo has faced some extraordinary challenges--the EP-3 incident with 
China which resulted in a brave Navy crew being held by the Chinese 
government for 11 days; the tragic collision between U.S.S. Greeneville 
and a Japanese research vessel, which resulted in the loss of nine 
young lives; and supporting the Navy's superb performance in Operation 
Enduring Freedom. I compliment Admiral Fargo on his leadership, and, 
Mr. Chairman, I urge prompt, favorable action on his nomination .
    General LaPorte, you are a ``soldier's soldier.'' Your service in 
Vietnam with the 238th Aviation Company, with the 1st Cavalry Division 
in Operations Desert Shield and Desert Storm, and your superb 
performance as Commanding General, III Corps, makes you eminently 
qualified for this highly demanding assignment. I'm confident you will 
build on the inspiring leadership of General Schwartz, and tackle some 
of the challenging problems you will confront on the Korean Peninsula.
    We are fortunate as a nation that the President has nominated such 
extraordinarily well-qualified individuals for these important 
assignments. You have my support.
    Senator Levin.

    Chairman Levin. Thank you so much. At this time, I would 
also like to include Senator Thurmond's statement in the 
record, as he is not able to be here today.
    [The prepared statement of Senator Thurmond follows:]
              Prepared Statement by Senator Strom Thurmond
    Thank you, Mr. Chairman:
    Mr. Chairman, I join you in welcoming Admiral Fargo and General 
LaPorte. Both have served our Nation with distinction and they have 
proven their professionalism in the many command and staff positions 
they held throughout their careers.
    Admiral Fargo, I congratulate you on your nomination to be the next 
Commander in Chief of the Pacific Command. Your 3 years as the 
Commander of our Pacific Fleet have been a testing ground to prepare 
you for the challenges you will face as the CINC. In my view you have 
ably demonstrated your response to crisis by your actions in response 
to the tragic sinking of the Japanese fishing boat and the downing of 
the Navy's EP-3 by the Chinese fighter pilot. I support your nomination 
and wish you luck.
    General LaPorte, I also extend to you my congratulations. Your 
accomplishments are no less than the Admiral's and your challenges are 
equal. As the Commander in Chief of forces in Korea, you will command 
the only theater that still faces the Cold War threat. According to the 
Director of the Central Intelligence Agency and the Director of the 
Defense Intelligence Agency, the North Korean threat is as great as 
ever. Our forces in Korea, along with those in the Republic of Korea, 
must be ready to meet that threat on a daily basis. In addition, you 
will face the challenges of improving the quality of life for our 
soldiers and their families in Korea. This challenge will be immense 
since the quality of life in Korea is acknowledged to be among the 
worst in the Department of Defense. I know you are up to the challenge 
and you can count on my support.
    Thank you, Mr. Chairman.

    Admiral Fargo and General LaPorte have both responded to 
the committee's prehearing policy questions, and our standard 
questionnaire. These responses will be made a part of the 
record.
    The committee has also received the required paperwork on 
Admiral Fargo and General LaPorte. We will be reviewing that 
paperwork to make sure it is in accordance with the committee's 
requirements and, as Senator Akaka and others have said, we 
will be attempting to move these nominations with dispatch.
    Before we begin, there are several standard questions that 
we ask nominees who come before the committee, which I will ask 
both of you. Do you agree, if confirmed for your positions, to 
appear before this committee and other appropriate committees 
of Congress and to give your personal views, even if those 
views differ from the administration in power?
    Admiral Fargo. Mr. Chairman, yes, I will.
    General LaPorte. Absolutely, Mr. Chairman.
    Chairman Levin. Have you adhered to applicable laws and 
regulations governing conflict of interest?
    Admiral Fargo. Yes, sir, I will do that.
    General LaPorte. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Admiral Fargo. No, I have not, sir.
    General LaPorte. No, sir, I have not.
    Chairman Levin. Will you ensure that your command complies 
with deadlines established for requested communications, 
including prepared testimony and questions for the record in 
hearings?
    Admiral Fargo. Yes, I will, Mr. Chairman.
    General LaPorte. Yes, sir, I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Admiral Fargo. Yes, sir.
    General LaPorte. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony?
    Admiral Fargo. Yes, sir, they will.
    General LaPorte. Yes, sir.
    Chairman Levin. Now, any prepared statements that you have 
will be made a part of the record, but we will call on you to 
see what comments you would like to make. But before I do that, 
I see that Senator Sessions is here, and I am wondering whether 
he might have an opening statement, or any comment at this 
time.
    Senator Sessions. Not at this time.
    Chairman Levin. So let me call on you first, Admiral Fargo.

      STATEMENT OF ADM. THOMAS B. FARGO, USN, NOMINEE FOR 
 REAPPOINTMENT TO THE GRADE OF ADMIRAL AND TO BE COMMANDER IN 
              CHIEF, UNITED STATES PACIFIC COMMAND

    Admiral Fargo. Mr. Chairman, I do have a very brief opening 
statement that I would like to provide the committee.
    Mr. Chairman and distinguished members of the committee, I 
would like to thank you for the opportunity to appear today. I 
know the committee has important work before them, and has 
moved with great dispatch to schedule this hearing on a Friday 
morning. I want you to know it is very much appreciated, and I 
would also like to thank Senator Warner for his introduction 
today. Senator, you have been an inspiration not only to the 
people of Virginia and especially our Navy, but to all of us in 
the Armed Forces as well.
    As Senator Warner indicated, I come from a Navy family. The 
fact is, as I reflect on it, although I spent a great deal of 
time both in the Pacific and in Virginia, I have not made 32 
moves, but I have never had two consecutive tours in the same 
location in my 32 years.
    As was expressed, my immediate family could not be here 
today. My oldest son, Tom, is a young sportswriter in the 
Boston area, and my youngest son, Bill, is a 16-year-old in 
high school in Honolulu, and as it would be for anyone with a 
16-year-old, my wife, Sarah, remains in Honolulu to provide I 
guess what I would call her own special form of deterrence. 
[Laughter.]
    But Bill is doing really well, and he is a great kid.
    I am pleased to have Sarah's aunt and uncle and her cousin 
here from Virginia today. They are supportive. Our service has 
been tremendously important to our family over many years.
    Mr. Chairman, I consider it a great privilege to be 
nominated by the President to assume the leadership of the 
Pacific Command and to continue to serve my country. I intend 
to work closely with the Secretary of Defense and the chairman 
to lead the Pacific Command. To do so, I would set five 
immediate priorities.
    First is sustaining the global war on terrorism, including 
the trained and ready forces so essential to this important 
fight. Next is improving the Pacific Command's readiness and 
its joint warfighting capability. Third is reinforcing the 
constance in the region, such as our strong bilateral 
relationships with Japan and Korea, Australia, and our other 
treaty allies and our many friends. Fourth is improving the 
quality of service for our soldiers and sailors and airmen and 
marines that has been so critical to their performance and 
retention. Last would be promoting the changes so necessary to 
meet our important Asian Pacific future.
    Mr. Chairman, members of the committee, if confirmed, I 
look forward to both your counsel and our continued dialogue as 
we address both today's challenges and the issues that face us 
in the future.
    Thank you again, Mr. Chairman, for allowing me to appear 
today, and I am prepared for your questions.
    Chairman Levin. Thank you very much, Admiral.
    General LaPorte.

    STATEMENT OF LT. GEN. LEON J. LaPORTE, USA, NOMINEE FOR 
  APPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDER IN 
     CHIEF, UNITED NATIONS COMMAND/COMBINED FORCES COMMAND/
             COMMANDER, UNITED STATES FORCES KOREA

    General LaPorte. Mr. Chairman, Senators, I am honored to be 
asked to serve as Commander in Chief of the United Nations 
Command, the Combined Forces Command, and the Commander of the 
United States Forces Korea. For the last 50 years, the United 
States has held a firm belief that a military presence on the 
Korean Peninsula was in our Nation's best interest. That 
presence has brought about a stability and enabled prosperity 
for the entire region. If confirmed, I intend to build on the 
work of my predecessors, strengthening our great alliance, 
keeping our forces trained and ready, and supporting your 
policies.
    My wife and I are excited about the opportunity to serve 
our Nation in Korea. I want to thank you for making the effort 
to hold these hearings today. I look forward to the opportunity 
to appear before the committee. I stand ready to answer your 
questions. Thank you.
    Chairman Levin. General, thank you very much. Let us try 6-
minute rounds of questions on the basis of the early bird rule.
    Admiral Fargo, we currently have about 660 personnel 
conducting training operations in the Philippines. In addition, 
there are 340 engineers building roads, also in the Southern 
Philippines, and 2,650 U.S. military personnel in Central Luzon 
as part of an annual exercise. In answers to the prehearing 
policy questions, you stated in connection with the training 
mission that, ``U.S. participants will not engage in combat, in 
the Philippines, without prejudice to their right of self 
defense.''
    Now, I am concerned, and I think others have expressed 
concerns, that U.S. troops will be drawn into conflict with the 
Abu Sayyaf Group, or other terrorist insurgent groups operating 
in the Philippines. During his confirmation hearing before this 
committee in February, General Myers stated that U.S. troops 
would conduct training at the battalion level and assured us 
that if there were a decision for U.S. teams to work at the 
company level, that this committee would first be notified. 
Will you notify this committee and Congress if there is any 
change in the operational guidance or parameters of this 
mission?
    Admiral Fargo. Yes, sir, I will.
    Chairman Levin. If you are confirmed, will you recommend or 
authorize training below the battalion level, and if so, on 
what criteria would you base such a decision? Of course, we 
would still obviously expect that notification, but what would 
be the criteria that you would use before you would make any 
such recommendation?
    Admiral Fargo. Sir, I think, as you have pointed out, this 
is an especially important operation and mission that we are 
conducting. The Philippines have taken a courageous stand 
against terrorism. It is very clear our mission is one of 
training and assisting and advising the Armed Forces of the 
Philippines. As you point out, it is bounded right now at the 
battalion level.
    Our goal very clearly is to improve the capability of the 
Armed Forces of the Philippines to build self-sustaining 
counterterrorism capability. If confirmed, my first trip to the 
region will include the Philippines, where I can spend time on 
the ground and talk to our commanders and evaluate and assess 
this mission, and certainly it will be on that basis that I 
would make any additional recommendations to the Secretary of 
Defense on this mission.
    The guidelines are very clear. We are not to engage in 
combat. We are allowed the usual rights of self-defense. Any 
change to this mission needs to be based on those bounds, and 
improving the counterterrorism capability of the Armed Forces 
of the Philippines, because this is very clearly their 
operation.
    Chairman Levin. Relative to the question of Taiwan and 
China and their relationship, you wrote in response to a 
prehearing policy question that the foundation of the discourse 
between the United States and China should be the Taiwan 
Relations Act and the three U.S.-China communiques. Do you 
believe we need to maintain strategic ambiguity, which has been 
our policy, deterring both China and Taiwan from taking any 
rash political or military action to resolve their differences?
    Admiral Fargo. Well, I think, Mr. Chairman, as I pointed 
out in my responses, my actions and my responsibilities really 
are governed by the Taiwan Relations Act, and there are two 
fundamental pieces to that. One is, if confirmed, making 
appropriate recommendations to the Secretary of Defense on the 
required capability of the Taiwanese to defend themselves, and 
second, if ordered by the President and Congress, to take 
appropriate action in response to such danger. So that governs 
my reactions, and I am comfortable with the policies that we 
currently have in place.
    Chairman Levin. General LaPorte, the U.S.-North Korean 
Agreed Framework of 1994 remains in effect. Former Secretary of 
Defense Perry told this committee that if North Korea completed 
the other nuclear reactors it previously had under 
construction, that they could have produced enough plutonium 
for tens of nuclear weapons by now, and many more in the 
future.
    In your judgment, is the Agreed Framework in our security 
interest? Has North Korea kept its plutonium reprocessing 
program frozen, as required by the Agreed Framework, as far as 
you know? Has North Korea complied with the Agreed Framework, 
as far as you know, to this point, and has the United States 
complied with the Agreed Framework agreement to this date? 
Those are three questions, but they are so tightly related I 
thought I would ask them all at once.
    General LaPorte. Mr. Chairman, I think the Agreed Framework 
is in the best interest of the United States. It has met its 
intent in terms of reducing the production of weapons-grade 
plutonium. I believe North Korea and the United States have met 
their portions of the agreement. The significant aspect of it 
is continued verification.
    Chairman Levin. Thank you. My time has expired.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. The chairman 
reviewed the situation in the Philippines, and I am very 
reassured by your responses, Admiral Fargo. We note that the 
Chairman of the Joint Chiefs of Staff is now in that area of 
responsibility (AOR). Am I not correct on that?
    Admiral Fargo. Yes, sir. He arrived this morning at about 
6:45.
    Senator Warner. That is quite an interesting trip for a 
very busy individual to take at this point in time, so I read 
into it the significance that we mean business over there to 
try and stamp out terrorism and assist the Philippine 
Government and the Philippine military to obtain the skills, 
the knowledge, and the equipment to do so. That is our basic 
mission, am I not correct?
    Admiral Fargo. Yes, sir. It is to train, advise, and 
assist.
    Senator Warner. There are factual revelations to the effect 
that al Qaeda, the same group that operated in Afghanistan, is 
likely to be connected to this region. Is that correct?
    Admiral Fargo. Yes, sir. I believe there have been clear 
connections between al Qaeda in terms of resourcing in both 
funds and training of those terrorist forces.
    Senator Warner. The chairman also mentioned Taiwan, and I 
am again reassured by your responses. Taiwan is a very valued 
nation in that part of the world, and we have had our ties. It 
is most unusual for this Nation to have a very special piece of 
legislation on this subject, and you have expressed your 
familiarity and support for it.
    Fortunately, the tensions which rise and fall in that area 
seem to be at a relatively low level at this point in time, but 
I judge that China continues to augment its military forces in 
that region. Am I correct on that assumption?
    Admiral Fargo. Yes, sir. Our analysis is that they are 
continuing to build military capability. You have seen the 
purchase of the Kilo submarines from the Russians, and also the 
development of additional short-range ballistic missiles, those 
are two examples.
    Senator Warner. Taiwan is continuing to consider the 
acquisition of certain pieces of military equipment offered by 
the United States, most specifically the Kidd class cruisers. 
Am I not correct on that?
    Admiral Fargo. Yes, sir, that is correct.
    Senator Warner. Those cruisers could provide a deterrent to 
the use of any naval assets by China.
    Admiral Fargo. Yes, sir, and they also have a very 
significant air defense capability.
    Senator Warner. On the question of China, it was a 
remarkable chapter in our history when we lost our P-3 there, 
but I draw your attention to an executive agreement between the 
United States and Russia referred to as the Incidents at Sea 
Agreement. Are you familiar with that?
    Admiral Fargo. Yes, sir, I am very familiar with it.
    Senator Warner. It was negotiated over a period of several 
years and executed in--as a matter of fact, it is ironic, it 
was about this time, May of 1972, and it has been an effective 
agreement.
    At some point in time I am going to recommend to the 
administration that we look at the possibility of executing a 
similar type of agreement, or negotiating first and then 
executing a similar type of agreement with China. Our 
operations in that area are vital to our strategic 
responsibilities. We need a clear understanding with regard to 
how we utilize international waters, international air space, 
and how our respective military assets operate within those 
international boundaries.
    I think that definition has served us well with Russia over 
many years now, and could serve us well with China, given the 
intensity of our operations in that area and the tragedy of 
this loss of life--a Chinese pilot, and a near loss of life 
with our own crews in that P-3 incident--so I will be bringing 
that to your attention and to others in the near future.
    Give us your viewpoints with regard to the current level of 
India-Pakistan tensions and any special requirements that might 
be placed upon your command.
    Admiral Fargo. Well, Senator, the India-Pakistan concerns 
are, of course, very real. With respect to the fact that we 
have two nuclear capable powers, we are working very hard to 
promote constructive dialogue there.
    I think that the place where we can best assist, from a 
standpoint of our combatant commanders, is to develop those 
kinds of relationships with the senior military leaders that 
will be productive and can encourage the proper outcomes and 
the lessening of tension. In that vein we have recently renewed 
our naval relationship with India, which is the one that I am 
obviously the most familiar with right now.
    The Seventh Fleet flagship Blue Ridge has just made a call 
to Chennai and the carrier John C. Stennis embarked with a 
number of key leadership individuals from India as she left the 
Central Command area of responsibility, so I think ``renewed'' 
is probably the correct term. We think that those are the 
proper steps on the path ahead to help lessen that tension.
    Senator Warner. General LaPorte, I have had a long 
familiarity with your AOR, and you and I have discussed at 
great length the concerns that I have about the unwillingness 
of career officers and their families and career enlisted and 
their families to accept orders to go into your AOR for another 
tour of service. I do not say that they fear the threats. They 
are just concerned that they and their families should not 
endure further rigors of the lifestyle that the men and women 
of your AOR have to undergo.
    Korea is a very cold place, as you and I both well know, 
and it is remote. We have to help you encourage those people to 
accept that set of orders rather than resign from military 
service. It is not well-known, but the seriousness of this 
problem has forced career individuals to decline their first 
major command because of the need to take care of their 
families. Now, that situation has to be rectified. What 
solutions do you have?
    First, you are familiar with the problem, and am I not 
correct in the sort of general recitation of the problem?
    General LaPorte. Senator, there is a perception on the part 
of some soldiers and officers that Korea is a very demanding 
assignment. I do have some thoughts on it, I think, if 
confirmed: focus on making sure the soldiers, non-commissioned 
officers (NCOs) and officers, all the servicemen serving 
understand that I am going to work very hard to improve the 
conditions in which they live, their housing, their barracks, 
and the facilities they work in.
    Second, I think a major area will be to emphasize to the 
leaders the great leadership opportunities that are presented 
to them in an AOR that has some demanding challenges.
    Third, if I know of any declinations, or any particular 
individuals, I intend to follow up with them and find out what 
the causes are; the underlying reasons why they do not want to 
serve in Korea, and I am going to tackle them to the best of my 
ability, Senator.
    Senator Warner. Your predecessor, I think, did his best. 
You have to pick this up, and I think maybe it requires some 
special legislation for pay, benefits, and other measures, 
because a comparable post for marines--not distance--does not 
have that situation. So I want you to keep this committee 
advised, and if you desire assistance from Congress, I hope you 
will inform the committee promptly.
    General LaPorte. Senator, I will do that.
    Senator Warner. We cannot let this problem persist. We 
cannot lose those highly skilled career individuals.
    Thank you.
    Chairman Levin. Thank you, Senator Warner.
    Admiral Fargo, when Senator Warner makes a suggestion about 
negotiating an Incidents at Sea Agreement or a similar treaty 
with China, I want you to know he is speaking as the person who 
negotiated and signed the Incidents at Sea Agreement that he 
made reference to with the Soviet Union, so he is an expert on 
the subject. You may want to consult with him during that 
process.
    Admiral Fargo. Yes, sir. I think I have a copy of that 
picture firmly implanted in my memory chip. It is a fabulous 
picture of the signing ceremony.
    Chairman Levin. It was indeed.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Admiral Fargo, when Admiral Blair was here he pointed out 
the potential shortfalls in airlift, intelligence capacity, and 
refueling aircraft in the Pacific, which is a very difficult 
challenge, given the dimensions of your command, and also the 
operations in the Philippines and potentials in areas like 
Indonesia. Can you comment on those issues?
    Admiral Fargo. Yes, sir. Senator, I think probably the two 
areas that we are feeling the press the greatest, as we deal 
with the global war on terrorism and significant operations 
worldwide are the intelligence, surveillance, and 
reconnaissance requirements throughout the world, as well as 
our lift and refueling requirements. Clearly, those are 
probably the two most pressing areas where we have a high 
demand and a limited number of assets to deal with of all of 
the current requirements.
    Senator Reed. In your capacity as a CINC for the Pacific, 
you would be responsible for resupplying and supporting General 
LaPorte if operations in Korea took place?
    Admiral Fargo. Yes, sir, that is true.
    Senator Reed. General LaPorte, your comments in terms of 
the perception of the critical shortfalls, or at least areas of 
concern similar to airlift and intelligence, anything in that 
regard?
    General LaPorte. Senator, I have not had an opportunity to 
look at that in depth. I will tell you when I get on the 
ground, if confirmed. I will look at those areas, because the 
reinforcement of those assets is absolutely critical for 
success in the peninsula.
    Senator Reed. It strikes me, General LaPorte, that you have 
an interesting position, since you are confronting a 
traditional large-scale military force across a fixed line, 
which requires legacy equipment and legacy forces, where at the 
same time there is a great push throughout the Department of 
Defense to transform the military into something else to 
confront different threats. In that situation, could you 
comment on some of the requirements you see that are necessary 
to maintain legacy systems for you?
    General LaPorte. Senator, because of the proximity of North 
Korea to the South Korean border and the significant 
capabilities they have, we are required to fight with what we 
have on hand. I think the Department of Defense transformation 
plan would give us increased capabilities, especially in terms 
of command and control and reconnaissance, as well as precision 
fires.
    Those are significant capabilities that we would need in 
the peninsula, so although we have some legacy equipment, I am 
certain that the transformation efforts will give us a great 
capability.
    Senator Reed. Thank you. Admiral Fargo, one of the areas 
that is always of great concern in the region is Indonesia. We 
have just reinstituted military contacts with Indonesia. Why 
don't you give us your perception of the potential challenges 
we face with respect to Indonesia.
    Admiral Fargo. Senator, Indonesia is clearly a place that 
is tremendously important to the stability of Southeast Asia. I 
had the opportunity to visit Indonesia last September and talk 
to their key leadership. We are also concerned from the 
standpoint of, as we continue to put pressure on terrorists 
throughout the world, in Afghanistan in particular, that 
Indonesia could potentially become a haven for terrorists. So 
we do see a clear interest in improving Indonesia's ability to 
deal with the terrorist threat in Southeast Asia. I think it is 
an important priority for us.
    Senator Reed. Thank you, Admiral.
    A final question, General LaPorte. The political leaders of 
South Korea have made a consistent effort over the last several 
months, if not years, to reach a better accommodation with 
North Korea. To what extent have you had discussions with the 
military leaders of South Korea with respect to their 
perceptions, or their views?
    General LaPorte. Well, Senator, I have not had in the 
recent past an opportunity to discuss that particular question 
with the military leaders. The South Korean Government's 
objectives obviously are very favorable. My job, along with the 
senior leadership of the South Korean military, will be to 
ensure a stable environment so that those negotiations and 
discussions can continue.
    Senator Reed. Thank you, General LaPorte and Admiral Fargo. 
Again, I think the President has made an extremely wise choice 
in selecting you to discharge your duties in these very 
critical locations. It is a tribute not only to his judgment 
but your great service and dedication to the Nation. Thank you 
very, very much.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I, too, would 
join Senator Reed in expressing my pleasure at the nominations 
the President is making, your capabilities of handling this 
office. We know you will do a great job in this critical area 
of the world, so we thank you for that, and we hope, as Senator 
Levin has indicated, that you will be candid and honest with us 
about the challenges you face, because it is a critical area, 
where misjudgments could be very costly in the long run.
    Admiral Fargo, just briefly, I was in Korea and in Japan 
and we went on the Spruance class destroyer, the O'Brien and 
the Kitty Hawk. We saw them, and we know how well they 
performed in the latest war in Afghanistan. Those ships are 
scheduled for decommissioning. We are not maintaining the 
shipbuilding rate we need with the decommissioning rate we have 
to maintain the quadrennial defense review (QDR) level of 
combatant ships. I think we are already about eight ships below 
the QDR level, I think 108 instead of 116, or we will soon be 
there. Is there a role for these older ships?
    For example, the Spruance class are 35-year ships, I 
believe, and they are talking about decommissioning them at 25 
years. Is there a way that you could use those, or is it too 
expensive or unwise to try to keep those in the fleet to help 
you meet your mission?
    Admiral Fargo. Senator, I think that one of the significant 
decisions that we always have to make in this business in terms 
of providing modern military capability is the balance between 
modernization and recapitalization. A ship like Kitty Hawk, for 
example, that is scheduled to decommission right now in 2008, 
we have modernized her many times over and put in the best 
information technology, for example, the command and control on 
that platform, to continue to make her effective. The same 
thing has been true with the Spruance class.
    But there also gets to be a point where you cannot adjust 
to the technology that is available today. Things like hull 
forms, for example, new catapult technologies that would be 
very important to us cannot be fielded without a newer 
platform. So that balance between modernization and 
recapitalization is a very important one, and one we have to 
continually assess as we move forward.
    Senator Sessions. I would just ask that you review those 
issues. Senator Kennedy, the chairman of the Seapower 
Subcommittee on which I am ranking member, and I have written 
to the Chief of Naval Operations (CNO) to ask him to review 
this question of whether or not for an interim period it may be 
advisable to try to maintain some of the older ships. We have a 
shipbuilding budget that is not where we would like it to be, 
and that may be one solution.
    So you have a big area to cover, and at some point you have 
to have a ship. No matter how modern or unmodern, a ship has to 
be on the scene, and I hope you will wrestle with that and help 
the CNO prepare a response.
    Admiral Fargo. Yes, sir. I will take a very close look at 
that, Senator.
    Senator Sessions. With regard to the war on terrorism in 
the Philippines and other areas that may occur, I hope that we 
have a full understanding that our goal is to put pressure on 
terrorists wherever in the world they are. It is not necessary 
that our troops be engaged in combat, and I believe we can keep 
that line distinct and separate. But do you understand that our 
mission in the Philippines, for example, is to put pressure on 
and help the Philippine Government defeat these terrorists, who 
are not only threats to the Philippines but to other places in 
the world?
    Admiral Fargo. Yes, sir. Our mission in the Philippines I 
think is very clear. It is to train, advise, and assist the 
Armed Forces of the Philippines so that they can develop a 
sustainable counterterrorist capability--so that they can do 
precisely as you have mentioned, put continual pressure on 
those terrorist organizations and ultimately root them out. Our 
role is not to be engaged in combat there. As a matter of fact, 
it is specifically prohibited.
    We do have the normal protection of self-defense, and that 
is the manner in which we will move forward.
    Senator Sessions. General LaPorte, I had a good visit in 
Korea in January of this year, and you mentioned housing and 
barracks quality. I saw some very fine soldiers in some very 
poor conditions. The environment and the weather are not good 
there. There was a plan moving forward to consolidate some of 
the bases to improve the quality of life on the bases we have. 
Is that something you would support?
    General LaPorte. Senator, absolutely. I think General 
Schwartz has done a masterful job of developing this plan and 
reducing the number of installations, tremendous economies of 
scale. Once I get on the ground, if confirmed, I will take a 
thorough look at it, but I fully support the program.
    Senator Sessions. I would mention one more thing on that 
subject. Senator Dayton and I have been wrestling with this 
problem of the seeming unfairness of a hardship duty like Korea 
on families and soldiers.
    We propose legislation that would provide the base pay 
being tax exempt for people at hardship assignments such as 
Diego Garcia, or Korea, or Okinawa, and others. I think that 
may be a step in the right direction. It would not provide the 
same benefits for a combat area, but would be somewhat of an 
enhancement over the current benefit for a hardship area. Do 
you think something like that would be beneficial?
    General LaPorte. Senator, I do, and I really appreciate 
your support for dealing with that issue for all the service 
members and their families who are serving on the peninsula.
    Senator Sessions. Well, I made the commitment to do 
something while we were there, and I think this would be a 
significant step in that direction. It would not micromanage 
your life with some sort of directions, but would allow direct 
benefits to the men and women who are assigned there.
    Senator Akaka.
    Senator Akaka. Thank you very much.
    Admiral Fargo, the U.S. Pacific Command has addressed and 
has a responsibility for homeland security for the State of 
Hawaii and the Pacific Territories. What impact, if any, do the 
changes in the UCP, the Unified Command Plan, have on Pacific 
Command's (PACOM) efforts regarding homeland security, and what 
type of coordination, if any, do you foresee with Northern 
Command (NORTHCOM) regarding this issue?
    Admiral Fargo. Yes, sir, thank you, Senator. I think the 
Unified Command Plan and the development of NORTHCOM is a very 
positive step toward our homeland security and our homeland 
defense. Certainly as we move toward implementation we will 
work out the appropriate command arrangements between the 
Pacific Command and the Northern Command.
    One point on the defense of Hawaii and the Territories, 
what Admiral Blair has done which I think has been very 
effective is, he has stood up a Joint Rear Area Command (JRAC) 
in Hawaii, and Lt. Gen. Ed Smith has been placed in charge of 
that JRAC. Their responsibilities are to develop those 
relationships with the State and local government officials to 
ensure we have proper coordination throughout the State of 
Hawaii. Additionally, he has built intelligence exchanges 
between national and domestic intelligence within that local 
area and made sure that we could disseminate that information 
clearly to all involved, as well as exercise both the military 
forces and the State and local forces, along with the National 
Guard, together to be sure we had an appropriate response 
capability. This particular model, it appears to me, has worked 
very well. We have applied it also to Guam, and it is 
effective. I think it is something we ought to keep in mind as 
we move forward in homeland security.
    Senator Akaka. General LaPorte, you said in response to 
your prehearing questions that the land partnership plan (LPP), 
which improved training management and training areas for U.S. 
ground forces, serves as a model for potential enhancements to 
air training on the peninsula. Does this mean that you intend 
to pursue a similar type of integrated approach to protecting 
and improving key air training assets, including air space, 
with the Korean Air Force? If so, when might you approach them 
with a proposal?
    General LaPorte. Senator, I think the LPP program that was 
devised by General Schwartz has really been a win-win situation 
for the Korean military and government, as well as U.S. forces. 
I intend to pursue that and build on that, and work with them 
to allow the fullest capabilities for our service members who 
are serving there to be able to conduct the training required 
to maintain their readiness, so that will be one of my initial 
priorities, Senator.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Akaka. Let me 
call on Senator Dayton. I am wondering, Senator, if it would be 
all right perhaps in a minute or 2 if Senator Warner and I 
interrupted you so that we can perhaps ask one additional 
question each, because we have to leave. The two of us have an 
obligation we must attend to, then we would turn it over to you 
to either close or to call on other Senators who have 
additional questions.
    Senator Dayton. Why don't you proceed now, Mr. Chairman?
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. We have had an 
excellent review. Fortunately, each of you have such a 
distinguished background of accomplishment, we have, as we say 
in the law, a prima facie case for the Senate to confirm both 
of you, and I am optimistic it will be done.
    The question of ship levels is a major issue in our 
military maritime policy, and this committee is concerned by 
the dwindling number of ships, Admiral Fargo, and that is going 
to hit your command very much.
    We ask for the personal views of senior members of the 
military when they come before this committee, and that was an 
obligation when you were elevated to four stars, to advise 
Congress on your personal views. What is your personal view on 
opportunities to increase the number of ships that are 
stationed in the forward home ports, the theory being that by 
placing more ships in a home port beyond the continental limits 
of the United States, that lessens the need for this constant 
rotation policy. Do you have any views on that?
    Admiral Fargo. Yes, sir. I think that it is very clear to 
me that the forward-deployed naval forces that we currently 
have stationed primarily in Japan are a huge advantage to the 
Pacific Command and the Nation. Since they are forward-based 
they are able to respond rapidly. They benefit tremendously 
from the host nation support of the host government, and that 
presence has been key to the relative peace we have had in the 
Pacific for the past 50 years.
    As the Commander of the Pacific Fleet, I have initiated an 
effort to take three submarines and move them to Guam, and the 
first submarine move will happen in a few months, in fact will 
change its home port to Guam, and the other two will follow 
shortly thereafter. This was done to reinforce precisely those 
needs, to be able to put very capable forces forward where they 
could respond to any crisis in a rapid manner and, of course, 
it relieves some of the operating tempo concerns, because they 
are closer.
    Senator Warner. You are taking into consideration the 
hardship, so to speak, on families having to uproot here in the 
continental limits of the United States and move to a place 
like Guam, which is fairly remote?
    Admiral Fargo. Yes, sir. I think that is a key 
consideration. I mentioned the advantages of moving forces 
forward, and I think the balance that you have to achieve is 
very important. There is a limit to what we can do in that 
regard. I said three in Guam is about right.
    We also need to remember, as we do these things, that we 
have a very significant investment in training facilities and 
maintenance facilities in the continental United States that we 
have to leverage, so those are the kinds of particulars you 
have to balance to make those decisions.
    Senator Warner. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much.
    Before I call on Senator Dayton, let me just announce we 
will be voting to report these nominations after the 6 p.m. 
vote on Monday in the President's Room.
    Senator Dayton, thank you.
    Senator Dayton. Mr. Chairman, do you have questions?
    Chairman Levin. We are all set.
    Senator Dayton. Just following up, when I was out of the 
room I believe Senator Sessions referenced as well, apropos of 
what Senator Warner has raised, the pay and incentives.
    Our legislation, which we are going to pursue very 
actively, actually emanated out of a conversation I had with 
General Schwartz--a good Minnesota native--not that he 
suggested this in particular, but he raised the same concerns, 
or I raised them, and then we discussed them, that Senator 
Warner had identified.
    So hopefully this legislation, if it becomes such, will 
provide an exemption from taxation for base pay for everyone in 
places like Okinawa or Korea, in part a way of providing--at 
least taking or removing some of the disincentive from these 
long-term tours, and the additional cost, separation of family 
and the like. I would welcome any comments you have on that--we 
had a chance to visit, Admiral.
    But how about the terms of the dispersal of our forces, the 
idea of a foreign base realignment and closure (BRAC) not in 
reducing our forces, but consolidating in terms of the housing 
conditions. I understand in Korea some of them are in excess of 
50 years. Is there a way that we can modernize our bases there 
so that we can consolidate efficiencies, but also modernization 
to make it a better environment? I have not been there, but I 
would like to go soon so I can see it myself.
    General LaPorte. Senator, a couple of points. First, thank 
you for your support on behalf of all the service members in 
the peninsula. Second, we would love to have you come and visit 
so we can show you first-hand the conditions in which our 
service members live. General Schwartz has done a masterful job 
of developing a Land Partnership Program with the Korean 
military and the Korean Government.
    We will reduce many of the installations, a nearly 50 
percent reduction, to get at these economies that you talk 
about so we can improve the quality of life and concentrate 
resources. It is better for force protection, better for 
training opportunities, so there are initiatives, and they do 
use the term, Korean BRAC.
    I will get involved with the details of it, and I look 
forward to being able to have a dialogue with you at a later 
date.
    Senator Dayton. I may have misspoken. I meant to say 
foreign BRAC, not to single out Korea, but certainly I would 
ask the same of you, Admiral, in terms of some of the areas 
like Okinawa and Japan. Is there a way that we can consolidate 
our bases, not reduce our presence or our force and modernize 
at the same time?
    Admiral Fargo. Senator, I think one of the things that we 
need to continually assess is whether we can be more efficient 
in terms of our base structure. It is clear to me that the 
presence of our combat capability right now should not be 
diminished. But that should not restrict us from looking at 
what kinds of efficiencies we might be able to garner while 
providing that combat capability forward.
    Senator Dayton. I want to make clear for the record that I 
do not want to suggest or imply that a reduction in force is a 
desired goal, and not in part for any available cost savings 
but, as I say, for what I understand the need to be--to 
modernize and improve living conditions and operating 
conditions.
    The other question I have, and you are both superbly well-
qualified, and I certainly look forward to supporting your 
confirmations--but there is the old saying, we are always 
preparing for the last war. Although the lessons from the 
current war in Afghanistan are obviously not yet complete and 
not yet processed, it seems--I wonder with particular reference 
to Korea whether, General, you see--it seems the lessons one 
would draw, at least at my level of expertise from Afghanistan 
are lightweight, very mobile forces, small forces, which I 
would not think would be applicable to combat in Korea.
    Is there a danger that we could go too far into this realm 
of, as I say, lighter weight, smaller units, and not be ready 
for the kind of war we might encounter there?
    General LaPorte. Senator, I think it is important to draw 
the correct lessons from our current operations that could be 
applied in other areas, and we should do that. As you are well 
aware, there is a significant conventional threat, in excess of 
1 million soldiers north of the DMZ, within 50 kilometers of 
the DMZ, 10,000 or more weapons systems that can rapidly attack 
South Korea and over 500 long range artillery systems that 
range on Seoul. So there is a credible threat. We need to have 
the capability that can counter that, and counter that very 
rapidly. I think we have the basis of that with our current 
forces and the Republic of Korea (ROK) forces. We have a great 
alliance with Korea.
    What we need to continue to look at is that transformation 
is more than just hardware, it is also doctrine and it is also 
education, so if we take a comprehensive approach to it, I 
think we will get to the end state we want to get to.
    Senator Dayton. Are there any of the new systems that are 
being proposed, or where procurement is beginning, that you 
think are particularly significant there?
    General LaPorte. Senator, I do. I think any precision 
munitions and precision weapons systems that allow you to kill 
immediately is something that always benefits service members.
    Senator Dayton. Admiral, from your perspective.
    Admiral Fargo. I think, Senator, the combatant commanders, 
including the Pacific Command, are all going to work very 
closely with Joint Forces Command on transformation, but there 
are a number of things we can do from the operating forces. I 
would list three from the Pacific Command standpoint.
    I think first is developing a spirit of innovation and 
prototyping. In my career I have seen a number of systems that 
have essentially been birthed by the operating forces that can 
be tried in operational environments with very little risk, and 
that is a good, smart way to bring capability to a wide range 
of our force very quickly to prototype. Try it out, and pick 
those that work, and then move them through the acquisition 
system.
    The second immediate contribution we can make is developing 
new operating concepts, and that includes things like rapidly 
fielding Joint Task Forces in the Command and Control and 
Communications that are so important to them.
    The third I think is, we need to take a look at what you 
referred to earlier, and what efficiencies can we build as we 
further define our Asian Pacific future.
    Senator Dayton. Thank you. My time has expired. Senator 
Sessions, I guess it is you and me. Gentlemen, I want to thank 
you both for your dedicated service to the country, and wish 
you well in your new assignments.
    Senator Sessions. I have enjoyed working with Senator 
Dayton on this legislation he proposed that fits very well with 
my concern. We are hopeful that we will make progress, although 
I have learned progress is not often very fast around here.
    In visiting Korea, it was a stunning thing to me to see the 
vitality of South Korea, Seoul, and the constant building. The 
automobiles and the progress and technology that country has is 
remarkable. When you think that 50 years ago it was totally 
devastated, and then you go to the DMZ and you look over and 
see one of the most oppressed groups of people the world has 
ever known in North Korea, where there is no electricity and 
food has to be shipped in. They are the same people on the same 
peninsula. It just goes to point out, I think, what the 
advantage is of having a free and democratic country like South 
Korea.
    It was really remarkable to see in the last few months 
Korea talking about building a $1 billion automobile plant in 
the United States, and all the States were looking to have them 
invest in their State. Alabama won in the last few weeks, so we 
are happy right now that 4,000 Alabamians will be employed, 
probably over a period of years, and they will build 300,000 
automobiles. What a remarkable example of what American 
military force has been able to do.
    I just wanted to share that and ask, General LaPorte, what 
do you think can be done to help change this regime in the 
North? Some say you cannot get in competing messages. They say 
you cannot get the truth in to the people, but I believe 
something needs to be done.
    I do not believe that we are condemned to have the people 
of North Korea so oppressed in the way they are, when you can 
look right across the border and see what progress and freedom 
can bring. We need to figure out some way to encourage change 
there. It does not appear that just offering concessions will 
work. Do you have any ideas, and do you consider that a part of 
your mission?
    General LaPorte. That is a very, very demanding challenge, 
as you are well aware, because of the closed nature of their 
society. I think you are exactly right, Senator. Because of the 
tremendous alliance we have had with South Korea, the economy 
and the democracy there has flourished. If confirmed as the 
senior military representative, my job would be to set the 
conditions that allow the State Department to have dialogue 
with North Korea and South Korea to ensure we can come to a 
peaceful end state.
    Senator Sessions. I do not know if dialogue is going to do 
it. I think the great leader in the North has concluded that if 
the people have a little freedom, and if they know more about 
what is going on in the world, he is going to be in big 
trouble, and that may be true. So I do not know how we do it, 
but I am not satisfied that there is a sufficient effort 
through something like Radio Free Europe, or something like 
that, to help change that circumstance.
    To follow up on Senator Dayton's excellent thoughts, I 
would like to ask both of you about our smart weapons, 
precision-guided munitions. Admiral Fargo, you will be leading 
the warfighting effort in the Pacific and General LaPorte on 
the peninsula, if we got to that point.
    I know we sort of live with the environment that we are in. 
We tend to accept things as they are today as a given. I would 
like to ask you if you would review anew the challenges you 
face in your specific areas, and that you will ask aggressively 
whether or not, in the event of hostilities, you would need 
more smart munitions than you have today, and whether or not 
those could be critically important in helping you be 
successful.
    Admiral Fargo, have you thought about that, or do you feel 
like you have the most, and will you continue to review that 
and let the Secretary of Defense and this Congress know if you 
need more smart munitions?
    Admiral Fargo. Yes, Senator, I certainly will. I think it 
is something that has to be assessed on almost a daily basis in 
the Pacific area of responsibility, because the events going on 
in other parts of the world obviously affect the precision 
ammunition supplies throughout the world. So I think it is 
something we have to monitor and assess continually to ensure 
that we can make the appropriate recommendations to the 
Secretary of Defense as to what we need to buy and build.
    Senator Sessions. I just feel like you need the best 
bullets you can get, and for the weaponry systems and platforms 
we have that can be delivered, and we do not need to have our 
military effort stifled because we do not have sufficient 
munitions. In Korea you have the same situation. We know that 
there is a problem with the storage areas. You are familiar 
with that, General LaPorte, the defects in the storage areas 
for some of our precision-guided munitions?
    General LaPorte. I am not totally aware of the situation 
you are talking about, Senator.
    Senator Sessions. Well, it was distressing to see some of 
the defects in the buildings that had been built. Ultimately 
they are going to have to be rebuilt. They may still be able to 
be used to some degree, but if we are going to have more 
precision-guided munitions on the peninsula ready to be used, 
we have to have the storage to do it. I do not consider it a 
matter of ``just willy-nilly, we will get around to that.'' I 
think you need them now. I think you need them stored there 
where you can use them. I think this government needs to make 
sure we have enough of these weapons in each area of the world 
for ready utilization if need be, and I am not sure we are 
there yet.
    Will you review your warfighting plan on the peninsula and 
be aggressive and creative in your study about how to use 
precision-guided weapons, and will you ask for sufficient 
numbers to be successful?
    General LaPorte. Senator, I assure you that I will make a 
thorough assessment, once confirmed, and have an opportunity to 
review the war plans, and I also assure you that I will always 
be aggressive in soliciting any resources that the service 
member in Korea needs in order to accomplish their mission.
    Senator Sessions. Well the deal is, you say assembly lines 
are at full capacity, and we will get you your weapons in 3 
years, or in 2004 we will be up there pretty close to speed. So 
I am not sure that that is a good enough answer.
    In World War II we had more than one assembly line. I mean, 
we can open up new plants for the production of precision-
guided weapons. We could quadruple the number in production if 
we want to, and if that makes all of our other platforms lethal 
and effective. Without them they are not nearly as lethal and 
effective. We need to get some priorities straight. So we need 
to hear, I think, from the warfighting area where you are going 
to be--do you need more, and if you say you have to have it and 
you need it, and it is unjustified not to spend the relatively 
small amount necessary to produce those weapons, then we need 
to know that and find the money to help, I think.
    Senator Dayton, you are the chair, I believe.
    Senator Dayton. I think we have covered all I need to 
cover. Thank you both very much.
    [Whereupon, at 11:04 a.m., the committee adjourned.]

    [Prepared questions submitted to Adm. Thomas B. Fargo, USN, 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. More than 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of those reforms, particularly during 
your tenure as Director of Operations, U.S. Atlantic Command and 
Commander in Chief, U.S. Pacific Fleet.
    Do you support full implementation of these defense reforms?
    Answer. I fully support the implementation of the Goldwater-Nichols 
Act. These reforms have clearly strengthened the warfighting readiness 
and operational performance of our Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe the Department has embraced these reforms in both 
spirit and intent and we have vigorously pursued their implementation.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. In my view, strengthening civilian control and the chain of 
command along with the clear delineation of the combatant commander's 
responsibilities and authorities as they relate to the execution of his 
assigned missions are the most important aspects. These reforms have 
also led to vastly improved synergy between the services and the 
combatant commanders in the strategic planning process, in the 
development of requirements, and in the execution of our operations 
during numerous contingencies in the last decade-and-a-half.
    We have made significant strides in joint training and education as 
well. Our forces expect to be employed in a joint operational construct 
and hence, train and prepare accordingly.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, these goals have been critically important to the 
development of a more truly joint capability.
    Question. Recently, there have been articles that indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the National strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. In the simplest sense, the Goldwater-Nichols Act was 
fundamentally implemented to build a more joint military capability. It 
is important to assess how we might improve upon what's been 
accomplished these last 15 plus years, and if needed, address the need 
for possible changes.
    Our experience to date, the evolving strategic environment and the 
need to transform our joint force capabilities continually may call for 
examinations, and if needed, proposed course corrections. If confirmed, 
I intend to work closely with the Secretary of Defense and the Chairman 
of the Joint Chiefs of Staff on such matters and will convey my views 
to Congress.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander in Chief, United States Pacific Command?
    Answer. The duties, functions and responsibilities of all the 
combatant commanders, and the U.S. Pacific Command commander 
specifically, are delineated by statute, regulation and directive. 
These include exercising command authority over all commands and forces 
assigned to the Pacific Command, and prescribing, organizing and 
employing the subordinate commands and forces within the Pacific 
Command to carry out Pacific Command's assigned missions. 
Fundamentally, that mission is to deter attacks against the U.S. and 
its territories, possessions and bases, protect Americans and American 
interests and, in the event that deterrence fails, fight and win.
    As a combatant commander, the Commander in Chief, U.S. Pacific 
Command is responsible to the President and the Secretary of Defense 
for the performance of these duties, the preparedness of its assigned 
commands and the execution of its missions.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My previous experience as a naval officer and commander 
engaged in joint and combined operations, particularly in the Pacific, 
East Asia and in Southwest Asia, has prepared me to serve as the 
Commander in Chief, U.S. Pacific Command. My command assignments 
include the U.S. Pacific Fleet, Commander, Naval Forces U.S. Central 
Command/Commander, Fifth Fleet in the Arabian Gulf, Task Force SEVEN 
FOUR/ONE FIVE SEVEN/Submarine Group SEVEN in Yokosuka, Japan, and the 
U.S.S. Salt Lake City (SSN 716) in the Pacific.
    I have served in two joint-qualifying (JDAL) tours as a flag 
officer. First, as the Director for Operations (J-3) at the U.S. 
Atlantic Command from 1993-1995, planning and directing operations for 
Operation Uphold Democracy in Haiti in 1994 and as indicated above, as 
the Commander, Naval Forces U.S. Central Command/Commander, Fifth Fleet 
in the Arabian Gulf from 1996-1998. Additionally, I have had extensive 
joint interaction in my duties as both the Navy's Deputy Chief of Naval 
Operations for Plans, Policy and Operations (N3/5) from 1998-1999, 
where I served on the panel of Operations Deputies (or ``OpsDeps'') for 
the Joint Staff; and also as the Navy representative to the Joint 
Requirements Board while serving as the Director, Assessment Division 
(N81) on the Navy Staff in 1995-1996.
    My present assignment as the Commander of the U.S. Pacific Fleet 
and as the U.S. Pacific Command's naval component commander has helped 
me develop important relationships throughout the region, familiarized 
me with joint, combined and naval planning efforts and operations, and 
has introduced me to the key U.S. Pacific Command military leadership.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Commander in Chief, 
United States Pacific Command?
    Answer. I believe I am well prepared to assume these duties if 
confirmed. I have been in contact with Admiral Blair, his other 
component commanders and key leadership within the Department as part 
of my current duties as the Pacific naval component commander and 
commander of a joint task force in the region. I'm sure there is a 
great deal more to learn and as with any new assignment I intend to 
pursue every opportunity to expand my knowledge and understanding.
    Question. In carrying out your duties, how will you work with the 
Secretary of Defense, Deputy Secretary of Defense, the Under 
Secretaries of Defense, the Assistant Secretaries of Defense, the 
Chairman of the Joint Chiefs of Staff, the Vice Chairman of the Joint 
Chiefs of Staff, the Assistant to the Chairman of the Joint Chiefs of 
Staff, the Director of the Joint Staff, the Secretaries of the Military 
Departments, the Chiefs of Staff of the Services, and the other 
combatant commanders?
    Answer. If confirmed, I plan to work with them in the same fashion 
I've found effective throughout my career: clear, forthright and 
frequent communication. Further, my relationship with these leaders 
would be in accordance with the established laws, regulations and 
traditional practices and conducted in a manner that provides my best 
military advice, supports the execution of our duties and 
responsibilities, and ensures the preparedness of my assigned forces. 
Specifically:
The Secretary of Defense
    The chain of command flows from the President to the Secretary of 
Defense to the combatant commanders. The Secretary is my immediate 
supervisor and I will report directly to him and provide the best 
possible military advice to execute my duties and responsibilities in 
the Pacific. As is custom and traditional practice, I will communicate 
with the Secretary through the Chairman of the Joint Chiefs of Staff.
The Deputy Secretary of Defense
    The Deputy Secretary of Defense, on occasion, serves as the acting 
Secretary in the absence of the Secretary. During these periods my 
relationship with the Deputy Secretary will be essentially the same as 
with the Secretary. I will endeavor to provide him with the best 
possible military advice and the same level of support as I would the 
Secretary. Otherwise, I will support, consult with, and coordinate with 
him in those areas and issues that the Secretary has assigned him to 
lead for the Department.
The Under Secretaries of Defense
    Under current DOD Directives, Under Secretaries of Defense 
coordinate and exchange information with DOD components, to include 
combatant commands, in the functional areas under their purview. If 
confirmed, I will respond and reciprocate. I will use this exchange of 
information as I formally communicate with the CJCS and provide 
military advice to the Secretary of Defense.
The Assistant Secretaries of Defense
    With three exceptions, Assistant Secretaries are subordinate to one 
of the Under Secretaries of Defense. Therefore, any relationship U.S. 
Pacific Command would have with subordinate Assistant Secretaries would 
be working with and through the applicable Under Secretary of Defense. 
Since the Assistant Secretaries of Defense for C\3\I, Legislative 
Affairs, and Public Affairs are principal deputies to the Secretary of 
Defense, the relationship with them would be conducted along the same 
lines as with the various Under Secretaries.
The Chairman of the Joint Chiefs of Staff
    The Chairman is the principal military advisor to the President, 
National Security Council, and Secretary of Defense. Title 10, Sec. 163 
allows communications between the President or the Secretary of Defense 
and the combatant commanders to be transmitted through the Chairman. I 
anticipate this policy will continue to be directed by the President in 
the forthcoming Unified Command Plan. If confirmed, I intend to keep 
the Chairman fully involved and informed by providing appropriate 
recommendations regarding requirements, strategy, doctrine, tactics, 
techniques, and procedures for the joint employment of Pacific Command 
forces.
The Vice Chairman of the Joint Chiefs of Staff
    When functioning as the acting Chairman, the Vice Chairman's 
relationship with the unified commanders is exactly that of the 
Chairman. Title 10, Sec. 154 gives the Vice Chairman rights and 
obligations as a member of the Joint Chiefs of Staff. Therefore, I 
would exchange views with the Vice Chairman on any general defense 
matter considered by the Joint Chiefs of Staff. The Vice Chairman also 
heads, or plays a key role on many boards and panels that affect 
readiness and programs, many of which directly impact the preparedness 
of Pacific Command. An important example is the Joint Requirements 
Oversight Council (JROC). I would anticipate exchanging views on 
matters before these boards and panels as they affect the Pacific 
Command.
The Assistant to the Chairman of the Joint Chiefs of Staff
    The Assistant to the Chairman represents the Chairman in the 
interagency process and works closely with the leadership of the 
Department of State. Combatant commanders and their staffs also work in 
an interagency setting and maintain a heavy focus on international 
relations as they relate to politico-military concerns. While there is 
no command relationship between the Assistant to the Chairman and a 
combatant commander, informal exchanges of views are of mutual benefit. 
If confirmed, I would expect to engage in such exchanges.
The Director of the Joint Staff
    The Director of the Joint Staff is generally the Joint Staff point 
of contact for soliciting information from all the unified commanders 
when the Chairman is developing a position on any important issue. On a 
day-to-day basis, the Pacific Command Deputy works with the Director of 
the Joint Staff to exchange positions and clarify direction. However, 
on occasion it is important for the Commander to deal directly with the 
Director of the Joint Staff to ensure that the Director correctly 
understands his position.
The Secretaries of the Military Departments
    Title 10, Sec. 165 provides that, subject to the authority, 
direction, and control of the Secretary of Defense, and subject to the 
authority of combatant commanders, the Secretaries of Military 
Departments are responsible for the administration and support of the 
forces assigned to combatant commands. This responsibility is routinely 
exercised within service lines via the subordinate service component 
commander. On occasion it is important to exchange views personally and 
directly with a Service Secretary on issues involving the preparedness 
of forces and their administration and support.
The Chiefs of Staff of the Services
    The Service Chiefs are responsible, in accordance with Goldwater-
Nichols, to organize, train, equip, and provide trained and ready 
forces for combatant commanders to employ in their area of 
responsibility. The full support and cooperation of the Service Chiefs 
is important to the preparedness of assigned combat forces and the 
missions directed by the Secretary of Defense. Also, as members of the 
Joint Chiefs of Staff, the Service Chiefs have a lawful obligation to 
provide military advice to the Secretary of Defense and President. 
Individually and collectively, the Joint Chiefs are a source of 
experience and judgment that can and should be called upon. If 
confirmed, I intend to conduct a full dialogue with the Chiefs of all 
services.
The other combatant commanders
    If confirmed, my relationship with the other combatant commanders 
will be one of mutual support, continued dialogue, and frequent face-
to-face interaction. In today's security environment, with special 
regard to the global campaign against terrorism, an atmosphere of 
teamwork, cooperation, and sharing is critical to executing U.S. 
national policy. As a supporting commander, I will do my utmost to 
assist other commanders in the execution of their assigned missions. As 
a supported commander, I would expect the same from fellow combatant 
commanders.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Commander in Chief, United States Pacific Command?
    Answer. The basic challenge facing any combatant commander is to 
maintain the readiness of his assigned forces and employ them in a 
manner that deters our enemies and dissuades potential strategic 
competitors from seeking military advantage, reassures Americans and 
our friends and allies abroad, and in the event deterrence fails, 
fighting and winning.
    In the Pacific, I believe there are a number of fundamental 
challenges that need to be addressed. These include:
    1. North Korea. The place where the stakes are highest continues to 
be on the Korean Peninsula. North Korea poses a significant 
conventional threat on the peninsula and continues to be a major 
exporter of ballistic missiles and associated technology. As such, 
North Korea poses a risk not just on the peninsula, but also throughout 
the region, and across the globe.
    2. Terrorism. There is real concern that Southeast Asia could 
become a haven for international terrorists as they are forced out of 
their current locations. It will take a concerted effort to find ways 
to help the region address this threat. The Pacific Command also 
supports other combatant commanders in the larger Global War on Terror.
    3. Miscalculation. The potential for accelerated military 
competition or worse, gross miscalculation between India and Pakistan, 
China and Taiwan, or some other strategic rivals.
    4. Potential instability. A regional instability caused by a 
fractured or failed nation state which has come apart because of its 
own internal instability, ideological crisis or failed government or 
economic system. This also includes instabilities caused by piracy, 
international drug smuggling, illegal immigration, environmental 
catastrophe and similar transnational concerns.
    5. Readiness. Maintaining a trained and ready force, the command 
and control, and the relationships capable of dealing with the range of 
missions that could result from the foregoing.
    6. Transformation. Institutionalizing a culture of experimentation 
and innovation that recognizes the unique nature of the Pacific's 
geography, the evolving threats and the robust capability that 
technology brings the U.S. Armed Forces.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. In many respects, meeting the challenges above is dependent 
upon the readiness of Pacific Command forces and the service, joint and 
combined training exercises that enhance our ability to operate in a 
complex environment and execute our operations and contingency plans. 
More importantly, it means reinforcing the constants within the region 
and promoting change.
    1. Reinforcing constants. The foundation for stability in the 
region has been our long-standing bilateral alliances, of which our 
alliance with Japan is most important. This relationship is the 
cornerstone for U.S. security interests in Asia and is fundamental to 
regional stability and security. Australia remains our oldest ally and 
a special partner in the Pacific. They have worked hard to eliminate 
the potential technology barriers between our forces and have taken a 
lead role in East Timor's security, and in the security and democratic 
development of nations in the South Pacific. Our relationship with the 
Republic of Korea has served as the keystone for security on the Korean 
Peninsula for 50 years. The Philippines and Thailand remain important 
allies and key to stability throughout Southeast Asia. These critical 
alliances have served us well not only within the Pacific area of 
responsibility, but in the Global War on Terrorism as well. If 
confirmed, I will continue to reinforce these important alliances and 
friendships.
    The presence of U.S. forces is another constant that remains a 
force for stability and security throughout the region as well. Our 
forward capability brings great flexibility to the United States and 
deters and dissuades military competition in East Asia. A forward 
combat capability transcends any movement on the Korean Peninsula and, 
if confirmed, I would continue to work to ensure their readiness, 
training and access to those areas vital to U.S. security in the 
region.
    Lastly, we have long-standing relationships in the region, 
friendships like those with Singapore and Malaysia, that recognize our 
shared security interests and provide critical assistance in efforts 
like the Global War on Terror as well. I would seek to fortify these 
long-standing friendships.
    2. Promoting change. There is much we can do to improve our 
security in this region we all recognize as critically important to the 
Nation's future.
    Changing our operating patterns; to include a balance of time in 
Northeast Asia and the East Asia littoral. We should leverage the 
opportunity our growing military cooperation with India provides as 
well. Additionally, I would seek more frequent joint operating 
opportunities such as those recently conducted by the Navy and the Air 
Force in the South China Sea that exercise our long-range strike and 
expeditionary capabilities.
    Reviewing our force posture for the future that includes the kind 
of forward deterrence enhanced by a forward Theater Missile Defense 
capability, the Aerospace Expeditionary Force (AEF), Nuclear-Powered 
Cruise Missile Attack Submarine (SSGN) and others, the utilization of 
strategic assets like Guam, and the efficiencies gained by initiatives 
like the Land Partnership Plan (LPP) agreement in Korea. Our goal 
should be to improve our combat capability forward while achieving the 
necessary efficiencies in our support structure.
    Maturing Joint Task Force operations; to include rapid activation 
and minimum reinforcement, a clear and accurate operational picture, a 
secure, collaborative coalition network, and effective training in 
complex operational situations.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Commander in Chief, United 
States Pacific Command?
    Answer. The ability to command, organize and employ modern joint 
and/or coalition forces effectively within the vast Pacific Command 
area of responsibility is dependent upon robust, collaborative 
information technology. Pacific forces require more bandwidth, higher 
speed, and frankly, better availability for command, control, 
communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR) systems in a more timely manner. We are a long 
ways from a common operational picture for our joint forces and we are 
ISR poor overall. Additionally, interoperability with our allies or in 
a coalition environment is an even bigger challenge.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. As Pacific Command's executive agent for development of the 
Coalition Wide Area Network (COWAN), and having seen the Asia Pacific 
Area Network (APAN) during my tenure as Commander of the Pacific Fleet, 
we are beginning to make strides in availability. However, we need to 
continue to acquire modern capability in a rapid manner. If confirmed, 
I will continue to work with the Secretary, the Chairman, the Joint 
Forces Command and the Service Chiefs on efforts to improve our 
acquisition of timely, robust communication and collaborative 
technology. I will also continue to emphasize the development and 
efficient and effective use of appropriate ISR assets.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues that must be addressed by the Commander in Chief, 
United States Pacific Command?
    Answer. If confirmed, I have five broad priorities for Pacific 
Command in the near-term:
    1. Sustaining and supporting the Global War on Terrorism.
    2. Improving the readiness and joint warfighting capability of 
Pacific Command forces.
    3. Reinforcing the strong relationships the United States has with 
our key allies, friends and partners in the region.
    4. Improving the quality of service for our sailors, soldiers, 
airmen, and marines.
    5. Promoting change and improving our Asia-Pacific defense posture.
                               readiness
    Question. Do you believe that training constraints for Outside 
Continental United States (OCONUS) units are growing? If so, how 
important is it to develop a theater-wide strategy to protect military 
training opportunities? Will you develop and implement such a strategy?
    Answer. Training constraints are growing for OCONUS units and are a 
fundamental readiness issue; after all, if we cannot train, we have no 
ability to defend the Nation. I think it is important that a theater-
wide strategy be developed to permit all services to conduct training 
in and/or around their assigned stations/ports.
    This strategy must not rely solely on the support of our allies, 
but also include our need to train in and around Hawaii, Guam, Alaska 
and the continental United States. I know both the Department and 
Congress are actively engaged on this issue.
    The past decade has seen steady erosion to the ability to train at 
our OCONUS training ranges and operating areas. Our need for sufficient 
training ranges and basic operating conditions for our forward forces 
based overseas--the forces the Nation needs to be most ready--are 
critical. While the most visible loss of training infrastructure 
resulted from the loss of the Philippine training complex, other 
incremental losses are beginning to jeopardize our ability to maintain 
ready forces. Urban sprawl has significantly reduced the maneuvering 
and artillery training areas for both our Army and Marine forces in 
Japan and Korea. Civilian development has encircled our Naval Air 
Station in Atsugi, Japan; this ``encroachment'' restricts U.S.S. Kitty 
Hawk's Carrier Air Wing Five ability to conduct night operations and to 
carry ordnance for training missions. Most recently, we have been sued 
and found to be in violation of the 1918 Migratory Bird Treaty Act 
(MBTA) over our training operations on the small (1.7 mile long), 
uninhabited island of Farallon de Medinilla in the Marianas. This could 
potentially halt Air Force, Marine, and Navy training at the only 
overseas U.S. owned training range in the Western Pacific. These are 
but a few examples of issues that are impacting us across the Pacific.
    As Commander of the Pacific Fleet, I instituted Enhanced Readiness 
Teams (ERT) to address these kinds of encroachment issues within the 
Navy. These teams consist of operators, base infrastructure personnel, 
environmental lawyers, and facility planners brought together for 
coordinated action on these encroachment issues. My counterpart in the 
Atlantic and our marine commanders in both AORs also adapted the 
concept--we now have a combined charter that establishes these teams 
across both the Pacific and Atlantic Fleets. Additionally, I have 
conveyed my concern with respect to encroachment to members of Congress 
and to appropriate Cabinet members. If confirmed, I intend to review 
the range of encroachment issues across all the Pacific component 
commands, and will assist the Department as necessary on its 
sustainable range initiatives efforts.
                            forward presence
    Question. Do you believe that our current forward presence in the 
United States Pacific Command area of responsibility is appropriate? 
What, if any, changes would you recommend in basing and agreements to 
promote access?
    Answer. Our forward presence in the region is demonstrative of our 
commitment to its security and our interests abroad; deters aggression 
in areas like the Korean Peninsula; reassures our friends and allies; 
provides a ready force capable of responding to security crises with 
credible combat power; facilitates security cooperation and coalition 
operations through periodic, combined training exercises; and preserves 
or enhances our access in critical areas.
    The most important element of this forward deployed force is 
undoubtedly our combat capability; I don't see any near-term reduction 
to that capability forward. In fact, during my tenure as the Commander 
of the Pacific Fleet, I have taken action to enhance our forward combat 
capability by proposing and preparing for the forward basing of three 
attack submarines in Guam and preserving some of the infrastructure 
that supports our forward readiness. So in this sense, our combat 
capability may continue to evolve with the strategic environment in the 
region.
    Of course, this combat readiness is dependent upon sufficient 
logistic infrastructure and access. My view is there are probably 
efficiencies we can gain in how we support this front line capability. 
Initiatives like the Land Partnership Program in Korea are important to 
both the U.S. and our allies in this regard. If confirmed, I intend to 
work with the Department and our friends and allies to ensure we 
provide the requisite logistic infrastructure and access in a way that 
leverages all that our information technology brings us and optimizes 
both our capability and our overseas support and tenant commands.
                      jointness and transformation
    Question. What steps do you believe can and should be taken by the 
regional combatant commanders to enhance jointness and transformation? 
Are there opportunities in this area that are unique to the United 
States Pacific Command?
    Answer. All of the Nation's operating forces expect to be trained, 
prepared and employed in a joint operational construct. One of Admiral 
Blair's important transformational efforts during his tenure has been 
the development of the Joint Mission Force (JMF). It leverages existing 
Pacific Command component commander infrastructure and relationships 
with the responsiveness and readiness of the Pacific's forward deployed 
forces through web-centric technology. Its key objectives are to 
improve a Pacific Joint Task Force's speed of response, precision and 
effectiveness across the full spectrum of missions should such force be 
required. I believe we can make early gains in both transformation and 
jointness by continuing to examine our operating concepts, force 
packaging, command and control and joint connectivity.
    As the Navy's component commander in the Pacific Command for the 
last 2\1/2\ years I have seen this effort embedded in our operations 
planning, wargames, and exercises. There is more to be learned from 
this successful effort. If confirmed, I intend to continue this unique 
opportunity through the Pacific Command exercise program, leverage the 
lessons into our operations and planning, and improve the web-centric 
technology and networking that makes this command-staff-force model 
effective and enduring.
                         joint experimentation
    Question. U.S. Pacific Command (PACOM) has taken an active role in 
experimentation, especially with regards to U.S. Navy fleet battle 
experiments.
    In your view, what is the role of the combatant commands with 
regards to joint experimentation?
    Answer. Every combatant commander has a need to continuously assess 
his own combat capabilities, the development of regional threats and 
the unique characteristics of his assigned area of responsibility (AOR) 
to ensure he is fostering the right operating concepts and validating 
requirements for the future. Most importantly, experimentation gives 
the Pacific Command's warfighters an opportunity to validate 
experimental doctrine, technologies and joint tactics, techniques and 
procedures (TTP) in the unique operating environment and geography in 
Pacific Command's area of responsibility. We need to foster innovation 
and prototyping in the field and then take the best of these ideas to 
Joint Forces Command and the services for rapid implementation.
    Joint Forces Command (JFCOM) has been designated as the 
Department's executive agent for joint force experimentation. Our 
obligation in the Pacific Command is to support the larger goals of 
JFCOM and the Department by providing opportunities and venues to 
experiment and a constant stream of new thought on warfighting 
capability and concepts.
    The Pacific Command has a legacy of innovation and experimentation; 
if confirmed, I intend to continue to pursue those operating concepts 
and technologies that will ensure the Nation's readiness to deter 
attacks against the U.S., its territories, possessions and bases and, 
should that deterrence fail, preserve our capability to fight and win.
    Question. What type of relationship should exist between PACOM and 
U.S. Joint Forces Command, with regards to joint experimentation?
    Answer. If confirmed, I will coordinate joint experimentation 
efforts with JFCOM in its role as the Department's executive agent for 
Joint Warfighting Experimentation and will share the pertinent lessons 
to be drawn from the Pacific Command's experimental efforts and JFCOMs 
as well.
                           joint requirements
    Question. In your view, what is the role of the Commander in Chief, 
U.S. Pacific Command in the formulation of joint warfighting 
requirements and the development of capabilities for the future?
    I believe it is important the combatant commanders assert a strong 
role in defense requirements. The Joint Requirements Oversight Council 
(JROC) strives to ensure that individual service systems are 
interoperable and that choices among individual service systems are 
made based on their value to joint warfighting. If confirmed, I will 
support JROC efforts in the requirements process. The vast geography of 
the Pacific, the absence of a broad treaty organization and the 
fundamentally expeditionary context of many of the region's security 
scenarios make Pacific Command input to the requirements process an 
important voice in the development of our future force capability. As a 
combatant commander, I would have a number of venues available to 
influence joint warfighting requirements:
    1. Review of joint requirements documents such as Mission Need 
Statements, Operational and Capstone Requirements Documents, and 
Command, Control, Communications, and Computers, and Intelligence 
(C\4\I) Support Plans for joint applicability and interoperability.
    2. Development of an annual Integrated Priority List (IPL) to 
influence service and defense agency Program Objective Memoranda (POMs) 
and the Future Years Defense Plan. The IPL provides Pacific Command's 
personal assessment of capabilities and requirements needed to execute 
operations in Pacific Command. It is not all-inclusive but focuses on 
those significant theater shortfalls that require funding. 
Concentrating on major shortfalls provides a more meaningful and useful 
product.
    3. Staff participation in JROC and Defense Resources Board (DRB) 
meetings to provide Pacific Command views on joint requirements and 
programs. Additionally, Pacific Command hosts the Joint Staff's Joint 
Warfighting Capability Assessment (JWCA) team visits and prepares for 
JROC meetings. Combatant commander recommendations are incorporated 
into the Chairman's Program Recommendations (CPR) to influence Defense 
Planning Guidance (DPG) and into the Chairman's Program Assessment 
(CPA) memo to influence Program and Budget Review as well.
    4. Participating in all phases of the Department of Defense 
Planning, Programming and Budgeting System (PPBS), including providing 
input to the DPG and reviewing POMs during Program and Budget Review 
cycles to determine if they meet Pacific warfighting requirements and 
IPL priorities. Program Review considers issues raised by the combatant 
commanders and the Joint Staff. Joint concerns may be reflected in 
Program Decision Memoranda (PDMs) or Program Budget Decisions (PBDs) as 
the President's Budget is finalized.
    5. Joint Experimentation and Advanced Concept Technology 
Demonstrations (ACTDs). While the venues mentioned above usually 
address more mid- to-long-term issues, joint experiments and the ACTD 
process provide shorter-term approaches to joint requirements and 
capabilities. Joint experiments and ACTDs allow the warfighter to ``try 
before they buy'' in operational demonstrations and ensure new 
capabilities are ``born joint.'' If successful, warfighters can readily 
apply the technologies in actual operations while acquisition programs 
refine their use and develop their long-term support infrastructure. My 
understanding is Pacific Command is currently engaged in 18 active 
ACTDs, which along with experimentation serve as a cornerstone of 
theater transformation.
                                 korea
    Question. If confirmed, what do you anticipate your relationship 
will be with the Commander in Chief, United Nations Command/Combined 
Forces Command and United States Forces Korea?
    Answer. This relationship is unique and vital. The Pacific Command 
commander's responsibilities are regional in nature and include the 
security situation on the Korean Peninsula. The Commander in Chief, 
U.N. Command/Combined Forces Command's primary focus is on deterrence 
of a North Korean attack specifically on the Korean Peninsula, and 
should that deterrence fail, the ability to fight and win against that 
threat. He is also a subordinate unified commander to Pacific Command 
in his role as the Commander of U.S. Forces Korea.
    The magnitude of this enduring threat both to the peninsula, and 
throughout the region requires close coordination. If confirmed, my 
relationship with the Commander in Chief, United Nations Command/
Combined Forces Command (CINCUNC/CFC) and United States Forces Korea 
(USFK) will be one of mutual support, continued dialogue on key issues, 
and frequent face-to-face interaction during periodic conferences and 
other meetings, as required. In today's security environment, an 
atmosphere of teamwork and cooperation is critical to executing U.S. 
national policy. In each of my supporting and supported relationships 
with other combatant commanders, I will do my utmost to assist them in 
the execution of their duties and responsibilities.
    Question. What is your assessment of the 1994 Agreed Framework and 
the role that it plays in promoting stability on the Korean Peninsula?
    Answer. The Agreed Framework (AF) is an important mechanism to 
stability on the peninsula. Although not a perfect agreement, conflict 
has been averted and the Democratic People's Republic of Korea has 
remained at least a nominal party to the Nuclear Nonproliferation 
Treaty (NPT).
    North Korea's long-standing aggression and proliferation of weapons 
of mass destruction makes it imperative that we obtain a verifiable end 
to their nuclear weapons program. If there are ways to improve upon the 
Agreed Framework to that end, we should consider them.
    Question. To what extent is North Korea complying with the Agreed 
Framework and with other agreements it has entered into to reduce the 
WMD threat on the peninsula, such as the 1991 Joint Declaration on 
Denuclearization of the Korean Peninsula?
    Answer. North Korea is complying with some aspects of the Agreed 
Framework. The freeze on plutonium production and separation facilities 
appears to be holding and the construction on the graphite-moderated 
reactors (GMR) is halted. However, North Korea is not yet in full 
compliance with all International Atomic Energy Agency (IAEA) 
accountability standards; the AF makes clear that key components for 
the Light Water Reactors (LWR) will not be delivered until North Korea 
complies fully with its IAEA obligations.
    Question. What is your assessment of the threat posed by North 
Korean ballistic missile developments and exports to U.S. forces and 
allies?
    Answer. Significant. North Korean development and export of missile 
technology and components is pervasive and continuous; its exported 
technology is a threat not just within Pacific Command's area of 
responsibility, but throughout the world. Additionally, it has been 
estimated that North Korea could have the capability to strike the 
continental United States with ballistic missiles within 5 years.
                                 china
    Question. How would you characterize the U.S. security relationship 
with China?
    Answer. Too often, they perceive the relationship as a zero-sum 
game--our perceived advantage is their disadvantage. We should develop 
areas where there is common ground, but the foundation of this 
discourse should continue to be the Taiwan Relations Act and the three 
U.S./China communiques. It is clear to me a frank, constructive 
discourse that's clearly aimed at preserving peace and stability 
throughout the region should be the way ahead.
    Question. Do you believe that we should re-establish normal 
military-to-military ties with the Chinese military? If so, why?
    Answer. Normal military-to-military contact with the Chinese 
military is dependent upon our laws and the interests of the United 
States. In general, such contact should be both transparent and 
reciprocal in nature. Under these guidelines, I am supportive of a 
modest military-to-military relationship. As the Commander of the U.S. 
Pacific Fleet, I have noted a lack of reciprocity with respect to the 
variety and types of ports Pacific Fleet ships have been allowed to 
visit in China as compared to the types and variety of ports the U.S. 
has allowed PLA(N) ships to visit in the United States. While this is 
just one example, I believe it is an indicator that our contacts are 
presently proceeding at an appropriate level and pace.
                                 taiwan
    Question. What are the priorities, in your opinion, for U.S. 
military assistance to Taiwan?
    Answer. In my view, we should continue to focus our assistance on 
modernizing Taiwan's command, control, communications, computers, 
intelligence, surveillance and reconnaissance (C\4\ISR) capability, 
improving their integrated sea and air defense capability, and 
assisting them in the integration of their components into an effective 
joint defense.
                             india/pakistan
    Question. What initiatives or actions do you believe that the 
Commander in Chief, United States Pacific Command can and should take 
to help try to reduce military tension between India and Pakistan?
    Answer. Maintaining frequent and frank communications with military 
leaders in India is the most important action the Pacific Command can 
take to help reduce military tensions in South Asia. It is important 
for the Pacific Command to know and understand the senior Indian 
military leaders. Through these contacts and professional friendships, 
the Pacific Command can candidly discuss the results and repercussions 
of conflict with Pakistan. Along with this, Pacific Command should 
continue its coordination with U.S. Central Command to monitor actions 
along the international boundary and the Line of Control in Kashmir.
                             southeast asia
    Question. How do you plan to engage the states in Southeast Asia to 
cooperate in the international war against terrorism?
    Answer. The Philippines, Thailand, Singapore and Malaysia have all 
taken steps in the war on terrorism, with Singapore and Malaysia in 
particular successfully disrupting terrorist operations.
    If confirmed, I will incorporate the wide range of theater security 
cooperation activities designed to help each nation, as permissible by 
our laws, develop the skills necessary to defeat current terrorist 
threats and deter future ones. This will require coordinating our 
military activities with the myriad of international, interagency, 
diplomatic and economic initiatives to ensure we are providing the 
right level and mix of capabilities. These activities range from our 
current assistance program in the southern Philippines to combined 
seminars and exercises incorporating counter-terror themes to 
humanitarian assistance activities that dissuade the development of 
terrorism and terrorist support bases.
                              philippines
    Question. How does the U.S. training mission in the Philippines 
enhance U.S. national security?
    Answer. The Abu Sayyaf terrorist group (ASG) is a threat to 
stability in the Philippines, has ties to al Qaeda, and has targeted 
U.S. citizens. The Armed Forces of the Philippines (AFP) are challenged 
by both logistic problems and a lack of adequate training in the 
Southern Command in dealing with what has become an enduring ASG 
threat. The U.S. training mission is there to provide training and 
advice to the AFP on counter-terror tactics, techniques and procedures 
and to assist the AFP with the maintenance of their equipment and the 
logistic infrastructure needed to defeat this threat.
    If the Philippine Government and military can train with U.S. 
forces, and develop improved future military capabilities, our National 
and international security interests are served. Further, relevant 
security cooperation with the Philippines, a treaty ally and member of 
the Association of Southeast Asian Nations (ASEAN) and the ASEAN 
Regional Forum (ARF), contributes to our security posture in Southeast 
Asia both for regional stability and for addressing transnational 
security issues.
    In the long-run, the AFP's ability to conduct self-sustaining 
counter-terror operations will help protect U.S. citizens abroad and 
will discourage al Qaeda elements from seeking safe haven in the region 
as they are forced out of their current locations.
    Question. Do you believe that the agreement the United States has 
entered into with the Philippines on this mission clearly distinguishes 
training missions from combat operations?
    Answer. Yes.
    Question. Are combat operations a part of this agreement?
    Answer. No. U.S. participants will not engage in combat, without 
prejudice to their right of self-defense.
    Question. If confirmed as Commander in Chief, United States Pacific 
Command, do you anticipate taking any additional steps to minimize the 
likelihood that U.S. troops become drawn into combat, including as part 
of a medical evacuation or search and rescue mission, with the Abu 
Sayyaf Group or other terrorist or insurgency groups operating in 
Mindanao?
    Answer. Our commanders in the Philippines and the intelligence 
community are continually assessing the threat to our troops, and if I 
am confirmed, my first trip will include a personal review of our 
counter-terror effort in the Philippines.
    Question. Will you ensure that Congress is informed in a timely 
fashion of any changes to the training mission (from battalion to lower 
echelons) or to the rules of engagement?
    Answer. Yes.
                               indonesia
    Question. Do you believe that we should resume military-to-military 
engagement with Indonesia?
    Answer. The Armed Forces of Indonesia (TNI) is important to the 
stability, unity and future of Indonesia as it transitions toward 
democracy. In turn, Indonesia's continued democratic development is 
important to U.S. interests in combating terrorism and the security and 
stability of Southeast Asia. In that sense, it would benefit our 
interests to interact with the generation of TNI officers so important 
to Indonesia's future.
    Question. How would you balance our interest in developing closer 
ties with the government of Indonesia with concerns about past and 
future human rights abuses by the Indonesian military?
    Answer. Clearly our military-to-military contacts with the TNI must 
be in accordance with our laws. Pacific Command activities like senior 
officer visits, subject matter information exchanges, and the annual 
Cooperation Afloat Readiness and Training (CARAT) exercise phase that 
focuses on humanitarian assistance and anti-piracy is a start. The new 
Regional Defense Counter-Terrorism Fellowship Program may be another 
way to an effective balance. If confirmed, I will examine these means 
carefully and give my best advice to the Secretary and the Chairman and 
will continue to explore the possibilities with Congress.
    Question. Is the Indonesian government fully cooperating with the 
United States in the Global War on Terrorism?
    Answer. Indonesia has condemned terrorism and has approved 
overflight rights for U.S. aircraft supporting the war on terror. 
However, Indonesia has not aggressively investigated those domestic 
elements that are sympathetic to the objectives of al Qaeda.
                        incidents at sea treaty
    Question. In light of the problems encountered during the EP-3 
incident with China last year, would you recommend that we pursue with 
China an agreement--to cover operations of ships and aircraft--similar 
to the Incidents at Sea Agreement with the Soviet Union?
    Answer. See below.
    Question. In your view, has the Military Maritime Consultative 
Agreement been useful in resolving such issues?
    Answer. Unlike the U.S./USSR situation in 1972, the U.S. already 
has the 1998 Military Maritime Consultative Agreement with China, which 
established a forum for promoting safe maritime practices, 
communication procedures when ships encounter each other, and ways to 
avoid accidents at sea. This bilateral agreement provides an existing, 
functioning framework for reaching common understandings on the 
international legal principles governing the operations of maritime and 
air forces. I think the Military Maritime Consultative Agreement with 
China can work as a vehicle for the two militaries to discuss and 
promote issues relating to safety and navigation at sea and in the air 
without adding an INCSEA-type agreement between the U.S. and China.
                      unified command plan changes
    Question. The Department of Defense is currently reviewing the 
Unified Command Plan and considering recommending the establishment of 
a ``Homeland CINC.''
    Please share with the committee your views with regards to the 
proposed changes to the Unified Command Plan.
    Answer. It is an important step for our future. I support the 
creation of the proposed Northern Command and its assignment as the 
Commander for homeland defense planning and consequence management. 
Additionally, the refinement of the Joint Forces Command mission of 
joint transformation, experimentation and integration will be important 
to the continued development of our joint capability for the future. 
Lastly, the assignment of all countries to the regional unified 
commanders helps clarify our security cooperation efforts.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander in Chief, United 
States Pacific Command?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
                         relations with vietnam
    1. Senator Thurmond. Admiral Fargo, Southeast Asia and the South 
China Sea continue to be potential flash points, especially the 
Spratley Islands. With the loss of naval facilities in the Philippines, 
Vietnam offers an ideal location for a forward operating base, 
especially now that Russia has pulled out of Cam Ranh Bay. What are our 
military relations with Vietnam and would Cam Ranh Bay be a suitable 
facility for the Pacific Fleet?
    Admiral Fargo. Since 1975, U.S. and Vietnamese military relations 
have grown slowly, following the development in diplomatic relations. 
The military relationship with Vietnam follows at a controlled, 
measured pace of initiatives designed as confidence building measures 
that include high-level visits, attendance at multilateral conferences, 
and humanitarian aid. Our primary national objective continues to be 
Prisoner of War/Missing in Action (POW/MIA) efforts. Additionally, we 
encourage Vietnam to participate in regional multilateral programs and 
activities to support Theater Security Cooperation. U.S. Pacific 
Command will continue to seek access to various ports in Vietnam for 
potential port visits to enhance our Theater Security Cooperation 
efforts in the near and far term.
    During his visit to Vietnam in January 2002, Admiral Blair 
discussed the status of Cam Ranh Bay with Vietnamese officials. The 
government of Vietnam has made it clear that it will not allow the base 
to be used by any foreign military and hopes to develop Cam Ranh Bay 
into a commercial port. Cam Ranh Bay would require substantial upgrades 
for the U.S. Pacific Fleet to make use of it. At this time the U.S. 
Pacific Fleet does not see a need to pursue the use of Cam Ranh Bay as 
a forward operating base.

                           en route structure
    2. Senator Thurmond. Admiral Fargo, the key to our ability to 
defend South Korea and the Far East is strategic lift, both by air and 
sea. Although both Congress and the Department have focused on air and 
sea lift, we have not heard much about the infrastructure to support 
these lift capabilities. How do you rate the strategic deployment 
infrastructure in the Pacific region and what are the critical choke 
points in terms of infrastructure?
    Admiral Fargo. The strategic deployment infrastructure in the 
Pacific region requires improvements to increase our capacity to deploy 
forces to Korea and the Far East. Compared to airlift, the long legs 
and flexibility of sealift transportation make sealift less dependent 
on en route infrastructure. Airlift throughput, however, is very 
dependent upon en route infrastructure. Throughput capacity for airlift 
is characterized as maximum (aircraft) on ground (MOG), fuel storage 
and delivery, and/or ammunition storage andhandling capabilities.
    In the Pacific, there are two paths for airlift throughput to the 
Korean Peninsula and the Far East. The two routes are described as 
Northern Pacific (NORTHPAC) and Mid-Pacific (MIDPAC).
    The NORTHPAC route consists of the great circle route going through 
Alaska and Japan. [DELETED]. Projects improving MOG and fuel 
infrastructure at Elmendorf are programmed through fiscal year 2005 for 
$132.4 million.
    The MIDPAC route consists of Hickam AFB Hawaii, Andersen AFB Guam, 
and Wake Island. Projects improving MOG and fuel storage and refueling 
capability in each of these locations are identified through fiscal 
year 2005. Of these, my biggest concern is with the ability of 
[DELETED] to support the required throughput. In addition to strategic 
airlift, the MIDPAC route is the primary route for self-deployers such 
as tactical aircraft. Pavement surfaces and fuel systems on Wake Island 
are over 40 years old. The fuel system repair plan consists of 15 
Maintenance, Repair, and Environmental (MR&E) projects estimated to 
cost $19.2 million from fiscal year 2002 to 2004. In fiscal year 2002, 
five of the projects were approved with funding of $5.9 million. In 
fiscal year 2003, an additional three projects are programmed for $12.6 
million. The remaining seven projects will be programmed for fiscal 
year 2004.
    We rely heavily on Japan access and strategic lift infrastructure 
for both NORTHPAC and MIDPAC routes. Recent security cooperation with 
Japan has increased the available MOG in Japan's civilian airfields. 
The construction projects with the most impact on throughput capacity 
are at Misawa. Projects programmed through fiscal year 2005 include 
MOG, fuels, and ammunition capabilities. Projects are identified 
through fiscal year 2006 for Iwakuni to address the runway, MOG, and 
fuel storage.
    We continue to identify infrastructure constraints on airlift and 
sealift throughput capabilities for the two primary U.S. Pacific 
Command Operation Plans (OPANs) and proactively address them in our 
infrastructure improvement priorities and Theater Security Cooperation 
strategy.

                           live fire training
    3. Senator Thurmond. Admiral Fargo, the March 2002 judicial 
decision applying the Migratory Bird Treaty Act to training activities 
at the Farallon de Medinilla range effectively precludes further live 
fire on the island. If the impact of the judicial decision is not 
mitigated, what other live fire ranges are available to the Pacific 
Fleet?
    Admiral Fargo. Senator, closure of the Farallon de Medinilla (FDM) 
range primarily impacts U.S. Pacific Command (USPACOM) forward-deployed 
forces. Forces based in the continental U.S. (CONUS) have access to 
ranges with training support capabilities. The continued operation of 
the FDM range, however, is a priority training requirement.
    For our forward-deployed Navy, Marine, and Air Force units, 
Farallon is the only U.S.-controlled live-fire range in the Western 
Pacific. Farallon is also the best live-fire range in the USPACOM AOR. 
The combination of live-fire support and point targets for precision 
guided munitions training is unique. [DELETED].
    The loss of the Farallon range will also affect CONUS-based Air 
Force operations in USPACOM. [DELETED].
    While each has unique operational and host nation limitations, the 
other ranges and type of training potentially available in the forward-
deployed PACOM area of responsibility are:

------------------------------------------------------------------------
              Range                    Location       Available Training
------------------------------------------------------------------------
Warning Area....................  Guam..............  ship-to-ground
Delamere........................  Australia.........  air-to-ground,
                                                       ground
Lancelin........................  Australia.........  ship, sub, all air
Northern........................  Australia.........  ship, sub, air to
                                                       air, limited air-
                                                       to-ground, ground
Shoal Water Bay.................  Australia.........  air-to-ground,
                                                       ground, ship-to-
                                                       shore
Warning Areas...................  Diego Garcia......  ship, air-to-
                                                       surface
Koon-Ni.........................  Korea.............  air-to-ground
Pil Sung........................  Korea.............  air-to-ground
Chik-Do.........................  Korea.............  air-to-ground
Military Op Area................  Korea.............  air-to-ground
Fuji Area.......................  Japan.............  ground, limited
                                                       air-to-ground
Restricted Areas................  Japan.............  air-to-air, air-to-
                                                       ground, ship
                                                       surface and
                                                       subsurface
Warning Areas...................  Japan.............  air-to-air, air-to-
                                                       ground
Warning Areas...................  Okinawa...........  ground, air-to-
                                                       air, ship,
                                                       limited air-to-
                                                       ground
Ft. Magsaysay...................  Philippines.......  air-to-ground,
                                                       ground
Crow Valley.....................  Philippines.......  air-to-ground
Ban Chan Khrem..................  Thailand..........  limited air-to-
                                                       ground, ground
------------------------------------------------------------------------

    While we use these ranges in Korea and Japan/Okinawa and, less 
frequently, the ranges of other nations such as Thailand, Australia, 
etc., durinq exercises, these ranges do not fully support our training 
requirement. More importantly, we do not have assured access to these 
other ranges. FDM is leased to DOD and we enjoy ensured scheduling 
priority. [DELETED]  Farallon range allows units to train live-fire 
skills while remaining at their deployed on-station locations.
    We exercise every opportunity to use other nations' ranges when 
available. However, Farallon remains the best facility with access to 
maintain the level of readiness required by forward-deployed forces.
                                 ______
                                 
    [The nomination reference of Adm. Thomas B. Fargo, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 21, 2002.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Navy to the grade indicated while assigned to a position of importance 
and responsibility under Title 10, United States Code, Section 601:

                             To be Admiral

    Adm. Thomas B. Fargo, 0000.
                                 ______
                                 
    [The biographical sketch of Adm. Thomas B. Fargo, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
      
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Adm. Thomas B. 
Fargo, USN, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Thomas Boulton Fargo, Thomas Arthur Boulton (Changed on legal 
adoption by stepfather).

    2. Position to which nominated:
    Commander in Chief, U.S. Pacific Command.

    3. Date of nomination:
    March 21, 2002.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    13 June 1948; San Diego, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Sarah Cannon Fargo (Sarah Lee Cannon).

    7. Names and ages of children:
    Thomas Boulton Fargo, Jr. (29).
    William Cannon Fargo (15)

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    The Naval Institute.
    U.S. Naval Academy Alumni Association.
    Naval Submarine League.
    Member, Board of Directors Hawaii State Chapter American Red Cross.
    Japan-American Society of Hawaii.
    Board of Directors, Army-Navy Country Club (1996).

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    VADM James Bond Stockdale Award for Inspirational Leadership.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

    13. Personal view: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Thomas B. Fargo.
    This 21st day of March, 2002.

    [The nomination of Adm. Thomas B. Fargo, USN, was reported 
to the Senate by Chairman Levin on April 29, 2002, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on April 29, 2002.]
                              ----------                              

    [Prepared questions submitted to Lt. Gen. Leon J. LaPorte, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. More than 15 years has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of those reforms during your tenure.
    Do you support full implementation of these defense reforms?
    Answer. The reforms of the Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 have significantly streamlined the chain of 
command and strengthened the role of our theater Commanders in Chief. I 
fully support implementation of the reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. From my perspective, the Department of Defense has 
aggressively pursued the provisions of the Goldwater-Nichols Act and 
the provisions of section 167 of Title 10, U.S. Code.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I have seen and experienced enormous improvements in joint 
training and professional education, joint experimentation, and joint 
operations as a result of these defense reforms. The strong advisory 
role of the Chairman, JCS is invaluable, both to the President and to 
the Secretary of Defense, as well as to the combatant commanders. Very 
important to me as a warfighter, and to the readiness of U.S. and 
allied forces in Korea, is the clarity of responsibility and authority 
for execution of assigned missions. Simplification of the chain of 
command improves rapid and clear communications, and ultimately saves 
lives in times of crisis.
    Question. The goal of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes I do. Tremendous progress has been made regarding 
clarification of combatant commander responsibilities and authority, 
focused strategy formulation and contingency planning, and more 
efficient use of defense resources. In short, the overall effect of 
Goldwater-Nichols is a vastly improved joint warfighting capability.
    Question. Recently, there have been articles that indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy. Do you anticipate that legislative proposals to 
amend Goldwater-Nichols may be appropriate? If so, what areas do you 
believe it might be appropriate to address in these proposals?
    Answer. Goldwater-Nichols has provided the necessary flexibility to 
allow us to conduct our business jointly. Over time, there may be areas 
which merit a fresh review; however, none come to my mind at this time.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander in Chief, United Nations Command/Combined Forces Command/
Commander, United States Forces Korea?
    Answer. The Commander in Chief, United Nations Command is 
responsible for maintaining the Armistice Agreement, as well as 
executing missions and functions in Korea as directed by the Secretary 
of Defense. Additionally, Commander in Chief, UNC is required to 
maintain the coalition embodied by the United Nations Command, 
facilitate acceptance of UNC member nation forces during contingencies, 
and facilitate access to the seven UNC bases in Japan.
    As Commander in Chief, Combined Forces Command, we have two 
essential missions inherent in U.S. presence in Korea: deterring 
hostile acts of external aggression against the Republic of Korea, and, 
should deterrence fail, defeat an external armed attack. In this 
position, we would be responsible for receiving strategic direction and 
missions from the ROK-U.S. Military Committee; exercising wartime 
operational control (OPCON) over all forces provided, both ROK and 
U.S.; conducting combined exercises; equipping and planning for the 
employment of those forces; providing intelligence; recommending 
requirements; researching, analyzing, and developing strategic and 
tactical concepts; complying with the armistice affairs directives of 
CINCUNC; and supporting CINCUNC in response to armistice violations by 
North Korea.
    The Commander, United States Forces Korea, as a sub-unified 
commander of the U.S. Pacific Command, is responsible for all duties 
and functions associated with Title 10, United States Code, and the 
Unified Command Plan. It is in this capacity that we support the ROK-
U.S. Mutual Defense Treaty. In that position we represent USCINCPAC. 
This position provides us the channel for providing forces to CINC UNC/
CFC, and supporting those forces with the required logistical, 
administration and policy initiatives necessary to maintain readiness.
    Question. What background and experience, including joint duty 
assignments, do you possess that you believe qualifies you to perform 
these duties?
    Answer. I have extensive experience in joint and combined 
operations. Within the Korean AOR, my duties as a brigade, division, 
and corps commander who trained and exercised with numerous Republic of 
Korea forces and U.S. component units, gave me significant, on-site 
leadership perspectives that provided specific insights into the unique 
challenges associated with combined and joint operations on the Korean 
Peninsula. Outside the Korean AOR, command of the National Training 
Center and experiences during Vietnam directly supporting our ROK 
allies, coupled with my experiences in Operation Desert Storm in 
training and fighting side-by-side with coalition forces has provided 
me the opportunity to exercise joint and combined warfighting doctrine. 
Command of III Armored Corps provided me the opportunity to develop 
operational plans in support of the Korean AOR which employed joint and 
combined warfighting strategy and tactics on terrain unique to the 
Korean Theater of Operations. In training and exercising those tactics, 
I was able to work side-by-side with Republic of Korea counterparts who 
imparted to me their unique and invaluable perspectives on warfighting 
in defense of their homeland. The experiences I have discussed here 
required me to work joint and combined reconnaissance, intelligence, 
infrastructure, and logistical concepts.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Commander in Chief, 
United Nations Command/Combined Forces Command/Commander, United States 
Forces Korea?
    Answer. I intend to conduct in-depth discussions and assessments 
with key personnel and analysts from relevant ROK and U.S. Government 
agencies and non-government specialists. Throughout my time in command 
I will need to continue this dialogue with ROK and U.S. leaders to 
constantly improve understanding of all aspects of the current 
situation within the Korean Theater of Operations. This will enable me 
to stay abreast of the dynamic political-military environment of the 
Korean Peninsula.
    Question. In carrying out your duties, how will you work with the 
Secretary of Defense, Deputy Secretary of Defense, the Undersecretaries 
of Defense, the Assistant Secretaries of Defense, the Chairman of the 
Joint Chiefs of Staff, the Vice Chairman of the Joint Chiefs of Staff, 
the Assistant to the Chairman of the Joint Chiefs of Staff, the 
Director of the Joint Staff, the Secretaries of the Military 
Departments, the Chiefs of Staff of the Services, and the combatant 
commanders, especially the Commander in Chief, U.S. Pacific Command?
    Answer. CINCUNC reports directly to the U.S. Secretary of Defense 
and through him to the President. A bi-nationally validated ROK-U.S. 
document provides further guidance on CINCCFC's unique relationship 
with the ROK National Command Authority and the U.S. Secretary of 
Defense. The relationship with all of the officials listed above is 
critical to accomplishing our National and bi-national goals and 
objectives. We must be able to work closely with all levels of 
leadership, civilian and military, in both joint and combined 
leadership environments to ensure that a teamwork approach accomplishes 
the strategic goals and objectives of our National leadership. 
Commander, United States Forces Korea reports directly to USCINCPAC on 
matters directly pertaining to USFK areas of responsibility.
                     major challenges and problems
    Question. In your view, what are the major challenges confronting 
the next Commander in Chief, United Nations Command/Combined Forces 
Command/Commander, United States Forces, Korea?
    Answer. The major challenges include readiness, deterrence, 
maintaining stability, transformation and supporting the Global War on 
Terrorism. Readiness of U.S. and allied forces will be my primary near-
term focus if confirmed for this position. The ROK-U.S. alliance must 
be ``ready to fight tonight'' due to the proximity and lethality of the 
threat. A highly trained, ready force provides stability and mitigates 
risk. Sustaining readiness requires tough realistic training; 
appropriate levels of manning and modern equipment; training 
infrastructure, and finally, a quality of life which supports and 
sustains our people. I am personally committed to ensuring that 
readiness is at the highest level and that our people know they have 
the support of the Nation behind them.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. As Commander in Chief, United Nations Command/Combined 
Forces Command/Commander United States Forces, Korea, I will ensure 
that my forces remain vigilant and well-prepared. Training and 
readiness will be my watchwords. If confirmed I will immediately review 
these elements to ensure that we are as strong and as ready as we can 
possibly be. I will devote myself to strengthening the alliance between 
the United States and the Republic of Korea. A strong healthy alliance 
can meet the challenges I discussed above. Should deterrence fail, 
alliance forces must, and will be ready to defeat North Korea.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Commander in Chief United 
Nations Command/Combined Forces Command/ Commander, United States 
Forces Korea?
    Answer. I have combined my answer below.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. As a general statement, the United States and the Republic 
of Korea have been successful in maintaining the armistice and 
deterring aggression on the Korean Peninsula for almost 50 years. The 
command structure that has evolved over time works well, but as in any 
organization, there is always the requirement to continue to grow and 
improve. Pending my opportunity to conduct a personal ``on the ground'' 
assessment, I intend to stay the course established by General 
Schwartz. I would consider my tour to be very successful if I am able 
to emulate his accomplishments as well as to build on the strong 
foundation of all the previous CINCs in Korea.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues which must be addressed by the Commander in Chief, 
United Nations Command/Combined Forces Command/Commander, United States 
Forces Korea?
    Answer. I will ensure that our units are trained and ready. I will 
devote maximum effort to maintain our deterrence through a strong 
united alliance between the ROKs and the U.S. In addition, I will 
support the UNC in helping to maintain the armistice. Equally important 
is my commitment to improving the quality of life of our servicemen and 
women. All the above will enable our support of reconciliation.
                            forward presence
    Question. Do you believe that our current forward presence on the 
Korean Peninsula is appropriate? What, if any, changes would you 
recommend?
    Answer. For over 50 years U.S. forces have provided stability in a 
critical region to U.S. interests. Physical U.S. presence provides 
peace of mind to the democratic nations of the region and tangible 
deterrence against North Korea. These superbly trained forces provide 
the much-needed technological superiority, information dominance 
capabilities and warfighting prowess that complement the ROK military 
in ensuring the region's stability. It is this visible forward presence 
that means the difference between devastating war on the peninsula and 
the continued peace, growth and prosperity for the South Korean people 
and its many trading partners. If confirmed, I will look at various 
recommendations on how best to modernize and transform our forward 
presence U.S. forces to support DOD transformation initiatives, while 
maintaining interoperability and improved alliance capabilities with 
our ROK allies.
                   capabilities of u.s. forces korea
    Question. Based on your experience as both the III Corps Commander 
and the Army's Assistant Deputy Chief of Staff for Operations and 
Plans, you have first-hand knowledge of both the threat on the Korean 
Peninsula and readiness conditions of our forces in Korea. Based on 
this experience, what do you consider to be the most critical 
shortfalls in the capabilities of our forces stationed in Korea?
    Answer. I will thoroughly review our peninsula-wide requirements 
and capabilities. That assessment is key to understanding any existing 
critical shortfalls. I would ask that the committee allow me to discuss 
this with you in a continuing dialogue.
                      jointness and transformation
    Question. What steps do you believe can and should be taken by the 
regional and sub-regional combatant commanders to enhance jointness and 
transformation? Are there opportunities in this area that are unique to 
U.S. Forces Korea?
    Answer. If confirmed as a combatant commander, it is imperative 
that I work to enhance jointness and accelerate transformation at every 
opportunity. My Korean deployments have taught me that jointness must 
be our culture to provide the most valuable training opportunities. 
Korea is unique in that we have ongoing laboratories for joint and 
combined operations as we execute our mission. We need to train as we 
would fight. As the CINC, my role would be to promote the cross-flow of 
lessons learned that would make us better joint and combined 
warfighters. That is a solid initial step in the realization of the 
Quadrennial Defense Review's objective of making our alliances 
stronger, and ever more capable. The Korean operational environment and 
training areas serve as superb classrooms for innovation, combined 
operations and future capabilities.
                         joint experimentation
    Question. U.S. Pacific Command (PACOM) has taken an active role in 
experimentation, especially with regard to U.S. Navy fleet battle 
experiments.
    In your view, what is the role of the combatant and subordinate 
commands with regard to joint experimentation?
    Answer. An effective joint experimentation program requires the 
active participation and support of the combatant commanders working 
with the services to identify key requirements and efficiencies that 
can be obtained by new capabilities, organizations and doctrine. I am 
enthusiastic about the PACOM initiatives and experimentation efforts. 
USFK and CFC will actively support both individual service and JFCOM-
led joint experimentation. We have some unique opportunities in Korea 
to be able to support such experimentation, including: 1) large numbers 
of forces deployed to their fighting AOR, 2) routine joint/combined 
operations, 3) an active, vibrant operations plan (OPLAN) that 
warfighters understand and train to daily, 4) a combined allied partner 
committed to the goals and progress of our defensive preparedness, and 
5) robust large scale exercises. These Korean-specific characteristics 
provide superb joint experimentation opportunities.
    Question. What type of relationship should exist between U.S. 
Forces Korea, PACOM, and Joint Forces Command with regard to joint 
experimentation?
    Answer. In Korea, the CINC wears multiple hats that offer a unique 
perspective. As USFK, we should work directly with PACOM as a 
subordinate command and identify/support joint experimentation that has 
a regional focus and impact. As CFC, we need to recognize our role as a 
command ready to execute the OPLAN and ``fight tonight'' on the Korean 
Peninsula. This offers the opportunity to directly sponsor and develop 
warfighting concepts. I envision an active relationship with JFCOM and 
PACOM as we work to increase our capabilities.
                         1994 agreed framework
    Question. What is your assessment of the 1994 Agreed Framework and 
the role that it plays in promoting stability on the Korean Peninsula?
    Answer. The 1994 Agreed Framework has proven successful in freezing 
North Korea's nuclear program. In the absence of the Agreed Framework, 
North Korea could have produced weapons-grade plutonium for dozens of 
nuclear weapons. This would have been destabilizing to both the 
peninsula and the entire Northeast Asian region. Consequently, the 
Agreed Framework has contributed to the stability of the Korean 
Peninsula in a substantial way.
    Question. To what extent is North Korea complying with the Agreed 
Framework and with other agreements it has entered into to reduce the 
WMD threat on the peninsula, such as the 1991 Joint Declaration on 
Denuclearization of the Korean Peninsula?
    Answer. President Bush's policy of focusing on North Korean 
compliance with its responsibilities under the Nuclear Non-
Proliferation Treaty is the right approach to stemming this threat. 
North Korea has yet to comply with the safeguards inspections of the 
International Atomic Energy Agency. Compliance with these inspections 
is necessary to verify North Korea's intent with regards to its nuclear 
program and fulfill its responsibilities under the Safeguards Agreement 
that North Korea signed with the International Atomic Energy Agency in 
1992. To date North Korea has shown no positive intent in complying 
with the Joint Declaration on Denuclearization of the Korean Peninsula 
agreed to jointly by North and South Korea in 1991.
                       ballistic missile program
    Question. What is your assessment of the threat to U.S. forces and 
allies posed by North Korean ballistic missile developments and missile 
exports?
    Answer. North Korean ballistic missile development remains a 
significant threat to U.S. forces and their allies on the peninsula. 
Their ballistic missile inventory includes over 500 SCUDS of various 
types that can threaten the entire peninsula and they continue to 
produce and deploy No Dong missiles capable of striking Japan and our 
U.S. bases there. Pyongyang is also developing multi-stage missiles 
capable of striking the continental United States. Over the past 2 
years, North Korea has upheld its self-imposed moratorium on flight 
testing long-range missiles, but has not halted research and 
development. Their continued proliferation of missiles throughout the 
Middle East provides North Korea powerful diplomatic and political 
leverage, while providing the regime hard cash with little regard for 
technology transfers or the instability that this proliferation could 
cause.
                    demilitarizing of old munitions
    Question. What is the long-term plan for demilitarizing outdated 
munitions of the Korean Peninsula?
    Answer. Currently, the only means of demilitarizing munitions on 
the peninsula is open detonation. This capability is extremely limited 
(approximately 1,000 short tons per year) and does not keep pace with 
demilitarization requirements. The comprehensive long-term plan for 
demilitarizing munitions calls for partial retrograde of unserviceable/
obsolete munitions to the U.S. for demilitarization by the U.S. Army. 
In addition, we are in negotiations with the Republic of Korea Ministry 
of National Defense to establish an enhanced demilitarization 
capability on the peninsula beyond our current open-detonation 
capability.
    Question. Are there adequate funds to support disposal of old 
munitions so that sufficient space is available for more modern 
ammunition? If not, how will you address this problem?
    Answer. As I understand it, within the past several years 
sufficient funds to support disposal and retrograde have not been 
available. I understand the command is currently working with the 
services to identify these funding requirements.
                       status of forces agreement
    Question. What is your assessment of the current Status of Forces 
Agreement with South Korea? What, if any, changes to the agreement 
would you recommend?
    Answer. The current Status of Forces Agreement was updated in 2001. 
My current assessment is that the SOFA is working well for both 
alliance partners and is perceived as balanced and fair. This is an 
issue that I will continually assess if confirmed to ensure it remains 
fair and equitable for both the U.S. and ROK.
                             land transfers
    Question. What is your assessment of the Land Partnership Plan to 
consolidate U.S. facilities, and improve living conditions for U.S. 
forces in Korea and their dependents? If confirmed as Commander in 
Chief, United Nations Command/Combined Forces Command/Commander, United 
States Forces Korea how would you further these objectives?
    Answer. I believe the Land Partnership Plan (LPP) is the right 
investment, at the right time for Korea. LPP improves combined 
readiness, increases force protection, enhances public safety, and 
improves quality of life for U.S. forces in Korea. LPP will reconfigure 
and protect training areas while consolidating our forces around 
enduring training installations. It will also allow us to make sound 
investments, enhance force structure, gain efficiencies and return 
valuable land to the second most densely populated country in the 
world. It meets the requirements specified in the Overseas Basing 
Requirements Study and gives us a comprehensive approach to positioning 
USFK forces to meet security requirements well into the future. It 
makes our alliance stronger because it is ``win-win'' situation for 
both the Republic of Korea and the United States.
    Question. Will you, if confirmed as Commander of United States 
Forces Korea, pursue a comprehensive strategy to protect and improve 
air training on the peninsula? How would you go about such an effort?
    Answer. I am dedicated to ensuring that USFK/CFC/UNC forces receive 
the best possible training to ensure that readiness and our ability to 
deter is at the highest possible level. Our success with the Land 
Partnership Plan will serve as a model for improving training 
management and training areas throughout the peninsula. The methodology 
used with LPP was based on maximizing joint use of ranges, ensuring 
that U.S. problems were identified at the appropriate level with ROK 
counterparts and that a process was established which enhanced 
training. This is the recipe for success to protect and improve air 
training on the peninsula. If confirmed, training and readiness will be 
my highest priority.
                             family housing
    Question. General Schwartz, the current Commander, United States 
Forces Korea, proposed to increase the number of personnel in Korea on 
accompanied tours from 10 percent today to 25 percent by 2010 and to 50 
percent by 2020.
    What are your views on the advisability and affordability of this 
proposal, and how would you rank increased housing in Korea against 
other priorities in the theater?
    Answer. As many of the committee members have seen first-hand, the 
housing situation in Korea must be addressed. The near-term focus on 
improving housing for the currently authorized 10 percent accompanied 
tours fixes a long-standing problem. The decision point for increasing 
the number of accompanied personnel to 25 percent occurs around the 
2006 timeframe. Affordability remains dependent on stable military 
construction funding lines as programmed in the Future Years Defense 
Plan. I will continually assess the viability of this plan.
    Question. Have the services and United States Forces Korea 
estimated the additional requirements this would create not only for 
family housing, but also for increased medical and child care 
facilities and services and for force protection, and what would be the 
additional cost of those requirements?
    Answer. It is my understanding that the command consulted the 
stakeholders to comprehensively review key issues associated with this 
action. This group included senior people from within the community, 
from the Department of Defense Dependent Schools, the Army and Air 
Force Exchange Service, the Defense Commissary Agency, the Medical 
Command and the component base agencies responsible for family support 
services. The financial plan leverages the Korean private sector, while 
maximizing the use of Host Nation Funded Construction.
    Question. To your knowledge, has the Republic of Korea agreed to 
finance any of this increased cost under the Land Partnership Plan 
(LPP), or would such a proposal constitute a separate initiative funded 
solely by the United States?
    Answer. The Land Partnership Plan and Long Range Housing Plans are 
two separate initiatives. Consolidation of facilities under the Land 
Partnership Plan enables us to consolidate our housing investments. 
Under the Land Partnership Plan, the Republic of Korea will pay for 45 
percent of the cost of new land and facilities. Another 41 percent will 
be funded from the Host Nation Construction Program, and 14 percent 
will be funded from already programmed military construction projects 
that will be redirected from a closing installation to an enduring 
installation.
    Question. To what extent do you believe the cost of additional 
housing and support facilities would be funded within current levels or 
as part of the LPP, and to what extent will additional U.S. funding be 
required?
    Answer. My goal will be to accomplish the increased housing and 
support facilities without new military construction funding other than 
what is programmed in the Future Year Defense Plan.
          special pays and allowances for u.s. forces in korea
    Question. The current Commander, United States Forces Korea, 
General Schwartz, has expressed his view that the pay and allowances 
for troops assigned to units in South Korea are insufficient. He has 
noted, for example, that troops assigned to units in Japan receive more 
money than their peers in Korea and expressed his opinion that soldiers 
in his AOR should receive higher pay and allowances in recognition of 
the hardships they encounter.
    What are your views regarding the adequacy of pay and allowances 
for soldiers stationed in Korea?
    Answer. Serving a tour in Korea imposes additional individual costs 
for our unaccompanied personnel. Married servicemembers accepting a 
Korean assignment are faced with the decision of either establishing a 
second household and paying out of pocket expenses or bringing their 
family unaccompanied to Korea and enduring even more unreimbursed 
expenses. The great men and women who work in Korea are motivated by 
more than money, but we have to recognize the linkage between fair pay 
and morale. Service members desire nothing more than a level playing 
field for pay and benefits. Besides the hidden costs of a second 
household, an Army Sgt serving in Korea knows his counterparts in other 
hardship theaters earn approximately $500 more per month. 
Servicemembers believe that duty in Korea imposes a financial hardship.
              declination of assignments to duty in korea
    Question. In his testimony before the committee in March of this 
year, General Schwartz stated that the ``no show'' rate for soldiers 
assigned to Korea was unacceptable high, including those who could 
command units in Korea.
    What aspects of duty in Korea, in your opinion, account for 
decisions by Army officers to decline command of units in Korea?
    Answer. It has been my experience that officers decline command 
duty in Korea for two reasons. First, they do not want to be separated 
from their families for 2 years to command. Rather than be separated 
for this time period, they decline to take the command assignment. 
Second, many times these same people have had previous tours in Korea, 
and they remember the poor living conditions that existed from their 
prior tours. Unfortunately, in some cases, these conditions still 
exist. Consequently, they decline to come to Korea to command rather 
than face living in sub-standard conditions.
    Question. What actions do you plan to take, if confirmed, to 
address this problem?
    Answer. First, I plan to make it clear to the soldiers, sailors, 
airmen and marines serving in Korea that I am dedicated to providing 
their families the best possible housing, infrastructure and support 
facilities. Next, we will emphasize that Korea is an important theater 
with a real world mission and service that is a challenging and 
rewarding experience. I will follow in General Schwartz's footsteps in 
mentoring our future leadership on the advantages of a Korean 
assignment.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander in Chief, United 
Nations Command/Combined Forces Command/Commander, United States Forces 
Korea?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Strom Thurmond
                      army transformation in korea
    1. Senator Thurmond. General LaPorte, although Congress supports 
the Army's transformation effort to lighten its forces and enhance 
deployability, there is concern that it will reduce the Army's ability 
to respond to the massive formations facing our forces in Korea. What 
do you see as the positive aspect of the Army's transformation 
regarding your responsibilities in South Korea?
    General LaPorte. The Army's capability to deter and defeat any 
North Korean attack on the Korean Peninsula is imperative to the 
overall success of the United Nations (UNC)/Combined Forces Command 
(CFC) operations plan (OPLAN). Our mix of forces, which include light, 
heavy, and special operations forces (SOF) will ensure success in any 
campaign in the Korean Theater of Operations (KTO).
    The Army's transformation plan will improve core warfighting 
capabilities from the individual soldier level through heavy armor 
fighting systems. In the long-term, we will experience an exponential 
increase in ease of deployment by transforming all Army combat forces 
into air-transportable objective formations. In the near-term, the Army 
will transform some light units apportioned to OPLAN 5027 into Interim 
Brigade Combat Teams (IBCTs). The IBCT will enhance strategic options 
by reducing overall deployment times and providing an increased C\4\I 
capability. The IBCT is ideal for deployment and combat operations in 
the KTO.
    The Army's ultimate goal for transformation is the Objective Force. 
The Objective Force will be a more lethal force capable of surviving in 
all spectrums of conflict. The Army will build an Objective Force with 
suites of new integrated combat systems that achieve the capabilities 
outlined in the Army vision. Meanwhile, the Interim Force, designed to 
be the bridge between the Legacy and Objective Force, is being 
developed and fielded to provide enhanced strategic options. 
Simultaneously, the Legacy Force will continue to guarantee near-term 
warfighting readiness with enhanced combat aviation systems and 
inserted digital technologies, thereby ensuring our current 
capabilities until final transformation into the Objective Force 
beginning in fiscal year 2008.

                       threat conditions in korea
    2. Senator Thurmond. General LaPorte, the United States has 
maintained forces in South Korea for more than 50 years due to the 
hostility of the North Korean Government and the threat posed by the 
North Korean forces. Although the intelligence agencies continue to 
warn of the North Korean threat, there has been a steady increase in 
the number of command-sponsored tours in Korea. In fact, General 
Schwartz is requesting an increase in the number of families in Korea. 
What are your views on the threat facing our forces in Korea and how do 
you rationalize your views of the threat with the increase in the 
number of family members in Korea?
    General LaPorte. North Korea continues to pose a dangerous threat 
to the stability and security on the Korean Peninsula. North Korea 
maintains a large, capable, and forward deployed conventional military 
force, as well as substantial ballistic missile capabilities, special 
operations forces, and weapons of mass destruction. The North Korean 
threat is formidable and real; however, I am confident that we can 
successfully implement our Noncombatant Evacuation Operations (NEO) 
plans, which are designed to get our families off the Korean Peninsula 
in the event hostilities become imminent. We exercise the NEO plan 
frequently with our colleagues from the American Embassy--Seoul. A full 
scale NEO would represent a serious challenge, but we would be 
successful in evacuating our family members out of Korea. A North 
Korean attack on the ROK would result in the end of the regime due to 
the strength of the U.S.-ROK alliance. Our strong presence in the ROK 
has maintained stability for 50 years and will continue to do so.
    A major factor driving my request for an increase in accompanied 
tours is the effect that a nearly 95 percent annual turnover has on 
this command. It is a documented fact that 1-year tours significantly 
hurt our warfighting capability, effectiveness, and cohesion. A 1-year 
tour in Korea does not allow a soldier, sailor, airman, or marine to 
gain the necessary appreciation of the terrain, the doctrine, or the 
threat. Personnel rarely have the overlap necessary to ensure a 
seamless transition and this negatively impacts our warfighting 
capability. I am convinced that an increase in accompanied housing will 
significantly lessen the personnel turbulence, which will improve our 
long-term readiness.
    The quality of life of the soldiers, airmen, sailors, and marines 
and their family members who serve in Korea is very important to me. A 
Korea assignment today involves some of the poorest living and working 
conditions of any permanent change of station assignment in the 
military. Substandard facilities, living, and working conditions in 
Korea take their toll on the force as a whole.

                       role of the united nations
    3. Senator Thurmond. General LaPorte, although least known but 
critical will be your role as Commander in Chief, United Nations 
Command. In your opinion, what will be your most important 
responsibility as Commander in Chief, United Nations Command?
    General LaPorte. My most important role as CINCUNC is to maintain 
this multinational coalition that has maintained peace and stability in 
Northeast Asia since 1953. My staff and I do that through daily contact 
with the liaison officers from the other 14 member nations and through 
our daily Armistice maintenance functions. It is the UNC, not the U.S. 
or the ROK, that is responsible for the Korean Armistice Agreement 
because a previous CINCUNC, General Mark Clark, was the sole Armistice 
signatory on our side. As CINCUNC, I am responsible for everything that 
happens in the southern half of the demilitarized zone; a 
responsibility that cannot be abandoned until the two Koreas reach a 
political settlement and replace the Armistice.
    North Korea has clearly identified the elimination of the UNC is an 
important step on the road to their final goal of unification under 
their system. At the initial Armistice meeting on July 10, 1951, they 
demanded the removal of all foreign troops from Korea. In 1975, they 
were able to get passage of a UN General Assembly resolution that 
called for the disbanding of the UNC. In the mid-1990s, they attempted 
to get bilateral meetings (KPA-U.S.) and trilateral (KPA-ROK-U.S.) 
meetings at Panmunjom after their withdrawal from the Military 
Armistice Commission. In 2000-2001, they established relations with 11 
UNC member nations bringing the total to 19 of the original 21 and 
begged each of those nations to withdraw from the UNC. In September 
2001, they attempted delivery of a letter to all of the UNC member 
nations' embassies in Beijing. This letter declared the UNC to be an 
illegal organization and that all of those countries must withdraw 
their flag from Panmunjom.
    If the UNC coalition is disbanded, the Armistice agreement will be 
voided, a potentially dangerous and chaotic situation, and we will lose 
the eight UNC bases in Japan that play a vital role to the defense of 
the ROK, should deterrence fail. The UNC remains vital to stability and 
peace in Northeast Asia and we must make all steps to preserve this 
important coalition.
                                 ______
                                 
    [The nomination reference of Lt. Gen. Leon J. LaPorte, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 11, 2002.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under Title 10, United States Code, Section 601:

                             To be General

    Lt. Gen. Leon J. LaPorte, 0000.
                                 ______
                                 
    [The biographical sketch of Lt. Gen. Leon J. LaPorte, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
      
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Lt. Gen. Leon 
J. LaPorte, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Leon J. LaPorte.

    2. Position to which nominated:
    Commander in Chief, United Nations Command/Combined Force Command/
Commander, United States Forces Korea.

    3. Date of nomination:
    April 11, 2002.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 5, 1946; Providence, RI.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Judy Ann Conca.

    7. Names and ages of children:
    Ryan J. LaPorte, 30 years.
    Robbie S. LaPorte, 28 years.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the U.S. Army (AUSA).
    Armor Association.
    1st Cavalry Division Association.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Leon J. LaPorte.
    This 26th day of March, 2002.

    [The nomination of Lt. Gen. Leon J. LaPorte, USA, was 
reported to the Senate by Chairman Levin on April 29, 2002, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on April 29, 2002.]







 NOMINATION OF GEN. RALPH E. EBERHART, USAF, FOR REAPPOINTMENT TO THE 
GRADE OF GENERAL AND TO BE COMBATANT COMMANDER, UNITED STATES NORTHERN 
      COMMAND/COMMANDER, NORTH AMERICAN AEROSPACE DEFENSE COMMAND

                              ----------                              


                        THURSDAY, JUNE 20, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:41 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Akaka, Bill 
Nelson, E. Benjamin Nelson, Warner, Inhofe, Allard, and 
Bunning.
    Also present: Senator Burns.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Richard D. DeBobes, 
counsel; Evelyn N. Farkas, professional staff member; Maren 
Leed, professional staff member; and Michael McCord, 
professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Charles W. Alsup, professional staff 
member; Edward H. Edens IV, professional staff member; William 
C. Greenwalt, professional staff member; George W. Lauffer, 
professional staff member; Thomas L. MacKenzie, professional 
staff member; and Richard F. Walsh, minority counsel.
    Staff assistants present: Leah C. Brewer, Daniel K. 
Goldsmith, and Thomas C. Moore.
    Committee members' assistants present: Andrew 
Vanlandingham, assistant to Senator Cleland; Davelyn Noelani 
Kalipi and Richard Kessler, assistants to Senator Akaka; 
William K. Sutey, assistant to Senator Bill Nelson; Eric 
Pierce, assistant to Senator Ben Nelson; Benjamin L. Cassidy, 
assistant to Senator Warner; John A. Bonsell, assistant to 
Senator Inhofe; George M. Bernier III, assistant to Senator 
Santorum; Robert Alan McCurry, assistant to Senator Roberts; 
Douglas Flanders, assistant to Senator Allard; and James P. 
Dohoney, Jr. and Michele A. Traficante, assistants to Senator 
Hutchinson.

          OPENING STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka. This hearing will come to order. The 
committee meets this morning to consider the nomination of Gen. 
Ralph Eberhart for the position of Commander in Chief, United 
States Northern Command. I want to welcome you, General, and 
your lovely bride to the hearing. Congratulations on your 
nomination. On behalf of this committee I want to recognize 
you, and are there any other members of the family here?
    General Eberhart. No, sir, none are with us today.
    Senator Akaka. The members of this committee know the 
strains that public service can put on family life. General 
Eberhart would be unable to serve in the positions he has held 
without the support of his family. We thank you very much for 
the hardships that you put up with through his service.
    At this time, General Eberhart, I would like to ask you to 
introduce to the committee your lovely bride.
    General Eberhart. Thank you, Senator. It is my pleasure to 
introduce my best friend, my bride of nearly 34 years, who has 
been on this remarkable journey with me as we have had the 
opportunity to serve this great Nation, Karen Eberhart. Karen 
was born in Pennsylvania, and although many years behind me, we 
went to high school together in St. Louis, Missouri, so thank 
you, Karen. [Applause.]
    Senator Akaka. If confirmed, General, you will be assuming 
command of the United States Northern Command, a new command 
charged with defending the United States and its territories, 
and with providing assistance to the U.S. authorities in the 
event of natural disasters or attacks using weapons of mass 
destruction. The command will have responsibility for the 
continental U.S., Canada, Mexico, and adjoining waters to 
approximately 500 nautical miles, including Puerto Rico, the 
U.S. Virgin Islands, Cuba, and the Bahamas.
    The mission statement of the Northern Command underscores 
the critical mission of this new command. The United States 
Northern Command will conduct operations to deter, prevent, 
preempt, and defeat threats and aggression aimed at the United 
States and its territories within the assigned area of 
responsibility. It will provide military assistance to civil 
authorities, including consequence management operations.
    As Congress takes up legislation to establish the 
Department of Homeland Security, the committee is concerned 
about how the Department of Defense and the Northern Command 
will interact with this new department. Frankly, the committee 
is concerned that the department has still not designated a 
single office within DOD to coordinate homeland defense, and to 
combat terrorism.
    In October 2000, we directed the Secretary to do just that 
in the fiscal year 2001 National Defense Authorization Act. 
After September 11, Army Secretary White was designated interim 
coordinator of activities relating to combatting terrorism. His 
term has since lapsed, and there is no individual in the 
Defense Department fulfilling this important function right 
now. We urge the Department to remedy this situation as soon as 
possible.
    Our nominee this morning is well-qualified for the position 
he will assume. General Eberhart is currently Combatant 
Commander, North American Aerospace Command (NORAD), a position 
he would retain as Combatant Commander of the Northern Command, 
and he is also Combatant Commander, United States Space 
Command. He also serves as the Department of Defense Manager 
for Manned Space Flight Support Operations at Peterson Air 
Force Base, Colorado.
    General Eberhart has extensive command and staff 
experience, including serving as Commander of the Air Combat 
Command in Langley, Virginia, and as the Vice Chief of Staff of 
the Air Force.
    I would like to recognize at this time the ranking member, 
Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Mr. Chairman, I am 
going to ask that I say a few words following those of my 
colleague, the Senator from Oklahoma, who has to depart for a 
meeting.
    Senator Inhofe. Thank you, Senator Warner. Mr. Chairman, I 
appreciate it. I will be very brief.
    I have to do something downtown so I will not be able to 
stay here, although we did have a chance to talk extensively in 
my office. I can think of no one in the military I hold in 
higher regard than General Eberhart. When I think of you 
introducing your wife, when I think of my wife and my four kids 
and my 11 grandkids--that does not quite compete with Jim 
Bunning--but I cannot think of one person I would rather have 
in this command than you, because you are going to be directly 
responsible for the security of us here at home, and I think it 
is a huge responsibility.
    There is only one thing that I would ask if I could stay. I 
am sure you will find some way to cover this. I hope you will. 
It is the concern that I expressed to you about our Guard and 
Reserve. We have 84,000 right now. We are overworking. Our 
tempo of operations is too high. We are losing some of the 
critical MOSs, and it is something that I think needs to be 
addressed, and maybe we can talk about that.
    But I congratulate you, and I would like to think also of 
you and Karen as being Okies. You spent a long time there at 
Vance and Enid, and also in Mayes County, and so we will claim 
you, and we look forward to serving with you in this new 
capacity. In your previous capacities I have been by to see you 
at every one. I remember going down to Langley and talking over 
the future of some of our systems, and so I look forward to 
continuing that close relationship, and to congratulating you 
at the proper time.
    Thank you, Mr. Chairman, and thank you, Senator Warner.
    Senator Warner. Mr. Chairman, I wonder if we might inquire 
of our colleagues here whether they wish to have a word or two.
    Senator Akaka. Do you have any statement to make?
    Senator Ben Nelson. No, I do not have an opening statement, 
thank you.
    Senator Akaka. Senator Allard.
    Senator Allard. Mr. Chairman, if you will indulge me just a 
moment, I do have an opening statement, and I would join in the 
comments that Senator Inhofe made. He wants to claim you for 
Oklahoma. I am going to claim you for Colorado. He went to the 
Air Force Academy there and has had an impeccable career, so I 
just wanted to personally welcome General Eberhart to this 
committee and thank him for coming here and testifying before 
us. I want to congratulate you, General Eberhart, on your 
nomination to serve as Combatant Commander of the Northern 
Command and Commander of NORAD. I think your qualifications for 
this important position are impeccable, and I have absolutely 
no doubt that you are the right person for this job.
    Before you depart U.S. Space Command for your new job, I 
want to thank you for your steadfast advocacy of military space 
capabilities over the past 2 years. That has been an important 
program as far as I am concerned. Your visionary leadership and 
dedication as the Combatant Commander of U.S. Space Command and 
until recently, the Air Force Space Command has truly brought 
military space into a new era.
    When you took command of the U.S. Space Command in February 
of 2000, our country had just completed Operation Allied Force 
in Kosovo. At that time, we recognized the value that space-
based capabilities bring to the fight. GPS-guided weapons were 
the perfect munitions and satellite communications provided 
double the bandwidth available from Operation Desert Storm.
    Since Operation Allied Force, you were able to increase the 
effectiveness of these very same capabilities by pressing for 
the integration of space capabilities with air, maritime, and 
land assets. U.S. Space Command's contributions are the 
hallmark of Operation Enduring Freedom. When military 
historians look back on Operation Enduring Freedom, they will 
note the extreme effectiveness of bombs delivered with pinpoint 
accuracy within minutes of being requested by soldiers on the 
ground. They will note persistent surveillance and near real-
time threat information beamed to cockpits. These capabilities 
would not be possible were it not for the U.S. Space Command. 
Space-based capabilities are an enabler of not just the Air 
Force's transformation but also the Navy, and the Army.
    Your leadership of NORAD during Operation Noble Eagle is 
equally impressive. After September 11 you went from having 14 
aircraft on alert to more than 100. You faced the challenges of 
supporting continuous combat air patrols, including all the 
supporting logistics such as tankers and integrating NATO 
Airborne Warning and Control Systems (AWACS).
    The change in focus of NORAD since September 11 is not, 
unfortunately, temporary, and points to our Nation's need for 
unified command to address threats to the United States as well 
as operations in North America. Your new position as Commander 
of Northern Command is crucial to our national security. I am 
very happy, personally, that we will get to keep you in 
Colorado, and sincerely look forward to continuing working with 
you. It is a pleasure to work with someone of your high 
caliber, whom I also consider a friend.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you.
    Senator Bunning.
    Senator Bunning. Mr. Chairman, I have a very short opening 
statement.
    Good morning, General Eberhart. Thank you for your service 
and your testimony before this committee here today. The 
tragedy of September 11 is unlike any the Nation has ever 
faced. Never before have our citizens suffered such 
catastrophic events. I believe this hearing to consider your 
appointment to Combatant Commander, U.S. Northern Command, is 
absolutely critical to the security and the defense of our 
Nation, and I am very happy that you have been nominated.
    Senator Akaka. Thank you very much.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Mr. Chairman, I ask unanimous consent that 
my full statement be placed in the record. I will just 
reminisce for a minute with this very fine man, accompanied 
today by his lovely wife.
    As I look back over this biography, I think it is every 
young person's dream to have a career such as yours, a career 
in which your lovely wife is an equal partner. How many times 
have you had to pack up and move to these assignments over that 
period of time, and with over 4,000 hours in the cockpit--that 
is extraordinary. Now, welcome to the world of politics, 
General, because in this post, which is at the moment just 
conceptual, you are going to have to interface with the 
governors of the 50 states, the Guard units, all types of 
people. You will be interfacing with the hoped-for newly-
created Cabinet position for homeland defense, and you are 
going to write your own ticket, as you say in the air service, 
as you go along.
    There will not be a navigational chart that will take you 
directly to your goal. You have to sit down and devise it, 
together with your staff. You are going to fly by the seat of 
your pants for a while, but I do not know of anybody better 
qualified than you to do that.
    So we will see you back here before this committee, and at 
your next hearing when you report to us as part of our 
oversight functions I would be interested to what extent my 
comments may have come true.
    I have another personal recollection. I, together with 
another Senator, went out to Walter Reed here 4 or 5 weeks ago 
to visit some of the youngsters who were wounded in the Battle 
of Anaconda, and we sat around, shooting the breeze after I 
expressed appreciation on behalf of the United States for their 
service. Several were helopilots. Ironically, one of the pilots 
flew Senator Levin and myself when we made our visit to that 
region at Thanksgiving time. They looked at this old Senator 
and asked, ``how have things changed? You have seen this 
evolution of our Nation and been involved with the men and 
women of the Armed Forces for a half-century.''
    I said, well, first and foremost I go back to World War II. 
I said, I remember vividly the battles in those days. Take the 
Battle of the Bulge. Some 41,000 Americans killed, wounded, and 
missing. In the Afghanistan operation, while we had serious 
problems, over 100 or so were wounded. I said, but all those 
casualties were on the battlefields, whether it was in the 
Pacific or Europe, the same in Korea, and followed by Vietnam. 
The casualties were there, very severe casualties.
    Today the battlefield has been brought to America. No 
longer do these oceans give us protection. No longer do our 
friendly nations to the north and the south give us protection. 
All of this you understand quite well, but you have to 
constantly impress this upon the citizens of this country as we 
undergo the burdens of further security, and the costs 
associated with protecting ourselves here at home. 
Unfortunately, the battlefield we have known throughout our 
history is now here at home, and you are an integral part of 
first deterring, and then responding, if that would be 
necessary, to anyone who tries to bring harm to our citizens, 
our cities, our towns, or our villages here in the United 
States.
    So you are embarking, sir, on an extraordinary flight. Good 
luck.
    Thank you.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Mr. Chairman and thank you for your leadership in 
arranging to conduct this most important hearing in a timely manner.
    I strongly support the President and Secretary Rumsfeld in the 
establishment of this new unified command to oversee the coordinated 
land, sea, and air defense of our Nation, and to be the focus of 
Department of Defense support to local first responders and civil 
authorities. I think it is very important that this command be 
operational as soon as possible, and getting General Eberhart confirmed 
as the first Commander of U.S. Northern Command, or USNORTHCOM as it 
will be called, is an important first step in that direction. The 
American people and the men and women in uniform need to know that we 
are doing everything possible to help win this war on terrorism and to 
protect our Nation and our citizens from current and future threats.
    I join Senator Levin in welcoming General Eberhart back before the 
committee. I also extend my personal welcome to his wife, Karen, who is 
with us today, and thank her for her contributions and sacrifices on 
behalf of our servicemen and women. I also understand the Eberharts 
have a daughter, Erika, working for the Air Force and another daughter, 
Jessica, married to an Air Force lieutenant, so we have an entire 
family in service to our Nation--thank you.
    The Senate confirmed General Eberhart to be Commander, U.S. Space 
Command (USSPACECOM), 2\1/2\ years ago. Little did we know at that time 
that his concurrent responsibility as Commander, North American Air 
Defense Command (NORAD), would take on such a central role. Who would 
have predicted a year ago that General Eberhart's forces would be 
actively patrolling the skies over the United States with orders--under 
certain extreme circumstances--to shoot down civilian airliners?
    We all recognize that the world changed on September 11--when evil 
forces attacked our Nation in such an indiscriminate manner.
    Homeland security is now, without a doubt, the highest priority of 
our Nation. As a candidate and as President, George W. Bush promised 
our Nation that homeland security was his most urgent priority. The 
events of September 11 and continuing concerns about credible threats 
against the United States emphasize the need to put the right 
structures in place, as quickly as possible, to ensure that the 
Department and our Armed Forces are properly focused on this vital 
mission, and trained and ready to respond.
    I fully support the decision made by the President with regard to 
the establishment of USNORTHCOM. I also note that corresponding changes 
are being considered in the Department of Defense civilian 
organizational structure to provide proper oversight and control in 
this most important area. I look forward to continuing discussions and 
consultation about recommendations and decisions on these critical 
subjects, and assisting in providing the resources and authorities 
necessary to ensure we have the right organization with the required 
resources.
    Much has been done since September 11 to improve the security of 
our homeland, but much remains to be done. There is consensus in 
Congress, in the administration, and among the American people that 
significantly increased investment in defense and national security is 
necessary and prudent. September 11 was a sobering lesson, of which we 
must be forever mindful. We all know the war against terrorism and the 
defense of our homeland are urgent, long-term endeavors.
    We had great confidence in confirming you as Commander, SPACECOM. 
You have performed your duties in an outstanding fashion. I want to 
associate myself with Chairman Levin's remarks that acknowledged your 
remarkable career in service to our Nation. We are indeed fortunate to 
have someone of your talents and experience to take on this new, 
daunting task in this critical struggle to protect our homeland.
    I am confident we have found the right leader, at the right time to 
``stand up'' this new homeland defense command. We wish you Godspeed in 
this most urgent and important endeavor
    Thank you.

    Senator Akaka. Thank you, Senator Warner. At this time, I 
would like to insert in the record the statement of Senator 
Thurmond, who is not able to be here today.
    [The prepared statement of Senator Thurmond follows:]
              Prepared Statement by Senator Strom Thurmond
    Mr. Chairman, I join you and the members of the Armed Services 
Committee in welcoming and congratulating General Eberhart on his 
nomination to be the Commander in Chief of the soon-to-be-formed 
Northern Command. Only 2\1/2\ years ago, General Eberhart appeared 
before the committee on his nomination to be Commander in Chief, North 
American Aerospace Command and United States Space Command. At that 
time, none of us could have imagined the tragedy that would strike this 
Nation on September 11, but we did expect General Eberhart to be 
nominated for positions of greater responsibility.
    General Eberhart, I have the highest regard for your abilities to 
meet the challenges of standing up the United States Northern Command, 
and protecting the United States against external threats. My trust in 
you is based on the reports I received from your many friends in 
Sumter, South Carolina, where you served as the Commander of the 363rd 
Tactical Fighter Wing at Shaw Air Force Base. I respect their faith in 
you and have no doubt that you will live up to their expectations. I 
intend to support your nomination and wish you and your family the 
best.
    Thank you, Mr. Chairman.

    Senator Akaka. General Eberhart has responded to the 
committee's prehearing policy questions and our standard 
questionnaire, and without objection these responses will be 
made a part of the record.
    The committee also has received the required paperwork on 
General Eberhart and will be reviewing that paperwork to make 
sure that it is in accordance with the committee's 
requirements. Before we begin, there are several standard 
questions that we ask all nominees who come before the 
committee.
    General, do you agree, if confirmed for this high position, 
to appear before this committee and other appropriate 
committees of Congress and to give your personal views, even if 
those views differ from the administration in power?
    General Eberhart. Yes, sir, I do.
    Senator Akaka. Have you adhered to applicable laws and 
regulations governing conflict of interest?
    General Eberhart. Yes, sir, I have.
    Senator Akaka. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Eberhart. No, sir, I have not.
    Senator Akaka. Will you ensure that your command complies 
with deadlines established for requested communications 
including prepared testimony and questions for the record in 
hearings?
    General Eberhart. Yes, sir, I will.
    Senator Akaka. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Eberhart. Yes, sir, I will.
    Senator Akaka. Will those witnesses be protected from 
reprisal for their testimony?
    General Eberhart. Yes, sir, they will.
    Senator Akaka. General Eberhart, thank you very much for 
your responses. As you can tell, this committee has a high 
regard for you and your family. We send our best wishes to you 
and your family and all you will be doing for your country. We 
know you have a job that is very serious and very difficult, 
and it is a new kind of job, because in a way it is developing. 
It is placing a new infrastructure into our country to secure 
it, and in a way it is exciting, and in a way it is a serious 
and difficult position. I want to tell you that we certainly 
are happy that you are the one that is here today.
    General Eberhart, if there are no other remarks, may I ask 
you to begin with your statement to the committee.

    STATEMENT OF GEN. RALPH E. EBERHART, USAF, NOMINEE FOR 
   REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMBATANT 
  COMMANDER, UNITED STATES NORTHERN COMMAND/COMMANDER, NORTH 
               AMERICAN AEROSPACE DEFENSE COMMAND

    General Eberhart. Yes, sir. With your permission, I will 
summarize my opening remarks. First of all, it is an honor to 
appear before this committee once again. We have had several 
such opportunities over the last 7 years, and what is most 
striking, obviously, is your continued support during that time 
of those magnificent men and women who serve this great Nation 
from all of our services, Guard and Reserve, and our civilians.
    Senator Warner alluded to those wonderful people, to those 
people out there in the far corners of the world, doing what 
this Nation asked them to do, counts on them to do, and they do 
it very selflessly, through your help. You ensure that they are 
properly educated, trained, equipped, provisioned, and led. I 
would offer to you, and I know the members of this committee 
agree that there has never been a better fighting man or 
fighting woman than we see out there today involved in this 
global war on terrorism, in the Operation Noble Eagle at home, 
and Operation Enduring Freedom away. Whether it is a home game 
or away game, we will be victorious, there is no doubt in my 
mind.
    I thank you, given your busy schedule, for taking time to 
consider this nomination today. Many might ask, ``Why do we 
need a Northern Command?'' I think Senator Warner captured that 
very succinctly. Another way to put it is, this is a construct 
that has served us superbly around the world as we protect our 
interests and the interests of our friends and allies.
    We have a Pacific Command, we have a European Command, we 
have other commands out there with areas of responsibility. In 
many ways Northern Command will be just like those commands, 
protecting the interests of this Nation and our friends and 
allies in the area of responsibility, and doing, when charged, 
security assistance and military-to-military contacts in that 
area of responsibility. What makes it markedly different is 
that we live in this area of responsibility. This is, in fact, 
our homeland, so that is why the mission statement is slightly 
different and talks to assistance when charged to do so, 
assistance to civil authorities. That will, in my view, 
redefine jointness as this command moves forward, not only 
jointness as we have looked on it since the Goldwater-Nichols 
bill. I think we have made great strides, but now the 
relationship with the Coast Guard, the Guard, the Reserve, 
other Federal agencies, first responders at the local and state 
levels will, in fact, redefine jointness. Those are things that 
we must do, that we have to do to deal with these emerging 
threats.
    Time is short. We are on a tight time line as we move 
forward. The President has approved the Unified Command Plan, 
and he intends to stand up this new command on 1 October of 
this year with the confirmation of the nomination. We will then 
be able to make recommendations and take actions that will 
answer a lot of the questions that Senator Warner has alluded 
to. We hope to have Initial Operational Capability this 
October, with full operational capability the following 
October.
    As this command evolves and matures over time, one thing is 
key, as Senator Inhofe said--our militia. Our Guardsmen and our 
reservists will play a very important role in this new command. 
The cooperation, the training, the exercising, and the proper 
equipage of those organizations will be key to our success. 
Information-sharing will be key to our success. Information-
sharing across the Government to make sure that we have timely 
and, as often is referred to, actionable intelligence, will be 
very important.
    What I would like to do is close with a quote that I think 
is very appropriate from a great statesman who had deep and 
abiding respect for this Nation. He made this statement during 
World War II. I think it was very appropriate during World War 
II. We saw this statement in action during the Cold War: 
``America is like a gigantic boiler. Once the fuse is lighted 
under it, there is no limit to the power it can generate.''
    With your help, the fuse has been lighted, and we must keep 
it lit as we move forward and achieve victory on this global 
war on terrorism.
    Thank you very much, Mr. Chairman.
    Chairman Levin [presiding]. Thank you, General Eberhart. I 
am sorry I could not be here earlier, but I very much 
appreciate Senator Akaka taking over this chair so that he and 
Senator Warner and others could get this hearing underway.
    Governor Ridge is appearing before the Governmental Affairs 
Committee this morning, and that is where I was, since I am a 
member of that committee as well. I just want to add my welcome 
to you and your family. As I know Senator Akaka and Senator 
Warner would have pointed out, they are instrumental for you to 
be able to do what you do, and we are grateful for their 
support--the Nation is grateful, not just our committee.
    General, on the mission of the new command, there are a 
number of final decisions which still need to be made. 
According to your answers to the prehearing questions of the 
committee, we still need to make final decisions on some of the 
following issues:
    Whether USNORTHCOM is going to have component commands; the 
staff structure; whether it will be based on a traditional 
staff model, or a transformational concept, such as the 
standing Joint Force Headquarters.
    As to USNORTHCOM's forces, decisions have to be made as to 
whether specific forces will be assigned, or placed under your 
operational control; your role with respect to counterdrug 
support, to Federal, regional, state, and local law enforcement 
agencies; your relationship to the National Guard Bureau and to 
individual State National Guard Headquarters.
    On those and other similar issues, will final decisions be 
made prior to your assuming command on October 1?
    General Eberhart. Sir, we hope to take decisions on many of 
these relationships prior to 1 October. Where those decisions 
are not taken by 1 October, the current relationships will 
exist until such time as we are able to redraft those 
relationships. That is very important to us. I know you realize 
the importance of those relationships that exist and are 
working today. We do not want to unravel those until we clearly 
understand this new relationship, this new way of doing 
business.
    Chairman Levin. Thank you. In your responses to the 
prehearing policy questions, you stated that prior to employing 
forces in the continental United States you would need a 
specific request and a specific appropriate authorization by 
the President or the Secretary of Defense. Does that mean that 
in a situation similar to the September 11 attack, you would 
not be able to use U.S. forces to stop a terrorist attack using 
a train or a plane or a truck in the continental United States 
without first obtaining approval or authorization from the 
President or the Secretary?
    General Eberhart. Sir, what we are alluding to is that 
there would be some standing rules of engagement like we have 
today as we use the NORAD forces, where I am authorized under 
my operational control to launch an intercept and take the 
action we think is required. We do not have to ask for those 
forces to be assigned and to use them, unless we are going to 
use them in a different way than what we have been authorized 
to do.
    So that is what it is referring to. To do anything other 
than what we are charged to do day-in and day-out specifically, 
given the rules of engagement, we would request forces, have 
those forces assigned, and then we would execute those forces 
as the Secretary of Defense and the President directed.
    Chairman Levin. In effect, the rules of engagement 
preauthorize you to act under certain circumstances which are 
defined, and that would continue?
    General Eberhart. Exactly, sir.
    Chairman Levin. In your responses to the committee's 
prehearing policy questions, you indicated that Cuba, the 
Bahamas, the Turks and Caicos Islands in the Gulf of Mexico are 
included in USNORTHCOM's area of responsibility only for the 
purpose of deterring and defending against threats emanating 
from or through these geographic areas. Does that mean that 
USSOUTHCOM will be responsible for countering drug trafficking 
in and through these geographic areas, or is drug trafficking 
one of the threats that USNORTHCOM will be defending against?
    General Eberhart. Sir, that will be one of the threats that 
we will be involved in defending against, but right now, the 
Joint Interagency Task Force (JIATF) East construct will 
continue to exist, and we will work with the Coast Guard and 
USSOUTHCOM. So there are more avenues of approaching threats 
other than, in this case, drug enforcement, but when additional 
military support for the drug mission out of the continental 
United States is needed, then we will provide that support.
    Chairman Levin. There are currently 32 weapons of mass 
destruction civil support teams that cover approximately 97 
percent of the U.S. population. It is our understanding that 
the Department is currently reviewing the mission, doctrine, 
organization, and equipping of those teams. Do you believe that 
the teams need more robust capabilities to not only detect but 
to clean up, or manage, weapons of mass destruction attacks?
    General Eberhart. Sir, as you alluded to, there is an 
ongoing review in terms of (1) do we need more teams, and (2) 
do these teams need to have a different capability, a different 
capacity than they currently have? I have not seen that 
analysis. I can tell you in general terms philosophically I 
think these teams should be as capable as possible so that we 
can deal with any of those events should they occur, but I have 
not looked at the Army's analysis of exactly where we should 
head. I can assure you that will be one of the things at the 
top of our list as we proceed.
    Chairman Levin. Thank you very much, General.
    Now, I assume Senator Warner is next, but I have received 
an unusual note. It says Senator Allard is next, instead of my 
ranking member.
    Senator Warner. He got here before I did. Senator Allard, 
why don't you go ahead?
    Chairman Levin. Even under the early bird rule we usually 
call on the ranking member.
    Senator Allard. I was going to say, if Senator Warner 
wanted to go ahead----
    Senator Warner. I am going to defer to you, because I will 
stay throughout the hearing.
    Senator Allard. Thank you very much. I appreciate that.
    I know you have been visiting with our ally to the north, 
and we have in my view a very good relationship as far as NORAD 
is concerned. I am interested to hear your comments as to 
whether you anticipate any changes in how NORAD operates, or 
whether there will be any reorganization there, and any 
comments you have as to what might happen to NORAD as a result 
of change in mission because of Northern Command. There has 
always been a pretty close relationship between U.S. Space 
Command and NORAD, but do you expect some transfer of authority 
there between U.S. Space Command and Northern Command?
    General Eberhart. First of all, I was visiting in Ottawa 
yesterday and the day before with my North American Aerospace 
Defense Command hat on. In this hat, I report through the 
Chairman to the Secretary of Defense to the President on the 
U.S. side, and through their Chief of Defense staff, the Prime 
Minister on the Canadian side, two lines of reporting, two 
lines of authority, if you will. So I was up there with my 
NORAD hat on, not with the USNORTHCOM hat on, obviously, 
pending confirmation, hopefully.
    Second, there were questions about what the establishment 
of a USNORTHCOM might mean for NORAD. My answer is that that is 
a decision that needs to be taken by the leaders of our two 
governments. Frankly the spectrum ranges from leaving NORAD 
just exactly as it is today, to having NORAD follow the model 
that we are following in USNORTHCOM, where we are looking for 
centralized control, decentralized execution in all media, not 
just in air and space, as we have in NORAD today, but possibly 
in maritime and land or anything in between that seems to be 
right for our two nations.
    It is a binational agreement, and we sit down and revise 
this agreement every 5 years. As we speak, both of our nations 
are considering whether or not to revise it out of cycle. So, I 
can't tell you, Senator Allard, at this point what effect it 
might have. I think that the President realizes, and the 
members of this committee realize how important it is to dual-
hat that position to make sure we are not disconnected as we 
look at air and space defense and maritime and land support to 
civil authorities.
    Second, it is a very special relationship between U.S. 
Space Command and NORAD that exists today. It is based on the 
mission of threat warning, attack assessment that occurs as we 
use satellite systems, ground-based radars, and the 
characterization of an attack, whether it is in a theater mode 
or more of a global type attack. Many of you have seen those 
demonstrations at Cheyenne Mountain, so whatever we do as we 
move forward here with it, this UCP or any other modifications 
to the UCP, we have to ensure that in fact we do not unravel 
that mission of threat warning attack assessment. There is no 
doubt in my mind that we realize the importance of that, and we 
will preserve that and make sure that we do not take a step 
backwards and that we continue to move forward. I would offer 
to you it has additional importance as we move to a missile 
defense capability.
    Senator Allard. Thank you for your comments.
    Also, in visiting with some of the people in the Colorado 
Springs area, one common question that comes up is, how many 
people, both military and civilian, would you anticipate being 
transferred with your command, and when would you expect 
transitioning those people?
    General Eberhart. As the chairman has said, we are still 
trying to right-size this organization by looking at different 
organizational constructs that might be more transformational 
in nature. I think the number will be someplace between 400 and 
500 people in terms of the headquarters as we stand-up the 
command. We will have a transition team arriving shortly, and 
that will be on the order of 100 strong. Add another 100 or so 
by 1 October for the stand-up. Hopefully we will be fully 
manned the following October.
    Senator Allard. Now, on the Northern Command, we are going 
through an environmental impact statement (EIS) review. Would 
you review with me just exactly where we are on that? Has that 
been delayed? Is that correct?
    General Eberhart. Senator, that is, in fact, on track. The 
environmental analysis has found that there are no show 
stoppers. There are no situations that would preclude us from 
standing up the headquarters in Colorado Springs. It has to--
this is my word, not the proper legal term--incubate for a few 
weeks so other people can challenge this finding, if they want 
to.
    That period is up on the 24th of this month. After the 24th 
of this month, if there are no challenges--and to my knowledge 
there have been none to date--we could move on with this 
transition team. According to the law we cannot move the 
transition team until that environmental analysis is complete.
    Senator Allard. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Levin. Thank you, Senator Allard.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. General, it is 
a pleasure to see you today. We had a nice visit earlier, and I 
very much appreciate your willingness to accept the 
responsibilities of this new command. I am both envious and 
also understanding of what a challenge this is going to be. 
Envious because any new challenge can be exciting, but also 
understanding that there are probably some frustrations ahead 
as you try to begin developing a relationship, and continuing a 
partnership between, the military and the governors, involving 
the National Guard.
    I wish you well in that. Not that I expect it not to work 
for you, but there are 50, and you are going to have different 
opinions along the way. This is sort of a double header today 
with Governor Ridge appearing and you appearing here today, and 
so this may be homeland defense day in an official sense.
    As you work through the relationships that have been 
developed with Canada and Mexico, do you anticipate that Mexico 
could be involved in contingency planning for defense, much 
like Canada is involved with respect to NORAD? Is that a 
possibility as you take on this area of responsibility? A lot 
of territory, and a lot of particular challenges. Do you think 
that Mexico can play an important role in strengthening our 
defense?
    General Eberhart. Sir, my view is that over time the answer 
to that question is yes, but first I would like to caveat that. 
As we look at Northern Command I believe at this point that 
should remain a U.S. Unified Command just like Pacific Command, 
just like European Command. If other arrangements are struck, 
they are struck under NATO, NORAD, or by national type 
agreements.
    Senator Ben Nelson. You wouldn't come under USNORTHCOM 
then, necessarily?
    General Eberhart. Sir, under my view at this time that is 
not appropriate. If our nations decide to do that, then we can 
certainly make that work. We think USNORTHCOM is right for this 
area of responsibility--that includes our homeland except for 
Hawaii and the territories in the Pacific. Eventually either a 
binational arrangement or possibly taking NORAD and making it 
trinational, if everyone was agreeable, would probably make 
sense because of the common borders, the avenues of approach, 
and all of those types of things.
    So although hypothetical at this point, I think that is 
certainly best.
    Senator Ben Nelson. So really at this point we would have 
the responsibility on a uninational basis as opposed to 
binational, but that is a possibility. If we do look toward 
that, that would be more in the purview of a NORAD type of 
relationship or other organizational relationship.
    General Eberhart. Yes, sir.
    Senator Ben Nelson. In moving into a more formalized 
relationship and a new one with the states, one of the 
challenges that you are going to face is making sure the states 
still have the capacity of the National Guard, and I say this 
as a former governor with the National Guard being available 
for other types of emergencies that the states are facing from 
time to time. They are usually natural disasters as opposed to 
a war disaster or a terrorist attack, so I would hope that 
protocols can be put in place so that that is clear.
    It is not inconceivable that you could have two disasters 
at once, of different kinds, and then the question is, how do 
you resolve that difference? But I can anticipate that you are 
going to get a lot of questions, if you have not already, such 
as what if there is a flood and a threat of a terrorist attack, 
how are you going to make the resources stretch, or work for 
both incidents?
    General Eberhart. Yes, sir.
    Senator Ben Nelson. So I wish you well.
    General Eberhart. Thank you.
    Senator Ben Nelson. Good luck to you. We are very grateful 
to you, and I think our Nation is also grateful for your 
willingness to take this command.
    General Eberhart. Thank you, sir. Thank you very much.
    Senator Ben Nelson. Thank you very much.
    Chairman Levin. Thank you. Senator Warner, as always, is 
very gracious to yield to a colleague. Senator Bill Nelson.
    Senator Warner. We like our Nelson twins. [Laughter.]
    Senator Bill Nelson. This is the full Nelson over here. 
[Laughter.]
    Senator Warner. Are you the half Nelson?
    Senator Bill Nelson. No, actually, between the two of us I 
am the full Nelson, because my mother was a Nelson before she 
married my father. [Laughter.]
    Senator Ben Nelson. I guarantee you I cannot top that.
    Senator Bill Nelson. General, you and I talked about this 
in our personal meeting, and I appreciate it very much. I just 
wanted to put it on the record here, because I have to do 
something in the appropriations bill this year to improve the 
dilapidated headquarters building down there at Tyndall. Major 
General Arnold's headquarters is running all of the air defense 
and running the CAPS and so forth, and we have to get funds in 
the appropriations bill. It is about a $25 million item to put 
planning and design funds in so that they would go on in the 
next appropriations cycle to start the construction.
    This is one of my top priorities. I have been to that 
facility. I have seen it. They have done a tremendous job since 
September 11, and of course Major General Arnold is directly in 
the chain of the command that goes through you all the way up 
to the President in the determination of whether or not you 
would shoot down an airliner, so I have to move one way or 
another. I am anticipating the question that will arise, which 
is, well, there is talk that they are going to move this 
headquarters to Langley or to Peterson.
    What should I offer the Appropriations Committee when they 
make that statement?
    General Eberhart. Sir, as we discussed in your office, and 
as I have checked since, I am not aware of any plans to move 
that headquarters to Langley or to Peterson or to anywhere 
else. I would also underscore that for over a decade we have 
been debating the relevance of the continental NORAD region, 
North American Aerospace Command, many viewing it as a Cold War 
relic.
    I think we proved on 11 September, and the aftermath 
thereof, that it is not a Cold War relic, that it in fact can 
be used to deal with emerging threats. Therefore, what we have 
put off in terms of improving facilities, and even more 
importantly what we put off in terms of command and control 
systems for this command now needs to be brought to the 
forefront, addressed, and funded.
    Senator Bill Nelson. Of course, down there in the 
Southeastern United States is where you get a lot of that 
traffic, you have to observe a lot of drug traffic that we are 
concerned about coming in.
    Mr. Chairman, I would just add, the other thing that we 
spoke about at length in our personal meeting was the necessity 
for the General's present command, which is CINCSPACE, to work 
with NASA on having assured access to space. On the follow-on 
launch vehicles, I have put some language into the bill that is 
on the floor right now about the Air Force and NASA working 
together in the development of the technologies for the future 
reusable vehicle, but I think that the cooperation has to go 
further.
    In this new command, with the background that you have had, 
you are going to be in a very pivotal position of offering 
advice, as you are part of the team and the leadership of the 
Air Force, on the question of the robustness of our stable of 
horses in the barn on the expendable launch vehicles (ELVs) and 
the new evolved expendable launch vehicles (EELVs), which were 
planned because it was thought that the manufacturers were 
going to be able to produce a lot of these that would be used 
in the commercial satellite market.
    That market is somewhat diminished, and therefore we need 
to make a reasoned judgment as to what is going to be in the 
interest of the United States Government in having the horses 
when we need to call on them to get us to space, given the fact 
that we are not going to be producing as many as we thought we 
were for the commercial vehicles. I am trying to get some kind 
of language attached as an amendment to our DOD authorization 
bill that is on the floor right now. I would just offer that 
for your consideration, as we have talked about it privately as 
well.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Warner.
    Senator Warner. Mr. Chairman, once again, I would like to 
yield to my distinguished colleague from Montana, and long-time 
friend. He has come as a matter of personal courtesy, but most 
important, this man controls the purse. We are powerful 
authorizers, but in the end, here is the money man.
    Chairman Levin. In that case, he can take all the time he 
needs. The 6-minute rule will not apply. [Laughter.]
    Senator Burns. It is surprising how much power you can just 
gather up. Well, I thank the chairman and the ranking member 
this morning. I do come down and thank you for just a little 
personal privilege here. The selection of General Eberhart to 
head this command is an excellent selection by the President, 
and I just want to offer my support. We are dealing with an 
enemy now for whom we do not know what resources we are going 
to need. He is a different kind of enemy. We are in a different 
kind of a situation. They are faceless. They operate in the 
shadows, and in order to protect our homeland and the people 
who live here it will take a person that has an imagination and 
maybe a better one than they have on the other side, and I 
think we have made a selection here. He understands his 
command, he also understands the mission, and it is a very 
difficult one.
    We live in a state where we have almost 700 miles of border 
with Canada. Most of it is in lands where there are not a lot 
of people. There is quite a lot of dirt between light bulbs up 
there, and we are porous. We have farmers that farm on both 
sides, and he will have to take that into account. That is 
something that military people have never had to take into 
account before--whenever we start talking about homeland 
defense, and defending our borders, and carrying out a mission 
that will be very difficult.
    So we are aware of General Eberhart and his capabilities 
and his talents, and I just came to support him. Knowing that 
the enemy is different, we are going to have to operate 
differently. Our resources will be different. We will use 
different ways of completing the mission than we have ever used 
before, and so I congratulate the President on his selection, I 
congratulate you and offer my support.
    General Eberhart. Thank you, Senator Burns. You are still 
not going to get any strokes. [Laughter.]
    Senator Warner. These are golfing partners. [Laughter.]
    Chairman Levin. I am still trying to figure out the dirt 
between light bulbs. [Laughter.]
    Senator Burns. It would really help if you could just come 
up to speed there, Mr. Chairman. You have to work at it.
    Senator Warner. He is the master of the metaphor over here, 
he really is. This man appears to be just some old cowboy out 
of Montana, but he can pick up the New York Times crossword 
puzzle and knock it out in 30 minutes.
    Senator Burns. On Mondays, Mondays only. [Laughter.]
    Senator Warner. I am going to pick up on what my colleagues 
said here, because it goes to my central concern, and that is 
what you have outlined here--you are building this 
organization, and on 1 October you stand it up. I have been 
unrelentingly pounding the Secretary of Defense personally in 
our one-on-one opportunities to get this going, because America 
would be intolerant if we were to be hit tomorrow and we still 
do not have you in business.
    You made the statement, and maybe I misheard it, you will 
be standing this up 1 October, and by the following October you 
will be full-up. You and I know what that means in military 
parlance. I cannot accept that. I have to think that you have 
to be full-up before that.
    Now, this is a little gratuitous advice from one member of 
the Senate. While this country looks like we are going along 
very methodically in our old ways of putting together another 
command and so forth, we are living day by day, threat by 
threat, and we simply cannot wait for that period of time. So I 
would hope to the extent that there are people in the 
government, whether it is the President on down, who are 
putting restraints on you--come to Congress.
    I remember when I was Secretary of the Navy, one of the 
most extraordinary men I ever knew in my life was Admiral Hyman 
Rickover. He would never have been able to create the nuclear 
deterrent that we had in those submarines had he not gone to 
Congress and raised h-e-l-l and got what he wanted when he 
wanted it. I would like you to take that lesson to heart, 
because in the final analysis you are accountable to the 
American people. You have their homeland to defend.
    It brings me to the next question. We awakened this morning 
to the news that one of our most respected and valued 
intelligence collection agencies had a message, for whatever 
reason that was not deciphered or brought to anyone's attention 
until 24 or 48 hours after the tragic events of September 11. 
Yet I am sure that men and women of good conscience were 
dealing with this situation.
    To what extent are you going to set up your own separate 
intelligence? You are going to, of course, get an enormous 
amount from the existing collection agencies, but our Nation 
has been very proud of the fact that we have had, since the 
Constitution, the Bill of Rights, and the Declaration of 
Independence, laws which have been extremely protective of our 
privacy, and as such we have had a quality of life enjoyed by 
no other nation. In fact, we have been the beacon of hope for 
others to come here from abroad to share in America's 
bountiful, wonderful life, and at the core of that life is our 
privacy as individuals. The FBI has been the sole agency, 
together with the disparate police departments to some extent 
in the 50 States, but the sole agency to gather facts and 
information that could warn America against some group here at 
home has been the FBI.
    Now, of course, so much of this originates abroad, and then 
it is brought here, but nevertheless, the operatives that do 
come here to inflict harm upon us, they are enjoying this 
framework of laws of privacy to a certain extent. Now, we are 
making some modest changes in that area, but time will tell 
whether we have to do more.
    Are you going to set up any organic intelligence gathering 
system yourself, because you might suddenly begin to look at 
the cross-hairs, as they say in aviation, or the military, and 
it suddenly focuses in on one individual or some person in a 
hotel somewhere in the United States who could be planning to 
perpetrate a situation. Are you going to rely entirely on the 
indigenous intelligence gathering of the FBI and such that is 
in the local police departments, or are you going to have some 
of your own people who could maybe go into court and file for a 
writ to intercept communications, or whatever you think might 
be necessary? How are you going to go about this?
    General Eberhart. Sir, right now, as we look at our 
intelligence organization, we are looking at a more classic 
military organization, but it will be different as you alluded 
to. Because it is our homeland, it is very important to us to 
protect the civil liberties of our people and at the same time 
make sure we have the processes and the information sharing in 
place so that we know about those things, whether they emanate 
from a local organization, another law enforcement 
organization, or another military organization.
    I do not know the details on the article I read this 
morning, but to me it is the classic processing, exploitation, 
dissemination issue. If it is in fact true, that is what it 
boils down to, we need to make sure that we have the processes 
in place.
    Right now, for example, in U.S. Space Command and NORAD, it 
is very important to us, as you well know, to have people out 
there from the NSA. We have liaison out there from the CIA. In 
my view, in this new command, we will have additional liaison 
that would make sure that we get the threat and intelligence 
information we need to conduct the mission that is assigned to 
us in the UCP.
    Senator Warner. Well, the typical CINC has component 
commands, Army, Navy, Air Force, and Marines. I guess you will 
have some situation comparable to that, but let me just give 
you another bit of advice, again from one man. I would put on 
an equal level a component commander of the FBI and the CIA, 
because when you sit around your conference table conferring 
with your component commanders, as you do at least once or 
twice a week, they should be at that table. That is my view, 
because you can be no stronger than your weakest link, and that 
intelligence gathering assessment, going back out to get more 
intelligence if you feel it is necessary, that cannot be your 
weakest link. You are on a start-up curve on that situation.
    So again, we are not pinning you down on a lot of critical 
questions. We know you are well-qualified and, as I said in the 
beginning, you are without a road map now.
    The other thing that has always been of concern to me--and 
I think it is shared by other members of the committee--in 
assessing the likely targets of the terrorists, I have to 
believe that on their target list are our military bases. 
Basically the level of force protection on a military base is 
left to the individual services to figure out as to how they 
want to handle it.
    It seems to me that your office should have some 
coordination of that level so that if one is not invoking or 
putting in place all of the necessary available means to 
protect itself, that you could step in and say, we believe you 
have to come up and be just as strong as the naval base down 
the road, or whatever it may be. What are you going to do in 
that area?
    General Eberhart. Sir, you are exactly right. In the 
continental United States, the services are in charge of 
setting what we refer to as the Force Protection Condition. 
Overseas you have the standardized approach that you are 
talking about, where Pacific Command or European Command sets 
it for their area of responsibility. I think that, as this 
command evolves, we will address what role it will play in 
setting those conditions in its area of responsibility.
    You could argue that the reason the services set those 
today in this area of responsibility is because there has not 
been a commander responsible for this area of responsibility 
before, so that is one of those things that is under review 
right now, to decide, in fact, what role Northern Command 
plays.
    I can assure you, I understand exactly what you mean, 
because I do that today as Commander of NORAD and Commander of 
U.S. Space Command. If I do not think one of our U.S. Space 
Command facilities is getting the protection it needs, whether 
it is in Joe Ralston's AOR or Tom Fargo's AOR, I pick up the 
phone and say, hey, we need some help here. I would do that 
regardless of the assignment of this responsibility in this 
area.
    Senator Warner. When this committee begins to review the 
final charter, you can be sure that I am going to see what we 
can do to give you the authority, and if not the authority, the 
responsibility for reviewing each commander's plan for the 
protection of that military installation, and if you feel it is 
inadequate, you have the authority to move in and make the 
decisions.
    Now, the last subject is a favorite that I bring up from 
time to time, and this is the doctrine of posse comitatus. It 
emanated from politicians I think wrongfully using the U.S. 
military in the 1850s or 1860s, somewhere along in there, when 
certain politicians wanted to call the Army in to do certain 
things at the polls. So it emanates from the very roots of our 
democracy, and it was a good doctrine for those years in which 
here at home we were safely protected by our oceans and our 
neighbors.
    No longer does that exist. Yes, there are some exceptions 
in the posse comitatus doctrine to allow certain things to take 
place when unexpected contingencies happen, but we cannot have 
a situation where some weapons of mass destruction, whether 
they are biological, chemical, or whatever the case may be, are 
unleashed among our civilian communities, and then everybody 
with the best of intentions is coming in, and no one can figure 
out who is going to take charge and whether or not the local 
military commander who might have a base with a lot of assets 
can begin to let his assets be brought to bear in full measure, 
whether it is trying to contain law enforcement, the shock and 
panic that would be associated with it, that has to be 
clarified.
    So it will take a little time for you to get in and snap 
up, as we say, but if you think that has to be modified, I 
would hope you would come back on your own to this committee 
and so state that. As a matter of fact, you can be sure, the 
next time you appear, if the good Lord is willing and has me 
here, I am going to ask that as my first question, do you think 
that doctrine needs to be modified by Congress to bring 
absolute clarity so that our military can be brought to bear as 
a helpful response team to situations that could happen 
involving weapons of mass destruction?
    I think that concludes the questions I have. We see that 
you have emptied the room, solely because we all have a full 
measure of confidence that you will sail through the Senate of 
the United States at top speed.
    Unless this appropriator over here wants to add anything--
--
    Senator Burns. Senator, I was just thinking, when you were 
talking about the posse comitatus, I said, your memory is 
failing you. You cannot remember back to the 1850s.
    Senator Warner. I remember it was the elections. We could 
check with Strom Thurmond. [Laughter.]
    Senator Burns. We are drifting into deep water now.
    Senator Warner. Am I not correct? It was an election down 
south, and they sent some folks down there to man the polls.
    Senator Burns. As you were talking about the structure of 
this thing, I view this command a little bit different than, 
say, a command on foreign soil, or if we were engaged in any 
kind of a conflict, and as Senator Warner has indicated, when 
we come home we get into the political end of things, and we 
fall prey to analysis paralysis. I think what we are looking 
for are people, and your resources, that a lot of decisions 
will be made on instinct, on a gut feeling, like the gathering 
of intelligence. It is easy to sit here after an act has 
happened and say, well, oh, that is what this little message 
meant over here, 2 months or 3 months before the action, and 
this is what this meant. It is easy to put it all together 
after the fact, so a lot of things in homeland security, 
Senator Warner, will be done by instinct and gut reaction and 
judgment.
    Senator Warner. Calling on experience to do it.
    Senator Burns. But let us not fall prey to analysis 
paralysis, because I know how that works, and it does not serve 
our people very well.
    Thank you for your courtesy, Senator.
    Senator Warner. Now, when I was privileged to be chairman, 
occasionally I would simply say, does your partner, Mrs. 
Eberhart, wish to make any statement for the record now? If 
not, we will accept it in writing and make it a part of the 
record.
    Senator Burns. We know who runs that outfit.
    Senator Warner. At this time, Mrs. Eberhart said she will 
not make a formal statement but might submit one for the 
record.
    We wish both of you the best of luck, and thank you for 
your continuing public service. On behalf of the citizens of 
this great Nation, good luck.
    General Eberhart. Thank you, Senator.
    [Whereupon, at 10:48 a.m., the committee adjourned.]

    [Prepared questions submitted to Gen. Ralph E. Eberhart, 
USAF, by Senator Carl Levin prior to the hearing with answers 
supplied follow:]

                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of these reforms, particularly in your 
staff assignment as Director, Force Structure, Resources and 
Assessment, on the Joint Staff from 1994 to 1995, in your command 
assignment as Commander, U.S. Forces, Japan from 1996 to 1997, and in 
your current assignment as Commander in Chief, North American Aerospace 
Defense Command and United States Space Command.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I fully support the implementation of these reforms. I 
was the Executive Officer for the Chief of Staff of the Air Force when 
these reforms were created. In each succeeding assignment, I have seen 
how they have strengthened our Armed Forces and empowered combatant 
commanders to conduct joint operations.
    Question. Based upon your experience, what is your view of the 
extent to which these defense reforms have been implemented and the 
impact that they have had?
    Answer. The success of our joint military operations over the past 
several years is a direct result of these reforms. As the supported 
combatant commander for operation Noble Eagle, I can tell you the 
reforms put in place by the Goldwater-Nichols Act were a key reason for 
NORAD's quick and decisive response on September 11, 2001.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The Goldwater-Nichols Act served as the catalyst to provide 
improved joint doctrine, planning, and operations. In my experience, 
operation Enduring Freedom is an excellent example of the benefits 
these reforms have brought to warfighters.
    Question. Do you anticipate that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. I am a firm believer in reexamining the way we do business 
to address changes in the strategic environment. However, I do not 
advocate any specific changes to the Goldwater-Nichols Act at this 
time.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander in Chief, U.S. Northern Command (USNORTHCOM)?
    Answer. If I am confirmed as Commander of U.S. Northern Command, my 
duty will be to defend the territory and people of the United States 
against external threats, and coordinate the provision of U.S. military 
forces to support civil authorities, as directed by the President. In 
addition, I will be responsible for certain aspects of security 
cooperation and coordination with Canada and Mexico. The command will 
also help coordinate military support to Federal, state, and local 
governments in the event of natural or other disasters.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. More than three decades of military experience, including 
command positions at the squadron, wing, numbered air force, major, 
sub-unified, and unified command levels, have provided a solid 
foundation for assuming the command of USNORTHCOM. In addition, as the 
Director of Force Structure, Resources and Assessment on the Joint 
Staff, I gained valuable insights into the dynamics and complexities 
required of joint operations. As the Vice Chief of Staff of the Air 
Force, I represented the Department of the Air Force in the Joint 
Requirements Oversight Council, validating the requirements needed to 
support warfighting commanders. Finally, as the combatant commander of 
NORAD and USSPACECOM, I have the honor of leading one of the finest 
combined and joint teams of soldiers, sailors, airmen, and marines in 
our military. The performance of these commands in Operations Noble 
Eagle and Enduring Freedom best speaks to my qualifications.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform these duties?
    Answer. If confirmed, I will work every day to prepare myself to 
assume command on October 1, 2002--and every day thereafter to become a 
better commander. One can always ``enhance his abilities.'' That said, 
as the Commander of NORAD and the co-chair of the USNORTHCOM Integrated 
Planning Team with General Buck Kernan, I believe I am well prepared to 
assume the duties as Commander, USNORTHCOM.
    Question. In carrying out your duties, how will you work with the 
Secretary of Defense, the Chairman of the Joint Chiefs of Staff, the 
Under Secretary of Defense for Policy, the Assistant Secretary of 
Defense for Special Operations Forces and Low Intensity Conflict, the 
Commanders in Chief, U.S. Special Operations Command, U.S. Joint Forces 
Command, U.S. Space Command, U.S. Strategic Command, and the other 
combatant commanders?
    Answer. If confirmed, I will continue to work closely with the 
Secretary. As a combatant commander today, I perform my duties under 
the authority, direction, and control of the Secretary of Defense. I am 
directly responsible to him for the preparedness of our two commands 
and our ability to carry out assigned missions.
    The Chairman is not in the chain of command of the combatant 
commander to the President and the Secretary, however, Title 10 does 
allow for communications from the combatant commander through the 
Chairman. This keeps the Chairman informed so that he can execute 
responsibilities as the principal military advisor to the President and 
Secretary of Defense.
    Experience has shown the benefits of the Chairman serving in the 
role as the President's and Secretary of Defense's senior uniformed 
advisor on military matters, and as the primary military leader through 
whom combatant commanders can work to perform their missions. If 
confirmed, I will continue the Title 10 directed relationship, as well 
as the traditional practices currently in place.
    The Under Secretaries of Defense coordinate and exchange 
information with Department of Defense components, to include the 
combatant commands having related or collateral functions. The majority 
of Assistant Secretaries are subordinate to one of the Under 
Secretaries of Defense. Normally, USNORTHCOM's relationship with any 
Assistant Secretary will be to work with and through the applicable 
Under Secretary of Defense. However, when appropriate, we will work 
directly with the Assistant Secretaries.
    The relationship of USNORTHCOM to other combatant commanders is one 
of mutual support, steady dialogue concerning key issues, and frequent 
interaction. A solid, cooperative, and trusting relationship will 
enable effective support and execution of U.S. national military 
strategy. If confirmed, I intend to continue to develop established 
relationships with the other combatant commanders.
    Question. In carrying out your duties, how will you work with the 
Homeland Security Council, the Director of the Office of Homeland 
Security, the Federal Emergency Management Agency, the Federal Bureau 
of Investigation and other federal agencies, as well as state and local 
governments?
    Answer. If confirmed, I will have the same responsibilities and 
chain of command from the President to the Secretary of Defense as the 
other combatant commanders. Similarly, USNORTHCOM interagency issues 
with the Homeland Security Council, the Director of Office of Homeland 
Security, the FEMA, the FBI, and other Federal agencies will be dealt 
with through the subordinate element within the Office of the Secretary 
of Defense assigned responsibility for homeland defense and civil 
support.
                           transition process
    Question. Since USNORTHCOM only exists on paper at this time, a 
number of issues will have to be resolved between now and October 1 of 
this year when USNORTHCOM is currently scheduled to be established.
    Would you describe the issues that are presently unresolved, the 
process that is being followed to resolve these issues, the commands 
and offices that are involved, and the level at which decisions will be 
made.
    Answer. The most time-critical issue to be resolved is the 
Environmental Assessment on the proposed location of the command's 
headquarters, which is being worked within Headquarters, United States 
Air Force. Once completed, the Secretary of Defense will decide site 
location. Movement of people is on hold, pending the completion of the 
assessment. Additionally, we are awaiting receipt of fiscal year 2002 
OSD funds to begin the stand-up of the command.
    Question. Do all of these issues have to be resolved prior to 
initial operational capability for USNORTHCOM?
    Answer. Yes. We expect the Environmental Assessment to be completed 
by late June 2002; movement of people will follow. In addition, we are 
grateful for the committee's support of USNORTHCOM funding in the 
fiscal year 2003 Defense Emergency Response Fund, and look forward to 
its release when signed by the President this fall.
    Question. If not, what issues do you believe have to be resolved on 
a priority basis, and before USNORTHCOM is officially established?
    Answer. See previous answer.
                          usnorthcom's mission
    Question. What are the definitions of the terms ``Homeland 
Security,'' ``Homeland Defense,'' ``Civil Support,'' and ``Crisis 
Management?''
    Answer. The Office of Homeland Security has provisionally defined 
homeland security as `` a concerted national effort to prevent 
terrorist attacks within the United States, reduce America's 
vulnerability to terrorism, and minimize the damage and recover from 
attacks should they occur.'' With its focus on the prevention of and 
response to terrorist attacks, this is a different focus than the 
Department of Defense's long-standing mission and highest priority--to 
defend the United States from all enemies.
    Homeland defense is defined as the protection of U.S. sovereignty, 
territory, domestic population, and critical defense infrastructure 
against external threats and aggression.
    Civil support is the Department of Defense's assistance to civil 
authorities for domestic emergencies and other designated activities. 
Some civil support activities relate to homeland security (e.g., 
consequence management support in the event of a terrorist CBRNE 
incident), although the full range of civil support provided by the 
Department of Defense includes a broader range of activities (e.g., 
natural disasters).
    Crisis management is taking measures to identify, acquire, and plan 
the use of resources needed to anticipate, prevent, and resolve a 
threat or act of terrorism.
    Question. What is the mission of USNORTHCOM?
    Answer. USNORTHCOM will conduct operations to deter, prevent, 
preempt, and defeat threats and aggression aimed at the United States 
of America and its territories, within the assigned area of 
responsibility. When directed by the President or Secretary of Defense, 
it will also provide military assistance to civil authorities, 
including consequence management operations, in order to protect and 
defend the United States.
    Question. How does USNORTHCOM's mission relate to the U.S. 
Government's Homeland Security mission?
    Answer. See two previous answers.
    Question. How does USNORTHCOM's mission relate to the Department of 
Defense's efforts to combat terrorism?
    Answer. Similar to the other geographic combatant commanders, 
USNORTHCOM will combat terrorism through force protection measures, and 
by employing forces at the direction of the President to stop terrorist 
operations. In addition, USNORTHCOM's anti-terrorism and consequence 
management activities will help reduce the vulnerability of our people 
and property against terrorists who threaten the United States of 
America and its territories.
    Question. Do you anticipate that USNORTHCOM will have a continuity 
of government role to play?
    Answer. As directed by the Secretary of Defense, USNORTHCOM would 
assist in the continuity programs of the Department of Defense.
    Question. Under what circumstances would you anticipate USNORTHCOM 
would have the lead role, rather than the role of supporting civil 
authorities?
    Answer. USNORTHCOM would have the lead role under extraordinary 
circumstances that require the Department of Defense to execute its 
traditional military missions in response to an attack on or threat to 
North America. Combat air patrols and maritime defense operations are 
examples of these missions.
                       organization and authority
    Question. Do you anticipate that USNORTHCOM will have the component 
commands that are traditionally assigned to combatant commands?
    Answer. The final organizational structure of USNORTHCOM has not 
been determined-it is currently under review. The Implementation 
Planning Team is looking at options with and without component 
commands.
    Question. Do you anticipate that USNORTHCOM's staff will be 
organized along the lines of the traditional combatant command staff?
    Answer. USNORTHCOM's final staff structure is still being 
developed. The Implementation Planning Team is assessing options based 
on transformational concepts, such as Standing Joint Force 
Headquarters, as well as traditional models.
    Question. Do you anticipate that substantial air, land, and 
maritime forces will be assigned to USNORTHCOM and, if confirmed, under 
your combatant command, or will such forces only be under your 
operational control?
    Answer. If confirmed, I do not anticipate a large number of 
operational forces being assigned to USNORTHCOM. Whether specific 
forces will be assigned or placed under operational control of 
USNORTHCOM is still to be determined. I am confident that, when 
required, trained and ready forces will be provided to execute assigned 
missions in USNORTHCOM's area of responsibility.
    Question. If such forces are only under your operational control, 
how will you ensure their readiness to perform the assigned missions 
and tasks?
    Answer. Just as the other geographic combatant commands do, 
USNORTHCOM will coordinate with unified commands and the Military 
Departments to establish appropriate training and readiness objectives 
for forces required to execute military operations. USJFCOM will be the 
primary joint force provider for USNORTHCOM; the Military Departments 
will certify these forces are mission-ready. USJFCOM already plays a 
vital role in preparing battle-ready forces for combatant commanders.
    Question. Since Alaskan Command Forces will remain assigned to U.S. 
Pacific Command, what impact will that have on USNORTHCOM's mission?
    Answer. The force projection and deterrence capabilities of Alaskan 
Command will add another dimension to USNORTHCOM's mission. 
Additionally, although these forces will be assigned to USSPACECOM, 
they will be made available to USNORTHCOM, if directed by the Secretary 
of Defense. This is a relationship that works and I use every day as 
Commander of NORAD.
    Question. Do you anticipate being able to employ forces within the 
continental United States, or will you have to obtain the approval of 
higher authority before their employment?
    Answer. Within the Continental United States, employment of forces 
will be preceded by a specific request and appropriate authorization 
from the President or the Secretary of Defense under existing 
guidelines. Routine training and exercise deployments of forces within 
a command's area of responsibility do not require approval from higher 
authority.
    Question. Do you anticipate that the Army's Directorate of Military 
Support (DOMS) will continue to be involved in the employment of forces 
for tasks such as disaster relief?
    Answer. Yes, I believe the functions accomplished by DOMS will 
continue to be critical in planning, organizing, and coordinating 
support to civil authorities.
    Question. Currently, USSPACECOM is responsible for both offensive 
and defensive computer network operations (information operations). In 
your view, what elements, if any, of this information operation/
information assurance mission should be reassigned to USNORTHCOM?
    Answer. USNORTHCOM, like the other geographic combatant commands, 
will retain responsibility for information operations and information 
assurance related to its mission within its assigned area of 
responsibility.
                            norad and jtf-cs
    Question. Organizations existing within other commands will be 
transferred to USNORTHCOM, including the North American Aerospace 
Defense Command (NORAD) and the Joint Task Force--Civil Support (JTF-
CS).
    NORAD, which is currently under your command, will be transferred 
from U.S. Space Command to USNORTHCOM. As you already stated to the 
committee in February, the transition requires negotiation with Canada.
    What, if anything, do you recommend be altered in the current NORAD 
agreement between the U.S. and Canada?
    Answer. NORAD and USSPACECOM are two separate organizations that 
share a common commander and some supporting staff elements. Each 
command stands on its own with respect to the conduct of its 
operations. As such, there is no need to amend the current NORAD 
Agreement; NORAD's binational mission will continue, regardless of the 
stand-up of USNORTHCOM.
    Question. When NORAD moves under USNORTHCOM, how will USNORTHCOM 
and USSPACECOM coordinate activities and common facilities?
    Answer. NORAD will not move under USNORTHCOM. Due to its unique 
nature as a binational command, NORAD will not become subordinate to 
USNORTHCOM, which will be a U.S.-only command. USNORTHCOM will 
coordinate activities and any shared facilities with USSPACECOM.
    Question. Will there be any impact on NORAD and coordination of 
early warning systems as a result of the move from USSPACECOM?
    Answer. USSPACECOM will continue to support NORAD, as well as other 
combatant commands, by providing integrated tactical warning and attack 
assessment for North America. The split of currently shared NORAD and 
USSPACECOM support staffs will have no impact on early warning systems.
    Question. Does the move of NORAD from USSPACECOM signal the end of 
USSPACECOM?
    Answer. No, USSPACECOM will continue to perform its Unified Command 
Plan (UCP)-assigned missions until such time as the Secretary of 
Defense recommends, and the President approves, a modification to the 
UCP that changes assigned missions or combines missions with another 
command.
    Question. If confirmed, what changes, if any, would you make to the 
mission, organization, location or staffing of JTF-CS?
    Answer. I do not have any specific recommendations regarding the 
JTF-CS at this time.
    At the present time, various units with responsibilities relating 
to the counter-drug mission, including Joint Interagency Task Force-
East, Joint Interagency Task Force-West, and Joint Task Force-Six are 
assigned to the several combatant commanders.
    Question. Do you anticipate that any of those units will be 
assigned to USNORTHCOM?
    Answer. While a final determination is yet to be made, the 
USNORTHCOM Terms of Reference specify only Joint Task Force-Six will be 
assigned to USNORTHCOM on 1 October 2002.
    Question. How will USNORTHCOM's mission relate to the U.S. 
Government's counterdrug mission and organization?
    Answer. Through JTF-6 (currently assigned to USJFCOM), USNORTHCOM 
may provide the Department of Defense's counterdrug support to Federal, 
regional, state, and local law enforcement agencies throughout the 
Continental United States. This option is currently under review.
    Question. What additional actions have you taken in NORAD since 
September 11, to mitigate force protection vulnerability, and what new 
force protection challenges do you anticipate you will encounter within 
USNORTHCOM's area of responsibility, if confirmed?
    Answer. Since September 11, NORAD has worked with the Military 
Departments to implement increased security measures at facilities and 
alert locations throughout the Command. If confirmed, I anticipate the 
biggest force protection challenge will be coordinating with USJFCOM 
and the Military Departments to ensure the appropriate force protection 
condition for the area of responsibility.
                             national guard
    Question. There is currently considerable debate about the role the 
National Guard should play in defending the homeland.
    What do you anticipate the relationship will be between USNORTHCOM 
and the National Guard Bureau and individual state National Guard 
headquarters?
    Answer. USNORTHCOM's relationship with the National Guard Bureau 
and individual state National Guard headquarters is currently under 
review. The National Guard will be key to USNORTHCOM successfully 
accomplishing its assigned mission.
    Question. What type of liaison arrangements do you advocate between 
USNORTHCOM, first responders and state National Guard units for 
planning and operational purposes?
    Answer. USNORTHCOM will have responsibility (when directed) to 
provide military assistance to U.S. civil authorities who are 
designated as lead federal agencies. USNORTHCOM will have direct 
communication with National Guard units for planning purposes, and will 
maintain situational awareness of National Guard actions and 
commitments. If they are mobilized under Title 10 status, the 
Commander, USNORTHCOM, may have direct tasking authority of these 
units, depending on the mission.
    Question. Do you believe that defending the homeland should become 
the National Guard's primary mission?
    Answer. I believe defending the homeland is the highest priority 
mission for our Armed Forces--Active, Guard, and Reserve. The National 
Guard can support homeland security in several ways; first, in state 
service under the direction of the governors. For example, on September 
11, the National Guard of New York, New Jersey and Connecticut 
responded to the attacks on the World Trade Center towers. Second, in 
state service but performing duties of federal interest, is the so-
called Title 32 status. This is primarily designed to compensate 
guardsmen for federal training, but most recently it was used also to 
support patrols in over 400 airports across the country. Third, in 
federal service, the so-called Title 10 status, when for example, the 
National Guard is mobilized to serve under the direction of the 
President or the Secretary of Defense. These arrangements have worked 
well in the past. The challenge today is to translate them into our new 
security environment. There are many proposals for doing so, and we 
understand the Department of Defense will work with Congress, the 
National Guard Bureau, the governors, and the Office of Homeland 
Security to make certain that we all have an approach that meets the 
Nation's needs.
    Question. To the extent that the National Guard is involved in 
homeland defense missions, and given the constraints of the posse 
comitatus law, what status should the National Guard have (i.e. Title 
10, United States Code; Title 32, United States Code; or State status) 
in conducting such missions?
    Answer. The specific status of National Guard units for a given 
scenario will be situation dependent. This is not a constraint, as 
there is the ability to move specific National Guard units between 
Title 10 and Title 32 and state status as needed by the mission.
    Question. Do you believe changes to the Posse Comitatus law are 
necessary to enhance USNORTHCOM's mission accomplishment?
    Answer. No. USNORTHCOM's mission of military support to civil 
authorities does not require any changes in the law. While the command 
may provide military forces under Title 10 to assist civilian agencies, 
these forces will not be directly involved in civilian law enforcement, 
unless authorized by law to engage in law enforcement activities.
                           combat air patrols
    Question. The administration recently announced that it would scale 
back the combat air patrols over Washington, New York and other cities, 
which have been conducted on a regular basis since September 11, 2001.
    Do you believe that a change in the combat air patrol mission is 
warranted?
    Answer. Yes, I believe a change to the number of combat air patrols 
is warranted due to several factors: improvements in aviation security 
at airports, more rigorous air marshal program, stronger cockpit doors, 
better interagency cooperation, increased awareness from the traveling 
public, and expanded radar and radio coverage within the U.S.
    Question. If confirmed, what criteria would you use to determine 
combat air patrol frequency, duration and location?
    Answer. The nature of a threat, number and location of sites to be 
protected, reaction time of ground-alert aircraft, U.S. Secret Service 
requirements, weather, and the need to be unpredictable to the enemy 
all factor into any decision.
            weapons of mass destruction--civil support teams
    Question. There are currently 32 authorized Weapons of Mass 
Destruction--Civil Support Teams. When all of these teams are stood up, 
they will cover approximately 97 percent of the U.S. population. It is 
our understanding that the Department is currently reviewing the 
mission, doctrine, organization, and equipping of the teams. Do you 
believe that the teams need more robust capabilities to not only 
detect, but also to decontaminate or manage the response to a WMD 
attack?
    Answer. The structure, resources and locations of Civil Support 
Teams appear to be sufficient, given today's threat levels. Twenty-
seven of these teams are currently certified, with five more undergoing 
the qualification process. The Civil Support Teams are vital to 
consequence management, and it will be important to continue 
modernization of their capabilities as future technology and threats 
develop.
    Question. Do you believe that the mission for the teams should 
change? Has the requirement changed? Should there be more teams?
    Answer. I am aware that the Department of Defense is studying 
current and future chemical and biological threats, and the force 
structure of the Civil Support Teams. If it is determined that there 
may be an increased risk of attacks, it would be appropriate to 
reconsider the mission, numbers and structure of the Civil Support 
Teams.
                       transfer of responsibility
    Question. Various areas that are presently under U.S. Southern 
Command's (USSOUTHCOM's) area of responsibility, including the Gulf of 
Mexico, Puerto Rico, the Virgin Islands, Cuba, the Bahamas, and the 
Turks and Caicos Islands, will be transferred to USNORTHCOM's area of 
responsibility.
    What are the major challenges that will be involved in the process 
of transferring these areas to USNORTHCOM's responsibility?
    Answer. I do not foresee any major challenges. USSOUTHCOM will 
retain the responsibility for contingency planning, operations, theater 
security cooperation, and force protection.
    Question. Do you foresee a transfer of responsibility for all of 
those areas on October 1, 2002 and, if so, are you confident that the 
transfer can be accomplished without adverse impact by that date?
    Answer. If confirmed, I will work closely with the USSOUTHCOM 
Commander to ensure a smooth transfer of responsibilities.
    Although Cuba, the Bahamas, and the Turks and Caicos Islands will 
be transferred to USNORTHCOM's area of responsibility, USSOUTHCOM will 
retain responsibility for normal and contingency planning, theater 
security cooperation, and force protection for those areas.
    Question. In view of the responsibility retained by USSOUTHCOM, 
what responsibility will USNORTHCOM have with respect to these 
countries?
    Answer. USNORTHCOM is responsible for deterring and defending 
against threats that may be emanating from or through these geographic 
areas. Under the new UCP, these areas were placed in USNORTHCOM's area 
of responsibility because of their proximity to the Continental United 
States. However, USSOUTHCOM will retain its responsibilities as 
outlined above in my previous answer.
    With the transition of U.S. Joint Forces Command from a regional to 
a functional unified command, there is a need to designate another 
commander as Supreme Allied Commander, Atlantic (SACLANT).
    Question. In view of the transfer of part of Joint Forces Command's 
geographic area of responsibility, including part of the North Atlantic 
Ocean, to USNORTHCOM, do you believe that, if confirmed, you should be 
dual-hatted as SACLANT?
    Answer. No. USNORTHCOM will only gain responsibility for the 
portion of USJFCOM's maritime Area of Responsibility that covers 
``approaches to'' the U.S. and is tied to the maritime defense of the 
U.S. The remainder of the areas currently assigned to USJFCOM in the 
eastern Atlantic will transfer to USEUCOM. The assignment of SACLANT 
and its responsibilities is a matter for decision by the members of 
NATO.
                                 mexico
    Question. Mexico, which has never before been included within the 
area of responsibility of a combatant commander, will also be included 
in USNORTHCOM's area of responsibility. Among other things, USNORTHCOM 
will be responsible for security cooperation and military coordination 
with Mexico.
    What does such security cooperation and military coordination 
entail?
    Answer. These activities could include senior officer visits, 
security assistance (foreign military sales, international training) 
and combined exercises.
    Question. Do you anticipate that Mexico could be involved in 
contingency planning for defense of the continent?
    Answer. USNORTHCOM will develop plans for the defense of all 
approaches-air, land and maritime-to the U.S. When appropriate and when 
authorized, it will coordinate with Mexico and Canada to ensure the 
defense of the continent.
    Question. What, if any, involvement could Mexico have in NORAD?
    Answer. Mexico has no involvement in NORAD under the current NORAD 
Agreement between the U.S. and Canada. Any participation would require 
a revision to the agreement, and approval by all 3 countries.
                          unified command plan
    Question. A review of the next Unified Command Plan is reportedly 
underway or imminent. This review will reportedly include consideration 
of merging U.S. Space Command with U.S. Strategic Command and 
establishing a hemispheric U.S. Americas Command combining USNORTHCOM 
and USSOUTHCOM.
    What do you believe are the advantages and disadvantages of each of 
these two proposals?
    Answer. The Unified Command Plan is the purview of the Secretary of 
Defense and the President--to recommend and approve, respectively. As 
shown by the recent changes, it is periodically reviewed to ensure the 
best defense posture for our Nation. While I believe the alternatives 
you suggest certainly warrant consideration, it is inappropriate for me 
to speculate on future changes.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the CINCNORTH?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                           mission statement
    1. Senator Levin. General Eberhart, please describe how the U.S. 
Northern Command--without any large assigned forces--would work with 
the services, the other combatant commands, the Department of Defense--
which does not have a coordinator for combating terrorism and homeland 
defense right now--the National Guard Bureau, as well as the proposed 
Department of Homeland Security and the Office of Homeland Security to 
fulfill its mission--all presumably by October 1 of this year.
    General Eberhart. To accomplish our mission on October 1, 
USNORTHCOM will have operational control, as required, of existing 
component headquarters that are provided by the services. USNORTHCOM's 
relationships with DOD and the other combatant commands will be the 
same as other regional combatant commands. Our focus with the National 
Guard Bureau will be to coordinate and establish processes for 
operational tasking of National Guard forces within the states and 
territories, when in Title 10 status. USNORTHCOM's relationships with 
the proposed Department of Homeland Security and the White House's 
Office of Homeland Security will be through the appropriate element in 
the Office of the Secretary of Defense.

                               decisions
    2. Senator Levin. General Eberhart, during the hearing, I pointed 
out that based upon your answers to the committee's pre-hearing 
questions, final decisions still need to be made about:

        <bullet> USNORTHCOM's organizational structure, including 
        whether it will have component commands;
        <bullet> USNORTHCOM's staff structure, including whether it 
        will be based upon a traditional staff model or a 
        transformational concept, such as Standing Joint Force 
        Headquarters;
        <bullet> USNORTHCOM's forces, including whether specific forces 
        will be assigned or placed under USNORTHCOM's operational 
        control;
        <bullet> USNORTHCOM's role with respect to counterdrug support 
        to Federal, regional, state, and local law enforcement 
        agencies; and
        <bullet> USNORTHCOM's relationship to the National Guard Bureau 
        and to individual state National Guard headquarters.

    Could you provide more details about each of these issues, 
including whether final decisions will be made on them prior to your 
assuming command on October 1? How will you prioritize the resolution 
of these issues?
    General Eberhart. On 1 October 2002, USNORTHCOM will stand up with 
a traditional headquarters staff organization. USNORTHCOM will have 
operational control, as required, of existing component headquarters 
that are provided by the services.
    Issues still under review include USNORTHCOM's relationship with 
the National Guard Bureau, USNORTHCOM's role in counterdrug support and 
the final headquarters organization construct, which will be refined as 
needed in the coming year.

    3. Senator Levin. General Eberhart, when do you anticipate the 
command becoming fully operational?
    General Eberhart. Our goal is to achieve Full Operational 
Capability as soon as possible, but no later than 1 October 2003.

          cuba, the bahamas, and the turks and caicos islands
    4. Senator Levin. General Eberhart, your responses to the 
committee's pre-hearing policy questions indicate that Cuba, the 
Bahamas, the Turks and Caicos Islands, and the Gulf of Mexico are 
included in USNORTHCOM's area of responsibility only for the purpose of 
deterring and defending against threats emanating from or through these 
geographic areas. Does that mean that USSOUTHCOM, rather than 
USNORTHCOM, will be responsible for operations at the U.S. Naval 
Station, Guantanamo Bay, Cuba, including the detention of al Qaeda and 
Taliban personnel, and for the protection of the Naval Station from 
attack?
    General Eberhart. Yes.

                              intelligence
    5. Senator Levin. General Eberhart, the issue of how USNORTHCOM 
will organize to collect, analyze, and utilize intelligence, and how it 
will share intelligence with state, local, and Federal entities is 
critical. Will the command have a Joint Intelligence Center, and if so, 
how will it operate given the constraints placed on intelligence 
activities conducted on U.S. territory?
    General Eberhart. We are studying operational options to ensure we 
have the appropriate intelligence support in USNORTHCOM. Whether or not 
it will be called a Joint Intelligence Center, it will function as 
other centers do with more participation from other government 
agencies.

    6. Senator Levin. General Eberhart, how will the command conduct 
intelligence sharing with other entities?
    General Eberhart. Within our headquarters, USNORTHCOM will have 
liaison officers from across the Intelligence Community. USNORTHCOM 
will work to promote intelligence sharing to the maximum extent 
possible for threat information we need to accomplish our mission.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                    support for civilian authorities
    7. Senator Thurmond. General Eberhart, in your response to the 
committee's advance policy questions you indicate that one of your 
responsibilities will be to ``coordinate the provision of U.S. military 
forces to support civil authorities, as directed by the President.'' In 
this role, what will be your relationship with the Federal Emergency 
Management Agency?
    General Eberhart. USNORTHCOM's relationship with the Federal 
Emergency Management Agency (FEMA) primarily will be through the 
appropriate element in the Office of the Secretary of Defense and the 
Joint Staff. USNORTHCOM will work with FEMA as appropriate to 
facilitate planning.

                         staffing of usnorthcom
    8. Senator Thurmond. General Eberhart, although I understand that a 
number of issues must still be resolved between now and October 1 when 
USNORTHCOM is scheduled to be activated, what are you views on the 
participation of Reserve component personnel on the USNORTHCOM staff? I 
am especially interested in your views of appointing a National Guard 
officer as your Deputy.
    General Eberhart. The Total Force--active, Guard, Reserves, and DOD 
civilians--will play an important role in USNORTHCOM. We are 
considering a number of National Guard and Reserve officers to fill 
Headquarters USNORTHCOM positions.
                                 ______
                                 
    [The nomination reference of Gen. Ralph E. Eberhart, USAF, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                       May 8, 2002.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Air Force to the grade indicated while assigned to a position of 
importance and responsibility under Title 10, United States Code, 
Section 601:

                             To be General

    Gen. Ralph E. Eberhart, 0000.
                                 ______
                                 
    [The biographical sketch of Gen. Ralph E. Eberhart, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
           Resume of Service Career of Gen. Ralph E. Eberhart
Date and place of birth: 26 Dec 46, Nevada MO.

Years of active service: Over 34 years as of 5 Jun 02.

Schools attended and degrees: USAF Academy, BS, 1968; Troy St Univ AL, 
        MS, 1977; National War College, 1987.

Joint specialty officer: Yes.

Aeronautical rating: Command Pilot.


                    MAJOR PERMANENT DUTY ASSIGNMENTS
------------------------------------------------------------------------
                   Assignment                        From         To
------------------------------------------------------------------------
Stu Ofcr, UPT, 3615 Stu Sq, ATC, Craig AFB AL...      Jun 68      Feb 70
Forward Air Cntrlr, 20 TASSq, PACAF, DaNang AB        Feb 70      Dec 70
 RVN............................................
Instr Plt, T-38, 3576 PTSq, ATC, Vance AFB OK...      Dec 70      Apr 72
Asst Flt Comdr, T-38, 25 Fly Tng Sq, ATC, Vance       Apr 72      Oct 72
 AFB OK.........................................
Flt Comdr, T-38, 25 Fly Tng Sq, ATC, Vance AEB        Oct 72      Aug 73
 OK.............................................
Comdr, Hq Sq Sec, 71 ABGp, ATC, Vance AFB OK....      Aug 73      Jun 74
Rsc Mgr (ASTRA), Specl Category Mgt Sec (ASTRA),      Jul 74      Sep 76
 Rated Career Mgt Br, Hq AFMPC, Randolph AFB TX.
Flt Comdr, F-4E, 525 TFSq, USAFE, Bitburg AB GE.      Sep 76      Feb 77
Instr Plt, F-4E, 525 TFSq, USAFE, Hahn AB GE....      Feb 77      May 77
Stan-Eval Flt Exmnr, D/Ops, 50 TFWg, USAFE, Hahn      May 77      Oct 77
 AB GE..........................................
Asst Ch, Stan-Eval Div, D/Ops, 50 TFWg, USAFE,        Nov 77      Jan 79
 Hahn AB GE.....................................
Readiness Init Ofcr, Readiness Init Gp, AF/           Jan 79      Feb 80
 XOOTR, Pentagon DC.............................
Ch, Exec Committee, Congressional & External          Feb 80      Jul 80
 Affairs Div, AF Budget Issues, Team, AF/XOX, Hq
 USAF, Pentagon DC..............................
Aide to CINCUSAFE/Comdr, AAFCE, Hq USAFE,             Jul 80      Sep 82
 Ramstein AB GE.................................
Comdr, 10 TFSq, USAFE, Hahn AB GE...............      Sep 82      Dec 83
Asst Dep Comdr for Ops, 50 TFWg, USAFE, Hahn AB       Dec 83      May 84
 GE.............................................
Exec Ofcr to the CofS, AF/CC, Hq USAF, Pentagon       May 84      Jul 86
 DC.............................................
Stu, National War College, NDU, Ft McNair DC....      Jul 86      Jul 87
Vice Comdr, 363 TFWg, TAC, Shaw AFB SC..........      Jul 87      Sep 88
Comdr, 363 TFWg, TAC, Shaw AFB SC...............      Sep 88      Oct 90
Inspector General, Hq TAC, Langley AFB VA.......      Oct 90      Feb 91
Dir, Prgms & Eval, AF/PE, Pentagon DC...........      Feb 91      Jan 94
Dir, Frce Struc, Resources, & Assessments, Jt         Jan 94      Jun 95
 Staff, Pentagon DC.............................
Dep Chief of Staff, Plans & Ops, HQ USAF,             Jun 95      Jun 96
 Pentagon DC....................................
Comdr, U.S. Forces Japan, USPACOM; Comdr, 5 AF,       Jun 96      Jul 97
 PACAF; and ComU.S. Air Forces Japan, Yokota AB
 JPN ...........................................
Vice Chief of Staff, HQ USAF, Pentagon,               Jul 97      Jun 99
 Washington DC..................................
Comdr, ACC, Langley AFB VA......................      Jun 99      Feb 00
CINC, USSPACECOM; CINC, NORAD; and Comdr,             Feb 00      Apr 02
 AFSPACECOM, Peterson AFB, CO...................
CINC, USSPACECOM and CINC, NORAD; Peterson AFB,       Apr 02     Present
 CO.............................................
------------------------------------------------------------------------


------------------------------------------------------------------------
                                                               Effective
                         Promotions                              Date
------------------------------------------------------------------------
Second Lieutenant...........................................    5 Jun 68
First Lieutenant............................................    5 Dec 69
Captain.....................................................    5 Jun 71
Major.......................................................    1 Sep 79
Lieutenant Colonel..........................................    1 Nov 81
Colonel.....................................................    1 Nov 84
Brigadier General...........................................    1 Mar 91
Major General...............................................    1 Jul 93
Lieutenant General..........................................    1 Jul 95
General.....................................................    1 Aug 97
------------------------------------------------------------------------


Decorations:
    Defense Distinguished Service Medal with one Bronze Oak Leaf 
Cluster
    Air Force Distinguished Service Medal with one Bronze Oak Leaf 
Cluster
    Legion of Merit with one Bronze Oak Leaf Cluster
    Distinguished Flying Cross
    Defense Meritorious Service Medal
    Meritorious Service Medal with two Bronze Oak Leaf Clusters
    Air Medal with two Silver Oak Leaf Clusters and one Bronze Oak Leaf 
Cluster
    Air Force Commendation Medal


                      SUMMARY OF JOINT ASSIGNMENTS
------------------------------------------------------------------------
           Assignments                   Dates               Grade
------------------------------------------------------------------------
CINC, USSPACECOM; CINC, NORAD;    Feb 00-Present....  Gen.
 and Comdr, AFSPACECOM, Peterson
 AFB, CO.
Comdr, U.S. Forces Japan,         Jun 96-Jul 97.....  Lt. Gen.
 USPACOM; and Comdr, U.S. Air
 Forces Japan, Yokota AB JA.
Dir, Force Structure, Resources,  Jan 94-Jun 95.....  Maj. Gen.
 and Assessment, J-8, Joint
 Staff, Pentagon DC.
Executive Officer to the Chief    May 84-Jul 86.....  Colonel
 of Staff, USAF, HQ USAF,                             Lt. Colonel
 Pentagon DC \1\.
------------------------------------------------------------------------
\1\ Joint Equivalent

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. Ralph E. 
Eberhart, USAF, in connection with his nomination follows:]

           North American Aerospace Defense Command
                           and United States Space Command,
                                                        7 May 2002.
Hon. Carl Levin,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination to the position of Commander, United States Northern 
Command; and Commander, North American Aerospace Defense Command. It 
supplements Standard Form 278, ``Executive Branch Personnel Public 
Financial Disclosure Report,'' which has already been provided to the 
committee and which summarizes my financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my Standard Form 278 will create any conflict of interest in the 
execution of my new governmental responsibilities. Additionally, I have 
no other interests or liabilities in any amount with any firm or 
organization that is a Department of Defense contractor.
    During my term of office, neither I nor any member of my immediate 
family will invest in any entity that would create a conflict of 
interest with my government duties. I do not have any present 
employment arrangements with any entity other than the Department of 
Defense and have no formal or informal understandings concerning any 
further employment with any entity.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation.
    I trust that the foregoing information will be satisfactory to the 
committee.
            Sincerely,
                                         Ralph E. Eberhart,
                                                     General, USAF.
                                 ______
                                 
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Ralph E. Eberhart.

    2. Position to which nominated:
    Commander, United States Northern Command; and Commander, North 
American Aerospace Defense Command.

    3. Date of nomination:
    May 8, 2002.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 26, 1946; Nevada, MO.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Karen Sue Eberhart (Maiden Name: Gies).

    7. Names and ages of children:
    Erika L. Eberhart, July 14, 1970.
    Jessica A. Squires, October 7, 1978.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    Member of Armed Force Benefits Association, Board of Director, a 
Non-Profit Organization. The directors serve voluntarily without 
compensation after duty hours.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Council of Foreign Relations Member.
    Order of Daedalians Member.
    Tuskegee Airman, Inc., Member.
    Sabre Society, United States Air Force Academy, Member.
    Association of Graduates, United States Air Force Academy, Life 
Member.
    Air Force Academy Athletic Association, Life Member.
    Peterson AFB Officers' Club Member.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Ralph E. Eberhart.
    This 7th day of May, 2002.

    [The nomination of Gen. Ralph E. Eberhart, USAF, was 
reported to the Senate by Chairman Levin on June 27, 2002, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on June 27, 2002.]







  NOMINATIONS OF LT. GEN. JAMES T. HILL, USA, FOR APPOINTMENT TO THE 
 GRADE OF GENERAL AND ASSIGNMENT AS COMMANDER IN CHIEF, UNITED STATES 
 SOUTHERN COMMAND; AND VICE ADM. EDMUND P. GIAMBASTIANI, JR., USN, FOR 
  APPOINTMENT TO THE GRADE OF ADMIRAL AND ASSIGNMENT AS COMMANDER IN 
               CHIEF, UNITED STATES JOINT FORCES COMMAND

                              ----------                              


                         FRIDAY, JULY 26, 2002

                              United States Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SR-222, Russell Senate Office Building, Senator Mark Dayton, 
presiding.
    Committee members present: Senators E. Benjamin Nelson, 
Dayton, Warner, McCain, Inhofe, Allard, Sessions, and Bunning.
    Committee staff members present: David S. Lyles, staff 
director, and Gabriella Eisen, nominations clerk.
    Majority staff members present: Richard D. DeBobes, 
counsel; Evelyn N. Farkas, professional staff member; Maren 
Leed, professional staff member; Gerald J. Leeling, counsel; 
and Peter K. Levine, general counsel.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Charles W. Alsup, professional staff 
member; Edward H. Edens IV, professional staff member; Brian R. 
Green, professional staff member; Gary M. Hall, professional 
staff member; Mary Alice A. Hayward, professional staff member; 
George W. Lauffer, professional staff member; Patricia L. 
Lewis, professional staff member; Thomas L. MacKenzie, 
professional staff member; Scott W. Stucky, minority counsel; 
and Richard F. Walsh, minority counsel.
    Staff assistants present: Daniel K. Goldsmith and Nicholas 
W. West.
    Committee members' assistants present: Brady King, 
assistant to Senator Kennedy; Elizabeth King, assistant to 
Senator Reed; William K. Sutey, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; William 
Todd Houchins, assistant to Senator Dayton; Benjamin L. 
Cassidy, assistant to Senator Warner; John A. Bonsell, 
assistant to Senator Inhofe; Michele A. Traficante, assistant 
to Senator Hutchinson; Arch Galloway II, assistant to Senator 
Sessions; Kristine Fauser, assistant to Senator Collins; and 
Derek Maurer, assistant to Senator Bunning.

            OPENING STATEMENT OF SENATOR MARK DAYTON

    Senator Dayton. Good morning. This hearing will come to 
order. I want to preface my remarks by saying that I am truly 
honored that Senator Levin, chairman of the committee, offered 
me this opportunity to chair in his absence, and he regrets not 
being here at the beginning of this hearing.
    I am a poor substitute for him and for his predecessor, the 
gentleman to my left, Senator Warner. These men have been the 
two chairs of this committee in my year and a half here, and I 
have watched very carefully how they both conducted themselves 
and hope to model my career after theirs. But I am not there 
yet, so bear with me. I am delighted that the committee meets 
this morning to consider the nominations of two officers to 
command two of our nine combatant commands.
    Lieutenant General James Hill has been nominated to be the 
Commander in Chief, U.S. Southern Command, and Vice Admiral 
Edmund Giambastiani has been nominated to be Commander in Chief 
of the U.S. Joint Forces Command. I want to extend a warm 
welcome to General Hill and to Vice Admiral Giambastiani, and 
congratulate them on their nominations by the President for 
these very important positions. The nominees are well-known to 
the committee and, in my view, very well-qualified for the 
positions for which they have been nominated.
    I also want to welcome the families of our nominees to the 
committee this morning. This committee knows and appreciates 
very well the sacrifices that our military families make in the 
service of our Nation. We have a tradition on the committee of 
asking our nominees to introduce their family members to the 
committee. At this time I would ask General Hill and then 
Admiral Giambastiani to introduce their family members. General 
Hill.
    General Hill. Thank you, Senator. This is my wife, Toni. We 
have been married for 31 years, have two children, a daughter, 
23, and a son, 15, who unfortunately could not be here with us 
today. But we come together as a team to this job, as we have 
done for the last 31 years.
    Senator Dayton. Welcome, Toni. You make a good team. Vice 
Admiral Giambastiani.
    Admiral Giambastiani. Mr. Chairman, thank you very much. I 
brought a large group with me, my wife of 26 years, Cindy 
Giambastiani. She is an Air Force brat--Cindy; my daughter 
Kathy, a recent University of Virginia graduate; my son Peter, 
a Lieutenant JG in the United States Navy; and my recent 
addition to the family, my daughter-in-law as of November, 
Jennifer.
    Senator Dayton. You have a son who is in the Navy and a 
daughter who has just graduated from the University of 
Virginia, so I think you are very well-situated with this 
committee. [Laughter.]
    Thank you, and welcome, Cindy and family.
    Both the Southern Command and the Joint Forces Command have 
been affected by the recently-approved changes in the Unified 
Command Plan. In the case of the Southern Command, its 
geographic area of responsibility will no longer include the 
Gulf of Mexico, Puerto Rico, the Bahamas, and Cuba, which will 
be assigned to the U.S. Northern Command once it is 
operationally effective. The Southern Command will continue to 
have the responsibility for South and Central America, which 
includes the Andean nations and the difficult problem of 
dealing with drug trafficking and the drug-funded activities of 
narcoterrorists.
    In the case of the Joint Forces Command, the impact of the 
changes in the Unified Command Plan are significant. Joint 
Forces Command will, once Northern Command is operationally 
effective, no longer have a geographic area of responsibility. 
It will become a functional combatant command. That change is 
intended to refocus Joint Forces Command on the critical task 
of experimentation and transformation of the U.S. Armed Forces, 
as well as its function as the trainer and provider of joint 
forces to the other combatant commanders.
    I understand that our colleague, Senator Graham, will be 
introducing General Hill, and Senator Warner will be 
introducing Admiral Giambastiani. Senator Warner has graciously 
consented to Senator Graham making his introductory remarks 
first. Welcome to our committee, Senator Graham.

STATEMENT OF HON. BOB GRAHAM, A U.S. SENATOR FROM THE STATE OF 
                            FLORIDA

    Senator Graham. Thank you very much, Mr. Chairman, Senator 
McCain, and Senator Allard. I appreciate the opportunity, along 
with Senator Bill Nelson, to introduce to you the gentleman who 
has been nominated by the President of the United States to be 
the Commander in Chief of the United States Southern Command.
    General Hill is currently the Commander of I Corps at Fort 
Lewis in Washington State. He began his distinguished career 
after graduating from Trinity College in San Antonio. He began 
his military career in 1968, as an infantry officer, later 
serving as a platoon leader and company commander with the 
101st Airborne Division in Vietnam. He is a graduate of the 
Command and General Staff College and the National War College. 
General Hill has earned a master's degree in personnel 
management from Central Michigan University. He is well-
prepared by personal background and experience to take on this 
important command.
    In Vietnam, General Hill served in combat operations in 
Southwest Asia during Operations Desert Shield and Desert 
Storm, and as Deputy Commander, United States Forces in Haiti 
in 1994.
    Originally from El Paso, General Hill has been married for 
over 30 years to his wife, Toni, who I understand is with us. 
They have a 23-year-old daughter, Meghan, and a son, Griffin, 
who is 15 years old.
    General Hill's military decorations include the 
Distinguished Service Medal, the Silver Star, the Defense 
Superior Service Medal, the Legion of Merit, the Bronze Star, 
and the Purple Heart.
    General Hill's broad experience will serve him well in the 
Southern Command, where he will be responsible for the 
activities of the 19 nations of Central and South America, and 
the 13 island nations in the Caribbean. Southern Command's 
objectives include strengthening democratic institutions, 
attacking drug production, supporting economic and social 
progress, and helping Latin American nations access and 
eliminate threats to their security.
    I might say from a personal experience with several of the 
commanders of Southern Command that in a period of special 
transition in South America, Southern Command has played a 
critical role. It has not only provided substantial assistance 
in times of need, from insurrections to climactic disasters, 
but has also helped to educate the militaries of Latin America, 
which have grown up often under a tradition in which there was 
no democratic government, to understand how a military 
functions in a democratic society. I think the fact that in 
spite of some serious strains in recent years in places like 
Argentina, the military has exercised its appropriate 
discipline and restraint, unlike some periods in that nation's 
past, is in significant part due to the influence of Southern 
Command.
    This command fulfills its multiple objectives by combining 
training programs with host nation forces, intelligence 
exchanges, humanitarian assistance, and close work with U.S. 
ambassadors in the region. The importance of Southern Command 
to our national security and to regional stability could not be 
overemphasized.
    Mr. Chairman, I have a longer statement, but I believe that 
you have a sense of the importance of the mission and the 
qualities of General Hill to fill that mission, so I would ask 
that the balance of my statement be submitted to the record.
    Senator Dayton. Without objection.
    Senator Graham. I would urge earliest consideration by this 
committee for the confirmation of General Hill to this 
important mission for which the President of the United States 
has invested his confidence in General Hill's leadership.
    [The prepared statement of Senator Graham follows:] 
                Prepared Statement by Senator Bob Graham
    Good morning Mr. Chairman and members of the committee.
    I am honored to come before you today to introduce Lieutenant 
General James T. Hill, the President's nominee for assignment as 
Commander in Chief of the United States Southern Command, based in 
Miami, Florida.
    General Hill is currently the commander of I Corps at Fort Lewis in 
Washington State. He began his distinguished career in 1968 as an 
infantry officer and later served as a platoon leader and company 
commander with the 101st Airborne Division in Vietnam.
    A graduate of both the Command and General Staff College and the 
National War College, General Hill also earned a master's degree in 
personnel management from Central Michigan University. In addition to 
Vietnam, General Hill served in combat operations in Southwest Asia 
during Operations Desert Shield and Desert Storm, and as Deputy 
Commander, United States Forces, Haiti, in 1994.
    Originally from El Paso, Texas, General Hill has been married over 
30 years to his wife Toni, who is with us today.
    They have a 23-year-old daughter, Meghan, and a son Griffin, who is 
15 years old. General Hill's military decorations include the 
Distinguished Service Medal, the Silver Star, the Defense Superior 
Service Medal, the Legion of Merit, the Bronze Star, and the Purple 
Heart.
    General Hill's broad experience will serve him well at the Southern 
Command, where he will be responsible for activities in the 19 nations 
of Central and South America and the 13 island nations in the 
Caribbean.
    The Southern Command's objectives include strengthening democratic 
institutions, attacking drug production, supporting economic and social 
progress, and helping Latin American nations assess and eliminate 
threats to their security. The command fulfills its objectives by 
combined training programs with host nation forces, intelligence 
exchanges, humanitarian assistance, and close work with the U.S. 
ambassadors in the region.
    The importance of the Southern Command to our national security and 
regional stability cannot be overemphasized. With more than 40 percent 
of all U.S. exports going into Latin America, the influence of the 
region's stability on our economy is evident. By the year 2010, U.S. 
trade with this region will eclipse that of United States trade with 
Europe and Japan combined.
    The fragility of democratic governments in the region, combined 
with the continued existence of the Castro regime and the proliferation 
of terrorist and drug organizations highlights the importance of the 
Southern Command.
    The Southern Command carries out a myriad of missions through its 
joint service headquarters in Miami. The Army, Air Force, Navy, and 
Marine component commands include approximately 800 military personnel 
and 325 civilian employees. The Southern Command has a significant 
impact on Miami and contributes more than $167.5 million to the South 
Florida economy.
    Miami's favorable geographic location, unparalleled transportation 
system, telecommunications infrastructure, and bilingual population 
make it the crossroads of the Americas. This is precisely why Miami 
remains the perfect, most logical strategic location for the United 
States Southern Command.
    We have witnessed in the last two decades an unprecedented 
transition to democratic rule and free market economic systems in Latin 
America and we must continue to nurture and stabilize this progress. 
This is exactly what the Southern Command is doing every day.
    It has helped ensure region-wide progress toward democracy, 
prosperity, human rights, and freedom, and will continue to do so under 
General Hill's leadership, integrity, and vision. I urge my colleagues 
to confirm General Hill as Commander of the United States Southern 
Command.

    Senator Dayton. Thank you, Senator Graham, for your 
endorsement and your introduction, and certainly your position 
as the Chairman of the Senate Intelligence Committee puts you 
in a very prominent position from which to observe these 
functions. So thank you very much. Your colleague, Senator Bill 
Nelson, has indicated his regret that he is not able to join 
you in introducing General Hill. He is presiding over the 
Senate right now.
    Those are commitments that I know from my own experience 
are made by our staffs months and weeks in advance and are 
impossible to change, so he regrets very much his inability to 
join you, Senator Graham. Senator Nelson wants to extend his 
regards to both of the nominees and say he has enjoyed meeting 
with both of you, and is fully satisfied with your readiness to 
assume the duties with the commands for which you have been 
nominated.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I join you in 
commending Senator Graham. Indeed, Senator, you, as chairman of 
the Intelligence Committee, have an unusual opportunity to 
understand, analyze, and relate to the extraordinary problems 
in Central and South America for which General Hill will have 
significant responsibility, and we thank you for joining us 
today.
    Senator Graham. Thank you very much.
    Senator Warner. General Hill, I welcome you and your family 
here today. I would simply say that, by necessity, this Senator 
and some others felt we had to prolong these proceedings, but 
we will get into that later. I think the record at this point 
in time justifies Senate confirmation of you.
    Those of us who have been around here for a while, through 
the many years, have gotten to know quite a few of your 
predecessors. Several of them, not in any sense of lobbying, 
but just in a sense of helping the committee, came forward on 
your behalf. They are extraordinary recommendations from 
individuals that I have the highest respect for who are now in 
the retired community. So you have every right to look back and 
reflect on your career with a great sense of satisfaction and 
hopefully, with Senate confirmation, you can take on another 
chapter to add to that career.
    Now, Mr. Chairman, I am very happy and pleased and, indeed, 
honored to introduce our next nominee, Vice Admiral 
Giambastiani, whom I have come to know very well in his current 
position with the Secretary of Defense, and I join the chairman 
and others in welcoming your family. The families play a very 
unique role. As I greeted your wife, I said to her that she is 
largely responsible for the opportunity you have of sitting in 
that chair this morning for confirmation, with many years of 
great service to your country by yourself and your family.
    I would simply reflect briefly on the fact that your 
assignments, which are part of the record here this morning, 
indicate that you have had a most unusual career. After 
graduating with leadership distinction from the United States 
Naval Academy in 1970, you served under the late Admiral Hyman 
Rickover in various assignments aboard both attack and 
ballistic missile submarines. In the course of our rather 
lengthy deliberations the other day we shared many stories 
about that great American. Having survived the Admiral Rickover 
test certainly puts you in good stead with this Senator.
    I would particularly note your service from July 1987 to 
April 1990 as Commanding Officer of the U.S.S. Richard B. 
Russell, named for a former chairman of the Senate Armed 
Services Committee, a very distinguished member of the United 
States Senate for many years. So that was indeed an honor for 
you. While in command of the Russell, an attack submarine, you, 
as skipper, and your crew, won three consecutive Battle 
Efficiency ``Es,'' three Navy Unit Commendations, and two Fleet 
Commander Silver Anchors for excellence in enlisted retention.
    Your shore and staff assignments also reflect the depth of 
your experience, and demonstrate that you are fully qualified 
for the duties you will assume, if confirmed by the Senate. 
These assignments include service as a Deputy Chief of Staff to 
the Combatant Commander of Pacific Fleet, as well as Commander, 
Submarine Force, U.S. Atlantic Fleet, and Commander, Submarine 
Allied Command, Atlantic.
    You served in many staff positions, including at the Naval 
Doctrine Command, the Navy Recruiting Command, as Special 
Assistant to the Deputy Director for Intelligence with the CIA, 
and as Deputy Chief of Naval Operations for Resources, Warfare 
Requirements, and Assessments.
    You have come a long way since 1970. Your present 
assignment is probably your toughest, as Senior Military 
Assistant to the Secretary of Defense. You have been a strong 
supporter of the Secretary, and have had to interface more than 
once with Congress, and my observation is you have handled that 
very well. Of course, the Senate floor debate and vote is yet 
to come, but I think your nomination will be alright.
    I will likewise put the balance of my statement in the 
record, Mr. Chairman, because there are members here who wish 
to speak and we have a vote coming. So I thank you for the 
honor of introducing you, skipper. Well done, and I look 
forward to your being confirmed by the Senate and assuming this 
new position.
    Senator Dayton. Without objection, Senator, your remarks 
will be inserted in full in the record.
    [The prepared statement of Senator Warner follows:] 
               Prepared Statement by Senator John Warner
    Mr. Chairman, I join you in welcoming Lieutenant General Hill and 
Vice Admiral Giambastiani and their families. Gentlemen, 
congratulations to you and your families on your nominations to these 
commands of enormous consequence for our Nation's vital interests and 
the future of our Armed Forces.
    It is with great pleasure that I introduce Vice Admiral Ed 
Giambastiani and his family to the members of the Senate Armed Services 
Committee. Admiral Giambastiani is no stranger to the committee as he 
has served as Secretary Rumsfeld's Military Assistant for almost 2 
years. Though a native of New York, Admiral Giambastiani has wisely 
moved south. We Virginians claim him as one of our own, like so many in 
the military who call Virginia home multiple times during their 
military careers.
    As we are all aware, behind every successful military officer is 
usually an equally resourceful and supportive family. The Giambastiani 
family is one that has exemplified this military ideal, and one that 
has made husband and father proud. The other half of this great Navy 
team is Cindy Giambastiani. No stranger to life in the military, Cindy 
was an Air Force ``brat'' whose father served for 30 years. Cindy 
graduated from Cornell University, and despite her nomadic youth, calls 
McLean, Virginia her home. She has been a tireless volunteer in Navy 
communities and recently served as the volunteer director and CEO of a 
$4 million nonprofit scholarship foundation that awards more than 120 
college scholarships annually to dependents of Navy submariners.
    Ed and Cindy have been married for 26 years and have 2 children. 
Their son, Peter, is a 2000 graduate of the Naval Academy and currently 
a lieutenant junior grade in the Navy who just returned from sea duty 
aboard the U.S.S. Carr (frigate homeported in Norfolk). Lieutenant 
Giambastiani will be in Dahlgren for the next several months undergoing 
Aegis combat systems training. Their daughter, Catherine, is a May 2002 
graduate of the University of Virginia who will be studying law at 
American University here in Washington starting in August. Peter's 
wife, Jennifer, is also with us today. She is an elementary school 
teacher in Virginia Beach, a graduate of Radford University and a 
lifelong Virginian from Springfield. We welcome you all today and thank 
you for your support of this great sailor, your support for our Navy 
and your service to our Nation.
    As Admiral Giambastiani's summary of assignments indicates, he has 
had a remarkable career. After graduating with distinction from the 
U.S. Naval Academy in 1970, he served under the late Admiral Hyman 
Rickover in various assignments--aboard both attack and ballistic 
missile submarines. I would particularly note his service from July 
1987 to April 1990 as Commanding Officer of U.S.S. Richard B. Russell 
(SSN 687), an attack submarine named after the great Senator from 
Georgia who served over 38 years in the Senate and chaired this 
committee for 16 of those years.
    While in command of the Russell, the Admiral and his crew won three 
consecutive Battle Efficiency ``Es,'' three Navy Unit Commendations, 
and two Fleet Commander Silver Anchors for excellence in enlisted 
retention.
    Vice Admiral Giambastiani's list of shore and staff assignments 
also reflect the depth of his experience and demonstrate that he is 
fully qualified for the duties he will assume, if confirmed by the 
Senate. These assignments include service as Commander in Chief, 
Pacific Fleet, as well as Commander, Submarine Force, U.S. Atlantic 
Fleet and Commander, Submarine Allied Command, Atlantic. He has served 
in many staff positions, including the Naval Doctrine Command, the Navy 
Recruiting Command, as Special Assistant to the Deputy Director for 
Intelligence with the CIA, and as the Deputy Chief of Naval Operations 
for Resources, Warfare Requirements, and Assessments (N8) on the Navy 
staff.
    In his present assignment as Senior Military Assistant to the 
Secretary of Defense, the Admiral has been the Secretary's strong right 
hand since May 2001. As the men and women of the Armed Forces have 
responded so magnificently to the challenges of the global war on 
terrorism, Secretary Rumsfeld has demonstrated his remarkable abilities 
to manage, lead, and inspire our Armed Forces and our Nation. We 
compliment you on your service to him and our Nation in this most 
demanding position.
    Secretary Rumsfeld has chosen carefully and well for this most 
unique responsibility of leading U.S. Joint Forces Command. As a 
candidate and as President, George W. Bush signaled his intent to 
transform our Armed Forces to be prepared to deter and defeat the very 
different threats we will face in the 21st Century. U.S. Joint Forces 
Command, located in Suffolk, Virginia is the laboratory where these 
transformational warfighting concepts are conceived, tested, and 
refined. Preparing our forces for the future is a priority for 
Secretary Rumsfeld. He has chosen someone who has a vision for the 
future and someone in whom he has great confidence to lead this 
effort--Admiral Ed Giambastiani.
    General Hill, congratulations on your nomination. You truly have a 
superb record of service as a highly decorated combat veteran--with 
distinguished tours in Vietnam and in the Persian Gulf during Operation 
Desert Storm--as a staff officer, and a leader on the front lines. I 
congratulate you on your outstanding record of service, and your 
nomination for command of United States Southern Command.
    We are fortunate as a nation that the President has nominated such 
extraordinarily well-qualified individuals for these important 
assignments.

    Senator Dayton. General Hill and Admiral Giambastiani have 
responded to the questionnaires and the policy questions that 
the committee submitted to them in advance of this hearing, and 
without objection those responses will be made a part of our 
committee record.
    The committee has also received the required paperwork on 
both gentlemen, and we will be reviewing that paperwork to make 
sure it is in accordance with the committee's requirements.
    Before we begin, there are several standard questions that 
we ask all nominees that come before the committee, and I will 
ask each of you to respond yes or no, or with any elaboration 
you wish or qualifications to either of them, starting with 
you, General Hill. The first of these is, do you agree, if 
confirmed for this high position, to appear before this 
committee and other appropriate committees of Congress and to 
give your personal views, even if those views differ from the 
administration in power?
    General Hill. Yes, sir, I do.
    Admiral Giambastiani. Yes, sir, I do.
    Senator Dayton. Have you adhered to applicable laws and 
regulations governing conflict of interest?
    General Hill. Yes, I have, sir.
    Admiral Giambastiani. Yes, sir.
    Senator Dayton. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Hill. No, sir.
    Admiral Giambastiani. No, sir.
    Senator Dayton. Will you ensure that your command complies 
with deadlines established for requested communications, 
including prepared testimony and questions for the record?
    General Hill. Yes, sir.
    Admiral Giambastiani. Yes, sir.
    Senator Dayton. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Hill. I will, sir.
    Admiral Giambastiani. Yes, sir.
    Senator Dayton. Will those witnesses be protected from 
reprisal?
    General Hill. Yes, sir.
    Admiral Giambastiani. Yes, sir.
    Senator Dayton. I thank you both.
    General Hill, you may begin with any opening remarks you 
would like to make.
    Senator McCain. Mr. Chairman, it is usually the practice to 
have members make their opening remarks.
    Senator Dayton. I am sorry, Senator. I apologize. Let me 
turn to you, sir, to give you that opportunity.
    Senator McCain. I thank you, Mr. Chairman. I thank the 
witnesses for being here, most importantly. They are taking on 
very difficult and challenging tasks in challenging times. They 
are both highly qualified. I congratulate the nominees and 
their families, and we look forward to working with them, and 
for years in the future.
    I thank you, Mr. Chairman.
    Senator Dayton. Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. I, too, want 
to thank the Admiral and the General for your past service, and 
I look forward to your continuing service if confirmed, and I 
have no reason to believe you will not be, and express my 
willingness to work with you in your new commands.
    Obviously, each command is important to the future of our 
country and to the defense of liberty, so I look forward to 
that, and thank you very much. I have enjoyed the opportunity, 
although it was brief, as the Admiral knows, to have met with 
you and to have expressed an interest in your commands.
    Thank you very much. Thank you, Mr. Chairman.
    Senator Dayton. We can proceed with the committee custom of 
the early bird order of recognition.
    Senator Allard.
    Senator Allard. Mr. Chairman, I just want to congratulate 
the Admiral and General for being here and giving them an 
opportunity to serve our country in different capacities, and I 
have some comments I just would like to have made part of the 
record.
    Senator Dayton. Without objection.
    [The prepared statement of Senator Allard follows:]
               Prepared Statement by Senator Wayne Allard
    I want to thank you both for coming here today. Your areas of 
responsibility are of vital interest and of strategic importance to the 
United States. You are accepting an immense amount of responsibility at 
a most important and challenging time in our country. I want to thank 
you in advance for your efforts, your dedication to duty, and your 
overwhelming commitment to the soldiers, sailors, airmen, and marines 
in your charge.
    Your areas of responsibility are of much political and economic 
interest to the United States. There are areas of conflict, but of 
opportunity as well. I have the utmost confidence in your ability to 
handle them.
    So, gentlemen, I thank you for your service and I look forward to 
hearing your thoughts today.

    Senator Dayton. Senator Bunning.
    Senator Bunning. Thank you, Mr. Chairman. I would like to 
welcome first of all both the General and the Admiral, and your 
families. We appreciate your service to our country. The 
responsibility of the two Unified Combatant Commands we are 
discussing today are fundamental to the national security of 
the United States. It is important that we assure these 
responsibilities are executed with the greatest of care. There 
are many challenges in both of these areas of responsibility. I 
am looking forward to working with you, and I know the rest of 
the committee is also, to ensure that we get the most out of 
both of you.
    Thank you.
    Senator Dayton. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. We are delighted 
that you are here. Thank you for your service to your country. 
I look forward to working with you.
    General Hill, I have had some concern over your region. We 
know that Colombia is in a life and death struggle--40 million 
people, a democracy, an important trading partner of ours. We 
know that Venezuela is very unstable, with a leader that does 
not seem to be in sync with what we hope for South America. In 
Brazil, Luis da Silva apparently is favored to win that race, 
and he is a Castro fan, so we have some problems. I hope that 
you will be very creative as you work on that and try to see if 
you cannot help us be more effective in our leadership in the 
region.
    Senator Dayton. Thank you. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I am just proud to 
be here in support of both of the nominees.
    Senator Dayton. Thank you, Senator Inhofe. At this time I 
would like to insert into the record the statements of Senator 
Bill Nelson and Senator Thurmond, as they are not able to be 
with us today.
    [The prepared statements of Senator Bill Nelson and Senator 
Thurmond follow:]
               Prepared Statement by Senator Bill Nelson
    Mr. Chairman and colleagues on the committee, thank you for this 
opportunity to speak in support of the nomination of Lieutenant General 
Tom Hill to become Commander, U.S. Southern Command. I believe you know 
that I have looked forward to this day for a long time.
    Since October 1, 2001, when General Peter Pace left Miami to become 
Vice Chairman of the Joint Chiefs of Staff, we have eagerly anticipated 
the nomination of a great American military leader to assume the duties 
of Commander, U.S. Southern Command. I believe that we have that leader 
in General Tom Hill.
    Speaking at the National Defense University last year, Secretary of 
Defense Rumsfeld said that he had told the President that the officers 
selected for nomination as our Service Chiefs and regional commanders 
would have the most important and influential impact on the future of 
our national security. I agreed with him then and I still do. The right 
officers in the right positions are critical to our security today and 
tomorrow, and now winning the war on terror.
    General Hill's qualifications are well known to the committee. He 
is a muddy-boots warrior, ready for the challenges of making a 
difference within the subtle and complex military-diplomatic circles of 
South America.
    There is no question in my mind that the Commander of U.S. Southern 
Command will have a direct impact on the stability of our Southern 
Hemisphere. The Southern Command area of responsibility encompasses one 
sixth of the world's landmass and includes 32 countries and 14 
protectorates throughout Latin America and the Caribbean. The United 
States has enduring political, economic, cultural, and security ties to 
Latin America and the Caribbean. We have made great progress in 
bringing greater democracy and stability to the region but there is 
almost always the risk of slipping into bad old ways.
    A tense and uncertain peace exists among Latin American and 
Caribbean nations and their neighbors. We proudly point to the fact 
that all countries, except for Cuba, have democratically-elected 
governments. However, the stability of many of these democracies 
remains uncertain, and economic development in some countries is slow, 
uneven, or endangered. While there is peace among the nations of South 
America, peace is not the norm within some of these nations. The risks 
to the region of destabilization in Colombia are particularly 
troubling.
    We are all aware and alarmed by the compounding threats of 
terrorism, drug, and arms trafficking, illegal migration, and 
international organized crime. This region is critically important to 
the United States' war on terror. As President Bush recently stated, 
``. . . it's so important for Americans to know that the traffic in 
drugs finances the work of terror, sustaining terrorists--that 
terrorists use drug profits to fund their cells to commit acts of 
murder.''
    General Tom Hill is the man to lead our national military efforts 
in South America. He has a monumental task ahead of him--we need to 
send him to Miami so he can get to work right now.
    Speaking of Miami, Mr. Chairman, I cannot miss this opportunity to 
raise another issue important to the Commander of Southern Command, but 
also important to the people of Florida and, therefore, important to 
Senator Graham and myself.
    We remain deeply disappointed and concerned that the Department of 
Defense has been unable to settle the issues surrounding delays in the 
procurement of the facilities for Headquarters, U.S. Southern Command 
in Miami.
    We have not found anyone who does not agree that Miami is the right 
place for this command's headquarters--as one diplomat told a previous 
Commander of Southern Command, ``Miami is the capital of South 
America.'' The facility is ideally located to support the travel 
requirements of the command and our South American allies. The facility 
is modern by every measure and capable of the demands of high-tech 
theater command and control. The facility can be secured to current 
force protection standards.
    We recognize that the history of this situation is nothing short of 
incredible. The mistakes made in the pursuit of this building's 
purchase by the Department of Defense and the Department of the Army 
have been undeniably awkward. Nonetheless, more precious time and money 
will be lost if we allow this situation to drag on indefinitely.
    I hope that we will be able to overcome the problems that plague 
this situation and give General Hill a facility with the capability and 
stability he and his headquarters need and deserve to accomplish their 
mission.
    Thank you, Mr. Chairman.
                                 ______
                                 
              Prepared Statement by Senator Strom Thurmond
    Mr. Chairman, I join you and the members of the Armed Services 
Committee in welcoming and congratulating General Hill and Admiral 
Giambastiani on their nominations for promotion and assignment to two 
critical commands. Each of these officers has a distinguished military 
career and each is highly-qualified to carry out the responsibilities 
of the commands for which they have been nominated.
    Although I have not had the opportunity to meet General Hill, I 
have heard many laudatory reports of his leadership as the I Corps 
Commander and his role as the 25th Infantry Assistant Division 
Commander in Hawaii. I expect that he will find his assignment as 
Commander in Chief of the United States Southern Command a great 
challenge and cause a revitalization of our relations with the nations 
in South and Central America.
    Admiral Giambastiani, you have come a long way since our trip to 
visit the Seawolf and the New London Navy Submarine Base in Groton, 
Connecticut. I fondly recall the visit to our proud sailors and your 
kindness throughout the visit.
    Mr. Chairman, our Nation can be proud that it will be represented 
by these two professional military officers. I support their nomination 
and wish them success.

    Senator Dayton. General Hill, would you care to make any 
opening remarks?

            STATEMENT OF LT. GEN. JAMES T. HILL, USA

    General Hill. Sir, I have no opening remarks, except to say 
I am both humbled and honored to sit here with this 
distinguished committee asking and seeking Senate confirmation 
to the important post to which the President has nominated me.
    I would also say that, if confirmed, I promise you and the 
Senate and the country that I will serve as honorably and as 
selflessly as I have served for the last 34 years.
    Thank you, sir.
    Senator Dayton. Thank you.

    STATEMENT OF VICE ADM. EDMUND P. GIAMBASTIANI, JR., USN

    Admiral Giambastiani. I have very brief remarks. Mr. 
Chairman and members of the committee, thank you for this 
opportunity to appear today with Lieutenant General Hill. I 
know the committee has exceptionally important work and a full 
schedule before them as this hectic period comes to a close. I 
would also like to personally thank Senator Warner for his 
generous introduction today, in particular of my family. They 
are the primary reason why I am here, as he has pointed out.
    Senator Warner, you have been a mentor and an inspiration 
to not only all of us in the Naval Service, but to all of us in 
the Armed Forces. Thank you for your service.
    I am honored to have been nominated by the President and 
the Secretary of Defense for the position of Commander, United 
States Joint Forces Command. If confirmed, I look forward to 
working with the members of this committee in carrying out this 
important task, Mr. Chairman.
    I am prepared to answer your questions.
    Senator Dayton. We will proceed, as is the committee 
custom, with 6 minute question rounds per Senator, following 
the early bird order. I want to note we are scheduled to have a 
vote at 10:00. When that occurs we will endeavor to continue 
through the process uninterrupted with members having to come 
and go, which I trust you will understand.
    General Hill, your new command would have major 
responsibilities, as others have noted, for the situation in 
Colombia, for activities there. Based upon your knowledge at 
this time, how would you characterize that country's 
determination to deal with these problems, and do you 
anticipate any further efforts under the president early in the 
future?
    General Hill. Sir, I think the Colombian people spoke 
pretty loudly and clearly when they elected President Uribe to 
lead their country. I think they have clearly demonstrated and 
shown through their votes that they are tired of what is going 
on in that beleaguered country. I also believe that President 
Uribe, with the help of the United States, can in fact effect 
major change both in the military and in his government to 
reassert control over Colombia.
    Senator Dayton. Recognizing that you will, of course, carry 
out the President's and the Secretary's policies in the area, 
in your, own view at this time, how important do you rate the 
United States' assistance to the Colombian Government and to 
the army there and the training of the army as provided?
    General Hill. Sir, with the great support of Congress and 
the allocation of resources to the U.S. military and to the 
Department of State that have been going to Colombia, I think 
that we have made some great progress over the last several 
years. The training of the counternarcotics brigade has made a 
significant impact on the Colombian military. If you look at 
the area where the counternarcotics brigade has affected 
operations, they have, in fact, cut coca production there and 
done a good job.
    Now, the sophisticated narcoterrorist has moved his 
operation to other areas, which is regrettable, and we will 
have to continue to monitor that. Based on what I know today--
and I will have to come back to you in a couple of months and 
give you much greater detail on what my observations are, if 
confirmed by the Senate--but I think at this point we are 
making some headway. But I have great concerns for what goes on 
down there, just like Senator Sessions was discussing.
    Senator Dayton. Thank you, General. I personally hope you 
will receive that invitation. I think it is a very important 
endeavor and one fraught with both importance and peril.
    Along that line, as you know, the activities of some 
officers who have received training, whether in their country 
or in the United States, from our military personnel has been 
of concern to some Americans as it relates to how they treat 
their citizens in the area of human rights and the like. I 
visited the School of the Americas myself last year and was 
struck by their intentions to change the training to emphasize 
the human rights aspect, but of course they have no control 
over these individuals once they return to their country.
    I would ask that you bring a vigilance and awareness of the 
importance of that conduct, and would you also bring to the 
attention of higher authorities, if necessary to this 
committee, any violations that come to your attention?
    General Hill. Yes, sir, I will. I look at the human rights 
issue very much like I look at the environmental laws. As an 
installation commander working for the Army at Fort Lewis I am 
a good steward of the environment because of two reasons; it is 
the law, and it is the right thing to do.
    I think that the human rights issue in Colombia and 
throughout the region is exactly the same thing. It is the law 
of our country, and is how we deal with nations in terms of the 
violation of human rights. Those nations cannot enjoy peace and 
prosperity, cannot build a good military, cannot build a 
military that is supportive of democracy unless there is a 
regard for human rights. As Senator Graham pointed out in his 
introduction of me, the history of Latin America has not been 
good in this regard. Over the last several years, that history 
has been improving, and it has been improving a great deal as a 
result of the work that has been done by the U.S. military, 
particularly Southern Command.
    Senator Dayton. Thank you. Admiral Giambastiani, Defense 
News reported this week that there is a shortage of personnel 
in the command which you would be assuming, and it is 
anticipated that an even greater shortage will be developing in 
the months ahead. Could you reflect on how you view that 
situation?
    Admiral Giambastiani. Mr. Chairman, I have read the article 
you are referring to out of Defense News. It appeared two days 
ago. I read it in detail, and have also had just a brief 
opportunity to take a look at this report that Joint Forces 
Command produced and was commissioned by the Director of the 
Joint Staff.
    What I would say to you is that every one of the combatant 
commands is currently going through a process of reviewing 
their headquarters force structures and not surprisingly, as we 
move pieces around with this upcoming change in the Unified 
Command Plan to be effective on October 1, there will be pluses 
and minuses in every command.
    I cannot speak with authority about Joint Forces Command 
with regard to their headquarters size, but I do take that, and 
promise you that I will look into this very carefully, but 
right now I cannot judge. All I know is that the Director of 
the Joint Staff has asked for this report, and he has just 
received it, and it is now being worked internally within the 
Joint Staff between Joint Forces Command and the Chairman's 
staff.
    Senator Dayton. I look forward to your review of the 
changes that will be occurring in the months ahead as well. How 
do you view the change in the responsibilities in the command, 
and what do you see as the special priorities now for your 
attention?
    Admiral Giambastiani. I think with any change to the 
Unified Command Plan, that in this particular case, in the one 
that has been signed by the President to become effective on 
October 1, we have a significant series of changes. Of the top 
three priorities that the Secretary of Defense and the 
President talked about with regard to this change, one of the 
top three is to refocus Joint Forces Command with regard to 
transformation and experimentation.
    So with the removal of responsibility for an area of 
responsibility, essentially for the United States and the 
Atlantic Ocean to be parceled out between the new Northern 
Command and also between European Command, in addition the 
transfer of responsibilities for the Joint Task Force Civil 
Support and Homeland Defense, the transfer of those to the 
NORTHCOM will allow, I think, Joint Forces Command to focus 
more clearly on the role of joint force provider, joint 
integrator, and joint trainer, in addition to transformation 
and experimentation.
    Lastly, because of the loss of the area of responsibility, 
Joint Forces Command will no longer be dual-hatted, so that 
broad range of responsibilities will be more narrowly focused 
on this joint force training role, joint force provider, and 
also in transformation and experimentation.
    Senator Dayton. Thank you both. My time has expired. 
Senator Warner is next, followed by Senator McCain.
    Senator Warner. It is my intention to return to the hearing 
after the vote, so I will defer to Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I will be brief, 
given the fact that we do have a vote pending.
    General Hill, do you feel comfortable that the United 
States forces have the flexibility and authority they need to 
meet our stated commitments to assist the Colombian Government 
in its unified campaign to defeat drug trafficking and 
terrorism in Colombia?
    General Hill. Sir, I am in favor of the expanded role. In 
terms of what the United States can do in training the 
Colombian forces and in intelligence sharing, I think if we had 
that expanded authority, and especially intelligence sharing, 
we would be in a more effective position of helping them.
    Senator McCain. Do you believe the American policy since 
the enactment of Plan Colombia has made a difference in that 
country?
    General Hill. I do, sir. Again, I think that the training 
of the counternarcotics brigade has been done very well, and 
that brigade, from everything I have been briefed on, has been 
an effective force. It has done a good job of wiping out coca 
production, and to my knowledge, Senator Dayton, it has done so 
with no known human rights violations.
    Senator McCain. Give me an idea of how the United States 
should be involved militarily in Colombia.
    General Hill. Sir, we have an opportunity in Colombia to 
continue the missions we are doing now in training both the 
second counternarcotics brigade and working on the 
infrastructure brigade, that is the 18th Brigade, that we now 
have dollars to go----
    Senator McCain. I am more interested in generally how you 
think the United States should be involved. Should our mission 
be limited to training and advice? Should we provide 
intelligence information? Should we provide search and rescue? 
In other words, to what extent do you think the United States 
should be involved militarily, and do you think that 
statutorily you have that sufficient authority?
    General Hill. At the present time, Senator, I see the 
United States involvement as being one of training, 
intelligence sharing, and mentoring of the Armed Forces so that 
they become a better armed force. At the present time, I 
believe that we have the necessary statutory authority to do 
that, although I would prefer to have the expanded role where 
the counternarcotics brigade could do more in fighting the 
narcoterrorists as opposed to simply going after drug dealers.
    Senator McCain. Who is winning in Colombia right now, the 
bad guys or the good guys?
    General Hill. Sir, when I went off to Division Command 
someone gave me some good advice, and the advice was, there is 
almost nothing you do in Division Command that requires 
immediate decision, and I as I look back at my time at Division 
Command, the worst decisions I made were snap decisions.
    Senator McCain. I am asking for a judgment.
    General Hill. I know that, sir. I could give you an answer, 
but it is not a good one at this point because I have not been 
on the ground in Colombia. If I read the newspapers, I would 
say it is a toss-up, but in the last month or so things have 
been very dramatically in favor of the Revolutionary Armed 
Forces of Colombia (FARC) and the National Liberation Army 
(ELM). You need to let me get on the ground and come back to 
you after a couple of months to give you a better assessment.
    As you and I discussed last month, I would love to have you 
come down and we will walk the ground together, and we will 
decide who is winning and who is losing, and what the United 
States can do to help that beleaguered country.
    Senator McCain. Is an indicator the cost of an ounce of 
cocaine in the streets of Phoenix, Arizona?
    General Hill. An indicator would be some of that, yes, sir.
    Senator McCain. Do you know it is lower than it has ever 
been?
    General Hill. No, sir, I do not know that.
    Senator McCain. Do you know the price of cocaine is lower 
in this country--well, I think it is a very, very serious 
challenge.
    I look forward to working with you, briefing you, and 
obviously, as you and I discussed, the entire region is in a 
state of instability that we have not seen since the 1980s. 
That goes from Central America all the way throughout the 
region, but clearly Colombia, from a military standpoint, is 
our greatest challenge that we face, so I think that we need to 
get your advice and counsel as to what the United States policy 
should be.
    I am not exactly sure there is a totally clear policy 
toward the region in general and Colombia in particular. I 
congratulate both of you and look forward to working with you 
in the future. I thank you, Mr. Chairman.
    Senator Dayton. Thank you, Senator McCain.
    Senator Sessions.
    Senator Sessions. Well, I agree with Senator McCain's 
remarks, and the direction he is suggesting. I find it bizarre. 
It is like the gorilla in the room that nobody will even 
discuss. These are Marxist guerrillas who for years tried to 
take over the Government of Colombia. It is the classical 
insurgency fueled by narcotics, but it is really more than 
that, and until we get honest about what we are dealing with 
down there, until the people in Colombia make the commitment, I 
am not sure they are going to be successful. I am hoping that 
will occur.
    So it seems to me that in this election, and in President 
Pastrana's courageous decision some months ago that the 
negotiations were not going to succeed, it seems to me that the 
Marxist terrorists have really stepped up their terrorism. We 
are in a pretty tough life and death struggle, don't you think, 
that Colombia needs to win?
    My question is, should not Colombia be able to win this 
battle, and should not we be able to help them effectively in 
winning it?
    General Hill. Sir, I think the answer has to be yes to both 
of those. Colombia is an old democracy in the hemisphere. It is 
the linchpin of what goes on in the Andean region. It produces 
and exports illegally a tremendous amount of narcotics into 
this country, and it would be a terrible loss if democracy 
failed in Colombia.
    Senator Sessions. Well, I spent the better part of my 
professional life prosecuting drug dealers, and a lot of them I 
indicted were Colombian. It is clearly the center of cocaine 
production in the world, but I think Senator McCain is also 
correct, this is a bogus basis for us to support this country, 
because for complex reasons I will not go into now we are not 
able to solve our drug problem by spraying in Colombia, and I 
am prepared to defend that argument to anybody who would like 
to make it.
    But where we are here is trying to help the second oldest 
democracy in the hemisphere survive as a free progressive 
society, as a clear majority of their people want, don't you 
think, as this last election showed?
    General Hill. I agree with that, yes, sir.
    Senator Sessions. Maybe they do not want us to. Maybe it 
would hurt their effort if the United States is too involved, 
but I just hope you will get on the ground and use that 
tremendous combat experience you have had, and insight, in 
Vietnam and Haiti and other places, and see if you can figure 
out how we can help, what we can do, and if we have to have a 
political fight over it in this country, I think we need to 
have it. I think we need to change the laws if need be.
    We had 2 million people in Kosovo. We had no trading 
relationship with Kosovo. We have 40 million in Colombia. They 
are our friends, our neighbor, and a significant trading 
partner, so we have a real interest here, and it is, as you 
noted, a key to South America. I am sorry we did not have a 
chance to chat, General Hill, but it is just something that, 
you are in the middle of something that is really big, I think.
    Admiral, thank you for your service. I am very sorry I 
missed you the other day. I wanted to chat with you. We have a 
vote going on, I guess.
    Senator Dayton. Senator Sessions, I would ask you or 
Senator Inhofe to chair the meeting. Senator Inhofe, if you 
would in our absence. If no one is back before I return, we 
will have to suspend briefly. Hopefully someone will be, and 
you can pass it down the line.
    Senator Inhofe. I will chair it and ask at the same time, 
this will be fairly short, but Admiral Giambastiani--I 
practiced pronouncing your name, and I know I did it right.
    Admiral Giambastiani. Thank you, sir.
    Senator Inhofe. First of all, you are going to have this 
Millennium Challenge 2002. This is perhaps going to be the 
biggest joint exercise since the Louisiana Maneuvers before 
World War II. You were asked by Senator Dayton about something 
I was going to ask, and that is our end strength. We are really 
hurting right now with 80,000 in the Reserve component out 
there, knowing we are going to lose a lot of them in September. 
We did not adequately address this in the budget, so I am 
concerned about this. But I would say, since you already 
answered that question, do you think we have the joint training 
facilities and the budget to support these exercises?
    Admiral Giambastiani. Sir, I was asked part of that for the 
record, and the way I would answer it is as follows. First of 
all, on the joint training facility--General Kernan, the 
current Commander of Joint Forces Command, is, in fact, 
reviewing very carefully an initiative to bring forward what he 
would call a joint national training center. I do not know and 
he does not know quite yet how that would be composed, but it 
may well be a conglomeration of service modules or training 
centers that currently exist that are brought together in a 
command and control way. It could be a larger area, for 
example.
    I do not have a good idea, but I will tell you one thing. 
The ability to be able to do joint and combined arms training 
is absolutely essential to our Armed Forces. We can only do so 
much with simulation.
    Senator Inhofe. Exactly, and I do not want to cut you off, 
but I know exactly what you are saying, and I think you know 
that. I have been very active in this range business, and have 
been very concerned, as I have expressed that concern to you. 
In fact, I am going to even try to get down there during this 
training exercise, and I look forward to working with you.
    General Hill, I am sorry I do not have any of my colleagues 
here so I can tell them, warn them not to go to participate in 
competition when you are in charge. That was quite an 
experience that we had there, and we had our own competition 
between what was it, the M113 and the Light Armored Vehicle 
(LAV)?
    General Hill. Yes, sir, the Stryker.
    Senator Inhofe. That is right, and you did leave me in that 
thing unnecessarily long, but the message got through. 
[Laughter.]
    First of all, let me say this, when you responded to 
Senator Dayton's questions about human rights, then you kind of 
voluntarily went into the environment, I do not totally agree 
with your answer, yes, it is the law, you have got to do it, 
and it is the right thing to do.
    It may be the right thing to do so long as it is the law, 
but there is going to be an effort, and I am going to be 
participating in that effort. I have talked to you about this, 
to try to do something to relax some of those requirements. The 
best example to use is one you are very familiar with, and that 
is in areas like Camp Lejeune and Fort Bragg. We are doing such 
a good job that we are own worst enemies. The red cockaded 
woodpecker now has more suspected habitat areas because we are 
the fine stewards that we are.
    Something is going to have to give there. I mean, we are 
getting now so that endangered species are gravitating toward 
our training areas, and it is a serious problem, so I hope that 
you are in agreement with that as we go forward and try to 
pursue some solutions to those problems.
    General Hill. I am, sir, and you will recall when we 
discussed that at Fort Lewis you have to work through and 
around those laws, and some of them are, in fact, very 
restrictive.
    Senator Inhofe. I am particularly interested, because not 
only did I chair the Subcommittee on Readiness and Management 
Support here for a number of years, but also a similar 
subcommittee on the Senate Committee on Environment and Public 
Works, where we are looking at that very carefully to see what 
can be done to relax some of those requirements for training 
purposes.
    Something that has always concerned me is when we get 
involved in places. I remember in Bosnia, when the President 
said it would be a 12-month operation. We went and he said all 
the kids will be home for Christmas in 1995. They are still 
there. I remember reading a little bit of history about the 
Marines going into Nicaragua in 1903 for a short exercise. 
Thirty years later, they were still there. We went into Haiti 
in 1994.
    What is your feeling right now in terms of the future there 
in Haiti, what our participation should be, and the status?
    General Hill. Sir, I am not sure, and I would have to get 
back to you with the answer, what we even have in Haiti at this 
point.
    Senator Inhofe. I tried to find out from my staff this 
morning and could not get an answer, either. I know we have a 
presence, but I am not sure what they are doing there.
    General Hill. The last time I looked, Senator, we had a 
small engineering unit there.
    Senator Inhofe. Is that it?
    General Hill. But it is almost nothing, as I recall. 
Admiral Giambastiani sees these daily reports about where 
Americans are deployed around the world. Haiti is a real 
conundrum for the United States. The basic foreign policy for 
Haiti, or the basic foreign policy for us in Haiti is to ensure 
that the Haitians have a viable country so they stay in Haiti. 
The boat lift that we had that prompted us to go into Haiti----
    [The information referred to follows:]

    [Deleted.]

    Senator Inhofe. I am going to interrupt you right now. I 
just noticed the time expired 3 minutes ago down on the Senate 
floor, and I am going to have to run down and vote. I am going 
to recess this meeting. Everyone sit where you are, and we will 
be right back. [Recess.]
    Senator Bunning [presiding]. Since I am the only one here, 
I am chairman. That is a very temporary assignment.
    General Hill, we currently have a law requiring that none 
of the counterdrug assistance we are sending to Colombia would 
go to their military to support their war against the 
terrorists. Given the evidence that the terrorists are deeply 
involved in drug trafficking, do you believe that this 
artificial distinction makes any sense at all?
    General Hill. Sir, I believe we need expanded authority in 
our training efforts to work with the Colombian military to do 
more than the counterdrug effort to allow them to go after the 
narcoterrorists that are, in fact, feeding off of the drugs.
    Senator Bunning. In other words, you would like to see more 
than just advice, or you would like to see the money go for 
direct intervention as far as drug trafficking?
    General Hill. Sir, at the present time, and until I get on 
the ground and really get a hard look at what is going on and 
can formulate more than my understanding of the situation--
which is about four briefing slides deep at this point--I would 
say to you that what we are doing is exactly the right thing to 
do with the expanded authority, so we need to do more than 
advising and more than training. I will have to come back to 
you on that, sir.
    Senator Bunning. I expect you to.
    General Hill. Yes, sir.
    Senator Bunning. Thank you. One other question, and it was 
mentioned by somebody previously, about Venezuela and their 
support for democracy. It seems like they are really, really 
sliding down the wrong side. In other words, if there was a 
peak that is in the middle that was democracy, it seems like 
they are sliding off the side into a situation which would 
really be tough on our association with Venezuela. Do you see 
anything legitimately that we can do to correct or help, or 
make a better relationship with the Venezuelan president?
    General Hill. Sir, when General Speer, the Acting Commander 
of SOUTHCOM testified in front of this committee over the last 
several months, he was asked a similar question, what would 
President Chavez do, and his response was, ``your guess is as 
good as mine.'' I think that is a pretty accurate response.
    What is happening in Venezuela requires careful watching, 
because it is, again, the second oldest democracy in the 
region. There is spillover between what happens in Colombia and 
Venezuela and vice versa. They are a major trading partner in 
terms of oil exporting into the United States, so it bears 
watching.
    Now, having said all of that, I do know that the 
relationships between Southern Command and the Venezuelan 
military have remained fairly strong throughout this period, 
and our ability through Southern Command to influence the 
actions in Venezuela are mostly in that regard, and we will 
continue to work that carefully.
    Senator Bunning. There is nothing that we can do other than 
that? You see nothing, other than what you have just suggested?
    General Hill. Sir, anything other than what I suggested in 
terms of my responsibilities if confirmed by the Senate for the 
Southern Command, relating to military involvement with 
Venezuela, I would have to defer to someone outside of my 
policy area.
    Senator Bunning. I can remember when Southern Command was 
in Panama, and we were asking very similar questions about what 
we could do about Panama. We took some very drastic steps in 
Panama. That was supposed to be a democracy also. I just will 
wait to hear from you on further events.
    A question for the Admiral. Exercise Millennium Challenge 
is currently underway. Please explain to us what that exercise 
is comprised of, what its goals are, and how it fits into the 
overall plan to transform our Armed Forces.
    Admiral Giambastiani. Senator Bunning, Millennium Challenge 
is a very large exercise right now. I am told by many, as 
Senator Inhofe mentioned earlier, that it is on a par with or 
potentially larger than the Louisiana Maneuvers. At least in 
modern times it is probably the largest joint force exercise 
that has been run in some time, if not the largest.
    Currently it has about 13,500 active duty personnel from 
all services participating, and it is being run essentially 
across the United States. The purpose of it as an exercise and 
also as an experiment is to investigate a series of joint 
capability demonstrations.
    For example, one very big one is the experimentation for a 
standing joint task force commander. Currently down in Suffolk, 
Virginia--and I have not been extensively briefed on this. As a 
matter of fact, the Secretary of Defense is going to travel 
down and I am going to accompany him on Monday to go look at 
this standing joint task force headquarters concept, but the 
purpose of it is to allow us to have a capability to conduct 
command and control immediately if a crisis arises, essentially 
putting one or more of these units in each one of the 
geographic areas of responsibility for the other combatant 
commanders, and so this is a test.
    It also would be a standing headquarters that plans 365 
days a year, so they are ready to go. If a crisis occurs they 
can immediately execute whatever plans are required to respond 
to that crisis, as opposed to the way we do business today in 
many areas, where we have to battle roster forces. What that 
means is take them from various components and bring them into 
an area.
    To give you an example, in Kosovo, the Joint Force 
Commander, now Commander in Chief, U.S. Strategic Command 
(CINCSTRAT), Admiral Jim Ellis, was the Joint Task Force 
Commander. In that 78-day war he was only manned up to about 78 
percent by the end of the air war, and obviously we would 
prefer to be manned up and be ready to go right at the very 
beginning, so that is an example. There are many other 
demonstrations.
    Part of General Hill's forces from Fort Lewis, in 
particular the Interim Brigade Combat Team, will be 
participating at the National Training Center to demonstrate 
some of the Army's new transformational capabilities. In 
addition, Marines will be conducting various exercises and 
experimental tasks with new capabilities on the west coast as 
part of the exercise. So it is a fairly broad exercise to in 
fact take service exercises and experiments, mold them into a 
joint exercise, and test various capabilities.
    Senator Bunning. My time has expired. I have some 
additional questions. I am going to submit them to you in 
writing. Thank you.
    Senator Dayton [presiding]. Thank you, Senator Bunning.
    Senator Warner.
    Senator Warner. Mr. Chairman, given the Senate schedule, 
and the fact that I have had extensive conversations with the 
Admiral as well as the General, I am going to submit my 
questions for the record so that the committee can now proceed 
to its next procedure with regard to these nominations.
    Senator Dayton. Because of sensitive information that will 
be discussed, at this point in the hearing I will entertain a 
motion under paragraph 4 of our committee rules that the 
remainder of this hearing will be closed to the public and 
conducted in executive session.
    Senator Warner. So move.
    Senator Dayton. The committee will go into executive 
session. The clerk will please clear the room.
    [Whereupon, at 10:28 a.m., the committee adjourned.]

    [Prepared questions submitted to Lt. Gen. James T. Hill, 
USA by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of these reforms, particularly in your 
staff assignment as Assistant Deputy Director for Politico-Military 
Affairs (J-5) on the Joint Staff from 1992 to 1994 and in your command 
assignments during Operations Desert Shield/Desert Storm from 1989 to 
1991 and during Operation Uphold Democracy from 1994 to 1995.
    Do you support full implementation of the defense reforms?
    Answer. Yes I do. When considered in the light of the successful 
operations since their implementation, it is clear that the Goldwater-
Nichols Department of Defense Reorganization Act has profoundly and 
positively benefited the armed services.
    Question. Based upon your experience, what is your view of the 
extent to which these defense reforms have been implemented and the 
impact that they have had?
    Answer. The Defense Authorization Act of 1986 has accelerated the 
integration and synchronization of all of our military's capabilities 
to fight and win the Nation's wars. The success that we have enjoyed on 
the battlefield in places like Kuwait, Kosovo, and Afghanistan are 
directly attributable to the high degree with which we have complied 
with both the spirit and letter of the Goldwater-Nichols Act.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I believe the most important aspects of the defense reforms 
you mentioned are those that relate directly to the duties for which I 
am privileged to be nominated. The Goldwater-Nichols Act clearly 
defined the authority of the regional combatant commander over the 
forces and execution of missions in his area of responsibility (AOR). 
This simplified chain of command significantly improved the planning 
and execution of assigned missions during times of crisis. While 
concurrently providing for the efficient use of Department of Defense 
resources, these reforms have directly translated into a more efficient 
military with an enhanced ability to defeat the Nation's foes.
    Question. Do you anticipate that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. I am not aware of any legislative proposals that seek to 
amend Goldwater-Nichols. If confirmed, should there be a noteworthy 
proposal in the future concerning amending this legislation I will take 
the appropriate opportunity and forum to address it.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander in Chief, U.S. Southern Command (SOUTHCOM)?
    Answer. The Commander of U.S. Southern Command is assigned a 
geographic area of responsibility (AOR) and reports directly to the 
Secretary of Defense. He is responsible for U.S. military forces 
assigned to an area that encompasses one sixth of the world's landmass 
and includes 32 countries and 14 protectorates throughout Latin America 
and the Caribbean. As a combatant commander, the Commander of U.S. 
Southern Command exercises authority over subordinate commanders within 
the region unless otherwise directed by the President or the Secretary 
of Defense. The duties and functions of a combatant commander include 
but are not limited to: prescribing the chain of command to the forces 
within the command; giving authoritative direction to subordinate 
commands and forces necessary to carry out missions assigned to the 
command, including authoritative direction over all aspects of military 
operations, joint training, and logistics; organizing commands and 
forces and employing them within his command as necessary to carry out 
missions assigned to the command; and assigning command functions to 
subordinate commanders.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I am truly honored by the President's nomination to be the 
Commander of U.S. Southern Command. I have been fortunate to serve in 
many Army and joint positions involved in planning and discussions on 
major issues affecting this area of the world. While serving as I Corps 
Commanding General, I have trained forces, developed operational plans, 
and deployed units in support of a combatant commander which have given 
me significant insights into the challenges associated with joint and 
combined operations. In this position, I was also a Standing Joint Task 
Force commander for the Commander of U.S. Pacific Command. My duties as 
Deputy Commander, Multinational Force and U.S. Forces, Haiti during 
Operation Uphold Democracy gave me a great appreciation for coalition 
operations and the problems facing that troubled nation, as well as an 
understanding of the regional militaries that contributed forces. One 
of my principle responsibilities as Assistant Deputy Director for 
Politico-Military Affairs, Joint Staff was to focus on events and 
issues in the Southern Command area of responsibility. Having the 
privilege to command from the company to the corps level to include 
units in combat in Vietnam and during Operation Desert Storm has given 
me invaluable perspectives on training, caring for, and leading the 
outstanding men and women in our Armed Forces. These assignments have 
provided a strong foundation that will serve me well if I am confirmed 
for this position.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform these duties?
    Answer. If confirmed, I will work with key U.S. personnel and 
government agencies and will travel and confer with regional military 
and civilian leaders to fully understand and be better prepared to 
address the complex issues in this region.
    Question. In carrying out your duties, how will you work with the 
Secretary of Defense, the Chairman of the Joint Chiefs of Staff, the 
Under Secretary of Defense for Policy, the Assistant Secretary of 
Defense for International Security Affairs, the Assistant Secretary of 
Defense for Special Operations Forces and Low Intensity Conflict, the 
Commander in Chief, U.S. Northern Command when that combatant command 
is established, the Commander in Chief U.S. Special Operations Command, 
the other combatant commanders, and SOUTHCOM's component commanders?
    Answer. As a combatant commander, I would report directly to the 
Secretary of Defense who is responsible to the President for creating, 
supporting, and employing military capabilities. While the Chairman of 
the Joint Chiefs of Staff is not in the chain of command, 
communications from the President or the Secretary of Defense are 
transmitted to combatant commanders through the Chairman of the Joint 
Chiefs of Staff. Combatant commanders have the obligation to promptly 
inform the Secretary of Defense on accountable matters and as a matter 
of course, should keep the Chairman and his staff advised of critical 
issues that affect the command. In the case of the Under Secretary of 
Defense for Policy and the Assistant Secretary of Defense for Special 
Operations Forces and Low Intensity Conflict, the Commander, U.S. 
Southern Command coordinates and exchanges information in matters that 
affect SOUTHCOM; however, there is no command relationship. SOUTHCOM's 
relationship with other combatant commands will depend on ``supported'' 
or ``supporting'' roles outlined in operational plans and execution 
orders from the President and the Secretary of Defense. On October 1, 
2002, NORTHCOM's area of responsibility (AOR) will consist of the 
geographic area encompassed by the North American continent from the 
southern border of Mexico northward and outward from the coastlines 500 
nautical miles. Cuba, the Bahamas, and the Turks and Caicos will be in 
NORTHCOM's geographic area of responsibility; however, SOUTHCOM will 
retain responsibility for normal and contingency planning, theater 
security cooperation, and force protection for these countries. 
SOUTHCOM will relinquish to NORTHCOM all current responsibilities in 
Puerto Rico and the Virgin Islands. SOUTHCOM's relationship with the 
Commander, U.S. Special Operations Command, or any other combatant 
commander will depend on existing operational plans, contingency 
operations, or ongoing crises. Finally, unless otherwise directed by 
the President or the Secretary of Defense, SOUTHCOM's component 
commands are under the authority, direction, and control of Commander, 
U.S. Southern Command.
    Question. In carrying out your duties, how will you work with the 
Under Secretary of State for Political Affairs, the Assistant Secretary 
of State for Western Hemisphere Affairs, the Assistant Secretary of 
State for International Narcotics and Law Enforcement Affairs, and the 
U.S. chiefs of mission to the countries in SOUTHCOM's area of 
responsibility?
    Answer. If confirmed by the Senate, I plan to maintain the close 
working relationship between the Department of State and U.S. 
Ambassadors in the region with SOUTHCOM. As appropriate, I will work 
with Department of State officials, including the Under Secretary for 
Political Affairs, the Assistant Secretary for Western Hemisphere 
Affairs, and the Assistant Secretary for International Narcotics and 
Law Enforcement Affairs to discuss policy issues of mutual interest. I 
will work with the U.S. Ambassadors and other members of the country 
teams to maintain a dialogue regarding critical issues in the region.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next CINCSOUTH?
    Answer. Transnational threats, Colombia, and democracies at risk. 
The transnational threats of arms and drugs trafficking, illegal 
migration, and terrorism constitute the greatest challenge to security 
and stability in the region at a time when many governments are feeling 
the strain of weak economies, corruption, and growing discontent of the 
people as democratic and economic reforms fall short of expectations. 
Nowhere is this more evident than in Colombia, where the Revolutionary 
Armed Forces of Colombia (FARC), the National Liberation Army of 
Colombia (ELN) and the United Self Defense Group (AUC), exact terror on 
the population of Colombia, financing their activities through drugs, 
kidnapping, and extortion. Colombia is the lynchpin in the Andean 
region, and as such, the United States has a vital interest in not only 
what happens in Colombia but also the spillover effects in bordering 
nations. Without a safe and secure environment, Colombia's fight for 
peace and stability cannot take hold. There are several countries in 
the region where democracy is at risk. It is imperative to remain 
active in assisting countries to maintain stability, promote 
prosperity, and enhance regional cooperation in this area of 
significant strategic importance to the United States while we execute 
the war on terrorism.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I intend to continue initiatives that enhance 
the professionalism of the region's militaries, advance democracy, 
promote regional security and hemispheric cooperation, and encourage 
prosperity. I would ensure prioritization of those activities in areas 
that offer the greatest leverage for protecting and advancing United 
States regional and global interests. The primary vehicle for 
accomplishing these goals remains the military-to-military contacts 
that strengthen the capabilities of the region's militaries to combat 
transnational threats, support democracy, and respect human rights and 
the rule of law. Plans must be adopted to assure our allies, dissuade 
foreign military competition, deter potential adversaries, and if this 
fails, defeat our adversaries, whether terrorists or nations. If 
confirmed, I would work to promote the strategic importance of the 
SOUTHCOM AOR in the overall security of the United States.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of CINCSOUTH?
    Answer. Currently, 31 of 32 nations are under a democratic form of 
government. Cuba is the only exception. However, as I mentioned 
earlier, the transnational threats of arms and drug trafficking, 
illegal migration, and terrorism are affecting the security and 
stability of the region.
    The second is that many of the countries' democracies remain 
fragile stemming from the instability and corruption that evolve from 
these transnational threats. Without strengthening these fragile 
democracies we will not have a prosperous, democratic, and safe 
hemisphere free of current societal and economic ills. Partner nations 
have pledged varied levels of support to the war on terrorism. 
Prosperous and democratic nations will be more capable partners in 
achieving the goal of stamping out the transnational threats of arms 
and drug trafficking, illegal migration, and terrorism in the region.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will immediately conduct a thorough 
assessment to build upon and modify where necessary current initiatives 
and programs to properly address these problems. I will work through 
established DOD venues and processes such as the Joint Warfighting 
Capabilities Assessment, Joint Requirements Oversight Council, and 
Integrated Priority List to identify critical SOUTHCOM requirements.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues which must be addressed by the CINCSOUTH?
    Answer. As it is currently, a top priority for SOUTHCOM should 
remain to foster regional support for the war on terrorism by improving 
partner nation capabilities, ensuring U.S. operational access, and 
building reliable coalition partners. It is important that SOUTHCOM 
continue to assist in the strengthening of democracies in the region. 
Priority should be placed on those countries that offer the greatest 
leverage for protecting and advancing U.S. regional and global security 
interests. SOUTHCOM must also maintain the ability to conduct disaster 
relief, humanitarian assistance, and crisis response while supporting 
counterdrug activities to combat the scourge of drugs, which threatens 
both the U.S. and our partner nations.
                     military-to-military contacts
    Question. In a May 6 speech to the annual conference of the Council 
of the Americas, Secretary of State Colin Powell stated, `` . . . we 
see a hemisphere that is more troubled than it was when we met a year 
ago, we see a hemisphere that has difficulties in many, many different 
ways--difficulty with their democratic institutions, difficulty with 
their economies.''
    With the exception of Cuba, do you see a role for military-to-
military contacts and comparable activities in encouraging a democratic 
orientation of defense establishments and military forces of 
hemispheric nations?
    Answer. During the past 25 years, nations in Latin America and the 
Caribbean have made substantial progress toward achieving peace through 
democratically-elected governments, economic development, and the 
subordination of the military to civilian authority. While we execute 
the war on terrorism, the U.S. must remain active in assisting these 
countries to maintain stability, promote prosperity, and enhance 
regional cooperation.
    Given the geographic proximity and increased importance of the 
region, SOUTHCOM's theater security cooperation focuses on activities 
conducted with friendly nations that advance mutual defense or security 
arrangements, build capabilities for self-defense, and enable coalition 
operations while affording U.S. forces greater access, if needed, 
during crisis response. The great majority of these activities are 
executed through military to military contacts. Southern Command 
executes a variety of theater security cooperation activities seeking 
to expand United States influence and to reassure our friends while 
dissuading and deterring potential adversaries.
    Continued military to military contacts in these areas lay the 
foundation for expanded cooperation in combating terrorism and 
enhancing regional cooperation.
                                colombia
    Question. What do you consider the greatest threats to the survival 
of Colombia's democratic form of government?
    Answer. The greatest threat to Colombia's democracy is the lack of 
a safe and secure environment for democratic institutions to take hold. 
The nexus of guerrillas, terrorists, drug-traffickers, and illegal 
self-defense forces has severely stressed the government's ability to 
exercise sovereignty and maintain security.
    Question. To this date, the United States has restricted the use of 
the equipment it provides to the Colombian military and the Colombian 
military forces that are trained by U.S. forces in counterdrug 
activities.
    In the event that Congress decides to amend existing laws so that 
Colombian military forces trained and equipped by the United States for 
counterdrug activities can be used by the Government of Colombia in its 
unified campaign against narcotics trafficking, terrorist activities, 
and other threats to national security, do you believe that this use of 
U.S. military assistance can contribute to greater security in 
Colombia, without leading to an increase in human rights violations by 
the Colombian military?
    Answer. Yes I do. My understanding is that proposals to amend 
existing laws will still stipulate the rigorous human rights 
requirements necessary for U.S. military assistance. U.S. military 
assistance has contributed to the significant improvement in the 
respect for human rights and increased operational effectiveness of the 
Colombian military. The best evidence of this is in the results of the 
U.S.-trained Counter Narcotics Brigade. The Counter Narcotics Brigade 
is the best-trained and equipped unit in the Colombian Army. It has had 
exceptional operational results during drug interdiction operations and 
provided the ground security necessary to execute Colombia's spraying 
efforts in southern Colombia. Importantly, there have been no 
allegations of human rights violations that I am aware of in the 
Counter Narcotics Brigade. Increased U.S. support and training will 
help the human rights situation in Colombia while enhancing the 
Colombian military's capability to provide a safe and secure 
environment.
    Question. How would you assess the commitment by the government and 
people of Colombia to addressing the multiple threats to its security?
    Answer. The Pastrana administration has taken steps to improve the 
ability of the Colombian military to deal more effectively with threats 
to Colombia's security. He recently ordered the tour of duty for 
conscript soldiers to be extended and ordered the call up of up to 
10,000 reservists to assist in the protection of critical 
infrastructure throughout the country. The strong support by the 
Colombian people for the dissolution of the Revolutionary Armed Forces 
of Colombia's (FARC) safe haven indicates a firm commitment to bring 
law and order to the country.
                    terrorist threats in the region
    Question. In recent months, the Revolutionary Armed Forces of 
Colombia (FARC) has been stepping up its attacks in major Colombian 
cities, including Bogota. In the past, members of the U.S. Military 
Group at the U.S. Embassy have shown up on target lists of the FARC.
    What measures are being taken to ensure the protection of U.S. 
military personnel in Colombia?
    Answer. I understand that force protection measures in support of 
U.S. DOD personnel operating in Colombia are closely monitored. Prudent 
commanders continuously review and update force protection measures and 
conduct risk assessments and if confirmed, this will be one of my top 
priorities. The U.S. Military Group (USMILGP) Commander is charged with 
ensuring that appropriate measures are implemented, including close 
coordination with Colombian military forces, to safeguard U.S. DOD 
personnel. United States forces receive threat updates and 
antiterrorism awareness training prior to deployment, and conduct 
vulnerability assessments of the proposed training sites. The USMILGP 
possesses the means to contact deployed units at any time to provide 
early warning or additional guidance as necessary, and can initiate 
coordinated actions with the Colombian military to safeguard DOD 
personnel.
    Question. In this testimony before the committee on March 5, 2002, 
Major General Gary Speer, USA, in his capacity as the Acting Commander 
in Chief, U.S. Southern Command, stated that there was a viable 
terrorist threat in Latin America.
    Would you give your assessment of the terrorist threat in the 
SOUTHCOM area of responsibility and tell us what actions are being 
taken to address that threat, both in terms of force protection and 
defense of U.S. national interests?
    Answer. Terrorist groups operating in SOUTHCOM's area of 
responsibility have demonstrated the capability and intent to conduct 
violent activity ranging from anti-government demonstrations to 
bombings. To date, terrorist activity in the SOUTHCOM area of 
operations has been mainly domestic with some regional spillover. The 
Revolutionary Armed Forces of Colombia (FARC), the National Liberation 
Army of Colombia (ELN) and the United Self Defense Group of Colombia 
(AUC) are all on the State Department's list of Foreign Terrorist 
Organizations. Terrorist activity has been greatest in Colombia and 
there is an apparent resurgence of the Sendero Luminoso in Peru. 
International terrorist support organizations are operating mainly in 
the tri-border region of Paraguay, Brazil, and Argentina. Terrorists 
have attacked U.S. persons and interests in the region and continue to 
issue threats against U.S. civilians, military members, and diplomatic 
personnel. The full extent of their capabilities and actions is 
unknown.
    Force protection requirements are an integral part of all planning 
for the deployment of forces into a theater. SOUTHCOM conducts 
assessments of vulnerabilities to U.S. government facilities to update 
capabilities and procedures to protect U.S. citizens and other national 
interests. Additionally, SOUTHCOM conducts unilateral and combined 
training with forces from partner nations in the region. This provides 
U.S. forces with mission essential training and enables partner nations 
to be better prepared to counter terrorism within their borders.
                 counterdrug activities in andean ridge
    Question. Despite the expenditure of millions of dollars and the 
dedicated efforts of the men and women of the active force and the 
Reserves in the region, the Office of National Drug Control Policy 
advises that there was an 18 percent increase in overall Andean coca 
production in 2001. This was due to a 25 percent increase in coca 
cultivation in Colombia. Anecdotal information suggests that, despite 
major reductions from 1995 to 2001 in Bolivia and Peru, there has been 
an increase in coca cultivation in those countries thus far in 2002.
    In view of that information, do you favor continued support by the 
U.S. military for U.S. and the Andean nations' counterdrug activities?
    Answer. In terms of effectiveness, while I understand there has 
been an increase in Colombian coca production overall, in those areas 
where U.S.-supported Colombian counternarcotics forces operate, there 
have been significant positive results.
    Increasingly, terrorist organizations support themselves through 
drug trafficking. This trend is particularly troubling in Colombia 
where there are clear connections between drug trafficking, guerrillas, 
and terrorist activities. There are indications that in Peru, terrorist 
organizations may be funded by protecting coca cultivation. Therefore, 
there is value in United States counterdrug activities, which disrupt a 
significant source of funding for terrorism.
    Question. Do you believe that the current programs that the 
Department supports are the most effective for the region?
    Answer. United States counterdrug assistance to security forces 
helps nations in the region develop more effective counterdrug 
capabilities; however, drug trafficking organizations have shown 
considerable flexibility in adjusting their operations in reaction to 
counterdrug efforts. Further, I believe that the current programs 
conducted by DOD in the region have increased the professionalism, 
respect for human rights, and capabilities of the militaries in the 
region. If confirmed, I will need to conduct my own assessment to 
determine if there are more effective means to pursue.
                        air interdiction program
    Question. The air interdiction program over Colombia and Peru has 
been suspended since the accidental shootdown of a U.S. missionary 
plane in Peru on April 20, 2001. The administration has indicated an 
intention to resume the program, with major changes to ensure against 
future mistakes, this year.
    What can you tell us about the changes that will be made to the 
program?
    Answer. As I understand, the Air Interdiction Program has undergone 
a policy review supported by investigations under the leadership of the 
Department of State. As a result of this review, the program will 
primarily be run by Peru and Colombia with support provided by the 
United States. The plan for the resumption involves the creation and 
use of a safety checklist onboard the tracker aircraft, and the 
verification of the proper use of this checklist by the on-board, 
Spanish-speaking, U.S.-contracted safety monitor. It also involves the 
conduct of a formal training course for all participants. Perhaps most 
significantly, the plan puts the emphasis on ``force-down'' operations 
instead of ``shoot-down'' operations.
    Question. What involvement, if any, will SOUTHCOM have in the 
program?
    Answer. SOUTHCOM's role in the program will be to provide oversight 
to Joint Interagency Task Force East's detection and monitoring assets. 
SOUTHCOM's involvement will also include management of the overall 
involvement of Department of Defense forces.
                              panama canal
    Question. It has been several years since the United States turned 
the operation and maintenance of the Panama Canal over to the 
Government of Panama.
    Now that the U.S. military no longer has permanent presence in 
Panama, what is your assessment of the Government of Panama's ability 
to maintain and protect the Canal?
    Answer. I understand the Panama National Canal Authority employs a 
staff of skilled and well-trained engineering and maintenance personnel 
capable of maintaining the canal in good working order. Since the 
turnover of the canal to Panama in December 1999, there have been no 
reports of degradation of maintenance, service, or effective 
operations. The Panama Canal authority employs an effective private 
security force working closely with the Panama National Police to 
safeguard key canal facilities. If confirmed, I will ensure SOUTHCOM 
continues to conduct risk assessments of the Panama Canal.
                         u.s. northern command
    Question. U.S. Northern Command (NORTHCOM) is scheduled to be 
operationally effective October 1, 2002. As a result of the 
establishment of this new regional combatant command, SOUTHCOM's area 
of responsibility will no longer encompass various areas, including the 
Gulf of Mexico, Puerto Rico, the Bahamas, and Cuba.
    What are the major challenges that will be involved in the process 
of transferring these areas to NORTHCOM's responsibility?
    Answer. If confirmed, I will work closely with the commander of 
NORTHCOM to ensure a smooth transition of responsibilities for these 
areas. I envision a series of agreements to effect the initial transfer 
and to provide continuity of operations. Additionally, there will be a 
need for continual assessments to ensure that no seams exist between 
the two commands in protecting the security of the U.S.
    Question. Do you foresee a transfer of responsibility for all of 
those areas on October 1, 2002 and, if so, are you confident that the 
transfer can be accomplished without adverse impact by that date?
    Answer. The U.S. Southern Command staff has initiated planning for 
transition. In some cases there may be a need for a phased transition. 
If confirmed, I will work closely with the commander of NORTHCOM for an 
orderly transition.
                     relocation of u.s. army south
    Question. The Army is currently considering the possible relocation 
of U.S. Army South from Fort Buchanan, Puerto Rico, to an installation 
in the continental United States.
    In your view, what are the strategic requirements, if any, for 
maintaining the Headquarters, U.S. Army South outside the continental 
United States?
    Answer. In my view, SOUTHCOM does not have a strategic requirement 
for maintaining the Headquarters, U.S. Army South outside the United 
States. However, no matter where the headquarters is located, it is 
very important to retain a dedicated component to maintain the 
necessary expertise and focus on regional missions.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes I do.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes I do.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary protection, with 
respect to your responsibilities as the CINCSOUTH?
    Answer. Yes I do.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes I do.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
                          unified command plan
    1. Senator Warner. General Hill, the recently-approved Unified 
Command Plan creates the Northern Command (NORTHCOM) and alters 
existing geographic areas of responsibility for European Command 
(EUCOM), Pacific Command (PACOM), and Southern Command (SOUTHCOM). 
Please give us your assessment of the impact of these changes on the 
mission of SOUTHCOM.
    General Hill. SOUTHCOM will continue its mission of security 
cooperation and military coordination with the countries of Central and 
South America and the Caribbean. In short, the only tangible change is 
the transfer of the responsibility for homeland defense and military 
support to civil authorities for the United States territories of 
Puerto Rico and the United States Virgin Islands to NORTHCOM.

    2. Senator Warner. General Hill, SOUTHCOM will continue to oversee 
counter-drug efforts along the southern coastal region of the U.S. What 
challenges do you foresee in coordinating military operations with 
NORTHCOM?
    General Hill. The Joint Interagency Task Force East will continue 
to execute its counterdrug responsibilities in the Caribbean Sea and 
Gulf of Mexico. We are working closely with NORTHCOM to define 
responsibilities for counterdrug operations and contingencies in 
locations where the two areas of responsibility merge. SOUTHCOM will 
work closely with NORTHCOM to ensure a smooth transition and continuity 
of operations. In addition there will be continual assessments to 
ensure that no seams exist between the two commands in protecting the 
security of the United States.

                relocation of united states army, south
    3. Senator Warner. General Hill, the Army is recommending to the 
Secretary of Defense that the headquarters for the United States Army, 
South be relocated from Fort Buchanan, Puerto Rico, to Fort Sam 
Houston, Texas. What are your views on this issue?
    General Hill. The U.S. Southern Command (SOUTHCOM) does not have a 
strategic requirement to maintain Headquarters, U.S. Army South 
(USARSO) at Fort Buchanan, Puerto Rico. The physical location of USARSO 
is not as important as maintaining USARSO as a dedicated component 
focused on the SOUTHCOM regional mission.
    There are quality of life issues that could be resolved by moving 
from Fort Buchanan. These include a high cost of living, a high crime 
rate, and issues associated with the congressionally-imposed 
restriction on needed infrastructure improvements.

    4. Senator Warner. General Hill, what impact, if any, would such a 
move have on SOUTHCOM's mission?
    General Hill. There would be no impact. The physical location of 
Headquarters, U.S. Army South (USARSO) is not as important as the 
requirement for USARSO to remain U.S. Southern Command's dedicated 
component, focused on military operations and theater security 
cooperation activities for SOUTHCOM Headquarters.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                 southcom headquarters force protection
    5. Senator Thurmond. General Hill, the Defense Authorization bill 
includes significant funds for anti-terrorism and force protection 
measures at installations throughout the United States and at overseas 
facilities. In reviewing the list of installations, I noted that 
SOUTHCOM Headquarters had no funds allocated to increase security. 
Based on your knowledge of the SOUTHCOM Headquarters facilities, are 
there any concerns regarding force protection?
    General Hill. Force protection is SOUTHCOM's top priority. SOUTHCOM 
does not receive installation dollars and is funded through the Army 
Management Headquarters Account. The executive agent, U.S. Army South, 
funds the Headquarters facilities. The Department of the Army annually 
requests Management Decision Program funding for physical security and 
force protection. In fiscal year 2002, the U.S. Army Garrison-Miami 
received $3.6 million for force protection expenditures, fulfilling all 
programmed requirements. For fiscal year 2003, we identified a $4 
million force protection requirement to provide an acceptable level of 
force protection.

                          relations with cuba
    6. Senator Thurmond. General Hill, the United States is the only 
nation in the Americas that maintains an embargo against Cuba. In your 
view, how is the embargo perceived by our allies in South and Central 
America?
    General Hill. Most nations in the region share our concerns about 
the absence of democratic institutions and respect for human rights in 
Cuba. Many disagree, however, with our economic embargo policy. Most of 
our partner nations believe that a policy of economic and political 
engagement would improve hemispheric relations and set the stage for 
democracy in a post-Castro Cuba. While these nations clearly understand 
that we disagree on this issue, the United States Southern Command 
continues to enjoy close and cordial relations with our partners in the 
region.

    7. Senator Thurmond. General Hill, what impact does the embargo 
against Cuba have on your ability to carry out the mission of SOUTHCOM?
    General Hill. The embargo against Cuba does not impede our ability 
to accomplish our current mission.

                    military arms race in the region
    8. Senator Thurmond. General Hill, over the past several years, 
South American nations have been in the market to acquire sophisticated 
weapons systems. This trend not only increases tension in the region, 
it also could lead to an arms race among the countries. If you are 
confirmed as the next Commander in Chief of SOUTHCOM, how would you 
address this issue?
    General Hill. I agree that arms races increase regional tensions, 
but I do not assess that an arms race currently exists in South America 
nor is one likely to occur through 2010.
    The peaceful solution to most border disputes (e.g. Peru-Ecuador in 
1999), coupled with declining funds available to militaries throughout 
South America, make the purchase of large quantities of sophisticated 
weapons doubtful in the coming decade. In a dramatic change from the 
1970s, Latin America--including South America--is now the least 
militarized region in the world.
    Indeed, the percentage of government spending on weapons has 
dropped to a level where governments are challenged to make purchases 
appropriate to maintain legitimate levels of sustainment and 
modernization. Military spending has been so limited that several 
nations, including Colombia, Ecuador, and Peru, lack the re-quisite 
military hardware to address increasing threats from terrorist/
insurgent violence.
    Our approach should be to consider each country on an individual 
basis and carefully evaluate each nation's legitimate military 
requirements. The key element of this evaluation is the primacy of U.S. 
long-term interests (political, economic, and military). Some military 
modernization by Latin American militaries will be in the best 
interests of the United States as we incorporate our partner nations in 
the war on terrorism and the counterdrug effort. Interoperability among 
these various militaries could be essential to our future success. 
Improved Latin American military capabilities could enable our partner 
nations to assume a more active role in security cooperation against 
various transnational threats, disaster response, and international 
peacekeeping endeavors.

                           focus of southcom
    9. Senator Thurmond. General Hill, in the 2001 Annual Report to the 
President and Congress, Secretary Cohen identified the focus of 
SOUTHCOM as strengthening democracy, promoting human rights and the 
rule of law, encouraging military subordination to civilian control, 
and countering transnational threats that affect the U.S. security 
interest. In your view, are these goals still appropriate in the post-
September 11 era? If so, how would you prioritize these goals?
    General Hill. Yes, these goals are appropriate and continue to 
remain our focus within the region. History has shown time and again 
that America's security is linked directly to that of other nations, 
and that America's prosperity depends upon the prosperity of others.
    Strengthening democracy remains our highest priority with our 
allies. However, within our area of responsibility, the best method of 
achieving this goal is to act against transnational threats, including 
acts of terrorism. Transnational crime and illicit activities fuel 
instability in the region, challenge human rights and the rule of law, 
threaten democracies, and directly place our citizens, interests, and 
security at risk. Similarly, by promoting human rights, the rule of 
law, and military subordination to civilian control, regional 
democracies are strengthened.

                 support of operations in south america
    10. Senator Thurmond. General Hill, historically SOUTHCOM has 
conducted hundreds of engagement events, involving thousands of 
military personnel in South and Central America. These activities have 
been critical to the relations between the United States and the 
region. Included in these engagement events are combined operations, 
exercises, training and education, military-to-military contact 
initiatives, security cooperation, and disaster preparedness and 
humanitarian assistance. What, in your view, has been the impact of the 
war on terrorism on these operations and the relations between the U.S. 
and the nations of the region?
    General Hill. [Deleted.]
                                 ______
                                 
    [The nomination reference of Lt. Gen. James T. Hill, USA, 
follows:]
                    Nomination Reference and Report
                           As in Executive Session,
                               Senate of the United States,
                                                       May 6, 2002.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under Title 10, United States Code, Section 601:

                             To Be General

    Lt. Gen. James T. Hill, 0000.
                                 ______
                                 
    [The biographical sketch of Lt. Gen. James T. Hill, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]

           Resume of Career Service of Lt. Gen. James T. Hill

Military schools attended:
    Infantry Officer Basic and Advanced Courses
    United States Army Command and General Staff College
    National War College

Educational degrees:
    Trinity University--BA Degree--Political Science
    Central Michigan University--MA Degree--Personnel 
Management/Administration

Foreign language(s): None recorded

Promotions:

------------------------------------------------------------------------
                Promotions                      Dates of appointment
------------------------------------------------------------------------
Second Lieutenant.........................  November 2, 1968
First Lieutenant..........................  November 2, 1969
Captain...................................  November 2, 1970
Major.....................................  June 5, 1978
Lieutenant Colonel........................  April 1, 1984
Colonel...................................  June 1, 1989
Brigadier General.........................  July 1, 1993
Major General.............................  August 1, 1996
Lieutenant General........................  September 30, 1999
------------------------------------------------------------------------

Major duty assignments:

------------------------------------------------------------------------
            Assignment                    From                 To
------------------------------------------------------------------------
Platoon Leader, Headquarters and   March 1969........  August 1969
 Headquarters Company, 2d
 Battalion, 46th Infantry, 1st
 Armored Division, Fort Hood,
 Texas.
Platoon Leader, A Company, later   August 1969.......  August 1970
 E Company, and later Executive
 Officer, A Company, 2d Battalion
 (Air Mobile), 502d Infantry, 1st
 Brigade, 101st Airborne
 Division, United States Army,
 Vietnam.
Commander, A Company, 2d           August 1970.......  September 1970
 Battalion (Air Mobile), 502d
 Infantry, 101st Airborne
 Division, United States Army,
 Vietnam.
Assistant Supply Officer, Ranger   October 1970......  March 1971
 School, United States Army
 Infantry School, Fort Benning,
 Georgia.
Commander, 3d Ranger Company,      March 1971........  March 1972
 Ranger School, United States
 Army Infantry School, Fort
 Benning, Georgia.
Instructor, Ranger School, United  March 1972........  November 1972
 States Army Infantry School,
 Fort Benning, Georgia.
Student, Infantry Officer          November 1972.....  August 1973
 Advanced Course, United States
 Army Infantry School, Fort
 Benning, Georgia.
Assistant G-2 (Intelligence), 1st  August 1973.......  October 1973
 Cavalry Division, Fort Hood,
 Texas.
Horse Platoon Leader, 1st          November 1973.....  February 1975
 Squadron, 9th Cavalry, 1st
 Cavalry Division, Fort Hood,
 Texas.
S-4 (Logistics), 3d Brigade, 1st   Feburary 1975.....  August 1975
 Cavalry Division, Fort Hood,
 Texas.
Commander, A Company, 2d           August 1975.......  September 1976
 Battalion, 7th United States
 Cavalry, 1st Cavalry Division,
 Fort Hood, Texas.
Assistant S-3 (Operations), later  September 1976....  July 1978
 S-3 (Operations), 1st Battalion,
 35th Infantry, 25th Infantry
 Division, Schofield Barracks,
 Hawaii.
Assistant G-3 Air (Operations),    July 1978.........  May 1979
 25th Infantry Division,
 Schofield Barracks, Hawaii.
Student, United States Army        May 1979..........  June 1980
 Command and General Staff
 College, Fort Leavenworth,
 Kansas.
Staff Officer, Office of the       June 1980.........  May 1983
 Deputy Chief of Staff for
 Operations and Plans, United
 States Army, Washington, DC.
Aide-de-Camp to the Chief of       May 1983..........  June 1985
 Staff, United States Army,
 Washington, DC.
Commander, 1st Battalion, 35th     June 1985.........  May 1987
 Infantry, 25th Infantry
 Division, Schofield Barracks,
 Hawaii.
Student, The National War          May 1987..........  June 1988
 College, Washington, DC.
Special Project Officer, Office    June 1988.........  June 1989
 of the Chief of Staff, United
 States Army, Washington, DC.
Commander, 1st Brigade, 101st      June 1989.........  August 1991
 Airborne Division (Air Assault),
 Fort Campbell, Kentucky and
 Operations Desert Shield/Desert
 Storm, Saudi Arabia.
Chief of Staff, 101st Airborne     August 1991.......  October 1992
 Division (Air Assault), Fort
 Campbell, Kentucky.
Assistant Deputy Director for      October 1992......  July 1994
 Politico-Military Affairs, J-5,
 The Joint Staff, Washington, DC.
Assistant Division Commander       July 1994.........  June 1995
 (Support), 25th Infantry
 Division, Schofield Barracks,
 Hawaii and Deputy Commanding
 General, Combined Joint Task
 Force 190 and Multinational
 Forces, Haiti and Deputy
 Commander, United States Forces,
 Haiti during Operation Uphold
 Democracy.
Director of Operations, G-3,       June 1995.........  June 1997
 United States Army Forces
 Command, Fort McPherson, Georgia.
Commanding General, 25th Infantry  June 1997.........  September 1999
 Division (Light), Schofield
 Barracks, Hawaii.
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
            Assignment                    Dates              Grade
------------------------------------------------------------------------
*Staff Officer, Office of the      June 1980-May 1983  Major
 Deputy Chief of Staff for
 Operations and Plans, United
 States Army, Washington, DC.
Assistant Deputy Director for      October 1992-July   Brigadier General
 Politico-Military Affairs, J-5,    1994.
 The Joint Staff, Washington, DC.
------------------------------------------------------------------------
*Joint equivalency


U.S. decorations and badges:
    Distinguished Service Medal
    Silver Star (with 2 Oak Leaf Clusters)
    Defense Superior Service Medal (with Oak Leaf Cluster)
    Legion of Merit (with 4 Oak Leaf Clusters)
    Bronze Star Medal with `` V '' Device
    Bronze Star Medal (with Oak Leaf Cluster)
    Air Medals
    Army Commendation Medal with 2 `` V '' Devices
    Army Commendation Medal (with 3 Oak Leaf Clusters)
    Combat Infantry Badge
    Parachutist Badge
    Air Assault Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
                            Department of the Army,
                      Headquarters, I Corps and Fort Lewis,
                             Fort Lewis, Washington, April 8, 2002.
Hon. Carl Levin, Chairman,
Committee on Armed Services,
United States Senate
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of the Commander, United States Southern 
Command. It supplements Standard Form 278, ``Public Financial 
Disclosure Report,'' which has already been provided to the committee 
and which summarizes my financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my Standard Form 278 will create any conflict of interest in the 
execution of my new governmental responsibilities. Additionally, I have 
no other interests or liabilities in any amount with any firm or 
organization that is a Department of Defense contractor.
    During my term of office, neither I, my spouse, nor my dependent 
children will invest in any entity that would create a conflict of 
interest with my government duties. I do not have any present 
employment arrangements with any entity other than the Department of 
Defense and have no formal or informal understandings concerning any 
further employment with any entity.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation.
    I trust that the foregoing information will be satisfactory to the 
committee.
            Sincerly,
                                             James T. Hill,
                            Lieutenant General, United States Army.
                                 ______
                                 
    The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Lt. Gen. James 
T. Hill, USA, in connection with his nomination follows:
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.


    1.Name: (Include any former names used.)
    James T. Hill

    2. Position to which nominated:
    Commander, United States Southern Command

    3. Date of nomination:
    May 6, 2002

    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)
    The nominee responded and the information is contained in the 
committee's executive files.

    5. Date and place of birth:
    October 8, 1946; Dayton, Ohio

    6. Marital status: (Include name of husband or wife, including 
wife's maiden name.)
    Married--Antoinette J.G. Hill

    7. Name(s) and age(s) of children: (If applicable)
    Katherine M. Hill (23).
    Griffin S. Hill (15).

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civil, business, charitable, and 
other organizations.
    (1) Member--Association of the United States Army
    (2) Member--Council on Foreign Relations

    11. Honors and awards: List scholarships, fellowships, honorary 
society memberships, and any other special recognition for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment and testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                     James T. Hill.
    This 8th day of April, 2002.
                                 ______
                                 
    [The nomination of Lt. Gen. James T. Hill, USA, was 
reported to the Senate by Chairman Levin on July 31, 2002, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on July 31, 2002.]
                              ----------                              

    [Prepared questions submitted to Vice Adm. Edmund P. 
Giambastiani, Jr., USN by Chairman Levin prior to the hearing 
with answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of these reforms, particularly in your 
assignments as Commander, Task Force 144--U.S. Strategic Command and as 
Senior Military Assistant to the Secretary of Defense.
    Do you support full implementation of these defense reforms?
    Answer. Yes. In my view, the Goldwater-Nichols DOD Reorganization 
Act was a watershed event.
    Question. Based upon your experience, what is your view of the 
extent to which these defense reforms have been implemented and the 
impact that they have had?
    Answer. In my view, the defense reforms begun in 1986 have been 
fully implemented to produce a more combat-capable military further 
facilitating our evolution to a fully joint force.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I see two key achievements: the clarification of the chain 
of command in the operational sphere and the improvements in joint 
warfighting capability driven by the joint input on requirements 
validation.
    Question. Do you anticipate that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. I do not believe that legislation is required at this time, 
however, if confirmed, I will not hesitate to make legislative 
recommendations to the Secretary of Defense and the Chairman, Joint 
Chiefs of Staff if events cause me to alter my position on this 
subject.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander in Chief, U.S. Joint Forces Command (CINCJFCOM)?
    Answer. The recent changes to the Unified Command Plan have 
appropriately focused the command on joint training and the 
transformation of our Armed Forces to prepare for the challenges of the 
future. With the transfer of responsibilities for the Atlantic Area of 
Responsibility and for Homeland Security and all of its aspects, the 
Commander, U.S. Joint Forces Command (USJFCOM) can concentrate the 
majority of his attention on transformation.
    The Commander, U.S. Joint Forces Command serves as the chief 
advocate for jointness and interoperability to champion the joint 
warfighting requirements of the combatant commanders. As such, he has 
four major responsibilities:

        <bullet> First, USJFCOM is responsible for Joint Concept, 
        Development, and Experimentation.
        <bullet> Second, USJFCOM supports the development and 
        integration of fully joint capabilities that are also 
        interoperable with multinational and interagency capabilities--
        Joint Force Integration and Interoperability.
        <bullet> Third, USJFCOM is charged with Joint Force Training. 
        This includes training at the operational level, from the 
        combatant commands and their staffs, to the joint task force 
        staffs to the staffs of the functional components that make up 
        the Joint Forces.
        <bullet> As a last major function, as the Joint Force Provider, 
        USJFCOM has combatant command of a large portion of the 
        conventional forces of the U.S. Armed Forces and provides them 
        as trained and ready joint-capable forces to the other 
        combatant commands when directed by the Secretary of Defense.

    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. First of all, I'm honored to be considered for this 
important position. I have been fortunate to serve in a number of roles 
in my military career, which I think prepare me to assume the duties of 
Commander, U.S. Joint Forces Command. First, I have had command 
experience from the ship to the fleet, NATO and joint level. Second, I 
have a background in experimentation and concept development while 
serving as a squadron commander in charge of those activities and as a 
branch head at the Naval Doctrine Command. Third, my background with 
the Navy staff firmly underpins my understanding of the resource and 
requirements process, the need for joint integration and the continuing 
need for joint interoperability. As the Deputy CNO for Resources, 
Requirements, and Assessments, I had good insight into the requirements 
generation and validation process, up through the Joint Requirements 
Oversight Council (JROC). Finally, my current assignment as the 
Secretary of Defense's Senior Military Assistant has provided me a 
unique and invaluable experience in the joint and interagency process 
and the ongoing need for transformation of our military.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform these duties?
    Answer. If confirmed, I am confident that with the recent changes 
in the Unified Command Plan and the momentum building for 
transformation I will be fully empowered and able to perform the duties 
as Commander of Joint Forces Command.
    Question. In carrying out your duties, how will you work with the 
Secretary of Defense, the Chairman of the Joint Chiefs of Staff, the 
Under Secretary of Defense for Personnel and Readiness, the Director of 
the Office of Force Transformation, the Joint Requirements Oversight 
Council, the Commander in Chief, U.S. Northern Command when that 
combatant command is established, the other combatant commanders, and 
the service training and doctrine commands?
    Answer. As the Commander of United States Joint Forces Command, I 
will work directly with the Secretary of Defense and the Chairman of 
the Joint Chiefs of Staff. I anticipate working closely with the Vice 
Chairman of the Joint Chiefs of Staff (VCJCS), particularly given his 
role in the JROC. As a combatant commander, I will coordinate/
collaborate with the Under Secretaries of Defense. The new Director, 
Force Transformation will be a key partner in transforming our military 
capabilities.
    As directed by the Secretary of Defense, USJFCOM provides forces to 
other combatant commands; in that role Commander, USJFCOM becomes the 
supporting commander to the designated supported combatant command. 
USJFCOM also has an extremely close partnership with the other 
combatant commanders in leading efforts to transform our joint forces. 
I see the Commander of USJFCOM as the chief advocate among the 
combatant commanders for assessing needs and pushing solutions for the 
combatant commanders' warfighting needs.
    The relationship between USJFCOM and NORTHCOM will be important. 
Besides the supported/supporting combatant command relationship for 
Homeland Security, in which USJFCOM will provide trained and ready 
forces to NORTHCOM (as with the other combatant commands), there will 
be a transition period while NORTHCOM becomes fully mission capable. I 
anticipate that during that period, USJFCOM will work closely with 
NORTHCOM to ensure the security of the continental United States in the 
land and maritime domains. Joint Force Headquarters--Homeland Security, 
which General Kernan established last January, will go far in 
facilitating the transition, but the rest of the USJFCOM staff will 
support NORTHCOM as they build up to Full Operational Capability.
    Finally, I have had the good fortune to work closely with these 
fine leaders over the last year and look forward to working with them 
in meeting the challenges ahead if confirmed.
                         u.s. northern command
    Question. U.S. Northern Command (NORTHCOM) is scheduled to be 
operationally effective October 1, 2002. As a result of the 
establishment of this new regional combatant command, USJFCOM will be 
divested of its existing geographic area of responsibility, much of 
which will be reassigned to NORTHCOM.
    What are the major challenges that will be involved in the process 
of transferring these areas to NORTHCOM's responsibility?
    Answer. I do not foresee any major challenges. USJFCOM and NORAD, 
through the NORTHCOM Implementation Planning Team, have crafted a plan 
for an orderly transfer of responsibilities. If confirmed, I intend to 
work very closely with General Eberhart and his staff to make this 
transition as smooth as possible without degradation to our capability 
to defend the Nation.
    Question. Do you foresee a transfer of responsibility for all of 
those areas on October 1, 2002, and, if so, are you confident that the 
transfer can be accomplished without adverse impact by that date?
    Answer. If confirmed, I will work closely with General Eberhart to 
ensure a smooth transfer of responsibilities, including the land and 
maritime defense and military assistance to civil authorities for the 
NORTHCOM area of responsibility. Where those decisions have not been 
made by October 1, 2002, current relationships will exist until new 
ones can be implemented. Regardless of the transfer of 
responsibilities, USJFCOM will work with NORTHCOM to ensure the 
security of the Nation until NORTHCOM is fully capable of executing its 
responsibilities.
    Question. NORTHCOM will also be responsible for Federal military 
assistance to U.S. civil authorities, including consequence management 
operations in response to chemical, biological, radiological, nuclear, 
or high-yield explosive incidents.
    What are the major challenges that will be involved in the process 
of transferring this responsibility to NORTHCOM?
    Answer. I do not foresee any major challenges. While there will be 
reorganization at the strategic level (combatant command), the 
operational headquarters will continue to perform the roles and 
missions they currently execute. This mitigates the risk associated 
with the transfer of responsibilities to the new command.
    Question. Do you foresee a transfer of Joint Task Force--Civil 
Support (JTF-CS) and the responsibility for Federal military assistance 
to U.S. civil authorities on October 1, 2002, and, if so, are you 
confident that the transfer can be accomplished without adverse impact 
by that date?
    Answer. I expect Joint Task Force Civil Support to come under 
NORTHCOM on October 1, 2002, and I am confident the transfer can be 
completed without degradation in the Defense Department's ability to 
respond to chemical, biological, radiological, nuclear, or high-yield 
explosive incidents.
    Question. In his confirmation hearing, General Eberhart indicated 
that he does not anticipate a large number of operational forces being 
assigned to NORTHCOM.
    Since JFCOM will be the primary force provider for NORTHCOM, what 
challenges do you anticipate in ensuring that U.S. forces are prepared 
for operations on, over, or close to the United States?
    Answer. Joint Forces Command will have to work closely with 
NORTHCOM, as with the other geographic combatant commands, to identify 
appropriate training and readiness objectives for forces required to 
execute military operations. Each of the services will have to certify 
the mission readiness of these forces. Joint Forces Command will also 
continue to have a role in training the NORTHCOM forces, as with all 
combatant commands. This will assist in the transition.
                                  nato
    Question. NATO has agreed to release the current CINCJFCOM, General 
Kernan, from his responsibilities as Supreme Allied Commander, Atlantic 
(SACLANT).
    Do you anticipate that the SACLANT responsibilities will be 
assigned to another U.S. four-star officer?
    Answer. The Secretary's guidance is to leave the SACLANT 
``unfilled'' until NATO completes its review of the future structure 
and command and control arrangement for NATO's military establishment. 
During that period, the Deputy SACLANT, Admiral Ian Forbes, will stand 
in as SACLANT. Further, the close and continuous linkage that exists 
today will continue. USJFCOM forces will participate in and the 
headquarters will support NATO exercises. Alliance partners will liaise 
with both USJFCOM training and experimentation activities and 
multinational experimentation, built around this NATO partnership, will 
increase in the future.
    Question. Will the loss of the SACLANT ``hat'' have any impact on 
the performance of the duties of CINCJFCOM?
    Answer. The current Unified Command Plan rightly focuses the 
Commander, U.S. Joint Forces Command on the transformation of our Armed 
Forces. Given the current operational and functional responsibilities 
of Allied Command Atlantic, relieving the USJFCOM Commander of NATO 
responsibilities at this time is consistent with the intent of the 
Unified Command Plan. Where USJFCOM and ACLANT responsibilities 
intersect, I anticipate the two commands maintaining a very close 
relationship.
    We are examining ways to enhance the linkages between NATO and the 
Joint Forces Command, so that American, European, and Canadian 
militaries can transform together.
    Question. Do you anticipate that CINCJFCOM will have a continuing 
role with our NATO allies relating to the transformation of U.S. 
forces?
    Answer. Without question. Future warfare will almost certainly be 
joint and often rely on our multinational partners. Multinational 
interoperability of our joint forces is a key part of transformation. 
NATO is a key U.S. multinational partnership, and the most well 
developed of our military alliances. As the command responsible for 
U.S. transformation, Joint Forces Command must work with other NATO 
members in establishing overarching architectures and protocols to 
assure continued interoperability. NATO offers the right venue to 
develop our capabilities to be interoperable with our multinational 
partners. Joint Forces Command will continue to work closely with NATO 
in the development of future concepts and capabilities.
    Question. In a speech in Norway to NATO defense ministers last 
year, General Kernan stated that Concept, Development, and 
Experimentation was an ideal means for NATO to facilitate adaptive 
changes in doctrine, training, and operational concepts.
    What are your views regarding the progress NATO must make in 
modernizing and transforming its forces?
    Answer. The Secretary General, Lord Robertson, has spoken out 
forcefully on this issue, however, much remains to be done. Greater 
effort is required on the part of many member states if our NATO allies 
are to become full partners in the execution of operations today and 
full participants in U.S. experimentation and transformation efforts. 
Where necessary increased investment must be made and where 
appropriate, alliance nations need to creatively ``pool'' resources and 
find capability niches that add to NATO's overall military 
effectiveness and relevance today and can be properly resourced. In 
particular, NATO's command and control capability must be transformed 
to be more interoperable and agile.
    The U.S. and NATO allies will have to work closely in these areas 
to ensure that all forces modernize and transform to the maximum extent 
possible.
    Question. Do you agree that the Concept, Development, and 
Experimentation process is the best means to accomplish this end?
    Answer. Yes. Given defense spending realities, the environment 
offered by Concept, Development, and Experimentation (CDE) is by far 
the most efficient way to effect transformation in my view.
    Question. Without the authority of SACLANT, how will CINCJFCOM 
participate in the effort to modernize NATO warfighting capabilities?
    Answer. As a former ACLANT NATO commander, if confirmed, I 
anticipate that the productive partnership between USJFCOM and ACLANT 
will continue. The two commands share many common responsibilities, 
remain co-located and have a history of working together.
                   joint warfighting experimentation
    Question. The September 30, 2001 Quadrennial Defense Review Report 
stated, in part, that ``Exercises and experiments are a critical phase 
in developing new types of forces and operational concepts that can 
respond to emerging operational challenges and dominate opponents who 
effectively exploit aspects of the changing security environment.;'' 
and, ``The findings of this program of field exercises and experiments 
will feed back directly into the process for determining systems, 
doctrine, and force structure requirements.''
    Please describe the upcoming Millennium Challenge 2002 and explain 
how it could contribute to the development of new types of forces and 
operational concepts.
    Answer. Millennium Challenge 2002 (MC 02), offers an opportunity to 
integrate the services and their operational concepts into a joint 
experiment to identify and develop promising concepts for future joint 
warfare. The joint experiment will focus on the value of Effects-Based 
Operations (EBO) as enabled by a core Standing Joint Force Headquarters 
(SJFHQ), built around III Corps, and Operational Net Assessment to 
achieve rapid, decisive operations in this decade.
    The experiment is designed to synchronize previously planned 
service experiments, giving joint concepts additional influence in 
service experimental activities. ``Live'' experimentation with forces 
in the field will be conducted at the Western U.S. training ranges, 
while a Standing Joint Force Headquarters (SJFHQ) will be established 
at USJFCOM in Norfolk, Virginia. A human-in-the-loop computer-based 
simulation will incorporate the results of live play, and provide a 
wider strategic and operational context for the live elements of the 
experiment.
    With all experiments, the lessons learned lie ahead. Likely areas 
for recommendations could include, but are not limited to, enhanced 
joint headquarters planning, command and control functions, concepts of 
joint warfighting in the next decade, testing how well various service 
concepts for future operations work together, and recommendations for 
the highest-payoff interoperability initiatives that will enable the 
current force to conduct more coherent joint operations.
    Question. Please explain how information obtained from exercises 
like Millennium Challenge 2002 could feed back directly into the 
process for determining systems, doctrine, and force structure 
requirements.
    Answer. Millennium Challenge 2002 is one of several types of 
experiments and events that comprise a continuous experimentation 
environment.
    The purpose of Joint Concept Development and Experimentation, in 
this case Millennium Challenge 2002, is to provide additional 
information developed from joint and operational perspectives to 
support more informed decision making concerning force development and 
resource allocation. Recommendations to the Chairman, Joint Chiefs of 
Staff (CJCS) will potentially involve both near and longer-term force 
and/or program adjustments, and all mission areas and appropriation 
categories, and any level of resources.
    Once USJFCOM's recommendations are approved, implementation is the 
responsibility of the Joint Requirements Oversight Council (JROC) who 
may choose to either implement through their own capabilities or 
appoint an executive agent that will implement changes for them. The 
services, USSOCOM, or defense agencies could execute changes to 
materiel, personnel, and/or facilities. Any or all of these changes 
could require resource adjustments to support the desired action. Most 
importantly, acceptance and implementation of new joint concepts will 
provide a common joint context for developing future service concepts, 
forces, and capabilities.
    Question. In particular, please explain the joint standing 
headquarters concept and how Millennium Challenge 2002 will test it.
    Answer. The Quadrennial Defense Review dated September 30, 2001 
directed the development of proposals for a prototype of a Standing 
Joint Force Headquarters (SJFHQ). Additionally, the Secretary of 
Defense further directed a study for a prototype SJFHQ. The standing 
joint force headquarters concept used in Millennium Challenge 2002 is 
the result of a lengthy Concept, Development, and Experimentation 
effort by USJFCOM in coordination with the combatant commanders, the 
services, defense agencies, and others. The Standing Joint Force 
Headquarters is functionally organized to provide command, planning, 
operations, knowledge management, information superiority and support 
to the Joint Force Commander. It is a warfighting headquarters 
operating in a collaborative environment to apply the full range of 
national power in a coherent manner. The SJFHQ operates and trains 
together on a daily basis year round, and is fully engaged in theater 
planning and operations. Additionally, the SJFHQ can accommodate both 
interagency and multinational elements as required.
    As part of the experimental scenario, the prototype standing joint 
force headquarters will be integrated into a service-pure headquarters 
(Army III Corps) that has been designated by the combatant commander as 
the Joint Task Force headquarters.
    Question. In his December 1999 Annual Report to Congress on the 
Implementation of Joint Experimentation, Admiral Gehman proposed a 
Joint Warfighting Rapid Acquisition Program (WRAP) to provide ``jump-
start'' funding for promising new systems and technologies during 
experimentation and fielding that would otherwise not be available.
    What are your views on Admiral Gehman's WRAP proposal?
    Answer. I agree with the need for funding to support rapid 
procurement for ``jump-starting'' promising new systems and 
technologies resulting from experimentation, and efforts to address 
immediate joint warfighting interoperability and integration 
shortfalls. A number of potential vehicles for funding like USJFCOM's 
Transition Fund or Advanced Concept Technology Demonstrations (ACTDs) 
are designed to rapidly transition technologies and ideas to programs. 
All of these vehicles will be helpful in advancing the transformation 
of our military. As with all facets of experimentation, we must be 
prepared to fail on occasion in order to ``push the envelope.''
                  joint requirements oversight council
    Question. In his formal testimony before the committee on April 9, 
2002, JCS Vice Chairman General Peter Pace stated that ``The JROC now 
has front-end influence to ensure that major weapons systems are `born 
joint.' With my seat on the Defense Acquisition Board and my role in 
the budgeting process I can help ensure that all major systems are 
validated as `joint' before they are procured;'' and, ``We've tasked 
United States Joint Forces Command (USJFCOM) to develop and evaluate 
joint operational concepts and architectures, conduct and evaluate 
experiments, recommend legacy system integration, provide feedback from 
the field, and recommend emerging operational concepts for 
evaluation.''
    Please explain the processes whereby JFCOM accomplishes the tasking 
described above and how it works with the Vice Chairman and the JROC to 
ensure that major systems are born ``joint'' and validated as ``joint'' 
before they are procured.
    Answer. Joint Forces Command is addressing critical 
interoperability for the joint warfighter through the joint 
requirements process. To ensure new systems are born joint, the Command 
reviews all developing requirements documents for sufficiency of 
interoperability key performance parameters, information exchange 
requirements, and operational architectures. Joint Forces Command's 
view of the system's joint interoperability is included in the JROC 
process chaired by the Vice Chairman, Joint Chiefs of Staff.
    Joint Forces Command also develops Capstone Requirements Documents 
(CRDs) to fill uniquely joint needs. CRDs provide a common joint vision 
in key future warfighting areas. These documents include detailed 
overarching joint architectures and provide up-front guidance to 
services and agencies to use when developing future individual systems. 
The JROC has approved four Joint Forces Command Capstone Requirements 
Documents to date: Global Information Grid, Information Dissemination 
Management, Combat Identification, and Theater Air Missile Defense.
    Joint Forces Command also supports legacy systems by prioritizing 
warfighting interoperability requirements critical to the combatant.
    Question. In your view, what is the appropriate role of the 
CINCJFCOM in the JROC process and should the CINCJFCOM be a full, 
voting member of the JROC?
    Answer. In my view, the Commander, U.S. Joint Forces Command serves 
as the chief advocate for jointness and interoperability and the 
champion of joint warfighting requirements. This role empowers the 
USJFCOM Commander to address the sufficiency of interoperability in 
future acquisition initiatives. If confirmed as the chief advocate for 
jointness and interoperability, having a seat, when appropriate, at 
both the Joint Requirements Oversight Council (JROC) and the Defense 
Acquisition Board (DAB) should afford me ample latitude to affect 
positive change throughout the requirements generation process. Once 
again, since I do not have sufficient knowledge of the details, I would 
like to reserve judgment pending confirmation.
                             transformation
    Question. With the upcoming loss of its geographic area of 
responsibility, JFCOM will refocus on experimentation and 
transformation of the U.S. Armed Forces and strengthen its ability to 
be the trainer and provider of joint military forces.
    Please explain your view of the role that JFCOM should play in the 
transformation of the U.S. Armed Forces.
    Answer. As the President, Secretary of Defense, Chairman of the 
Joint Chiefs and members of this committee have all made clear, we are 
in a period of great change. As such, there is a priority need to 
experiment, innovate and, ultimately, transform our nation's military 
capability. Refocusing JFCOM on this core national priority as 
prescribed in Unified Command Plan 2002 will allow the men and women of 
this command to wake up every day thinking, worrying about, agitating 
for, and experimenting with combinations of new and old ideas from a 
joint warfighting perspective while strengthening the command's ability 
to be the trainer and provider of joint military forces. This is a very 
exciting prospect and one that I hope, if confirmed, we will all be 
proud of in years to come.
    Building upon prior and ongoing joint and service concept 
development and experimentation and leveraging the warfighting 
innovations from ongoing operations, JFCOM will strive to develop 
solutions that enhance the full range of joint warfighting capabilities 
needed to combat asymmetric threats such as terrorism and sustain our 
military strength in the 21st century. This comprehensive effort 
includes aggressive experimentation, joint force training, and 
integration of joint warfighting requirements necessary to meet future 
challenges, all balanced by the need to sustain a trained and ready 
force for today's operations.
    Joint Forces Command will work closely with the services, defense 
agencies, and combatant commands, as well as with our interagency and 
international partners in these efforts. Joint Forces Command provides 
the joint context in which service and agency experiments can operate 
effectively.
    Question. Please explain your view of the role that JFCOM should 
play in the training of joint military forces.
    Answer. Training provides the foundation for current warfighting 
readiness and for the transformation of the Armed Forces. USJFCOM has a 
multi-faceted joint training mission, specified in the 2002 Unified 
Command Plan, which is to serve as the lead agent for joint force 
training. In that role, USJFCOM represents the joint warfighter 
perspective in the training process to ensure that training meets the 
needs of the combatant commanders. Training provides the integrating 
environment for the validation and refinement of joint concepts that 
contribute to joint capable forces and joint force capabilities in the 
near-term.
    Question. To the extent that previous answers do not cover how 
JFCOM will accomplish these tasks, please describe this process.
    Answer. To facilitate Defense Department transformational efforts, 
USJFCOM develops and experiments on concepts, leverages operational 
lessons learned, identifies and documents solutions, and submits 
appropriate joint doctrinal, organizational, training, materiel, 
leadership, personnel, and facility changes for implementation as 
directed by the Joint Requirements Oversight Council (JROC). These 
submissions, the product of joint experimentation, training, and 
operational lessons, include joint operational concepts, command and 
control structures, and capabilities that become joint requirements in 
support of transformation once approved by the JROC.
    Question. Secretary Rumsfeld has talked often about the urgent need 
to transform the force and has established an Office of Force 
Transformation within the Office of the Secretary of Defense.
    What is your understanding of the responsibilities of the Office of 
Force Transformation?
    Answer. I see the Office of Force Transformation providing a key 
bridging function between the security strategy and policy and 
acquisition and the effort to identify transformational operational 
warfighting concepts, requirements, and capabilities.
    Question. In your view, what is the appropriate relationship 
between the CINCJFCOM and the Director, Office of Force Transformation?
    Answer. The relationship between the Commander, USJFCOM, and the 
Director, Office of Force Transformation is key to overall Department 
transformation efforts and should be one of coordination and mutual 
support, similar to that maintained with other senior officials in OSD. 
I look forward, if confirmed, to working with the Director, Office of 
Force Transformation on these very important and challenging issues in 
the months ahead.
    I believe that the Director, Office of Force Transformation will 
assist USJFCOM and the CJCS in translating established requirements 
into reality by working through the service secretaries to affect the 
service budgets, programs, and transformation plans.
    The Commander, USJFCOM will also coordinate with other principals 
in the Office of the Secretary of Defense, such as the Under Secretary 
of Defense for Personnel and Readiness, who has a key role in the 
transformation of training, and the Assistant Secretary of Defense for 
C\3\I, who has a key role in the transformation of C\4\ISR.
    Question. Vice Admiral (Ret.) Cebrowski, Director of the Office of 
Force Transformation, stated in testimony to the committee this year 
that his small budget would enable him to be a ``venture capitalist'' 
wherein he could identify promising new technologies and quickly 
acquire them.
    What is your view of the need for this type of ``venture 
capitalist'' approach?
    Answer. Transformation involves fundamental changes in the 
conceptualization of war, organizational culture and behavior as well 
as materiel change. Fostering long-term and continual transformation is 
a culture in itself. Technology is an essential component of 
transformation, but investment must be informed by and balanced with 
innovative operational and organizational concepts, training, 
leadership, and personnel imperatives. Experimentation is a key 
component of transformation. If confirmed, I look forward to working 
with Vice Admiral Cebrowski and his organization in the application of 
the venture capitalist approach.
                 national defense panel recommendations
    Question. Many of the recommendations contained in the December 
1997 Report of the National Defense Panel have come to be adopted by 
the Department of Defense, including the creation of a Joint Forces 
Command with a mission essentially the same as the one which JFCOM will 
have after NORTHCOM is fully operational. Some of the Panel's 
recommendations, however, have not yet been adopted.
    What are your views on the establishment of Joint National Training 
Centers, part of which would be a Joint Urban Warfare Center?
    Answer. The Office of the Secretary of Defense has rightly 
identified the need for the creation of inherently joint training 
infrastructure that enables the integration and conduct of joint and 
service training across the full range of operational challenges, 
including urban warfare.
    The Joint National Training Center concept offers a seamless joint 
training environment through a global network of live, virtual, and 
constructive enablers. The objective is to provide training venues that 
enhance our collective ability to improve joint warfighting 
capabilities
    With the completion of Millennium Challenge 2002 this summer, which 
will combine multiple live range activities with numerous simulation 
centers, we should learn a great deal about the key components of a 
Joint National Training capability.
    Question. What are your views on the provision of an MFP-11 type 
authority to ensure USJFCOM's ability to support the experimentation 
program?
    Answer. Experimentation and transformation are obviously very high 
priority issues for the President, Secretary of Defense, and Chairman 
of the Joint Chiefs of Staff as prescribed in Unified Command Plan 
2002; therefore, I would like to reserve detailed comment on this 
question until I have had a chance to review the issue more thoroughly.
                        service experimentation
    Question. A review of the defense budget reveals that the military 
services spend a substantial amount of money on ``service-level'' 
experimentation--about $1 billion total each year for all four 
services. The JFCOM budget for joint experimentation is about $100 
million.
    In your view, are service experimentation efforts satisfactorily 
coordinated with Joint Forces Command?
    Answer. The services have been very cooperative with USJFCOM's 
efforts to integrate concept, development, and experimentation. Service 
experimentation efforts are satisfactorily coordinated with Joint 
Forces Command.
    Joint Forces Command supports strong service programs for concept, 
development, and experimentation because integrating service with joint 
concept, development, and experimentation efforts is essential to the 
success of both.
    Question. What role should JFCOM play in the timing and content of 
service experimentation efforts?
    Answer. Joint Forces Command has the mission to provide the 
coherent joint context for service experimentation programs. The joint 
warfighting experimentation program aims at integrating those efforts 
into a ``family'' of experiments that support joint and service concept 
development while providing the services the joint context for their 
experimentation initiatives in their core capabilities.
    Question. Are you satisfied that, overall, service and joint 
experimentation efforts are adequately funded?
    Answer. I do not have the current knowledge to adequately answer 
this question. I would like to reserve detailed comment on this 
question until I have had a chance to review the issue more thoroughly.
                            interoperability
    Question. A major component of any discussion about transformation 
and joint warfighting capabilities is the interoperability of 
equipment, especially communications and information technology 
systems. After action reports from every major conflict since the 
military operations in Grenada in 1982 have pointed out shortcomings in 
interoperability and recommended significant improvements, however, 
problems with incompatible systems persist.
    In your view, why has achieving interoperability of systems proven 
to be such an elusive task?
    Answer. We have many systems of a wide range of origins and ages 
operating currently which are driving interoperability. However, the 
establishment of a relevant common operational picture and the control 
of future interoperability through the JROC means that we will have an 
evolving capability over time. In order to get a better handle on 
existing incompatibilities, JFCOM is building a combatant commander 
shortfall list for presentation to and endorsement by the JROC.
    Question. What recommendations do you have for improving the 
interoperability of U.S. military systems?
    Answer. I do not have the current knowledge from the Joint Forces 
Command perspective to adequately answer this question. I would like to 
reserve detailed comment on this question until I have had a chance to 
review the issue more thoroughly.
    Question. What challenges do you anticipate in the future with 
regard to interoperability with the military systems of friendly and 
allied nations?
    Answer. The overall effectiveness of multinational operations is 
dependent on interoperability among organizations, processes, and 
technologies. Effective command and control is the primary means of 
successfully extending the joint vision to multinational operations. 
This requires interoperability of systems, common or complementary 
processes, and access to critical information and decision support 
capabilities. U.S. joint forces must train with allies and friends in 
peacetime in order to be fully prepared to operate with them in time of 
crisis and conflict. Technological developments that connect the 
information systems of coalition partners will provide the links 
leading to a common relevant operational picture and improve command 
and control.
                        combined experimentation
    Question. There has been much discussion in recent years about the 
role of joint experimentation in helping to transform our Armed Forces 
to meet future emerging threats. Concurrently, there is frequent 
discussion about fighting with allied forces in coalitions and about 
the expanding technological gap between the U.S. Armed Forces and its 
closest allies.
    In your view, how can the United States best prepare for coalition/
combined operations?
    Answer. Embedding our multinational partners in the concept 
development phase and including them in experimentation will set the 
stage for multinational operations. Current and future scheduled 
limited objective experiments will help prepare not only the U.S. for 
coalition/combined operations, but our partners as well. Continued 
involvement with the Multinational Interoperability Council (MIC) and 
its various working groups at JFCOM will keep the U.S. involved, 
preparing for and effecting transformation in coalition/combined 
operations.
    Question. What role can experimentation play in preparing U.S. and 
allied forces for combined operations?
    Answer. Current and future scheduled experiments help prepare not 
only the U.S. for coalition/combined operations, but our partners as 
well. By improving our common capabilities in the relatively 
inexpensive environment of experimentation, we will keep our allies and 
coalition partners engaged in our transformation efforts.
    Question. What recommendations do you have for mitigating the 
technological gap between U.S. forces and our closest allies?
    Answer. Given current trends in allied defense spending, it seems 
prudent to define roles for our allies in areas where they have unique 
capabilities and are able to sustain those capabilities over time. 
Collectively, developing more effective C\4\ISR on a multinational 
level can be affordable to all close allies and will yield the largest 
and most significant returns. In this area and others, such as 
precision weapons, ensuring we have open architectures and clear 
standards and protocols will be important to achieving necessary levels 
of interoperability and access.
                                 goals
    Question. Please describe the goals you will set, if confirmed, for 
yourself and JFCOM to accomplish within the next 2 years.
    Answer. The President and defense leadership's intent and guidance 
establishes a clear goal of transforming our military forces to meet 
the needs of the future security environment. The Secretary of Defense 
recently outlined six transformation goals: (1) protect the U.S. 
homeland and our bases overseas; (2) project and sustain power in 
distant theaters; (3) deny enemies sanctuary; (4) protect U.S. 
information networks from attack; (5) use information technology to 
link up different kinds of U.S. forces so they can fight jointly; and 
(6) maintain unhindered access to space. Furthermore, the Secretary of 
Defense and the Chairman of the Joint Chiefs of Staff identified key 
areas for improving joint warfighting capabilities, including 
interoperability and joint experimentation, as well as transformational 
capabilities such as establishing standing joint force headquarters for 
the combatant commanders.
    With that guidance and the guidance of Unified Command Plan 2002, 
if confirmed, I see refocusing U.S. Joint Forces Command on 
experimentation and transformation of our Armed Forces while 
strengthening JFCOM's ability to be the trainer and provider of joint 
military forces as my primary goals.
    Joint training is the foundation of any transformation effort. 
Operationalizing the concept of a Joint National Training Center will 
receive great attention. As well, I will ensure that my component 
forces remain trained and ready, and are the vanguard for joint 
training and operations.
    Joint interoperability and integration remains critical to 
advancing transformation. I will make working with the JROC a priority 
to ensure that all new systems and critical legacy capabilities are 
fully interoperable, and new capabilities are born joint.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next CINCJFCOM?
    Answer. Time and focus. The process of transformation is a long and 
complex one. Maintaining the necessary focus and attention during a 
time of war while fostering and reinforcing a culture dedicated to 
transformation and experimentation is a great but necessary challenge.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. First, to vigorously pursue significant doctrine, 
organizational, training, material, leadership development, and 
personnel improvements consistent with the defense transformation goals 
in support of combatant commanders.
    Second, conduct a rigorous joint experimentation program. In order 
to truly innovate and experiment, you have to risk failure and you have 
to tell the truth about what works and why. If nothing fails in your 
experiment, then you're not experimenting with innovative ideas--you're 
demonstrating proven concepts. There is a great temptation not to 
experiment. The threat of a failed experiment is too great for some to 
stomach. But as Linus Pauling said, ``The best way to have a good idea 
is to have lots of ideas.'' Obviously, the good ideas will emerge from 
the not so good ones if you rigorously experiment, over long periods of 
time. Finally, if confirmed, I will focus the energies of a very 
talented command squarely on these issues.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of CINCJFCOM?
    Answer. I do not see any serious problems but transition of the 
organization's roles and emphasis naturally will provide challenges in 
the months ahead.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, my priority would be to conduct a complete 
review of the USJFCOM experimentation plan.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the CINCJFCOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follows:]
               Questions Submitted by Senator John Warner
                          unified command plan
    1. Senator Warner. Admiral Giambastiani, the recently approved 
Unified Command Plan divests U.S. Joint Forces Command (JFCOM) of its 
geographic responsibilities. What organizational changes do you 
anticipate will be required to adapt JFCOM to its new mission?
    Admiral Giambastiani. Recent changes in the Unified Command Plan 
will allow Joint Forces Command (JFCOM) to focus on its transformation 
responsibilities for joint concept development and experimentation, 
joint integration and interoperability, joint training, and providing 
trained and ready joint forces to the combatant commanders. All of 
these missions are interrelated and mutually support the accomplishment 
of JFCOM's mandate. As directed, JFCOM is transitioning to a purely 
functional command. The transfer of geographic areas of responsibility 
to EUCOM and NORTHCOM, and the homeland security mission to NORTHCOM, 
took effect on October 1. Complete transfer of homeland security 
responsibilities will be concurrent with NORTHCOM achieving full 
operational capability.
    Other directed organizational changes include the stand-up of one 
or more Standing Joint Force Headquarters for regional combatant 
commanders, the establishment of a Joint National Training Capability, 
and the assumption of responsibility for Joint Battle Management 
Command and Control to lead operational to tactical interoperability 
that addresses combatant commander needs.

    2. Senator Warner. Admiral Giambastiani, what is your vision for 
this important command, now exclusively focused on joint concept 
development, joint forces integration, and joint training?
    Admiral Giambastiani. I see Joint Forces Command as a dynamic 
command that learns from and works with our partners to lead continuous 
evolutionary and revolutionary improvements in U.S. warfighting 
capabilities to enable continued success, including rapid, decisive 
military action. As such, I see U.S. Joint Forces Command maximizing 
the Nation's future and present military capabilities by leading the 
transformation of joint forces through joint concept development and 
experimentation, identifying joint requirements, advancing 
interoperability, conducting joint training, and providing ready forces 
and capabilities--all in support of the combatant commands.

                          combined operations
    3. Senator Warner. Admiral Giambastiani, most defense and military 
experts agree that virtually all future U.S. military operations will 
involve extensive cooperation with allied nations. Operation Allied 
Force in Kosovo pointed out the increasing technological gap between 
U.S. forces and its NATO partners. In your view, what can be done to 
mitigate this growing technological gap between the U.S. and future 
allies?
    Admiral Giambastiani. The current gap in military technologies 
among transatlantic partners, accelerated by the step decrease in 
research ad development spending by many alliance members over the last 
decade, is the largest challenge to allied interoperability. Absent 
investment in new technologies, this gap will continue to grow.
    Given that most allied investment involves middle-to-long term 
force modernization and interoperability, immediate progress will 
probably be measured at best. However, focused and shared investment 
can mitigate this gap. Interoperability of current and future alliance 
member systems is critical. This does not mean buy American, but it 
does require investment in interoperable and standardized military 
hardware, software, doctrine, operating procedures, and military 
structures. The U.S. can assist in this area by minimizing the 
technological and procedural barriers to allied interoperability with 
our systems. Moreover, many European countries have recognized that 
nations can no longer develop and finance technologies strictly on a 
national level. Implementing burden sharing arrangements and delivering 
on those capabilities can mitigate costs and speed procurement and 
fielding of interoperable systems when backed by the will to see a 
program through to completion.
    Looking to the future, the United States and our NATO allies should 
pursue multinational concept development, experimentation, doctrine 
development, standardized operating procures, and procurement of 
interoperable systems. Joint Forces Command can facilitate this process 
through our multinational experimentation axis that will begin 
execution in fiscal year 2003. The decisions reached at NATO's Prague 
Summit to transform the alliance for the 21st century set NATO on a 
path to pursue those tasks, principally through a new allied command--
transformation. 

    4. Senator Warner. Admiral Giambastiani, what role can and should 
JFCOM play in improving the ability of U.S. forces to conduct combined, 
multi-national operations?
    Admiral Giambastiani. Our allies offer diverse capabilities often 
recognized only upon the advent of a crisis. That is too late and we 
recognize that. If our multinational forces are to be successful, we 
must borrow that old adage, ``train as we fight.'' Joint Forces Command 
already conducts multinational staff training within the existing 
combatant commander exercise program. Expanding on and focusing this 
effort on the Combined Joint Task Force commander while increasing the 
frequency of multinational joint-tactical training is the next step in 
improving our collective ability to conduct combined, multinational 
operations. As the Joint National Training Capability matures, we must 
consider the inclusion of our allies into the global and combined live, 
virtual, and constructive operational and tactical training 
environment. This type of training will enable the development of 
synergy within the multination force.
    Professional military education is another venue for improving the 
ability of U.S. forces to conduct combined, multinational operations. 
We have made great strides in recent years through the use of the 
regional engagement network and advanced distributed learning, 
implementing these concepts within European Command and Pacific Command 
theaters. By doing so we open the door to transparency in defense 
planning, a necessity for cooperative security in Europe, as well as 
enabled allied consultation on a number of collective issues and 
concerns.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
              joint force integration and interoperability
    5. Senator Thurmond. Admiral Giambastiani, one of your challenges 
will be the development and integration of fully joint capabilities 
that are interoperable with multinational and interagency capabilities. 
In my judgment this is a significant challenge, especially in regard to 
multinational capabilities. In your view, how can we ensure that our 
allies are focused on interoperability and dedicate sufficient 
resources to support it?
    Admiral Giambastiani. The current gap in military technologies 
among transatlantic partners, accelerated by the step decrease in 
research and development spending by many alliance members over the 
last decade, is the largest challenge to allied interoperability. 
Absent investment in new technologies, this gap will continue to grow.
    Given that most allied investment involves middle-to-long term 
force modernization and interoperability, immediate progress will 
probably be measured at best. However, focused and shared investment 
can mitigate this gap. Interoperability of current and future alliance 
member systems is critical. This does not mean buy American, but it 
does require investment in interoperable and standardized military 
hardware, software, doctrine, operating procedures, and military 
structures. The U.S. can assist in this area by minimizing the 
technological and procedural barriers to allied interoperability with 
our systems. Moreover, many European countries have recognized that 
nations can no longer develop and finance technologies strictly on a 
national level. Implementing burden sharing arrangements and delivering 
on those capabilities can mitigate costs and speed procurement and 
fielding of interoperable system when backed by the will to see a 
program through to completion.
    Looking the future, the United States and our NATO allies should 
pursue multinational concept development, experimentation, doctrine 
development standardized operating procures, and procurement of 
interoperable systems. Joint Forces Command can facilitate this process 
through our multinational experimentation axis that will begin 
execution in fiscal year 2003. The decisions reached at NATO's Prague 
Summit to transform the alliance for the 21st century set NATO on a 
path to pursue those tasks, principally through a new allied command--
transformation.

                             joint training
    6. Senator Thurmond. Admiral Giambastiani, throughout your 
responses to the committee's advance policy questions, you emphasize 
the need for joint training. In your judgment, does the Department of 
Defense have the appropriate training facilities and ranges to support 
joint training, and in what areas would you like to see improvement and 
why?
    Admiral Giambastiani. Make no mistake, the nation's soldiers, 
sailors, airmen, and marines are the best trained in the world, but 
there is room for improvement in how we train them for joint 
operations. Joint training is conducted at the operational level and in 
predominantly bilateral service events, but more can and must be done. 
Warfare is inherently joint and military training must account for this 
reality.
    Existing training ranges and assets can adequately support joint 
training if they are integrated in accordance with the Defense 
Department's vision for training transformation. Utilizing the coherent 
and comprehensive strategy described in Joint Forces Command's March 
2002 ``Joint National Training Capability Report,'' the Department of 
Defense's training facilities and ranges can be integrated into a Joint 
National Training Capability focused at the core of the Departments' 
``Strategic Plan for Transforming Training.'' Such a capability would 
provide a network that links the various training centers and ranges 
into a live, virtual, and constructive center of centers that could 
extend globally. Such a networked approach that integrates training 
ranges, C2 headquarters, and live forces distributed across the United 
States would replicate both the way in which war will be prosecuted, 
and how integrated joint and service training should and could be 
conducted. 

                 professional military education system
    7. Senator Thurmond. Admiral Giambastiani, as a former teacher, I 
believe education is a key to success. In your efforts to instill 
jointness into our military, what role do you envision for the 
services' professional schools, such as the War Colleges and other 
officer/non-commissioned officer professional development schools? 
    Admiral Giambastiani. Joint and service professional schools play 
an essential role in instilling jointness in our military. Joint 
Publication 1, Joint Warfare of the Armed Forces of the United States, 
not only supports joint warfighting, but also establishes the goal of 
``. . . development of a common joint culture . . . .'' Changing 
military culture to instill jointness requires constant reinforcement 
in military education and training conducted from initial accession 
sources, continued through professional schooling, and culminating at 
the senior noncommissioned officer, and general officer/flag officer 
level programs.
    Given combat's predominantly tactical nature, combat leader 
development begins their participation in services-based professional 
military education and training. The conduct of operations that 
integrate tactical actions is the domain of the joint force--it is how 
we fight--and our leader development, training and education system 
must reflect the same. No indivdual soldier, sailor, airman, or marine 
should experience jointness for the first time in the execution of 
operations.
    Changing military culture within the context of service education 
and training is a starting point, and is achieved through the 
implementation of reforms stemming, from Goldwater-Nichols, and is 
supplemented and enhanced with the appropriate level of joint education 
and training. Such joint education and training is provided by service 
senior service schools and academies, joint education at the Joint 
Forces Staff College and the National Defense University, and through 
joint training such as Joint Forces Command's Unified Endeavor 
exercises and the Joint Operations Module at CAPSTONE.
    By internalizing jointness in basic service doctrine and 
introducing joint culture into service education and training exercises 
early on, the evolution of jointness will be enhanced by the continued 
development of military professionals that are firmly grounded in both 
their service and joint cultures. This will facilitate a military 
transformation to the jointness degree envisaged by Goldwater-Nichols. 
Joint Forces Command, as the center of excellence or joint operational 
art, can play a greater, positive role in joint professional military 
education, training, and joint doctrine development. Two examples of 
JFCOM's greater larger role are the expansion of the Joint Operations 
Module at CAPSTONE which provides future joint task force commanders 
with more joint warfighting education, and the increasingly close 
relationship between JFCOM and the Joint Forces Staff College.

    8. Senator Thurmond. Admiral Giambastiani, what changes to the 
Professional Military Education System would you recommend to instill 
jointness in our military?
    Admiral Giambastiani. The implementation of reforms stemming from 
Goldwater-Nichols is having a noticeable and positive affect on 
jointness that is just now coming to the fore. The inclusion of joint 
education requirements in service education and the increasing 
importance of joint education and training will continue to enhance the 
jointness of our military. Continued emphasis on jointness, joint 
education, and where appropriate, the earlier introduction of joint 
education and training show potential. However any change must be 
balanced against core service education and training requirements that 
sustain those skills essential to tactical competency on the 
battlefield.
    Specifying a 12-week minimum course length in law is no longer 
necessary in my view. Course length should be mandated by educational 
requirements. In addition, Joint Professional Military Education II 
(JPME II) should be more readily available to officers.
    Also, consider the following:

        <bullet> The need for Joint Professional Military Education 
        (JPME) for senior noncommissioned officers
        <bullet> Examine expanding JPME to senior civilians--many 
        already attend service senior PME
        <bullet> Additional emphasis on multinational/interagency 
        skills
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                             transformation
    9. Senator Smith. Admiral Giambastiani, over the past year or so--
essentially ever since President Bush took office--the focus of 
attention on and within DOD is ``transformation.'' I fully support the 
President and Secretary Rumsfeld in this bold undertaking. However, 
much of the attention has been on the ``things'' used to accomplish 
``transformation.'' I have heard little on the personnel side of the 
issue. I firmly believe that people will make transformation happen--
they need to be in place, in a specific billet long enough to learn it, 
subsequently master it and then, if necessary, apply it in real world 
operations. In a world where technology provides more and more 
information and combat occurs faster with more lethal results, people 
must have the skills and experience to make hard decisions and do it 
quickly and correctly. As the chief of transformation, do you plan to 
incorporate personnel changes/stability plans to complement the 
equipment and technology side of transformation?
    Admiral Giambastiani. Yes, an example is Joint Forces Command's 
work on the Standing Joint Force Headquarters prototype. Approaching 
the manning of a Joint Task Force ``core'' element (i.e. the Standing 
Joint Force Headquarters) as we do with any combat unit is important. 
We must organize, train, and equip it in a more orderly way. Personnel 
assigned a role in this organization must possess specific skills 
cultivated over time, while leading to a stabilized assignment for the 
personnel. Personnel plans must ensure we develop a well-rounded leader 
who is skilled within core competencies of his own service and is at 
home as a joint warfighter. A trained and ready force, and well-
trained, educated, and balanced leaders are the very foundation of 
current readiness, and an imperative for transformation. We fight 
jointly, but employ robust, dominant service capabilities. So as we 
transform, we must strike a balance between joint and service 
assignments and stability, because transformation will take place at 
all levels of the Armed Forces.

    10. Senator Smith. Admiral Giambastiani, additionally, do you think 
we should address any changes to the personnel rotation policies to 
allow service members to stay in place at a specific billet longer to 
further increase their operational proficiency?
    Admiral Giambastiani. In general terms, I am a supporter of longer 
tour lengths. However, balance is key. Personnel plans must ensure we 
develop a well-rounded leader who is skilled within core competencies 
of his own service and is at home as a joint warfighter. A trained and 
ready force, and well-trained, educated, and balanced leaders, are the 
very foundation of current readiness and an imperative for 
transformation. We fight jointly, but employ robust, dominant service 
capabilities. So, as we transform, we must strike a balance between 
joint and service assignments and stability, because transformation 
will take place at all levels of the Armed Forces.
                                 ______
                                 
               Questions Submitted by Senator Jim Bunning
                     millennium exercise challenge
    11. Senator Bunning. Admiral Giambastiani, exercise Millennium 
Challenge is currently underway. Please explain what that exercise is 
comprised of, what its goals are, and how it fits into the overall plan 
to transform our Armed Forces.
    Admiral Giambastiani. Millennium Challenge 2002 (MC 02) was a 
congressionally-mandated, Defense Department-directed joint exercise 
and experiment. It was the culmination of over 2 years of concept 
development, experimentation, and the integration of operational 
lessons learned. MC 02 ran from July 24 to August 14 and was the 
largest joint exercise/experiment ever conducted, integrating the 
services' vanguard elements and concepts to identify and develop 
promising initiatives for future joint warfare.
    MC 02 sought to determine the extent to which our forces are able 
to establish and maintain knowledge superiority, assure access into and 
throughout the battle space, leverage all national elements of power, 
and sustain ourselves as we conduct operations against adversaries that 
may engage us differently than we have experienced in the past.
    MC 02 focused on the value of effects-based operations (EBO), as 
employed by a Joint Task Force (JTF) headquarters, built around the 
U.S. Army's III Corps staff (with service augmentation), enabled by a 
core Standing Joint Force Headquarters, informed by an operational net 
assessment, and executed through functional components using a robust 
collaborative information environment. The results of MC 02 are already 
driving future transformation efforts while providing immediate benefit 
to current operational warfighting requirements. Today, elements of 
several concepts, tools, and training resulting from the experiment are 
in use in Operation Enduring Freedom.
    MC 02 resulted from a deliberate and comprehensive process that 
comprised numerous concept development workshops, wargames, and limited 
objective experiments that involved combatant command, service, 
defense, and interagency partners. MC 02 execution included several 
``spiral development'' events integrated with the necessary technical 
architecture. These included the confederation of over 42 models and 
simulations, training the experimental audience in the required 
concepts, tactics, techniques, procedures and tools, and enabling 
planning for the execution of military operations against a realistic, 
complex scenario that could confront the U.S. in the future.
    MC 02 featured both live field exercises and computer simulation, 
and incorporated elements of all military services, U.S. Special 
Operations Command, U.S. Transportation Command, U.S. Space Command, 
and other DOD organizations and federal agencies. The uniformed service 
participants involved elements representative of their future force 
concepts such as the Air Force's Expeditionary Aerospace Force 
construct, the Army's medium-weight brigades, the Navy's ``Forward From 
the Sea'' vision, and the Marine's Expeditionary Maneuver Warfare.
    Over 13,500 soldiers, sailors, airmen, marines, and members of the 
interagency community participated in the joint integrated experiment 
that employed simulated and live forces nationwide in 8 live-force 
training locations and 17 simulation locations.
    MC 02 was a key milestone in the transformation of our Armed 
Forces. We are determined to create a joint force that is 
interoperable, responsive, agile, precise, and lethal, fully 
capitalizing on the information revolution and advanced technologies 
available today. Joint experimentation fosters an operational, 
decisionmaking culture in the defense of our Nation by exploring the 
threats of tomorrow, today. The basic premise is that decisions on 
future military doctrine, organization or technology should be based on 
solid empirical results. National defense transformation begins with 
aggressively setting the joint context for concept development and 
robust joint experimentation. MC 02 supports the Defense Department's 
six key transformational goals while meeting current operational 
demands and has established a firm foundation for future 
transformational efforts.

    12. Senator Bunning. Admiral Giambastiani, what lessons do you 
think will come out of Millennium Challenge?
    Admiral Giambastiani. Assessment, continuous since Millennium 
Challenge ended in August, indicates that many concepts, capabilities, 
and insights show promise for the joint force. This analysis has led to 
a number of capability recommendations to the Joint Requirements 
Oversight Council and the need for further experimentation. Details are 
provided in JFCOM's report to Congress on experimentation, now in final 
review. That report includes a number of preliminary conclusions:

        <bullet> The Standing Joint Force Headquarters (SJFHQ), the 
        standards-based C2 organization necessary to enable the rapid 
        establishment of a JTF headquarters, is the essential enabler 
        of rapid, flexible, and decisive crisis response. The value of 
        the SJFHQ has been confirmed; its form and function require 
        further development and will be the subject of a number of 
        follow-on limited objective experiments and refinement events.
        <bullet> The operational net assessment, a comprehensive system 
        of systems analysis (political, military, economic social, 
        information, infrastructure, etc.) of the enemy, the region, 
        and ourselves, showed potential to provide actionable knowledge 
        to the commander. This concept will be further refined through 
        additional development and experimentation.
        <bullet> Effects-based operations, employing all elements of 
        national power in a coherent and integratedmanner to ensure the 
        right capability is employed at the right place and time, is 
        the core of an overarching joint warfighting concept to 
        transform the art and science of 21st century warfare. This 
        concept, which includes effects based planning, execution, and 
        assessment processes, showed promise and will be further 
        developed in the coming months.
        <bullet> A collaborative information environment is a powerful 
        enabler for rapid planning, decisionmaking and execution and 
        the resulting commander-centric process enhances unity of 
        command and effort. Follow-on experimentation, including 
        computer network attack are required.
        <bullet> The Joint Interagency Coordination Group provided a 
        critical link between policy, theater strategic, operational, 
        and tactical actions. This concept is currently in practice in 
        CENTCOM and PACOM and was refined during MC 02.
        <bullet> The need for the near simultaneous deployment and 
        employment of forces and the need to protect those forces was 
        again reinforced in MC 02.

    In addition to these valuable emerging joint insights, MC 02 
provided insights into the formation of a Joint National Training 
Capability (JNTC). A live, virtual, and constructive training center of 
centers would provide the critical enabler to integrate joint and 
service training that secures essential service core competencies while 
ensuring we train as we will fight. JFCOM will vigorously pursue this 
capability.

                       joint operating capability
    13. Senator Bunning. Admiral Giambastiani, how do you plan to 
increase the joint operating capability of our Armed Forces?
    Admiral Giambastiani. It starts with the command's mission 
statement: U.S. Joint Forces Command maximizes the Nation's future and 
present military capabilities by leading the transformation of joint 
forces, through joint concept development and experimentation, 
identifying joint requirements, advancing interoperability, conducting 
joint training, and providing ready forces and capabilities--all in 
support of the combatant commands.
    From here, as examples, we are placing increased emphasis on 
organizing, training, and equipping Joint Task Force headquarters, 
creating the Standing Joint Force Headquarters as a ``core'' element on 
which to build future Joint Task Force headquarters, and Joint Battle 
Management Command and Control.

                             transformation
    14. Senator Bunning. Admiral Giambastiani, how can JFCOM encourage 
the transformation of our Armed Forces?
    Admiral Giambastiani. Joint Forces Command (JFCOM) influences and 
encourages transformation in multiple ways. JFCOM collects, controls, 
and recommends new warfighting capabilities through the combatant 
commander's integrated priority list. One of the new qualifying 
requirements and criteria to be rated high on this list must be a 
demonstrated and proven capability that the requested issue is truly 
transformational in nature, not just continued support of existing 
requirements. JFCOM exercises its advisory role on the JROC to be the 
advocate for joint interoperability and transformation to lend priority 
to the transformational capabilities of new warfighting requirements 
and capabilities. Recommendations for continuation of ongoing 
developmental programs, or initiation of new programs, will be granted 
withheld depending on level of support to DOD's transformational goals.
    As currently tasked, the command can influence transformation in 
the following ways through our four Unified Command Plan-designated 
mission areas:

        <bullet> Joint Force Concept development and experimentation: 
        Rapidly implement actionable findings from Millennium Challenge 
        2002 and aggressively refine and develop those promising 
        concepts and capabilities requiring greater maturity; fully 
        develop and fund the Standing Joint Force Headquarters, enabled 
        by effects-based operations, operational net assessment, and 
        deployable Joint Command and Control; support the CJCS by 
        developing an overarching joint operational concept to shape 
        out/year requirements and development; and continue the 
        development of new joint operational concepts supported by an 
        aggressive DOD-wide joint experimentation program.
        <bullet> Joint Force integrator: Rapidly process change 
        recommendations emerging from MC 02 and submit them to the 
        Joint Requirements Oversight Council. Moreover, JFCOM will 
        stand-up an interoperability technology demonstration center to 
        facilitate near-term transformation.
        <bullet> Joint Force provider: Provide highly-trained and fully 
        integrated joint capable forces and joint force capabilities as 
        a foundation for both current readiness and future 
        transformation.
        <bullet> Joint Force trainer: Stand-up Joint National Training 
        Center to integrate service and joint training through a 
        global, live, virtual, and constructive environment to improve 
        warfighting capabilities and enhance jointness; provide joint 
        exercises as an integration venue for new joint capabilities; 
        and integrate promising experimentation insights and 
        operational lessons learned into training and education venues.
                                 ______
                                 
    [The nomination reference of Vice Adm. Edmund P. 
Giambastiani, USN, follows:]
                    Nomination Reference and Report
                           As in Executive Session,
                               Senate of the United States,
                                                     June 27, 2002.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Navy to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To Be Admiral

    Vice Adm. Edmund P. Giambastiani, Jr., 0000.
                                 ______
                                 
    [The biographical sketch of Vice Adm. Edmund P. 
Giambastiani, Jr., USN, which was transmitted to the committee 
at the time the nomination was referred, follows:]
                                ------                                


   Resume of Career Service of Vice Adm. Edmund P. Giambastiani, Jr.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                ------                                

                        Office of the Secretary of Defense,
                                     Washington, DC, June 27, 2002.
Hon. Carl Levin, Chairman,
Senate Armed Services Committee,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Commander, United States Joint Forces 
Command. It supplements Standard Form 278, ``Executive Personnel 
Financial Disclosure Report,'' which has already been provided to the 
committee and which summarizes my financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my Standard Form 278 will create any conflict of interest in the 
execution of my new governmental responsibilities. Additionally, I have 
no other interests or liabilities in any amount with any firm or 
organization that is a Department of Defense contractor.
    During my term of office, neither I nor any member of my immediate 
family will invest in any entity that would create a conflict of 
interest with my government duties. I do not have any present 
employment arrangements with any entity other than the Department of 
Defense and have no formal or informal understandings concerning any 
further employment with any entity.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation.
    I trust that the foregoing information will be satisfactory to the 
committee.
            Sincerely,
                               Edmund P. Giambastiani, Jr.,
                                           Vice Admiral, U.S. Navy.
                                 ______
                                 
    The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Vice Adm. 
Edmund P. Giambastiani, Jr., USN, in connection with his 
nomination follows:
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Edmund P. Giambastiani, Jr. (Ed).

    2. Position to which nominated:
    Commander, United States Joint Forces Command.

    3. Date of nomination:
    June 27, 2002.

    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)
    The nominee responded and the information is contained in the 
committee's executive files.

    5. Date and place of birth:
    May 4, 1948; Canastota, NY.

    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)
    Married--Cynthia Ann Giambastiani (maiden name--Johnson)

    7. Names and ages of children: (If applicable)
    LTJG Edmund Peter Giambastiani III, USN; Age: 24.
    Catherine Ann Giambastiani; Age: 21.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Life Member--U.S. Naval Institute
    Life Member--Naval Submarine League
    Life Member--U.S. Naval Academy Alumni Association
    Member--The Reserve Officer Association (TROA)
    Member--Military Order of the Caraboa
    Member--AARP

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognition's for 
outstanding service or achievements other than those listed on the 
service record extract provided to the committee by the executive 
branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
of Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                     Edmund Peter Giambastiani, Jr.
    This 27th day of June 2002.
                                 ______
                                 
    [The nomination of Vice Adm. Edmund P. Giambastiani, Jr., 
USN, was reported to the Senate by Chairman Levin on July 31, 
2002, with the recommendation that the nomination be confirmed. 
The nomination was confirmed by the Senate on July 31, 2002.]







NOMINATIONS OF GEN. JAMES L. JONES, JR., USMC, FOR REAPPOINTMENT TO THE 
 GRADE OF GENERAL AND TO BE COMMANDER, UNITED STATES EUROPEAN COMMAND 
 AND SUPREME ALLIED COMMANDER, EUROPE; ADM. JAMES O. ELLIS, JR., USN, 
 FOR REAPPOINTMENT TO THE GRADE OF ADMIRAL AND TO BE COMMANDER, UNITED 
    STATES STRATEGIC COMMAND; LT. GEN. MICHAEL W. HAGEE, USMC, FOR 
APPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDANT OF THE MARINE 
  CORPS; CHARLES S. ABELL TO BE DEPUTY UNDER SECRETARY OF DEFENSE FOR 
 PERSONNEL AND READINESS; REAR ADM. THOMAS F. HALL, USN (RET.), TO BE 
  ASSISTANT SECRETARY OF DEFENSE FOR RESERVE AFFAIRS; AND CHARLES E. 
  ERDMANN TO BE A JUDGE OF THE UNITED STATES COURT OF APPEALS FOR THE 
                              ARMED FORCES

                              ----------                              


                       FRIDAY, SEPTEMBER 27, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:06 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Ben Nelson, 
Warner, Inhofe, Hutchison, and Burns.
    Committee staff members present: David S. Lyles, staff 
director; Gabriella Eisen, nominations clerk.
    Majority staff members present: Peter K. Levine, general 
counsel; Richard D. DeBobes and Gerald J. Leeling, counsel; 
Creighton Greene, Maren Leed, and Michael McCord, professional 
staff members.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; L. David Cherington, Scott W. 
Stucky, and Richard F. Walsh, minority counsel; Edward H. Edens 
IV, Brian R. Green, Gary M. Hall, Carolyn M. Hanna, Mary Alice 
A. Hayward, Ambrose R. Hock, George W. Lauffer, Patricia L. 
Lewis, Thomas L. MacKenzie, and Joseph T. Sixeas, professional 
staff members.
    Staff assistants present: Dara R. Alpert, Daniel K. 
Goldsmith, and Nicholas W. West.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Marshall A. Hevron and Jeffrey 
S. Wiener, assistants to Senator Landrieu; William K. Sutey, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator Ben Nelson; Benjamin L. Cassidy, assistant to Senator 
Warner; J. Mark Powers and John A. Bonsell, assistants to 
Senator Inhofe; Robert Alan McCurry, assistant to Senator 
Roberts; Douglas Flanders and Lance Landry, assistants to 
Senator Allard; James P. Dohoney, Jr. and Michele A. 
Traficante, assistants to Senator Hutchinson; Arch Galloway II, 
assistant to Senator Sessions; Kristine Fauser, assistant to 
Senator Collins; and Derek Maurer, assistant to Senator 
Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning everybody. The committee meets 
today to consider six important senior military and civilian 
nominations. We will do this in two panels.
    On the first panel the committee will consider the 
nominations of General James L. Jones, Jr., United States 
Marine Corps, to be Commander, United States European Command, 
and Supreme Allied Commander, Europe; Admiral James O. Ellis, 
Jr., United States Navy, to be Commander, United States 
Strategic Command; and Lieutenant General Michael W. Hagee, 
United States Marine Corps, to be the new Commandant of the 
Marine Corps.
    Admiral Ellis currently serves as the Commander of the 
United States Strategic Command, a command that will inactivate 
next week. It will be replaced by a new United States Strategic 
Command and will combine the functions of the current Strategic 
Command with the United States Space Command. Admiral Ellis has 
been nominated by the President to head the new Strategic 
Command.
    General Jones is well known to us as the current Commandant 
of the Marine Corps, where he has served our Nation and the 
Marine Corps with such great distinction. Some of us even 
remember when he had an office in the basement of the Russell 
Senate Office Building as a colonel, as head of the Marine 
Corps liaison office for the Senate.
    I understand that General Jones is a first in the history 
of the United States Marine Corps. He is the first Commandant 
to go from the position of Commandant to another senior 
military position, and I think that most marines, General, 
probably think that you are being demoted. [Laughter.]
    General Hagee currently serves as the Commanding General, 
First Marine Expeditionary Force. General Hagee has commanded 
marines at all levels, so he knows the Marine Corps very well. 
Sitting on the same panel with the current Commandant, General 
Hagee may find himself in a very interesting predicament if we 
ask him the right questions, which we intend to do. [Laughter.]
    On behalf of the entire committee, I would like to welcome 
each of you and your families to our Armed Services Committee. 
You are very familiar with all of us, I believe personally and 
as a committee. I want to thank each of your family members in 
advance for the sacrifices that they will be asked to make. You 
each have a long record of public service, so your families 
have some idea of what they're in for. Certainly the members of 
this committee know the strains that public service can put on 
normal family life and none of our nominees would be able to 
serve in these positions without the full support of their 
families. We want to thank you and them in advance for the 
hardships that they and you will put up with during your 
service.
    Admiral Ellis, I understand that your father passed away. 
You have the sympathies and the condolences of every member of 
this committee, and I know this is a very difficult time for 
you personally.
    Admiral Ellis. Thank you, sir.
    Chairman Levin. We have a tradition in the committee of 
asking our nominees to introduce family members who are present 
and I'm going to ask you to do that when we get to your 
statements. I'm going to ask you, though, just to withhold that 
for a minute because we have some pressing scheduling needs of 
a number of our members.
    I'm going to ask the first two of our colleagues to make 
introductions. I see that Senator Hutchison is here. Senator 
Inhofe also wants to make an introduction, and then I am going 
to call on Senator Ben Nelson, who has to catch a plane, to ask 
some questions even before you are able to make your statement. 
This is all in an effort to work around these scheduling 
difficulties.
    So let me start with--I don't know who has a more difficult 
schedule here--whether it's Senator Inhofe or Senator 
Hutchison.
    I am going to recognize Senator Warner first. Let me ask 
the two of you if you can decide who has a more pressing 
schedule.
    Senator Inhofe. I would like for Senator Hutchison to 
proceed, I'm not in that big of a hurry. I'm looking forward to 
introducing Admiral Hall, who is a very close personal friend, 
but that can come later.
    Chairman Levin. Right. Let me first call on Senator Warner. 
As always, that comes first.
    Senator Warner. I suggest maybe I follow my colleagues 
here.
    Chairman Levin. Let's do it that way then.
    Senator Hutchison.

STATEMENT OF HON. KAY BAILEY HUTCHISON, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Hutchison. Thank you very much, Mr. Chairman, and 
thank you, Senator Warner.
    I am so pleased to be here today to introduce General 
Michael Hagee to the committee to be the nominee for the 
Commandant of the Marine Corps. I agree with Senator Levin that 
for marines, that is the very highest post in the entire career 
of a United States Marine.
    My friend and colleague Phil Gramm was unable to be here 
but he joins me in extending his strong support of General 
Hagee's nomination.
    Before I begin, I do want to say how pleased I am with both 
of the other nominees for confirmation today and particularly 
General Jones, who I worked with for a long time. Back when 
Bill Cohen was a United States Senator, we all went to Bosnia 
together when the Serbs were still shooting from the hills, and 
we had to exit under cover. I have watched General Jones and 
his leadership, and I couldn't be more pleased that he too is 
being promoted, or at least making a lateral transfer to 
continue the great service to our Nation.
    Admiral Ellis, your reputation is renowned in the U.S. 
Navy, and we thank you very much.
    I want to say, there is something very special about Texas 
and the Marine Corps. More marines per capita join the Corps 
from Texas than any other State in the Union, so we are 
especially proud that the Commandant is among those ranks. 
General Hagee grew up, went to junior high school and high 
school in Fredericksburg, Texas, which is also the home of 
another naval hero, Admiral Nimitz.
    General Hagee spent a year at the University of Texas at 
Austin, where he got his real world experience, and then 
attended the U.S. Naval Academy, where he graduated in 1968.
    His distinguished career in the Marine Corps has prepared 
him so well for this role. He began his service when the war in 
Vietnam was at its height. He has been successfully leading 
marines ever since. His command experiences placed him at the 
helm of a platoon, five companies, a rifle battalion, a Marine 
Expeditionary Unit, and the First Marine Expeditionary Force.
    General Hagee has also had assignments during his career in 
addition to all of those wonderful combat and leadership roles. 
He was an educator at the U.S. Naval Academy, teaching 
electrical engineering, humanities, and social science and 
character development. There he learned valuable innovation and 
human development skills that complement his vast command 
experiences.
    It is my pleasure to welcome General Hagee, introduce him 
to this committee, and certainly support his nomination fully. 
Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Hutchison.
    Senator Inhofe, I believe you are going to introduce 
Admiral Hall?
    Senator Inhofe. Yes.
    Chairman Levin. Thank you so much, Senator Hutchison. We 
appreciate you coming by.
    Senator Warner. Have a safe journey back to your family. 
You've had a long hard week. I know how hard you worked this 
week.
    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. First of all, let me tell you that 
everything that Senator Hutchison said about our nominees, I 
concur with heartily. I have had occasion to spend personal 
time with each one of them and it has been a real honor. We are 
so proud to have all of you taking the new positions that you 
will be assigned to, and I look forward to this confirmation.
    I can't beat Senator Hutchison in terms of the percentage 
of the marines that come from Oklahoma, but I will say this--
all of the field artillery training takes place at Fort Sill in 
Oklahoma.
    We are honored to have before us Rear Admiral Thomas Hall, 
who has been nominated to be the Assistant Secretary of Defense 
for Reserve Affairs. If you were to travel around the world, 
you would only find one town that has a producing oil well in 
the center of Main Street. It's Barnsdall, Oklahoma. Barnsdall, 
Oklahoma is where Tom Hall was born and where he was raised. He 
has deep roots in Oklahoma.
    I know I share him partly with you, Senator Warner, because 
he does currently live in Virginia, but his brother trained our 
K-9s when I was mayor of Tulsa, so we have a lot of ties. I 
think that Admiral Hall has received every honor you could 
receive in Oklahoma, including, of course, being in the 
Oklahoma Military Hall of Fame.
    Admiral Hall holds a masters degree from George Washington 
University. He is a distinguished graduate from the Naval War 
College and the National War College. He got his flag rank in 
1987.
    He served a number of capacities in Keflavik, Iceland, but 
he was the 22nd Commander of the Iceland Defense Force and, Mr. 
Chairman, about 10 years ago I had occasion to fly an airplane 
around the world replicating the flight of Wiley Post. I have 
to say the most enjoyable of those nights going around the 
world was the night I spent in Iceland with the hospitality of 
Admiral Hall. I thanked you for that many times, and I thank 
you again. You have a real love and devotion to service.
    Admiral Hall has received the Distinguished Service Medal, 
the Defense Superior Service Medal, and the Legion of Merit.
    I don't think there is anyone who is as qualified as he is 
with his background to serve as the Assistant Secretary of 
Defense for Reserve Affairs. He has had hands-on experience 
running the Reserves for the Navy for 10 years now, so I think 
we are all honored to have him in that capacity and I am 
looking forward to serving with Admiral Hall.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe, and thank you 
very much, Admiral.
    Now, we're going to continue to go out of order and call on 
our colleague Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and thank you, 
Senator Warner, for the courtesy this morning.
    First of all, I want to welcome and congratulate each of 
you, Generals Hagee and Jones, and Admiral Ellis. It's a 
pleasure to have military officers of your caliber and 
experience in the military to begin with, let alone taking on 
new commands, so I congratulate each of you.
    A special word for Admiral Ellis, who has had the good 
fortune of becoming a Nebraskan. There are many ways of 
becoming a Nebraskan, but one of the best ways is to be there, 
and we appreciate very much the personal relationship that we 
have been able to develop since your first assignment to 
Nebraska. Now the expansion of the command to include Space 
Command is more of an indication of your capacity than almost 
anything else, the recognition of your ability to be able to 
assume these additional responsibilities. So I congratulate you 
and I congratulate Secretary Rumsfeld and President Bush for 
their wisdom in this selection.
    As you have had the opportunity to begin the process of the 
consolidation of the missions, clearly there are challenges 
because of geography, many of which can be overcome with 
technology. I just wonder if you have found the cooperation and 
kind of resources that are necessary in order to effect this 
kind of consolidation, recognizing it's a first and that it's 
not always easy to be first, in attempting to do something of 
this nature. Can you just give us some idea of what you have 
experienced?
    Admiral Ellis. I would be glad to, Senator. The support 
that we've received in the 4 months since this announcement has 
been made of the intent to blend these two missions into a 
single new United States Strategic Command has been absolutely 
extraordinary, at every level. Clearly the support has been 
forthcoming from the Office of the Secretary of Defense and 
Chairman of the Joint Chiefs. But most importantly it has also 
been very apparent as we have worked with the men and women of 
exceptional talent who are a part of each of those commands, 
and have really risen to an increased awareness, an 
appreciation for the challenges that are going to confront us, 
and the opportunities that the blending of these two missions 
will offer to the Nation.
    So the excitement is palpable at all levels. The resources 
are beginning to flow. Obviously we've got milestones that we 
are going to be reaching over the next year as we move toward 
full operational capability, but I've been very satisfied and 
pleased with the support at all levels, and yours as well. 
Thank you, sir.
    Senator Ben Nelson. Thank you. You stand it up one day but 
it takes a long period of time to effect the success of the 
operation. Can you give us some idea what this combination will 
do to enhance our capacity to defend ourselves against those 
elements in the world that would otherwise do us in?
    Admiral Ellis. Yes, sir. I think, as you're well aware 
since we've discussed it many times, and I know the chairman 
and Senator Warner are as well, the unique characteristics of 
this command reside around the global approach to global 
challenges and global capabilities that are now ours. The 
challenges have been handed to us in some cases by others. The 
capabilities have been created by our own technologies and 
obviously in many ways, transcend the regional allocation with 
which we've historically dealt with these challenges.
    So we see a tremendous role in supporting the forward-
deployed combatant commanders, General Jones when he's 
confirmed, and all of my colleagues that are doing such great 
work for the Nation out there. We see our role as supporting 
them and providing a full range of information, intelligence, 
communications, and surveillance capabilities on a global scale 
to meet their needs as they satisfy our national security 
requirements. So we see great potential.
    The excitement that's been engendered by the creation of 
this new command has also allowed us to begin discussion and 
consideration of missions that historically have been 
unassigned. They may well too, over time, come to this new 
organizational element that we are standing up in Omaha.
    Senator Ben Nelson. I appreciate very much your willingness 
to take the assignment and the confidence that has been placed 
in you is well deserved.
    My compliments also to my friends from the Marine Corps. I 
suspect, General Jones, the transition that you are about to 
undertake will be a greater challenge for those accepting a 
marine for the first time in the position than it will be for 
you, but we wish you the very best, and full cooperation in 
every respect.
    Of course, General Hagee, in any way that we can be of 
support or assistance, obviously we stand ready to do that.
    I thank you, Mr. Chairman, and thank you, Senator Warner.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. Mr. Chairman, I'd 
like to start picking up on your heartfelt expressions to the 
families of these nominees. It has been my experience observing 
through the many years that I have been privileged to serve 
with and alongside the men and women of the Armed Forces, that 
the family unit is absolutely the base on which the individuals 
who wear the uniform are able to do so. So we thank those who 
have joined us here today.
    This is a very moving hearing for me, seeing General Jones 
here. If you will indulge me in a story, Mr. Chairman, when I 
was privileged to be elevated from Under Secretary to Secretary 
of the Navy, I elected to the astonishment of everybody, 
particularly the Secretary of Defense, to have the oath of 
office not on the parade grounds of the Pentagon, but at 8th 
and I, as a modest way of showing my appreciation for all the 
marines did for me to form me as an individual and enable me to 
take on responsibilities in life. That was something of an 
uneventful event but it went off quite well, as everything does 
at 8th and I.
    Years later then-Major Jones appeared at the Senate, only 
to tell me that he was the captain that marched the troops in 
review the day I took the oath of office, as a young captain. 
So, we bonded by eye contact as far back as 1972, and then had 
the most remarkable and warm friendship, sharing from the 
depths of our own hearts and experience our views about the 
security of our Nation and particularly the men and women who 
serve in the Marine Corps and other services. So I commend you, 
General.
    I guess I have to also say that he's going to Europe, which 
has a very special part in this officer's background, having 
spent much of his early childhood and formative years there. 
The marines came into their own in the Battle of Belieu Wood, 
and he has visited that hallowed ground, as I have, and I hope 
maybe to accompany you back to that ground some day.
    General Jones. It would be a great honor.
    Senator Warner. My father served in World War I as an Army 
doctor and cared for the wounded during that engagement.
    Admiral Ellis told me something that's very amusing. We 
likewise had a wonderful relationship. I remember visiting with 
him when he was the NATO South Commander and in the final days 
of that conflict, he and General Clark--what was the name of 
that British General, Jackson?
    Admiral Ellis. Myrick Jackson, sir.
    Senator Warner. But Admiral Ellis advises me that he has 
been before the committee five times in the last 9 months. It's 
rather like schoolmasters bringing in the recalcitrant students 
to check them out; I think that is a record for anyone coming 
up for confirmation before the Senate Armed Services Committee. 
But you have a distinguished career and we are thankful that 
you're taking on, together with your family, these added 
responsibilities so important today.
    General Hagee, while we're just getting to know one 
another, I wish you well. We here on the committee are very 
proud of you and the President's selection of each of you for 
these positions, and I know you will do quite well.
    You bring a technological background to this post at a time 
when our Armed Forces are transforming into the highest 
technological capability they can achieve, and you will be on 
the forefront of that.
    So I welcome all of you today and your families. Thank you, 
Mr. Chairman. I will put my statement in the record.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
                              first panel
    Thank you, Senator Levin.
    I join you in welcoming General Jones, Admiral Ellis, Lieutenant 
General Hagee and their families. Gentlemen, congratulations to you and 
your families on your nomination.
    General Jones, I commend you on your superb service as the 32nd 
Commandant. We have been friends for years--since your days years ago 
as a major and lieutenant colonel in the Marine Corps Senate Liaison 
Office in the Russell Building. We have all followed your remarkable 
career with great pride. The Marine Corps under your leadership, 
throughout Operation Enduring Freedom and in our national response to 
the global war on terrorism, has only enhanced its reputation. I was 
most pleased that the President selected you as his nominee to be 
Commander in Chief, United States European Command and Supreme Allied 
Commander, Europe. It is a milestone for the Marine Corps, and it is a 
position that will draw upon your extraordinary military career and 
your unique familiarity with Europe and our NATO allies. You have my 
support for this important billet.
    Admiral Ellis, we welcome you back to the Senate. There is no 
question that the new Strategic Command--formed from the merger of the 
United States Strategic Command and United States Space Command--will 
pose significant challenges and require the leadership skills you have 
already demonstrated. You have performed superbly in your present 
capacity, and I anticipate that you will continue to excel in this new 
organization.
    General Hagee, welcome. You have had a most impressive array of 
assignments leading up to this hearing, and you are uniquely well 
qualified to serve as the 33rd Commandant of the Marine Corps. Your 
headquarters experience in United States European Command as Deputy 
Director for Operations; in the United States Pacific Command as 
Director for Strategic Plans and Policies; with the CIA as Military 
Assistant to the Director; and in OSD and Headquarters, Marine Corps, 
will serve you well.
    Your operational experience--starting with your combat service in 
Vietnam as a platoon and company commander--and culminating in your 
present assignment as Commanding General of the First Marine 
Expeditionary Force--clearly indicates you have earned the privilege of 
commanding marines. Following in the footsteps of General Jones will 
not be easy. But I assess that you are up to the task.
    We are fortunate as a nation that the President has nominated such 
extraordinarily well qualified individuals for these important 
assignments. You have my support.
                              second panel
    Secretary Abell, welcome back to the Senate. It is always a 
pleasure to see you and your talented wife, Cathy. I compliment you on 
the initiatives you have taken in your present position as Assistant 
Secretary of Defense for Force Management Policy. The pay raises the 
administration has proposed, particularly for our experienced mid-grade 
officers and enlisted personnel, have contributed to unprecedented 
retention statistics. The ideas and energy you have brought to the 
Department have resulted in increases in pay, compensation, and quality 
of life for those who serve our Nation in uniform. I particularly want 
to recognize you for the superb work you perform in overseeing the 
military promotion system within the Department. This committee takes 
its ``advice and consent'' role very seriously. We thank you for your 
dedicated efforts in this regard.
    Mr. Hall--Admiral Hall--welcome to you and your wife, Barbara. You 
had an impressive career on active duty as a naval aviator, and your 
service before retirement as the Chief of Naval Reserve laid the 
groundwork for the full integration of the Naval Reserve into the 
Navy's ``total force.'' After retirement, as Executive Director of the 
Naval Reserve Association, you have distinguished yourself as a strong, 
principled advocate for the men and women who increasingly have been 
called upon to defend this Nation.
    Mr. Erdmann, welcome to you and your wife, Renee. Thank you for 
being here today and for your continued desire to serve the Nation as a 
judge of the United States Court of Appeals for the Armed Forces. I 
note with admiration your service to the State of Montana in the fields 
of law enforcement, education, and as an Associate Justice of the 
Montana Supreme Court. Add to that your active duty military service in 
the late 1960s as an enlisted marine, your 20 years of subsequent 
service with the Air National Guard as a judge advocate, and your 
recent extraordinary service assisting the High Representative in 
Bosnia and Herzegovina in implementing judicial and election reform, 
and it is difficult to imagine a more qualified individual for this 
important judicial post.
    I thank all of you for your willingness to serve.

    Chairman Levin. Thank you so much, Senator Warner.
    Our nominees have all responded to the committee's 
prehearing policy questions, and our standard questionnaire. 
These responses will be made part of the record. The committee 
has also received the required paperwork on each of the 
nominees and we will be reviewing that paperwork to make sure 
it's in accordance with the committee's requirements.
    In response to advance policy questions you have agreed to 
appear as a witness before congressional committees when 
called, and to insure that briefings, testimony and other 
communications are provided to Congress.
    Before we begin our first round of questions, there are 
several standard questions that we ask every nominee who 
appears before the committee. I would appreciate your answers 
for the record on each of them.
    Have you adhered to applicable laws and regulations 
governing conflict of interest?
    Admiral Ellis. I have, sir.
    General Jones. Yes, sir.
    General Hagee. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Admiral Ellis. No, sir, I have not.
    General Jones. No, sir.
    General Hagee. No, sir.
    Chairman Levin. Will you ensure the Department complies 
with deadlines established for requested communications, 
including prepared testimony and questions for the record in 
hearings?
    Admiral Ellis. Yes, sir, I will.
    General Jones. Yes, sir.
    General Hagee. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Admiral Ellis. Yes, sir, I will.
    General Jones. Yes, sir.
    General Hagee. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony?
    Admiral Ellis. Yes, sir.
    General Jones. Absolutely.
    General Hagee. Yes, sir.
    Chairman Levin. Okay. Let me call upon each of you for any 
opening statement that you might wish to make, and please 
introduce your family members to us.
    Admiral Ellis.

    STATEMENT OF ADM. JAMES O. ELLIS, JR., USN, NOMINEE FOR 
  REAPPOINTMENT TO THE GRADE OF ADMIRAL AND TO BE COMMANDER, 
                UNITED STATES STRATEGIC COMMAND

    Admiral Ellis. Thank you, Senator. Mr. Chairman, Senator 
Warner and distinguished members of the committee, it's an 
honor and a privilege to once again appear before you today as 
the nominee for the position of Commander of the new United 
States Strategic Command.
    As you've noted, Senator, it was almost 1 year ago to the 
day that I appeared before you under what are seemingly similar 
circumstances, but as in so many other events of the past year, 
what a difference a year makes.
    I am profoundly grateful to the Secretary and the President 
for nominating me to take the helm of this truly historic and 
transformational command. As many of you know, I rarely use the 
word transformational, my view being that if you must continue 
to remind people that something is transformational, perhaps it 
is not. But in this case I am absolutely convinced that the 
creation of this command provides a unique opportunity to 
literally redefine how our military will organize, plan, 
support, and execute operations across the full spectrum of 
global challenge now and well into the 21st century.
    The concept of merging the United States Space and United 
States Strategic Commands has been proposed and studied several 
times over the last decade, but it could not be executed. Now, 
however, not only are the conditions right, but the rationale 
is compelling. We are in an era of new adversaries presenting 
us with global challenges, and new types of warfare and 
capabilities are emerging which transcend regional boundaries. 
Now more than ever, it is imperative that we make substantive, 
innovative and forward-looking changes in how we organize and 
operate in peace, crisis and conflict.
    The efforts that are being undertaken in Omaha are far more 
than a simple headquarters merger. In fact, as you have noted, 
Mr. Chairman, on the 1st of October, the United States will 
officially disestablish the current United States Space Command 
and the United States Strategic Command and create in their 
place an entirely new combatant command effectively redefining 
the term strategic.
    It is true that the command will inherit the important 
missions with which you are so familiar and which have been so 
ably performed by the talented professionals assigned to those 
two commands over decades. But we will perform them with a new 
focus and a new perspective--that of a global warfighter, 
organized, resourced, and ready to more fully operationalize 
and integrate the missions of space, computer network 
operations, rigorous strategic planning, and rapid execution of 
global operations.
    We will stand ready to take on new missions as the needs of 
the Nation may, and likely will require, while retaining the 
rigorous, exacting and responsive oversight of the Nation's 
nuclear forces.
    To accomplish all of this, the command will organize in 
entirely new ways, shedding the constraints of traditional and 
often stovepiped organizational structures and developing 
innovative, flexible, and efficient cross-cultural teams of 
highly trained professionals that can meet the fast-paced and 
often challenging and changing requirements of the 21st 
century.
    Additionally, new relationships will be developed with the 
service component commands, as well as with defense and space 
agencies, to better respond to our Nation's needs.
    If confirmed, I commit to working closely with the broader 
space community, spanning government and industry, to insure we 
remove barriers and continue the growth in intellectual capital 
and warfighting capabilities that has occurred under the 
stewardship of the United States Space Command. We are the 
world's preeminent space faring nation and I am committed to 
insuring we retain and advance that position.
    I also commit to you that if confirmed to lead this 
visionary command, I will add all of my energies to those of 
the incredibly talented men and women of the current United 
States Space and United States Strategic Commands, and will be 
honored to work with this committee to meet the many challenges 
and pursue the many opportunities that lie ahead.
    I thank you for your past confidence and support and look 
forward to your questions, Mr. Chairman.
    Chairman Levin. Thank you, Admiral Ellis. Are you 
accompanied by any family members today?
    Admiral Ellis. I am not, sir. My wife is unable to be here. 
My son is an Army Ranger with the 2nd Ranger Battalion, and is 
on 1-hour alert and is not here, and my daughter and her 
husband live in California, but none of them could join us 
today.
    Chairman Levin. We know how much they are with you in 
spirit.
    General Jones.

   STATEMENT OF GEN. JAMES L. JONES, JR., USMC, NOMINEE FOR 
  REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDER, 
 UNITED STATES EUROPEAN COMMAND AND SUPREME ALLIED COMMANDER, 
                             EUROPE

    General Jones. Thank you, Mr. Chairman. It is a great honor 
to be here, and I do have some family that I'm very proud of 
and would like to take just a few minutes to introduce, if I 
might.
    First my mother, Charlotte Jones, who is here, lives in 
Virginia. My father passed away in 1986, but he was a 
distinguished marine in World War II and was one of the 
founders of Marine Corps reconnaissance, and participated in 
many reconnaissance missions from submarines, on rubber boats 
in many of the island campaigns. I am very happy that my mother 
is here, and I am deeply appreciative of the education and 
experiences that she has provided and the guidance and the 
leadership in my formative days in Europe and throughout my 
life. So Mom, thanks for being here.
    My son Jim and my daughter-in-law Stacy are here.
    Senator Inhofe. Why don't you have them stand up so we know 
who they are.
    General Jones. My mother. My son Jim and his wife Stacy 
have just presented us with a grandson 3 months ago. Thank you 
very much.
    My Aunt Charlotte.
    Chairman Levin. We will exchange pictures later on. 
[Laughter.]
    General Jones. Another future marine, I might add.
    My Aunt Charlotte, who is the spouse of the late Lieutenant 
General William K. Jones, who was one of the giants of the 
Marine Corps, having fought in three wars, World War II, Korea 
and Vietnam. Their son, Lieutenant Colonel William K. Jones, 
United States Marine Corps Retired, is here as well. Bill, will 
you please stand? Thank you.
    I am also very honored to be flanked by Jim Ellis and Mike 
Hagee. Many of the committee staff will recall that Admiral 
Ellis also served, we served alongside each other in the Navy-
Marine Corps Senate Liaison Office many years ago in the early 
1980s. Admiral Ellis was a lieutenant commander, I think, and I 
was a major when I first arrived over here, and here we are 
some few years later.
    Senator Warner. Must be a pretty good job.
    Chairman Levin. I wouldn't want to have to deal with us, 
I'll tell you that.
    General Jones. The Admiral and I are going to co-author a 
book, and I'm sure you will be interested. [Laughter.]
    It's also my great honor to be seated next to the 33rd 
Commandant of the United States Marine Corps, once confirmed. 
Mike Hagee is an absolutely wonderful nominee. He and his wife 
Silka have meant so much to the leadership of the Marine Corps 
already and under his leadership as the 33rd Commandant, they 
will take the Marine Corps deeper into the 21st century and 
make it even better than it is today. Mike, it's a great honor 
to be here with you, and congratulations.
    Mr. Chairman, I am deeply honored by this nomination. As 
you pointed out earlier in your remarks, I had no anticipation 
that I would be asked to do anything beyond being the 32nd 
Commandant, and that would have been more than enough to 
satisfy any ambition that I had whatsoever, never having 
expected that honor just 3 years ago.
    However, the opportunity to make a further contribution in 
what I consider to be still our most important alliance in a 
very important part of the world that is dynamic and changing 
almost every day is absolutely a challenge that I welcome and 
that I am deeply humbled by, and I will certainly attempt to do 
my very best.
    I spent 15 of my formative years in Europe and I was 
privileged to return there on occasion for different 
assignments as the J-3 of the U.S. European Command, and as a 
commander of the 24th Marine Expeditionary Unit during the 
Kurdish relief operation, where I believe we met each other in 
northern Iraq. So the opportunity to continue in uniform and to 
try to make a difference and to represent my country as the 
Commander of U.S. European Forces and as the Supreme Commander 
of Allied Forces in Europe is a great honor.
    It comes at a difficult time. It comes at a moment where 
the global war on terrorism has made a difference not only in 
our Nation but in the nations around the world. It comes at a 
time when NATO is in fact expanding, which will represent some 
challenges, but also some opportunities. It comes at a time 
when we are trying to make our forces and the forces of our 
allies more responsive. It comes at a time when we need to look 
to see if the 20th century models aren't in need of some 
readjustment to make ourselves more efficient not only in the 
utilization of our resources but in the way we carry out our 
missions.
    It comes at a time when the leadership of America is 
particularly important to make sure that the world continues on 
in its quest for peace, its quest for providing opportunities 
for women and children and families all over the world. This is 
still a dangerous environment and it's one in which we can make 
great contributions. If confirmed, I look forward to being able 
to try to move the ball forward and advance the causes for 
which our country stands and for the last 50 or 60 years since 
the end of World War II have made such a dramatic contribution 
to the peace and stability that exists worldwide, and in the 
very important European theater and the trans-Atlantic 
partnership that I know we all still believe in deeply.
    Thank you very much for the opportunity to be here and I 
look forward to answering your questions.
    Chairman Levin. Thank you very much, General.
    General Hagee.

   STATEMENT OF LT. GEN. MICHAEL W. HAGEE, USMC, NOMINEE FOR 
APPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDANT OF THE 
                          MARINE CORPS

    General Hagee. Mr. Chairman, Mr. Warner, other members of 
the committee, I would like to take just a moment and thank 
Senator Hutchison for her kind and gracious introduction.
    I would also like to introduce my family. First my wife of 
33 years, Silka. My son, who you can see is in the Navy, 
serving at the Naval Academy right now teaching electrical 
engineering there. My daughter Stephanie is also here.
    Senator Warner. Where did he get that idea?
    General Hagee. He didn't follow me into the Marine Corps, 
as you can see. My daughter Stephanie also lives in Annapolis 
and works for CASA, Court Appointed Special Advocates.
    Chairman Levin. Nice to have you all here.
    General Hagee. Sir, I am deeply humbled and honored to sit 
before you as the President's nominee to become the 33rd 
Commandant of the United States Marine Corps. I come from a 
naval family. My father served with distinction as a Navy chief 
during World War II. He was really the motivation that caused 
me to come into military service. I have been blessed to have 
served with some tremendous Americans and to have really found 
a career that is more a call than a profession. If confirmed, I 
would take the service chiefs' challenge of organizing, 
equipping and training the superb young men and women who are 
in your Marine Corps very seriously and it would be uppermost 
in my mind.
    I'm also honored to sit here with two superb naval officers 
who have served our Nation with dedication and class. Sir, I 
look forward to your questions.
    Chairman Levin. Thank you very much, General.
    Admiral Ellis, let me start off with you. The December 2001 
Nuclear Posture Review adopted a new concept of a triad that is 
much broader than the old triad concept that dealt with air, 
sea, and land delivery capabilities for nuclear weapons. The 
new triad concept is not limited to nuclear weapons and 
delivery systems. My first question is, does the Nuclear 
Posture Review and this new triad concept mean a different role 
for the Strategic Command?
    Admiral Ellis. Senator, that's an excellent point and I 
think you have keyed in on a number of the elements that are 
addressed as part of this new organizational alignment. As you 
recall, the three elements that are part of the so-called new 
triad are obviously the kinetic piece, the nuclear, and the 
advanced conventional and non-kinetic options that you 
addressed for the first time. As part of that, we have been 
instructed to consider how to fold those new capabilities into 
the Nation's strategic war plan.
    There is also a defensive aspect to it that missile defense 
and other capabilities deliver, and the final leg of that new 
triad, as you recall, is the more responsive infrastructure.
    A key piece of that as well was the knitting together of 
those three elements by more robust command and control 
communications systems, planning systems, more responsive 
capabilities, and the like. Indeed, this new command is focused 
on all of those DOD elements that have been identified as 
essential to redefining and strengthening the Nation's 
deterrent capability for the years ahead.
    Chairman Levin. Does the new Strategic Command take on war 
planning and targeting for strategic use of nuclear and 
conventional weapons?
    Admiral Ellis. The planning responsibility that has 
historically been ours in support of the Nation's strategic war 
plans will remain. It is also anticipated that we will blend in 
the appropriate planning required to support the conventional 
and other capabilities that will be part of our Nation's 
strategic concepts as well.
    Chairman Levin. How does that role then get coordinated 
with the regional and the other commanders?
    Admiral Ellis. It's going to require, and we have already 
begun, a very robust dialog and interaction with the regional 
combatant commanders. As I said in my opening statement, many 
times we will be in support of their efforts and needs as they, 
at the tip of the spear, deal with the challenges that 
inevitably confront them in the far corners of the world. So we 
will expand on the already robust interaction, link ourselves 
electronically with forward deployed elements, expanding on the 
space and information operations elements and the planning 
cells that we routinely dispatch to their headquarters under 
the current construct to support their planning and integration 
needs.
    Chairman Levin. Steps have recently been taken to reduce 
the number of operationally deployed nuclear weapons. Agreement 
has been reached on that. What are the next steps in your 
judgment that can be taken to reduce the total number of 
nuclear weapons in the stockpile?
    Admiral Ellis. The President has set as a goal, which we 
fully support, of reaching the lowest level of operationally 
deployed strategic nuclear warheads consistent with the 
Nation's national security needs. We have set as a goal over 
the next decade under the Nuclear Posture Review, reduction to 
between 1,700 and 2,200. We are in the process of establishing 
interim milestones along that glide slope and defining the 
final stockpile composition that will be required.
    As you and I discussed before, it's important that the 
stockpile numbers that we arrive at are reliable and fully 
supportive across the full range of potential reliability and 
sustainability issues that are so important for maintaining 
that credible deterrent. Those pieces of analysis will evolve 
as studies continue over the next year.
    Chairman Levin. Will that include the reduction, or 
potential reductions, in the number of weapons in the stockpile 
as well as the number that are operationally deployed?
    Admiral Ellis. Yes, sir. The final stockpile number, as 
you're well aware, required to support the operationally 
deployed levels will be assessed and refined as the details of 
the Nuclear Posture Review are translated and implemented over 
the next years. Clearly, it's not our intent to maintain one 
more of those systems than is absolutely necessary for national 
security needs. But it's equally important that we not maintain 
one less than we need as well.
    Chairman Levin. What is the time line? You say years. Are 
those judgments going to be made in a matter of 1 year or 2 
years?
    Admiral Ellis. Yes, sir, I would say that's probably the 
right time frame. We have identified an interim level to 
achieve in 2007. The precise composition of the legs of the 
current triad, the ICBM, submarine launched force, and bomber 
force, their contributions will be refined and defined as we 
move beyond that. Clearly, that will drive the appropriate size 
of the stockpile. The supportability and the sustainability 
issues along with the stockpile stewardship program will define 
exactly and quantify the precise level of the stockpile.
    Chairman Levin. Thank you. General Jones, in your answer to 
one of the committee's prehearing questions, you called for the 
roles and functions of the Joint Chiefs to be reexamined and 
appropriately redefined, and made the following statement: 
``Today's JCS finds itself immersed in Title 10 
responsibilities at the expense of providing military advice on 
pressing global issues.'' It's a significant statement, and I'm 
wondering whether or not you would explain a little further in 
which Title 10 responsibilities the JCS is immersed, and who do 
you think should have the responsibility for them in lieu of 
the JCS?
    General Jones. The Title 10 responsibilities I was 
referring to are the appropriate responsibilities that are 
conferred upon service chiefs to organize, train, and equip the 
force. What has happened, I think is that over the years, as 
Goldwater-Nichols was implemented and the role of the Joint 
Staff and the Chairman and the Vice Chairman have been 
crystallized more effectively, the service chiefs have found 
the majority of their time occupied with the organize, train, 
and equip functions, with a corresponding lesser amount of time 
dedicated to participating in the day-to-day dialog of 
worldwide operations and emerging problems that should require 
a more focused attention.
    It's a question of devoting time to the issues, and I think 
part of it can be self adjusted. I see some self adjustment 
being done right now in the JCS. We find ourselves occupied 
now, obviously, with the significant importance of the 
potential crises that we deal with on a daily basis, 
particularly since the attack on our country last year, but the 
JCS now is into a more balanced division of time and labor on 
the more substantive issues.
    But in the preceding years, and I have talked about this 
with my colleagues, we agree that we have let the advisory 
nature of our major responsibilities wane just a little bit in 
favor of the understandable amount of time that it takes to 
organize training and equip the force. So I think that the 
value of the JCS serves a very useful function in providing 
advice to the Chairman, the Secretary of Defense, and to the 
President on the weighty issues of our time.
    I think it would be worthwhile to look at it to make sure 
we have the right balance in terms of how the members of the 
JCS spend their time, so that you don't get too far away from 
the issues and focused on the internal management of your own 
service at the expense of the more collegial function that the 
JCS can and should play.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Senator Inhofe has a scheduling issue, so I 
defer to him, Mr. Chairman.
    Chairman Levin. Senator Inhofe.
    Senator Inhofe. Let me first thank Senator Warner for 
helping me accommodate a little conflict I have since I won't 
be able to stay very long. Thank you, Senator Warner.
    Senator Warner. You're welcome.
    Senator Inhofe. Admiral Ellis, I was elected to the House 
in 1986. I remember when I came to Washington in January of 
1987 and the first weekend I was here, I went to the U.S.S. 
Coral Sea. I flew aboard on a COD and watched the night 
maneuvers with the fairly new FA-18s. I noticed that you were 
the first commanding officer of the Strike Fighter Squadron 
131, deploying in 1985 with the new FA-18s. I have often 
wondered if you might have been in those night maneuvers when I 
was down there.
    Admiral Ellis. I was indeed, sir.
    Senator Inhofe. Your status has always been very high, but 
it just jumped another few steps with me.
    I know that it has nothing to do with the position you will 
be assuming, but you were the Director of Operations, Plans, 
and Policies on the staff of the Commander in Chief of the U.S. 
Atlantic Fleet, so I know you dealt with training on Vieques. 
Did you ever train on Vieques?
    Admiral Ellis. Yes, sir. I oversaw all of the training, as 
you might imagine, for the Atlantic Fleet, and at that time 
Vieques was a part of that training regimen.
    Senator Inhofe. Was that a significant part of the 
training?
    Admiral Ellis. Yes, sir. I was privileged to host you a 
couple of years ago when you, at a great personal effort, made 
a trip through all of the training ranges which we had 
available in the Mediterranean and in the United Kingdom. Those 
types of facilities, particularly those in which we can bring 
together all of the naval, and that means both Navy and Marine 
Corps, combat power for integrated and joint training are 
particularly useful elements of the overall warfighting 
preparation.
    Senator Inhofe. I appreciate that, and I also appreciate 
the time that you devoted to helping me see first hand what the 
alternatives were. Something good is happening in Puerto Rico 
right now. The Navy's esteem has gone up significantly; in fact 
they're up to 50 percent now in terms of people wanting to 
support the Navy with live-fire. So we may be seeing, after we 
examine a lot of the alternatives which you, General Hagee, 
will have to be overseeing to some degree, we may want to go 
back and review that, so I appreciate your comments.
    General Hagee, in addition to that trip, a few months ago I 
went to the U.S.S. JFK, the War Air Service Program (WASP), and 
talked to Admiral Natter, the Atlantic Fleet Commander, and 
Admiral Dawson. I spent quite a bit of time with him, the 
Second Fleet Commander. I also spoke with the commander of the 
Marine Expeditionary Unit and commodore of the WASP, as well as 
the commander of the John F. Kennedy battle group, to find out 
what they thought at their hands-on level of the quality of 
training. I won't belabor this because I think we've talked 
about this often, but I remember that the commanders believe 
that live-fire training is better than inert, and I asked the 
question, if live-fire is a 10 what is inert? They all agreed 
it was about a five. Would you agree to that assessment and 
evaluation?
    General Hagee. Yes, sir. You can do a great deal with 
simulated training, but in the end you must have live-fire 
coordinated training.
    Senator Inhofe. Admiral Ellis, it was brought home to me by 
several people in different capacities in the Navy that if it's 
inert versus live, it's a totally different type of training. I 
liken this to when I was in basic training. I thought I was 
pretty good at crawling on my hands and knees under the barbed 
wire until they used live-fire over me and then it was 
different. Would you agree with that?
    Admiral Ellis. Yes, sir. The whole end-to-end system, for 
projecting combat power from our very capable aircraft carriers 
involves the buildup of live weapons, their transfer to the 
flight deck, and a very rigorous and precise loading evolution. 
The rules are different, as you might expect, with live 
ordnance than they are with inert. The procedures are different 
and as General Hagee has noted, in the final analysis, before 
you can certify these forces, live training is essential.
    Senator Inhofe. Vieques is the only range on the east coast 
where naval gunfire qualification can take place right now.
    Admiral Ellis. Yes, sir.
    Senator Inhofe. General Hagee, I look forward to working 
with you. I know I don't have to ask the question. I know that 
you will show the same amount of courage in facing these tough 
issues as General Jones did. I look forward to working with you 
on assuring that we have the very best training for these 
people that we send into combat environments. It will be a 
privilege working with all three of you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Warner.
    Senator Warner. Thank you very much.
    General Jones, I want to follow up on Chairman Levin's 
comment with regard to your response. We're glad that you made 
that response, because our committee, Senator Levin, and I have 
been thinking about what reviews we should make of Goldwater-
Nichols, and the American public think that you as a member of 
the chiefs and having risen through your respective service to 
the top post, are drawing on that vast experience, of course 
with Title 10, but to advise the chairman and to advise the 
President, and to counsel with Congress.
    Did the language of Goldwater-Nichols precipitate this or 
centralize so much of the responsibility with the Chairman and 
the Vice Chairman that somehow the other members, their load on 
the oars was relieved?
    General Jones I call it----
    Senator Warner. We have to go back and look at this. I 
think this is one of the most beneficial parts of this hearing.
    Chairman Levin. That's a very significant statement and we 
should follow up on it, and you're being very candid as always 
and being very balanced in your approach, but I think we should 
really dig deeper and take full advantage of your experience 
and that of the other chiefs.
    General Jones. I call it an unanticipated consequence. I 
don't think, and I've talked to many of the people who wrote 
Goldwater-Nichols.
    Senator Warner. Well, you're looking at two of them right 
here.
    General Jones. Yes, sir.
    Senator Warner. So I mean, we bear full responsibility.
    General Jones. What I'm suggesting is that after a number 
of years of implementation, that it would be useful to make 
sure that not only on this issue but on some of the other 
issues that I raise in my response, that we have it about 
right, and some of it is self-correction and some of it is us. 
Some of it is us as service chiefs who sometimes allow 
ourselves to be captured by the inner workings of our own 
services so much that you can have a tendency to say ``well, 
I'm sure they're taking care of it.''
    So in my dealings with the Chief Naval Officer (CNO), the 
Chief of Staff of the Air Force, Chief of Staff of the Army, we 
have talked about this as colleagues, and we have self-
corrected to a certain point to make sure that the equities 
that we think we are obligated to bring to the table on the 
very important issues, that we actually make sure that we 
participate in. It's very easy to take your eye off the ball 
sometimes because there's so much to do.
    I am simply suggesting not that anything is broken, but 
that we need to make sure that the contribution that the Joint 
Chiefs can make as a body is still something that is valued and 
necessary and expected, and I think that the adjustments will 
come very quickly.
    I would like to emphasize that I see some of those 
happening already. Certainly since last year, I have seen the 
focus of the JCS as a corporate body involved in the evaluation 
of plans, the dissection of crises, providing the military 
options for the Secretary to consider his representation to the 
Commander in Chief, has been happening much more frequently 
than in the past. So it's nuance, it's not a situation where--
and it's very personality dependent, but the awareness of the 
responsibility of the Joint Chiefs and making sure that we 
adhere to those expectations is something that I felt strongly 
enough to mention in the context that I did.
    Senator Warner. Well, I am certainly grateful that you have 
done that. Senator Levin and I, you all coming before us always 
state, ``if confirmed.'' Well, if reelected, we would like to 
continue, mark a quarter of a century of service here sitting 
right next to each other all these many years, and we will 
address this function. We won't go into it now, but possibly 
some statutory emphasis on what we see as the need for greater 
balance between these two responsibilities may be needed, and 
thank you again.
    General Jones, the subject of NATO has been of great 
interest to me and members of this committee for these many 
years, and both Senator Levin and I can remember in our early 
days, actually I guess this is when you gentlemen were down in 
the liaison offices, there were battles on the floor about the 
funding for NATO, whether or not this nation should still have 
the major role, and through the heroic efforts of previous 
Chairmen John Stennis, Tower, Goldwater, Scoop Jackson, and 
others, we emerged through those battles and kept the strong 
congressional support.
    But am I just speaking for myself now, I'm concerned about 
the future of NATO. We're about to have another round of 
expansion, I think we go up to 26, I believe my speculation in 
the paper, and I'm not going to draw that out of you now. You 
want to stay clear of that until we do get that confirmation 
done. But that's a lot of voices sitting around trying to reach 
a consensus. Fortunately you have in Lord Robertson one of the 
stronger men that have occupied the position that he has, but 
achieving that sort of consensus is going to be somewhat more 
difficult.
    I'm worried about the future of NATO in terms of the 
conflicts and the threats that face the world. Here we are with 
this tragic situation in Iraq, the tragic situation in the 
Middle East between the people of Israel and the Palestinian 
people, and against that background was the effort 4 years ago 
to put into the charter an amendment for out of area 
operations.
    I think NATO served a very valuable function in the 
Balkans, Bosnia, and Kosovo, but I see no comments with regard 
to the Middle East. Yet that conflict permeates, it has a core 
and it emanates throughout the Muslim world. I've said many 
times, and I won't draw this into a question but I've said many 
times, as recently as a few days ago in the hearings, I think 
that NATO could offer up itself as a peacekeeping function if 
there was the invitation to participate both from the Israeli 
government and such government as remains in the Palestinian 
people to come and perform that role so that that violence can 
be stopped and constructive talks can begin. I mean, just in 
the last 48 hours, we have seen more chapters of problems over 
there.
    We also have the Iraq situation. There was some discussion 
that perhaps NATO ought to have a voice in some of the planning 
of this situation. How do you feel about the expansion of the 
charter and the challenges posed out there by this world where 
terrorism has become the prime concern of all the member 
nations and less state versus state conflict?
    General Jones. Senator, I think that NATO has both a large 
and difficult task ahead of itself and I would frame it in a 
number of ways.
    Certainly NATO's response to the global war on terrorism 
and the attack on the United States by invoking article 5 
clearly answered the question as to whether NATO was willing to 
consider out of area operations. I think NATO is, from what I 
can see on this side of the Atlantic, properly focused and 
paying attention to the ramifications of the global war on 
terrorism.
    Similarly, I think that there seems to be, and I hope there 
is, a willingness to transform some of the military 
capabilities that may be obsolete in terms of redundant 
headquarters, particularly at the second and third tier level 
of headquarters, to be able to make--and I've seen indications 
that NATO is willing to develop a rapid reaction force for out 
of area operations. Five member countries in NATO are building 
a fairly impressive amphibious power projection capability. 
NATO special forces are quite good and interact and are 
interoperable with ours. NATO enlargement presents a challenge, 
but an opportunity as well.
    I think obviously, how we extract ourselves from the 
Balkans in a way to leave that region peaceful and secure and 
full of hope and opportunity for the future is also one of the 
major challenges, not to mention the emerging relationship with 
Russia in the new environment as well.
    I will be able to report to you more fully in the months 
ahead, but I think I see a certain amount of optimism and a 
certain amount of potential for NATO continuing to be in the 
21st century as important as it was in the 20th century, 
particularly in terms of these historical alliances that mean 
so much to our own future and security as well.
    Senator Warner. Well, fortunately we have your services and 
I think you are ably qualified to do these things.
    Mr. Chairman, I have a few more questions, but I notice 
that my time has expired. Why don't you take a few and I'll 
come back?
    Chairman Levin. All right. Just picking up on the NATO 
question, one of the issues which has troubled me for a long 
time as we expand NATO is some of the questions that have been 
raised about its military effectiveness as it expands, and how 
to keep it relevant in the out of area issues.
    But I have also been troubled as it expands by the greater 
potential just numerically, that at some point one of the 
members of NATO, for instance, would no longer qualify for 
membership in terms of being a democratic country, and yet, 
there is no way to remove someone from NATO. There is no 
provision to kick anybody out of NATO, even if a country turns 
bad and would no longer be eligible for admission.
    Yet that country has a veto, all countries have a veto, so 
now we'll have 26 countries with a veto over operations and 
decisions of NATO, and I view that as a risk. I'm not trying to 
focus on any particular country, new or old, that's not the 
point. The point is just statistically it becomes more likely 
that a problem like that could occur in the future.
    Now you are candid, creative, and a provocative thinker, 
and those are very great attributes as far as I'm concerned. 
We're going to need your thinking along that line as to how do 
we address that issue. I don't particularly want to probe that 
today with you, it's perhaps not the best time to do it, but if 
you have any thoughts now on that I welcome them but if not, 
after you're confirmed, I would hope you would address that 
issue. People seem to acknowledge it theoretically, but just 
sort of lay it aside because it's not one of the most pressing 
issues obviously, we hope that will never happen and there's no 
evidence it will happen. But do you want to comment on that, or 
if not at the moment, would you keep an eye on that issue and 
let us know what your thinking is about that as you take over 
this responsibility?
    General Jones. Thank you, sir. That is a serious issue and 
with your permission, I will invoke the latter part of your 
statement and do some thinking about it.
    Chairman Levin. Another provocative comment that you made 
in answers to the committee's questions was that there is a 
current perception of American unilateralism in the conduct of 
our national foreign policy. It's a concern that I share by the 
way, but my question is this: Is there a role for the next 
EUCOM commander and the new SACEUR in advising the 
administration on that issue?
    General Jones. I think the current SACEUR and the current 
commander, General Joe Ralston, has done a wonderful job in 
maintaining the close communication that's required between his 
billet, not only his European responsibility, but also with the 
Secretary of Defense and the Secretary of State, and I know 
that for a fact. If confirmed, it would be my intent to make 
sure that on those issues that are clear and unambiguous, that 
I maintain the close relationship with the Chairman of the 
Joint Chiefs, the Secretary of Defense, and the Secretary of 
State, which I'm required to do as well, on those issues.
    Where there are issues that are important, particularly 
where the militaries of the world's greatest military alliance 
are concerned, I will be very candid, very forthright in terms 
of my perceptions, and I tried to do that in my statement.
    Chairman Levin. Thank you. General Jones, there appears to 
be a consensus that our NATO allies need to transform to 
enhance their military capabilities just as we're already 
doing. What is the nature of the transformation that our NATO 
allies should be carrying out in your judgment? Should they be 
seeking the kinds of capabilities that our military has, 
perhaps collectively? Is there room for the development of 
niche capabilities by some of the smaller allies?
    General Jones. I think that there are several areas that 
need to be explored, and I have talked on several occasions 
with General Ralston about this. General Ralston is an officer 
known by the members of the committee and an officer of 
tremendous confidence who has done a terrific job in his 
assignment at NATO leading the U.S. forces in Europe.
    I think at the macro level we would be talking about making 
sure that the various military headquarters that we have in 
NATO are, in fact, useful in a military sense and have the 
appropriate efficiencies to be able to cause the people to 
provide the command and control and the leadership required of 
a very sophisticated and large force.
    I will have to get back to the committee on this because I 
don't know all of the things that I will know in a few months, 
but I think that it would be wrong to expect that all of our 
allies will transform their forces to try to mirror the 
capabilities that we have. That might be impossible to achieve 
and it is probably not the right way to go. But I do think that 
we can, using the niche capabilities that you mentioned, Mr. 
Chairman, fashion a force that is appropriate to the task at 
hand, capable, rapid, and will meet the threats of the 21st 
century by capitalizing on the unique capabilities that member 
countries can achieve, all the while encouraging those 
countries that are reluctant to fund or to provide the 
resources required for full partnership, to contribute more 
fully to that capability.
    But one of the first things I would try to do is assess the 
various capabilities throughout the alliance and then come to 
some sort of understanding as to how best to shape that force 
so it can meet the--and stay apace of the transformations that 
the United States is attempting to do in its own forces and to 
share that kind of information with regard to, for example, the 
joint aspects of our operations, which are becoming very second 
nature to the way we do things.
    It is always with a great deal of pleasure that I listen to 
my colleagues on the Joint Chiefs talk about that, with great 
familiarity about the interoperability of our force. Using that 
model, I think we can provide a lot of assistance and 
encouragement to our allies in NATO to do the same thing within 
the limitations of each country's capabilities and willingness 
to provide the resources required. So there is a lot of work to 
do there, but I believe there are also a lot of efficiencies 
that we can continue to harvest, and in the end I think we can 
shape a force within the alliance that will be up to meeting 
the tasks and the challenges of our 21st century.
    Chairman Levin. My last question for you, General Jones, 
relates to what the role might be of either the European 
command or possibly even NATO in a war with Iraq, whether that 
war is a U.N. authorized operation or whether or not the United 
States goes in to war alone.
    General Jones. In the U.S. construct, Mr. Chairman, the 
European commander would be a supporting commander to the main 
effort led by the U.S. Central Command under General Franks.
    With regard to the international aspect of things, we would 
have to see how that develops, but there can be any number of 
adjustments to that. But from a U.S. perspective, the 
supportive relationship between EUCOM and central command is 
fairly clear.
    Chairman Levin. Any role for NATO?
    General Jones. That would be a political decision that I 
would await and, if confirmed as the Supreme Allied Commander, 
would then execute my responsibilities in context with that 
political decision.
    Chairman Levin. Okay. General Hagee, just a couple of 
questions for you. First the zinger I promised you. What's the 
biggest headache your predecessor is leaving you? [Laughter.]
    Senator Warner. That was my question.
    Chairman Levin. Was it? Senator Warner wanted to ask this 
question, so my time is up. Senator Warner.
    Senator Warner. We will have that as a joint question. I 
was going to ask it of General Jones--what is it that you feel 
you wanted to achieve, didn't achieve, and you pass on to your 
successor to achieve?
    Chairman Levin. That's the more politically correct, 
diplomatic way of phrasing it.
    General Jones. So it's my question, is that right? I think 
that the aspect of transformation is very important and it's a 
word that I don't use freely either, but I think the Marine 
Corps is on the threshold of moving forward in a very dynamic 
way with regard to transformation.
    Not only the technological leap that we can harvest, like 
tilt rotors for example. You're not surprised that I bring that 
up.
    Senator Warner. Which is a program in your professional 
judgment that is now in a much more improved condition?
    General Jones. Absolutely. I think all of the work that the 
committee did in holding the hearings after these tragic 
accidents, causing us to go back and relook at not only the 
technology but the engineering, and where we are today, is 
absolutely different, obviously, than just 2 years ago. I 
believe the program will now prove itself on the basis of its 
merit. The technology is accepted, the engineering fixes have 
been implemented, the test program is correctly loaded, it's 
event driven, not time line driven. We have been under the 
scrutiny, the correct scrutiny I might add, of Under Secretary 
Aldridge, of our Secretary of Defense, our Deputy Secretary of 
Defense, and all of those distinguished people in OSD who have 
that very awesome responsibility to make sure that we field the 
best equipment for our men and women in uniform.
    They have all been down to Patuxent River and they have 
seen the program and seen the airplane fly, and I believe that 
there is some real optimism now as to how we can bring this 
into the inventory.
    To get back to transformation, the technological piece, the 
operational transformation in terms of our concepts. The 
performance of marines in Operation Enduring Freedom really 
opened our eyes as to the potential that can be achieved in 
projecting forces from a sea base in the 21st century.
    I would say, to answer your question, the one area that I 
wish I could have done more in, or we could have done more in, 
would be in acquisition reform and reform of our business 
practices. I've been privileged to answer questions to that 
effect. Acquisition reform is beyond the competence of any one 
service chief. You can do some things inside your own service, 
but I believe that we have to be able to acquire things quicker 
and more efficiently.
    We can't have major programs that take 10 years for 
example, with technology changing every 18 months. Some of our 
major programs will have obsolete aspects to them when they 
come aboard, and that causes many difficulties.
    So to cut to the chase, to answer your question, if I wish 
I could have done something that I don't think I quite got 
done, it would be in the area of acquisition reform. This is 
another unintended consequence of Goldwater-Nichols. I do not 
believe that it was the intent to reform acquisition and to 
cause the service chiefs whose Title 10 responsibilities are to 
organize, train, and equip, to be essentially divorced from the 
acquisition process, but that's what happened.
    By law the service chief's responsibility stops at 
identifying the requirement, and yet I expect to be held 
accountable when something like the V-22 crashes, killing crew 
and passengers. I expect that this committee will call me in to 
be accountable as you correctly did, but the law and the 
expectation are out of sync, because by law I'm not supposed to 
have too much to say in the acquisition aspect of things.
    So that would be one area I think that Mike can follow 
through on. I think the overall reform of our business 
practices still needs to be examined. I am encouraged by some 
of the progress that has been made in the Defense Department, 
but we still have an agency construct that consumes roughly 20 
to 25 percent of our defense budget, and I'm confident that 
there are more efficient ways in which we can handle the 
taxpayers' resources and acquire, buy, and contract things more 
efficiently. If I were to say what it is that I wish I could 
have done, I wish I could have done more in that field.
    Chairman Levin. I think what we should do now because of a 
number of answers you have given, and I know that Senator 
Warner made reference to this as well, is ask our staffs to 
talk to all the chiefs, just ask the chiefs what their thinking 
is in terms of the Goldwater-Nichols issues that you raised or 
any other issues that should be raised. We ought to task our 
staffs to do this jointly, to get a letter out to the chiefs in 
preparation of some kind of a deeper inquiry that we could make 
next year perhaps.
    Whoever happens to be chairman, assuming we are reelected 
next year, I think we are both very much interested in the 
subject which you have raised today and related subjects 
relative to Goldwater-Nichols. So if you're willing to have a 
joint task of our staffs----
    Senator Warner. I think so, and may I suggest, I think you 
inferred it, that we include the retired chiefs.
    Chairman Levin. Retired chiefs, absolutely.
    Senator Warner. Because they could be very forthcoming.
    Chairman Levin. The chiefs and those who are about to 
retire and have retired, I think would be very useful.
    I have no further questions of General Jones. I do have 
some more of General Hagee.
    General Jones sure took you off the hook. You owe him big 
for that last answer, for a lot of other things too I am sure, 
but let me turn it over to Senator Warner.
    Senator Warner. Well, I want to follow on to this question 
of NATO. I am among those Senators who have been involved with 
NATO ever since I was at the Pentagon 30 some odd years now, 
and it's the most magnificent military alliance in the 
contemporary history of mankind. I don't know of anything that 
has lived up to its expectations and exceeded them more than 
NATO, and you are inheriting a magnificent organization. I just 
would hope that on your watch, it won't die because of obesity.
    I mean, you are going up to 26, you're faced with the 
absence of increases in their defense budgets commensurate with 
what we're doing here. They are falling behind in technology. 
This is a very interesting concept that my colleague touched 
on, the idea of a division of labor where maybe the United 
States and one or two others in NATO would be responsible for 
the high tech missions and the others the low tech missions.
    I'll listen to it, but you know, some people think the 
heavy lifting is in the low tech, the higher propensity for 
casualties, and I think you have to be very cautious as that 
moves forward.
    We have the right man at the right time, and you have Lord 
Robertson, so let's think positively. But we have to move on 
because we are so fascinated with this panel, but we have a lot 
of people waiting here.
    Admiral Ellis, your command and your responsibilities are 
so key to world peace, what comparable commands are in other 
major military nations, and to what extent do you plan to work 
with such counterparts that may be in those commands?
    Admiral Ellis. Senator, that's a good point. Here again, in 
parallel with General Jones' comments, it's clear that we are 
leading in the way in which we have addressed organizationally 
the global capabilities, the global requirements, and the 
global systems and challenges that confront us as a Nation but, 
largely as a result, as you are so aware, of the unique role 
that we occupy in today's world.
    I am committed, however, to working both on the space side 
as well as the expanded roles on the military or the strategic 
side that we discussed earlier with those appropriate partners 
on the international scene.
    I mentioned the conversations and the interaction with our 
own agencies and the like, but clearly there are international 
implications associated, particularly on the space side, as you 
are well aware.
    Senator Warner. Do Great Britain, France, Russia, China, do 
they have comparable commands placing comparable emphasis?
    Admiral Ellis. They have similar elements, sir, but they 
are not collocated in a single command as we are proposing to 
do in the new United States Strategic Command. The special 
relationship we have with the U.K., with which you're so well 
aware, is probably the most parallel or similar to that which 
we're undertaking, but even then it's not precisely duplicated. 
There is an appropriate level of interaction there.
    As we look at the more routine military to military 
contact, which is an important part of the international 
relationships that you described earlier, both inside and 
outside NATO, we see a role on the space side as well as on the 
global support side for this new command. We look forward to 
appropriately engaging in that in the construct of an approved 
DOD engagement plan to make sure that we are in sync with the 
regional combatant command who obviously has primary 
responsibility in his area of responsibility for that type of 
engagement, again, under the approved construct of the 
Department of Defense.
    So we see this as a teaming effort. There are going to be 
areas and systems and communications and satellites and space 
operations and the like where clearly, we will be able to offer 
insight and engagement opportunities to supplement those that 
the regional combatant commanders will be undertaking.
    Senator Warner. This brings me to my final question with 
you, and I think I'll read it because it's quite technical. I 
believe that a clear understanding of the mission is important 
for any organization to succeed. Before the merger of Space and 
Strategic Command, each organization had a clearly defined 
mission, quite different from the mission of the other. The 
task of defining a clear mission for the merged command will 
not necessarily be an easy one. How do you define the mission 
of the new Strategic Command?
    Admiral Ellis. Well, I chuckle, sir, because that is the 
single issue that is under final review here as we approach the 
day, next Tuesday, when we establish the command. Words are 
important, because that really is the vision. That really is 
the understanding the entire organization has. Clearly, it 
needs to blend the elements that I spoke to in my opening 
remarks, sir.
    We are going to address global challenges and global 
requirements in a way in which they have never been done before 
on a global scale. We are going to continue to advance the 
Nation's unconditional access to space and build on the utility 
and the surety of those space resources in ways that we have 
not been able to do in the past. Finally, as you and I have 
talked about on a number of occasions, it's absolutely 
essential that we retain the rigor and the oversight and the 
precision that comes with our stewardship of the Nation's 
strategic nuclear forces.
    So the mission statement, when it's finalized, will contain 
all of those elements, as well as the reality that we have now 
established a command that in all likelihood is going to get 
additional currently unassigned and previously unassigned 
missions that will migrate to it in the very near-term. So it 
is much broader, but it needs to be clearly clarified and 
codified in a way that's focused and understandable by the 
people that I hope with your concurrence of the committee and 
the full Senate, that I will be privileged to lead over the 
next 2 years.
    Senator Warner [presiding]. Thank you.
    General Hagee, one of the advantages the Marine Corps has 
is that it's small, and it can be reshaped more quickly to meet 
the ever changing threat equation in the world. I think under 
the leadership of General Jones, the Corps has done just that.
    Your sister service so to speak, the Army, is struggling to 
maintain what is necessary by way of a heavy side to its 
equipment, to its missions, should that eventuality face this 
nation. We never want to abandon the ability to respond in 
terms of tanks, artillery, and other heavy equipment. But yet 
the Army, I think, recognizes that given the threat of state 
versus state combat and very significant numbers of Armed 
Forces is taking second role in terms of threat to terrorism. 
They are looking at moving toward becoming lighter in this 
transformation movement. Then that puts a competitive element 
in the roles and the missions between the Department of the 
Army and the Department of the Navy with respect to the Marine 
Corps.
    Do you have some thoughts on that, and I hope that you can 
work with the Army as well as General Jones has done in his 
tenure.
    General Hagee. Sir, if confirmed, I would intend to work 
very closely with all the service chiefs. I really see the two 
forces as being complementary. Maybe the most recent example is 
what occurred in Afghanistan.
    Senator Warner. We all watched that.
    General Hagee. With Task Force 58.
    Senator Warner. Right.
    General Hagee. Being expeditionary, bringing their 
sustainability with them from the sea, being able to project 
combat power almost 400 miles inland, stabilizing the 
situation. Then when it was in hand, pulling back out to sea, 
recocking for any other missions, and transitioning to an Army 
force designed to do that particular operation.
    Senator Warner. Well, I think that if you follow the 
approach and the guidelines of General Jones, you're going to 
be all right.
    Lastly on the question of naval aviation, General Jones and 
Admiral Clark I think made great progress in merging more and 
more of the components of the respective branches, Navy and 
Marine Corps, in aviation. I presume you're going to follow 
through with that.
    General Hagee. If confirmed, I absolutely will, sir. I 
think it is a brilliant stroke, it's good for the Navy, good 
for the Marine Corps, and good for the Nation.
    Senator Warner. Thanks, Mr. Chairman. This has been a 
distinguished panel. Aren't we fortunate we don't have all 19 
here, this would be an all day hearing.
    Chairman Levin [presiding]. Just one question for you, 
General Hagee, and this has to do with the operations of 
marines in an urban terrain or an urban area. You put some 
focus, and we totally agree with you on the importance of UAVs 
in terms of the vision of the Marine Corps and our other 
services in the coming decade. But how do the Marine Corps or 
our other services obtain the surveillance and situational 
awareness in built up areas, is a far more complex question. 
I'm wondering whether you have any comments about the progress 
of pursuing those technologies which might provide some support 
for operations in urban terrain?
    General Hagee. Senator, that's an excellent question. I'm 
quite excited about some of the technologies that are coming 
forward today that might help us in that area, some of the 
robotics that we're experimenting with, and some of the UAVs 
that we're experimenting with. We don't have a solution right 
now, but as I said, I'm quite excited about some of the 
technologies that are out there and if confirmed, I would 
continue to follow that particular development.
    Chairman Levin. Good. We thank you all. Senator Warner, are 
you all set?
    Senator Warner. I noticed the presence of Conrad Burns 
here, a former Marine. Perhaps he should indicate how he is 
going to vote now on this new Commandant, and General Jones. 
Does our colleague have a voice here that should be listened to 
on this panel before it's dismissed?
    Chairman Levin. He will be introducing one of the next 
panelists and maybe could think about a politically astute 
answer to that question as he's walking up to introduce one of 
the nominees. Or you're free to comment now, Senator Warner 
solicited it, so what's your option there, Conrad?
    Senator Burns. I appreciate your courtesy, but you both 
have done very well.
    Chairman Levin. Thank you again, gentlemen. Your service is 
tremendous, your patriotism, your commitment to your service, 
and more important to your nation, is really very impressive. 
Thank you. Thanks again to your families.
    We are going to try to vote on these nominations next 
Monday afternoon during the vote that we will have on another 
matter on the Senate floor, so it is our expectation and hope 
that we will be able to get these nominations to the floor by 
next Monday evening.
    Senator Warner. That's essential.
    Chairman Levin. We will move to our second panel now. Our 
panel includes Charlie Abell, who is currently the Assistant 
Secretary of Defense for Force Management Policy. This is 
another position that's going to go away when the new Deputy 
Under Secretary of Defense for Personnel and Readiness is 
appointed. I guess depending on how you answer the questions 
today, Charlie, this could be you.
    Before assuming duties as Assistant Secretary of Defense, 
Secretary Abell was a professional staff member here on this 
committee, where he worked on personnel issues and obviously 
knows the personnel business.
    In addition to his service as a career naval officer, Rear 
Admiral Thomas Hall has served as chief operating officer and 
executive director of the Naval Reserve Association. The 
position to which he is nominated, the Assistant Secretary of 
Defense for Reserve Affairs, is a critical position given the 
increased role of Reserves in our national defense.
    Charles Erdmann has been nominated to be a judge on the 
United States Court of Appeals for the Armed Forces, sometimes 
referred to as the Supreme Court of the military justice 
system. Mr. Erdmann was a colonel in the Montana Air National 
Guard and served as a supreme court justice on the Montana 
Supreme Court. He has recently been involved in judicial reform 
in Bosnia.
    Senator Burns, as has been noted, is with us today and well 
qualified for a whole host of functions, duties, 
responsibilities, and friendships, but he is here today to 
introduce Mr. Erdmann, and we call upon him at this time.

 STATEMENT OF HON. CONRAD BURNS, A U.S. SENATOR FROM THE STATE 
                           OF MONTANA

    Senator Burns. Thank you, Mr. Chairman. Just listening to 
the testimony of the first panel today, it's a remarkable thing 
this country has as a resource of when the torch is passed, to 
men and women who are attracted to military service and 
military leadership, and I think today was a good example. It 
seems like we have an endless resource of outstanding 
individuals to assume those posts.
    Mr. Chairman and members of this committee, I'm pleased to 
speak on behalf of Chip Erdmann on his nomination to the United 
States Court of Appeals for the Armed Forces. This is an 
extremely important court and I can't think of anybody that is 
more uniquely qualified than Mr. Erdmann. I have known Chip for 
a number of years and I have always been impressed by his 
integrity, but most of all by his professionalism.
    He was a successful attorney in private practice when he 
was appointed to the Montana Supreme Court, where he was known 
for a common sense approach as a judge who left policy 
determinations to the legislature rather than create law from 
the bench.
    More recently, he was chief judge of the Bosnian election 
court in Sarajevo, the only American to serve as an 
international judge in Bosnia, and helped that country on its 
way toward becoming a truly free democracy. That court, by the 
way, had six national judges, two Croats, two Serbs, two 
Bosniaks, and Chip. He was able to get a consensus of the 
entire court on all but a few decisions. He has also been 
instrumental in reforming the entire judicial system in Bosnia 
and helping establish the rule of law.
    He brings an understanding of the military environment and 
military law to this court. He left college in 1967, enlisted 
in the United States Marine Corps, where he served honorably 
for 3 years. He spent 20 years as a judge advocate in the Air 
National Guard, serving in positions from the fighter wing 
level to the most recent assignment as Air Guard advisor to the 
United States Air Force, Europe (USAFE) staff judge advocate.
    Following September 11, he was activated to serve as the 
legal advisor to Major General Larry Arnold, and Commander of 
the U.S. Continental Region of NORAD.
    His judicial, military, and international experiences all 
provide him with the necessary background and expertise for 
this court and I am pleased to commend him to you today. I 
thank the chair and the members of this committee for your 
consideration of this nomination, and I thank you, Mr. 
Chairman.
    Chairman Levin. Thank you so much, Senator Burns. We very 
much welcome that introduction and your comments, they are very 
helpful. We will place your full statement in the record.
    Both Senator Baucus and Representative Rehberg, who could 
not be with us today, have forwarded statements of support for 
Mr. Erdmann and join you in this recommendation, and we thank 
you all.
    [The prepared statements of Senator Burns, Senator Baucus, 
and Representative Rehberg follow:]
               Prepared Statement by Senator Conrad Burns
    Mr. Chairman, members of the committee, I am pleased to be here to 
speak on behalf of Chip Erdmann on his nomination to the United States 
Court of Appeals for the Armed Forces.
    This is an extremely important court and I cannot think of anyone 
more uniquely qualified than Chip. I have known Chip for a number of 
years and have always been impressed with his integrity and 
professionalism.
    He was a successful attorney in the private practice when he was 
appointed to the Montana Supreme Court, where he was known for his 
common sense approach and as a judge who left policy determinations to 
the legislature rather than create law from the bench. More recently he 
was the Chief Judge of the Bosnian Election Court in Sarajevo--the only 
American to serve as an international judge in Bosnia--and helped that 
country on its way toward becoming a truly free democracy. That court, 
by the way, had six national judges, two Croats, two Serbs, and two 
Bosniaks (Muslims) and Chip was able to get the consensus of the entire 
court on all but a very few decisions.
    He has also been instrumental in reforming the entire judicial 
system in Bosnia and helping to establish the rule of law.
    Chip would also bring an understanding of the military environment 
and military law to this court. He left college in 1967 to enlist in 
the Marine Corps where he served honorably for 3 years. He spent over 
20 years as a judge advocate in the Air National Guard, serving in 
positions from the fighter wing level to his most recent assignment as 
the Air Guard Advisor to the USAFE staff judge advocate. Following 
September 11 he was activated and served as the legal advisor to Major 
General Larry Arnold, the Commander of U.S. Continental Region, NORAD. 
His judicial, military, and international experiences all provide him 
with the necessary background and expertise for this court and I am 
pleased to commend him to you today.
    I thank the chair and the other members of the committee for your 
consideration of this nomination.
                                 ______
                                 
                Prepared Statement by Senator Max Baucus
    Good morning Mr. Chairman. Thank you for the opportunity to 
introduce a fine Montanan who is truly a credit to his profession. 
Colonel Charles Erdmann, Chip as we call him, is currently being 
nominated to be a judge on the United States Court of Appeals for the 
Armed Forces.
    The U.S. Court of Appeals for the Armed Forces is our Nation's 
highest military court--a civilian court designed to provide civilian 
oversight of the military justice system. Service on this court 
requires an understanding of military law, the judicial process, and 
the special rights and responsibilities of our service members. I can 
think of no better candidate than my fellow Montanan, Colonel Erdmann.
    As I often say, folks around the country are always impressed with 
the strong Montana work ethic. Chip embodies this work ethic, which is 
demonstrated by his distinguished background:
    Chip has 20 years experience in government service and private 
practice of law in Montana in both criminal and civil proceedings. In 
addition, he served as a justice on the Montana Supreme Court.
    While these experiences are impressive, what makes Chip even more 
dynamic is his international experience.
    Chip has served as Chief Judge of the Bosnian Election Court and 
Head of Human Rights Department, Office of the High Representative of 
Bosnia and Herzegovina, where he was responsible for development and 
enforcement of economic and social rights; rule of law reform; revision 
of property laws; development of non-governmental organizations and 
civil society; establishment of gender equity programs; monitoring of 
domestic war crimes trials and liaison with the international tribunal 
for the former Yugoslavia in The Hague.
    These experiences, while adding to his impressive background, 
clearly were posts that would test the character and moral fiber of any 
individual. Chip carried out his mission with the greatest integrity 
and honor.
    Finally, I would like to point out the depth of Chip's experience 
by highlighting his military involvement:
    He enlisted in the Marine Corps in 1967, served 3 years, and was 
discharged as Sergeant. He served over 20 years as judge advocate in 
the Montana Air National Guard and has served as staff judge advocate 
to fighter wing; Air National Guard Judge Advocate Assistant to the 
Commander of First Air Force; and Air National Guard Advisor to the 
USAFE staff judge advocate.
    Chip's unique combination of judicial, military, and international 
experience along with his integrity and temperament make him an ideal 
selection for this important court.
    I thank the committee for your consideration of Colonel Erdmann and 
I urge the committee to support his nomination just as I do.
                                 ______
                                 
    Prepared Statement by Representative Denny Rehberg from Montana
    Dear Chairman Levin:
    I understand that Charles ``Chip'' Erdmann's confirmation hearing 
before the Committee on Armed Services is scheduled for September 27, 
2002. Unfortunately I will be out of Washington that day and will be 
unable to attend the hearing to formally introduce Chip to the 
committee.
    I would therefore appreciate it if you could include this letter in 
the formal record of the hearing. I have known Chip for a number of 
years and cannot think of anyone better qualified for a position on the 
Court of Appeals for the Armed Forces.
    Chip had a long and successful career as an attorney in Government 
service and in private practice before he was appointed to the Montana 
Supreme Court. While on that court he established a reputation as a 
fair, impartial, and common sense judge.
    Chip then took his talents to the former Yugoslavia where he worked 
on judicial reform issues in both Bosnia and Serbia. He was the Head of 
the Human Rights Department in the Office of High Representative of 
Bosnia and Herzegovina and later was the Chief Judge of the Bosnian 
Election Court. He recently returned from a final assignment in Bosnia 
where he designed and implemented a comprehensive reform of the 
prosecution and court systems.
    Chip is also no stranger to military life. He enlisted in the 
Marine Corps in 1967 and was discharged a Sergeant after 3 years of 
service. Later he joined the Montana Air National Guard as a judge 
advocate and served with distinction in a number of State and national 
positions.
    As you can see he would bring a wealth of experience to the Court 
of Appeals for the Armed Forces and would ensure that our men and women 
in the Armed Forces have access to justice of the highest caliber. I 
therefore urge the committee's support of this nomination.

    Senator Warner. Thank you, Senator Burns. I join in that.
    Chairman Levin. We sent advance policy questions to each of 
you, where you've each agreed to appear as a witness before 
congressional committees when called, to insure that briefings, 
testimony, and other communications are provided promptly to 
Congress, and now let me ask each of you the standard questions 
that are asked of every nominee who comes before this 
committee.
    First, have you adhered to applicable laws and regulations 
governing conflict of interest?
    Secretary Abell. Yes, sir.
    Admiral Hall. Yes, sir.
    Mr. Erdmann. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of this 
confirmation process?
    Secretary Abell. No, sir.
    Admiral Hall. No, sir.
    Mr. Erdmann. No, sir.
    Chairman Levin. Will you ensure that the department 
complies with deadlines established for requested 
communications, including prepared testimony and questions for 
the record in hearings?
    Secretary Abell. Yes, sir.
    Admiral Hall. I will.
    Mr. Erdmann. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Secretary Abell. Yes, sir.
    Admiral Hall. Yes, sir.
    Mr. Erdmann. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony?
    Secretary Abell. Yes, sir.
    Admiral Hall. They will.
    Mr. Erdmann. Yes, sir.
    Chairman Levin. Let me at this point ask each of you if you 
have an opening statement, and please introduce any family 
members that you might have with you. Secretary Abell.

STATEMENT OF HON. CHARLES S. ABELL, NOMINEE TO BE DEPUTY UNDER 
        SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS

    Secretary Abell. Thank you, Mr. Chairman. I will introduce 
my wife Cathy, who has accompanied me here today.
    Senator Warner. Would you also include your special 
assistant seated next to your wife?
    Secretary Abell. Yes, sir. Cheryl Black, an alumni of 
Senator Warner's office, I was able to steal her away.
    Chairman Levin. We welcome you both.
    Secretary Abell. Mr. Chairman, it's a thrill to be back in 
front of this committee again.
    Senator Warner. Come on, Charlie. Drop that word from the 
record.
    Secretary Abell. No, sir. It is nice to be back. It's great 
to see good friends and former colleagues sitting behind the 
Senators as well.
    I'm deeply grateful to the President for nominating me to 
this position, and to Secretary Rumsfeld for his confidence in 
my being able to continue to serve on his staff.
    As you noted, Mr. Chairman, I have had the privilege to 
serve as the Assistant Secretary for Force Management Policy 
for the past 16 months. This has been an exciting period filled 
with unpredictable events and many challenges. I look forward, 
if confirmed, to continued opportunities to serve and to the 
increased responsibilities as the principal Deputy Under 
Secretary of Defense for Personnel and Readiness.
    As I testified in my earlier confirmation hearing, I pledge 
to serve the soldiers, sailors, airmen, and marines, active, 
Reserve, and retired, and their families and the civilian 
employees of the Department of Defense to the best of my 
abilities.
    Thank you, Mr. Chairman. I look forward to your questions.
    Chairman Levin. Thank you, Secretary Abell.
    Admiral Hall.

 STATEMENT OF REAR ADM. THOMAS F. HALL, USN (RET.), NOMINEE TO 
     BE ASSISTANT SECRETARY OF DEFENSE FOR RESERVE AFFAIRS

    Admiral Hall. Thank you, Mr. Chairman and Senator Warner. I 
have a very brief statement, but first I would like to 
introduce my wife Barbara. We recently celebrated our 39th 
wedding anniversary and I am honored to be her husband. Our son 
Tom could not be with us. He is a Boy Scout executive in 
Chicago.
    I am deeply honored by the confidence that the President 
and Secretary Rumsfeld have shown in me by nominating me for 
this position and I appreciate what members of this committee 
have done for our young men and women in uniform in the past. 
We are all deeply appreciative of that.
    I spent the better part of the last 10 years dealing in 
Reserve matters in command of the Naval Reserve or working 
Reserve issues, and it has given me a deep appreciation for the 
contributions of the guardsmen and Reservists in our country.
    In 1959 I left Oklahoma, and I left with a train ticket, 
$30 in my pocket, and everything I owned in a cardboard 
suitcase. I had one dream, and that was that I could graduate 
from college, become a naval aviator, and serve my country. 
What a great Nation this is. It allowed me to do that and a lot 
more. I also left with a dream, that I could make a difference 
in the lives of the people that I worked with and, if 
confirmed, that dream remains alive today, and it would be to 
make a difference in the lives of the young men and women of 
our guard and Reserve that have pledged us their time and their 
talents, and their lives if necessary in support of our 
country.
    I stand ready to answer any questions you might have.
    Chairman Levin. Thank you so much, Admiral.
    Mr. Erdmann.

 STATEMENT OF CHARLES E. ERDMANN, NOMINEE TO BE A JUDGE OF THE 
      UNITED STATES COURT OF APPEALS FOR THE ARMED FORCES

    Mr. Erdmann. Thank you, Mr. Chairman, Senator Warner. I 
would first like to recognize and introduce my wife Renee, who 
accompanied me here today from Montana. Unfortunately our four 
children and five grandchildren are scattered around the 
country and were unable to join us today.
    Senator Warner. What area of Montana?
    Mr. Erdmann. Outside of Helena, sir.
    I am honored to appear before the Senate Armed Services 
Committee today as the President's nominee for the Court of 
Appeals for the Armed Forces, which is a crucially important 
court in the military justice system. I would like to thank 
Senator Burns for his support and for taking time out of his 
busy schedule to appear here today and also Senator Baucus and 
Representative Rehberg for their support of my nomination.
    If confirmed, I am committed to insuring that the court 
continues to operate in an independent and impartial manner and 
to protect the rights of our servicemen and women as they are 
scattered across the globe defending the United States.
    With that, I am ready to answer any questions that the 
committee may have.
    Chairman Levin. Thank you so much, Mr. Erdmann.
    First, Secretary Abell, let me ask you about the Defense 
Advisory Committee on Women in the Services, DACOWITS, which 
was reestablished in March of 2002, which is different from the 
committee which was automatically terminated just a few days 
before that. What differences can you identify between the new 
and the old DACOWITS and why was it changed?
    Secretary Abell. The change was a result of a review of all 
committees and commissions that the Department had, Secretary 
Rumsfeld asked for them all to be reviewed when he came in. As 
a part of that review, some committees, commissions, and 
councils were eliminated, DACOWITS was retained.
    The charter was modified to continue to emphasize the 
recruitment, the advancement, the assignment policies of 
professional women in the military, but also to add a piece 
that asked them to look at the quality of life related issues 
and family issues that affected these professional military 
women as well.
    The size of the committee was reduced from 35 to some 
number that the Secretary will ultimately determine but less 
than that, and we want the committee to have more analytically 
based recommendations when they forward them to the Secretary. 
Previous committees' recommendations, while many were 
insightful, had an anecdotal base, and we're looking for a more 
focused approach from this new committee.
    Chairman Levin. The news accounts indicate that the 
Department of Defense is going to exercise greater control over 
the issues that DACOWITS addresses. Will DACOWITS, the new one, 
still have the ability to address issues that may be unpopular 
with the Department and with military leadership?
    Secretary Abell. Yes, sir. The issues that will be 
suggested to the committee will be few. I would expect that 
each year, we would ask the committee members to look at four 
to five issues as they go out and visit installations and 
units, but that is only the base. We would expect and hope that 
they will add to those issues and give us their candid views on 
any issue that comes before them.
    Chairman Levin. Is the committee free to look at any issue 
that it determines to be important, relative to its function, 
or is it limited to issues that are referred to it by the 
Department?
    Secretary Abell. No, sir. It's free to look at anything 
that it chooses. It is an advisory committee and so we expect 
its advice to the Secretary on any issue it deems important.
    Chairman Levin. It's my understanding that TACOM has been 
working for 6 years to establish a science and technology 
personnel demo, which was about to begin finalizing the process 
when the Department stopped all such demos pending further 
review, and Congress has specifically authorized these types of 
demos. Given that we know the unique problem facing the 
Department in hiring scientists and engineers, why hasn't the 
Department released the TACOM demonstration, if you know?
    Secretary Abell. Mr. Chairman, we're seeking an alternative 
personnel system with more flexibility and more agility than 
the civilian personnel system Department-wide, so as part of 
our stewardship we looked at the many demonstrations that were 
out there, and noted that there were again, many. They were 
focused, they were slightly different from one another, so we 
undertook a study of the best practices of all of these 
demonstrations in an attempt to find those common areas and the 
best way, the best practices among all of them. Then it's our 
intent to, where we can, where we have those authorities, 
implement a more common flexible agile personnel system using 
the authority that Congress has given us, but also to then take 
that model and come back to Congress to seek such authorities 
for the entire department.
    I expect that the various authorities for the laboratories 
and science and technology community to be released within the 
next couple of weeks. We have concluded our review of the best 
practices of all those.
    Chairman Levin. That was my next question, so you expect 
this will happen in a few weeks?
    Secretary Abell. Yes, sir.
    Chairman Levin. Now, Congress has attempted to assist the 
Department in meeting its need to hire engineers and scientists 
in a number of ways. Recently a group of senators requested 
information from the Department on the status of the execution 
of legislative provisions that addressed this issue, what is 
the status of the response to that senatorial inquiry?
    Secretary Abell. Senator, I checked on that last night. I'm 
told that since we have concluded our best practices review 
that the draft of that, the most recent draft of that, should 
be on my desk when I return from this hearing.
    Chairman Levin. All our services are reporting record 
successes in recruiting and retention of military personnel. 
Because of the higher than expected retention rates, services 
are now cutting back on their recruiting goals so that they can 
stay within their end strength limits. But even with those 
successes the Department has requested an increase of over 20 
percent in the fiscal 2002 level for advertising and defense-
wide recruiting. If recruiting and retention are successful as 
they apparently are, why does the Department have such a need 
for a substantial increase in the advertising budget?
    Secretary Abell. Senator, that's a good question. 
Recruiting is a tough business. We are all after the highest 
quality young men and women in America. Our competitors are the 
leading colleges and universities and the best businesses. We 
all want that same young man or woman coming out of high 
school. So our recruiters have to work extraordinarily hard. We 
need to provide them all the advantages we can, whether that be 
bonuses or technology at their fingertips to be able to 
convince young men and women to serve.
    In addition, I would point out that the cost of advertising 
increases at several times the rate of inflation, so it's a 
tough business, quality costs, and we have to be able to pay 
that price in order to continue to be able to meet our 
recruiting needs.
    Chairman Levin. Well, I don't think the inflation rate has 
gone up 20 percent, or the cost of advertising per unit, 
however it's defined, has gone up. I don't think that that 
really answers the issue about the numbers now being so good 
that we are actually cutting back on the number of people that 
we need to recruit. So I would like you to give a little 
thought on that and give us a little more detailed answer on 
why we need a $110 million increase in an advertising program.
    Secretary Abell. I will do so, but I need to point out that 
the reason the services, at least a couple of services were 
able to reduce their recruiting goals this year was that 
retention rates are higher than expected, which is a blessing 
to us, but it does not indicate that the recruiting business is 
any easier.
    Chairman Levin. It's easier if the numbers are reduced.
    Secretary Abell. Yes, sir, I understand.
    [The information referred to follows:]

    Senator Levin, the Department requested $449 million for 
recruitment advertising in the fiscal year 2003 President's budget. Per 
the President's budgets for fiscal years 2002 and 2003, recruitment 
advertising in the Department grew from $388.9 million in the fiscal 
year 2002 request to $449 million for fiscal year 2003, an increase of 
15.4 percent. Service budget requests are below:

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal year  Fiscal year
                                                                  2002         2003        Change      Percent
----------------------------------------------------------------------------------------------------------------
Army........................................................        170.2        181.5         11.3          6.6
Navy........................................................         79.1         90.7         11.6         14.6
Marine Corps................................................         45.7         46.6           .9          1.9
Air Force...................................................         77.1         88.6         11.5         14.9
JRAP........................................................         16.8         41.6         24.8        147.6
      Total.................................................        388.9          449         60.1         15.4
----------------------------------------------------------------------------------------------------------------

    The single largest component of this growth was $24 million for the 
Joint Recruiting Advertising Program. This increase would have provided 
for a fully integrated advertising and marketing campaign aimed at 
adult influencers of youth, an audience not primarily targeted by the 
services' campaigns.
    However, the Fiscal Year 2003 Defense Appropriation Act reduced the 
Joint Recruiting Advertising Program (JRAP) by about $24 million, 
cutting the growth in total advertising significantly from $60 million 
to $36 million. This resulted in only a 9 percent growth rate in the 
total program--barely covering the inflation rate for advertising. 
Inflation is typically higher in the advertising world (about 9 percent 
annually) than in the overall economy as measured by the Consumer Price 
Index (CPI)--1.5 percent from September 2001 to September 2002.
    The Army's and Marine Corps' increases were below the average 
inflation rate for advertising. The Navy's requested increase was 
necessary to include funding that was added to the Navy advertising 
budget for the Joint Services Kiosk project (electronic recruiting) for 
which the Navy recently assumed responsibility. The increase in the Air 
Force advertising budget was necessary to fund a half-year shortfall in 
television advertising, and to sustain a special events marketing 
campaign.
    The Army and Navy are cutting recruiters over the next few years 
while increasing their advertising expenditures (as shown above). These 
recruiter cuts were endorsed by the respective recruiting commands. 
However, as explained above, the advertising increases are mostly 
consumed by inflation, which is generally higher in the advertising 
world than the overall economy as measured by the CPI. So, the 
expenditures for advertising in ``real'' terms simply maintain the 
levels that produced recruiting success in fiscal year 2002. Recent 
research indicates that increases in advertising are more cost-
effective than additional recruiters in attracting high-quality 
recruits.
    As the services recruit a more highly educated force to meet the 
needs for a military that is advancing technologically, the services 
compete intensely with private sector employers who are also seeking 
well-educated employees. Advertising is a very important factor in 
maintaining the military's ``market share'' of the high quality youth 
population.

    Chairman Levin. Each year, Secretary Abell, the Service 
Members Legal Defense Network, SLDN, publishes a conduct 
unbecoming. This is a report on the Department of Defense 
homosexual conduct policy and as in prior years this report, 
which is the eighth, alleges many violations of the don't ask, 
don't tell, don't pursue, don't harass policy. The number and 
the nature of the incidents documented in this report suggests 
that although the Department of Defense quickly discharges 
service members for their sexual orientation, it does not 
appear to take as seriously the obligation to hold other 
service members, particularly leaders, accountable for asking, 
pursuing, and harassing.
    Now there are four recommendations which they make in this 
report. One, hold the services accountable for failure to 
implement a 13-point anti-harassment action plan which was 
promulgated by the Department of Defense in the year 2000; two, 
permit service members to report anti-gay harassment and crimes 
without fear of being outed and discharged; three, to recommit 
to insuring full and adequate training on the policies, 
investigative limits, and privacy protection; and four, to hold 
accountable those who ask, pursue, or harass. Does the 
Department still support the 13-point anti-harassment action 
plan which was promulgated in July 2000?
    Secretary Abell. Yes, sir, it has been implemented by all 
three services.
    Chairman Levin. What have you done to ensure that each of 
the services has implemented that plan?
    Secretary Abell. Sir, we'll check on it. I have met with 
representatives of SLDN. They have given us specific instances 
to follow up on. I have checked on those. I am confident that 
the services are implementing the 13-point plan, that there is 
no institutional bias against reporting, and that there is no 
institutional bias against pursuing or prosecuting those who 
might violate the policy by trying to retaliate against someone 
who does report. That's not to say there aren't incidents out 
there, but we chase those down as we find them.
    Chairman Levin. Does the Department have a policy to permit 
service members to report anti-gay harassment and crimes 
without fear of being outed or discharged? Is that part of your 
policy?
    Secretary Abell. Yes, sir.
    Chairman Levin. Finally, those four recommendations of the 
SLDN, do you have any comments on those, the ones I read?
    Secretary Abell. Mr. Chairman, I would tell you that we 
have implemented those. I think our disagreement with SLDN is a 
matter of to what degree. They would suggest that perhaps we 
could be a little more focused on that than we are. I have 
chosen to follow up to see that they're effectively 
implemented, and then trust the commanders in the field to do 
the business of their commands.
    Chairman Levin. Thank you. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Secretary Abell, I 
reread your biography, I guess for the 20th time, but I've 
always been impressed how you started your career as an 
enlisted soldier and concluded by retiring as a Lieutenant 
Colonel with very distinguished service in Vietnam, two tours, 
combat decorations, the Bronze Star, Purple Heart, and Legion 
of Merit. The men and women of the Armed Forces certainly look 
up to you for your achievements, as they do you, Admiral Hall, 
for your achievements in the military, and we are fortunate 
that each of you have volunteered to continue your public 
service. I thank you.
    Mr. Erdmann, I congratulate you. You likewise have a 
distinguished career and come from a State which I have enjoyed 
spending time in over the years. In 1943, I was there at age 15 
as a fire fighter, if you can believe it. All able bodied men, 
remember, were in the marines and the Army then, so they 
scooped up what they could find and here I came, but I enjoyed 
that area. I remember those experiences very well.
    Gentlemen, the thing that's concerning me the most, and 
again, I draw on very modest experience in active and Reserve 
service myself, but I remember the fall of 1950 when we were 
engaged in war in Korea, and MacArthur for some reason that 
nobody knows, went out and made the announcement that the war 
would be over and we would all be home by Christmas. For those 
who had been called to active duty from their Reserve service 
and taken from their families and their jobs very 
precipitously, as it had to be done there in 1950, because our 
Armed Forces had been stripped down in size.
    I have just the most vivid memories of the hardships of 
those officers in my units who were several years older than I, 
most of them had been in World War II. Now we have this very 
significant recall going again, to bring back guardsmen and 
Reservists.
    I would like to have you, Secretary Abell, and you, Admiral 
Hall, talk about how we are going to address those problems, 
because I have a lot of compassion for those individuals. I 
don't fault the decision to recall them, but I do think we have 
to be on a program where their needs have to be addressed in 
terms of their ability to return to their civilian status, 
although hopefully remaining in some Reserve or guard 
component, and resume their family life and jobs.
    Can you tell us about that, Secretary Abell, and then 
Admiral Hall, it will be within your purview of responsibility.
    Secretary Abell. Yes, sir. As the global war on terror 
began, we called up a number of Reservists, some number just 
shy of 100,000 for the Department of Defense, and it was our 
view at that time and our expectation, and it was communicated 
to these Reservists that they would be called up for 12 months. 
Most of those Reservists have completed their 12 months or are 
completing their 12 months, and are released to go home.
    There are some 14,000 that have been asked to stay for 2 
years.
    Senator Warner. That's because of special skill and 
shortages in the active forces; is that correct?
    Secretary Abell. Those are skill shortages and the still 
very high levels of force protection that are required today. 
We are working very hard to make sure that those 14,000 don't 
have to spend a year. We are looking forward to some 
authorities in the authorization bill, anticipating that we 
will have authority to be able to hire some contract guards at 
our bases, again, freeing up some of those brought up for force 
protection.
    In other areas, we are examining the force structure needs 
and finding ways to either move active component resources into 
those shortage skills or to examine whether those shortage 
skills should be better performed by a civilian or a 
contractor. So, it's our hope and intent that these 14,000 are 
not required to spend the entire 12 months with us.
    Managing the expectations of our young men and women is 
important, whether it's the Reserve components or the active 
component. If we tell a carrier battle group that sails out of 
Norfolk that they will be back in 182 days, and we bring them 
back in 270 days, we also have not lived up to their 
expectations, and caused them and their families great angst. 
We respect that, we try not to do that.
    The same is the case of these Reservists. We celebrate 
their service, we want them to stay with us. We're going to do 
everything we can to get them back home so that they will be 
with us when we need them next.
    Senator Warner. Admiral Hall.
    Admiral Hall. Over the past 10 years that I have been 
involved with Reserve affairs, I think we have had seven call-
ups of our guardsmen and Reservists, and I think from that we 
have learned some pretty important principles, and I would list 
four. One is that we need to be very judicious in the use of 
our Reserves, and we always have to keep that in mind.
    Senator Warner. Judicious in the call-ups?
    Admiral Hall. Yes, sir. Also in the use of them. Second, 
rely on volunteers as much as you can, because many times you 
can get your skill sets and all from volunteers. Third is to 
worry about returning those Reservists and guardsmen as quickly 
as we can to their families, and worry about their families, 
and you mentioned that earlier, because those are very 
important. Worry about their medical requirements. Lastly, 
worry about the employers. The employers support the Guard and 
Reserve because many are small employers and self employed 
people. So those are the four principles, and certainly if 
confirmed, I would look forward to keeping those principles in 
mind as we use our guardsmen and Reservists.
    Senator Warner. I thank you for that, but keep a watchful 
eye on that, because we might look behind us someday and we 
have inadequate guard and Reserve. Also, I hope that the proud 
record of the Guard and Reserve participation all the way from 
beginning in Bosnia has been extraordinary, how many Air 
National Guard were involved in their early operations in the 
airlift over there. But don't ever let this Senator hear about 
any second class status for guardsmen and Reservists. You've 
got an eye on that, Admiral?
    Admiral Hall. Yes, sir.
    Senator Warner. Because I personally experienced that in my 
brief tours of military service as a Reservist. The old timers 
always had a feeling that if you weren't regular, you weren't 
up to snuff.
    Now on Tricare, Secretary Abell, you know that's a program 
that this committee has taken tremendous initiatives on. For a 
number of years the Tricare program was under funded in the 
Department of Defense. Year end shortfalls caused unwise 
business decisions and created patient safety issues. This past 
year, with support within the Department for full funding and 
support from OMB, the President's budget request included a 
significant increase to the defense health program to insure 
full funding and successful implementation of Tricare.
    The committee recently received a reprogramming request 
which proposed reallocating defense health programs to other 
defense priorities. Are you confident the defense healthcare 
benefit is adequately funded for the coming fiscal year?
    Secretary Abell. Yes, sir. We were blessed with the great 
support of Secretary Rumsfeld and OMB on our budget submitted 
for fiscal year 2002, and this reprogramming was made possible 
because we actually were more conservative in our budget 
estimates than we found in execution for the Tricare for Life 
program. Of course in 2003 and beyond, that program will be 
paid for by accrual, so it will not be part of our budget that 
we send to you. So we believe that those accrual estimates are 
much more accurate based on the actual practice that we saw.
    Senator Warner. Secretary Abell, we have before the 
committee here in the conference a question of end strengths, 
and one aspect of that in particular concerns this Senator, and 
that is the need for the Secretary of Defense to have a small 
fraction, usually a half percent of flexibility, so that the 
year end, in order to come into alignment with the 
congressional mandates on end strength, that he doesn't have to 
inflict hardships on people to make those very rigid criteria.
    Could you share with the committee your views on this?
    Secretary Abell. Yes, sir. It's my view that end strength 
floors are a management tool that actually cause us and the 
military departments to do things that a wise manager would not 
do, and in order to meet an end strength floor, if a particular 
service's estimates are going to run just under, then the 
services, because of their desire to comply with all the laws 
and the guidance from Congress, will do things like holding 
discharges from the month of September until October.
    Senator Warner. I'm familiar with those hardship cases. 
Don't you feel that Congress should continue to provide what it 
has in the past?
    Secretary Abell. Absolutely, sir.
    Senator Warner. Well, I feel very strongly about that.
    Mr. Chairman, I'd like to submit some additional questions 
to these nominees for purposes of responding in the record, if 
that's agreeable.
    Chairman Levin. Fine.
    Senator Warner. I have to depart so that I can rejoin you 
at 12:00.
    Chairman Levin. Admiral Hall, you made reference to this in 
one of your principles, and that is that our Guard and Reserve 
personnel have a significant mission when they're mobilized, to 
make sure that they're properly utilized. We continue to hear 
complaints about failure to utilize properly our Guard and 
Reserve personnel. I know you have probably had some of the 
same complaints in your capacity as executive director of the 
Naval Reserve Association.
    I think that you're probably by training and experience 
going to take some extra efforts to make sure that people who 
are ordered to active duty will in fact be called up for a 
valid purpose and that they are used for that purpose, and we 
look forward to your bringing that determination and expertise 
to that particular goal, because it really is important. You 
are nodding your head, so I know you are in agreement with 
that.
    Admiral Hall. Yes, sir.
    Chairman Levin. Do you have any views about the use of 
national guardsmen and women in a Title 10 versus a Title 32 
status?
    Admiral Hall. Well, I think both of those particular titles 
allow the flexibility that's needed for the Federal and State 
mission. Title 32 is a particularly complex law which I am not 
entirely versed in, but clearly the use of Title 32 and the 
Federal funds for training missions for our guardsmen, I think 
is appropriate, so I believe there is a flexibility within both 
of those titles to allow both Federal and State authorities to 
employ those guardsmen as they need to.
    Chairman Levin. Mr. Erdmann, you have a unique perspective 
to assess the military justice system, because you are a former 
enlisted Marine, you have been a judge advocate in the Air 
National Guard. Do you believe generally that the rights 
afforded the service members who are tried by court-martial are 
comparable to the rights of individuals that are tried in 
civilian courts?
    Mr. Erdmann. Mr. Chairman, I think that they are 
comparable, certainly, and in some instances they go beyond 
what are afforded to individuals in the civilian courts.
    Chairman Levin. Are there areas where they are less?
    Mr. Erdmann. There is no specific area that comes to mind 
where they are less. I know that there are some concerns and 
some comments about the role of the convening authority in both 
pretrial and post-trial issues. That certainly leads to a 
perception that there could be some mischief by the convening 
authority. In my knowledge, those are exceptional situations, 
with the number of courts-martial that occur. There just aren't 
that many circumstances. Unfortunately when they occur, they 
are very newsworthy and they get a lot of play.
    Chairman Levin. In response to your prehearing policy 
questions, one of the most significant decisions of the Court 
of Appeals of the Armed Forces that you have cited is the case 
of U.S. v. Thomas, in which the court said that unlawful 
command influence is ``the mortal enemy of military justice.'' 
You have identified in a separate question real and perceived 
instances of unlawful command influence as one of the major 
weaknesses of the military justice system.
    Can you give us a little more of your views on unlawful 
command influence?
    Mr. Erdmann. Well, Mr. Chairman, I certainly agree that it 
is the mortal enemy of the military justice system. I think 
that tension is always going to be there as the commander has 
to have the necessary authority to insure discipline and good 
order in the military, but at the same time the safeguards have 
to be in place to insure that the rights of the individual 
service members are protected.
    I think that by and large that system works. Unfortunately, 
it goes beyond insuring that there is no illegal command 
influence, and what is necessary is to remove the perception of 
that illegal command influence, because as you're aware, in 
many cases perception becomes reality in the minds of the 
service members. I think that's an ongoing task. I think that 
this court needs to continue to be very vigilant in that area 
and continue to come down very strictly in opposition to 
unlawful command influence.
    Chairman Levin. Thank you. Let me finally ask you about 
your experience with the Office of the High Representative of 
Bosnia and Herzegovina. I gather you were involved in a number 
of fascinating issues, including the development and 
enforcement of political, economic, and social rights, revision 
of property laws, the establishment of the rule of law, 
development of nongovernmental organizations in civil society, 
establishment of gender equity programs, monitoring of domestic 
war crimes trials, liaison with international criminal 
tribunals for the former Yugoslavia in The Hague.
    Can you just comment briefly about how you got into this 
office and what your experience was there?
    Mr. Erdmann. Thank you, Mr. Chairman. Actually, I got in as 
a result of my membership in the National Guard. I was asked if 
I would go over to Bosnia in a civil affairs capacity and I 
obviously jumped at the chance. When I got to Bosnia, I was 
assigned to the Office of the High Representative as a civil 
affairs officer. My first assignment was to work with a German 
prosecutor in establishing the first what they called anti-
fraud unit, which was an anti-corruption unit. Certainly the 
Chairman is aware of the large degree of corruption that was in 
the Bosnian Government after the war and among various Bosnian 
politicians.
    While we were working on that, we discovered that there was 
no overall coordination for judicial reform in Bosnia, there 
was no real direction as to what the international community 
expected and in fact there were many different efforts from 
within the international community, some in conflict.
    After my 6-month tour with the Air National Guard, I was 
asked by the High Representative, who was then Carlos 
Westendorph, if I would stay in a civilian capacity. I agreed 
to do that and became the first judicial reform coordinator for 
the High Representative. I did that for another 6 months and 
devised a comprehensive judicial reform strategy for the 
country.
    I was then ready to come home but was asked to become the 
head of the Human Rights and Rule of Law department. That 
included all of the various issues that you just mentioned. It 
was a fascinating and often times very frustrating experience, 
and I did that for 12 months.
    We had a staff of about 70 international and national 
attorneys that were working in that regard, and it was in fact 
nation building, as opposed to the peacekeeping aspects, which 
I think is a vital companion effort. If we are not successful 
at nation building, we will be back in there peacekeeping for 
the prolonged future.
    I was then asked to be the chief judge of the Bosnian 
Election Court. That was a Dayton institution, that came from 
the Dayton peace agreement. The elections had been taken over 
completely by the international community and supervised by the 
Organization for Security and Cooperation in Europe, but they 
quickly determined that if there was a dispute coming out of 
any aspect of the election system, the way they initially 
envisioned it, it would go to a national Bosnian court. There 
they would end in the same problems because in those days 
depending on what part of the country you lived in, the 
dominant national political parties controlled the courts.
    It was a very interesting court. I learned a lot about 
collegiality on that court. As Senator Burns mentioned, there 
were six national judges on it, two Croat, two Serbs, and two 
Bosniaks, who are the Muslims. We reached almost all of our 
decisions on consensus. When I would go into those sessions--I 
don't speak the language--we would have five or six 
interpreters to help get through it, and obviously everything 
took two or three times as long. But working with the members 
of that court, and by the way, all the members of that court 
were judges in their regular life in Bosnia, several were 
members of the Bosnian Supreme Court. Working with those 
individuals certainly gave me faith that there is hope for that 
country.
    Since that time, I worked both for the State Department and 
the United States Agency for International Development (USAID) 
in Serbia and in Bosnia. Last November I was asked to do an 
assessment of the judicial reform program that had 
unfortunately come off the tracks, it was not succeeding very 
well. I wrote a paper recommending the direction it should 
take, and the Peace Implementation Council adopted that in 
February of this year.
    I was then asked to go back and have just spent the last 4 
months in Bosnia getting that implemented and getting that up 
and going. That involves the review of every sitting judge and 
prosecutor in Bosnia, opening all of those positions to any 
qualified applicant, the creation of an independent High 
Judicial Council, taking the political aspects, the executive, 
and the legislative out of the system.
    In the past there, it was the dominant parties that made 
all the decisions on the judiciary, and then they were rubber 
stamped by the parliaments, and everyone knew who they owed 
their allegiance to. We raised the salaries and we have tried 
to make those independent, and it's a tough job but hopefully 
it will succeed.
    Chairman Levin. It's an important job, and I'm sure a 
fascinating job. I spent a few days there--a lot of visits, a 
lot of meetings, so I can just imagine what the challenges are 
trying to do that. But if they can't in dispensing justice 
overcome ethnic differences, there's no place they can do it, 
so they really have to lead the way, and I guess you helped 
them lead the way and set an example for society as a whole in 
the judicial system.
    We thank you all. We will move very promptly on your 
nominations. You are all very well-qualified and we look 
forward to your service. Thank you.
    The committee stands adjourned.
    [Whereupon, the committee adjourned at 11:25 a.m.]

    [Prepared questions submitted to Gen. James L. Jones, Jr., 
USMC by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of these reforms, particularly in your 
assignments as Commanding Officer, 24th Marine Expeditionary Unit, 
during Operation Provide Comfort; as Deputy Director of Operations, 
U.S. European Command, and Chief of Staff, Joint Task Force Provide 
Promise; as Deputy Chief of Staff for Plans, Policies, and Operations, 
Headquarters Marine Corps; as the Military Assistant to the Secretary 
of Defense; and in your current assignment as Commandant of the Marine 
Corps.
    Do you support full implementation of these defense reforms?
    Answer. I have consistently supported full implementation of the 
Goldwater-Nichols legislation. The Goldwater-Nichols Act remains 
critical to promoting joint approaches and capabilities among the 
services. It provides for an effective balance between organizing, 
training, and equipping our forces and employing them in pursuit of our 
national interests. Not surprisingly, over time, the implementation of 
this act also produced some unintended consequences that, in my view, 
should be examined. I also support the Special Operations reforms and 
have taken steps to insure that the Marine Corps and the Special 
Operations Command become more closely affiliated.
    Question. Based upon your experience, what is your view of the 
extent to which these defense reforms have been implemented and the 
impact that they have had?
    Answer. We have certainly come a long way toward realizing the 
goals of the Goldwater-Nichols Act, but it remains unfinished work. 
Most of the services struggle, to some extent, with the management 
challenge of the career patterns of our personnel. It is difficult to 
manage these careers through the multiple requirements of service 
qualifications and joint service requirements simultaneously. Each 
service contributes unique, yet complementary capabilities to joint 
warfighting; yet, in order to comply with the Joint Officer Management 
Policy of the Goldwater-Nichols Act, we ask each service to adhere to a 
restrictive ``one-size-fits-all'' personnel policy. The Senate has, 
over the years, indicated that the joint officer provisions need 
careful review, and Congress has already made some necessary 
adjustments. In my opinion, each service needs more latitude in 
managing personnel policy in accordance with its own unique needs, 
culture, and core competencies, all the while remaining in compliance 
with the spirit of Goldwater-Nichol's purpose.
    Nonetheless, we have made significant progress--the services are 
providing combatant commanders--including the Commander, Special 
Operations Command--with the finest complementary capabilities and the 
best trained and equipped forces in our history. This improving 
capability began to reveal itself during Operation Desert Storm, and 
reached new heights of effectiveness most recently during Operation 
Enduring Freedom (OEF). During OEF we demonstrated the ability to 
conduct deep maneuver from a sea-base, requiring minimal host nation 
support. The immediate tactical cohesion and military successes that 
resulted between all elements of the force is one of the long lasting 
``lessons learned'' of our efforts in the war against terrorism to 
date. While we aren't yet as interoperable as we would like in some 
areas, we are vastly improved over our capabilities demonstrated during 
Operations Desert Shield and Desert Storm some 11 years ago.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The most important aspects of the Goldwater-Nichols Act 
were that it: streamlined the chain of command and increased the 
effectiveness of the Joint Staff, improved the quality of joint 
service, created an architecture that facilitated inter-service 
cooperation and experimentation, and created a better process for 
identifying joint warfighting requirements.
    Question. Do you anticipate that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. As we transform the U.S. national security structure to 
meet current and emerging threats, I would anticipate some new 
legislative proposals to move beyond Goldwater-Nichols, as well as 
other laws that were enacted in a different era. Just as Congress is 
currently crafting legislation regarding the Department of Homeland 
Security, more initiatives will be required to ensure interagency 
cooperation and a more inclusive approach to national security across 
several of the agencies of our government. More specifically, I would 
recommend that the following areas be examined:

        1. Acquisition Reform: Though not resulting from the Goldwater-
        Nichols Act, our acquisition process is too cumbersome to be 
        responsive in an environment of rapidly changing conditions, 
        technologies, and requirements. Simply put, it takes too long 
        to acquire the new technologies we need to maintain our 
        advantage over potential adversaries. We should examine the 
        impact of current law with regard to existing rules of 
        accountability for the success or failure of our major 
        programs.
         Acquisition laws/regulations seem to have been written under 
        the assumption that, left unchecked, most people in responsible 
        positions will choose the wrong/illegal course of action. My 
        experience is quite the contrary. Service chiefs are, in fact 
        but not in law, held accountable for failures in their 
        programs, particularly when those failures result in loss of 
        life. This is as it should be. At the same time, current law 
        severely restricts service chiefs from any participation in the 
        acquisition process beyond the responsibility of requirement 
        identification.

        2. Personnel Policy Reform: In our effort to standardize how we 
        treat service members across the Department of Defense, our 
        laws increasingly limit the flexibility required to maintain 
        individual service competencies and cultures. Four services 
        with unique and important cultures, organizations, 
        demographics, and needs, require more effective management 
        tools than a single, rigid set of personnel policies. Our young 
        men and women join the Armed Forces to become a soldier, 
        sailor, airman, coast guardsman, or marine. That they will 
        become members of our Nation's Joint Forces for operational 
        employment is to be celebrated, but their identity will always 
        be to their service culture. This fact remains the foundation 
        of our strength and creative diversity. We should understand 
        that our distinct service cultures are both necessary and will 
        ultimately be responsible for any real transformation in our 
        military capabilities.

        3. Role of the Joint Chiefs: The roles and functions of the 
        Joint Chiefs needs to be re-examined and appropriately 
        redefined in order to continue the tradition and expectation of 
        being able to provide the best military advice to the Secretary 
        of Defense and the President. The collective experience of this 
        important body, the diversity of the Chiefs' institutional 
        perspectives, and the Goldwater-Nichols imposed spirit of 
        cooperation and collective responsibility, provide for a needed 
        partnership to complement the important missions of the 
        combatant commanders. Today's JCS finds itself immersed in 
        Title 10 responsibilities at the expense of the equally 
        important function of providing military advice on pressing 
        global issues. I do not believe that it was the intent of 
        Congress to reduce this function at the time of Goldwater-
        Nichols passage.

        4. Consolidation of Common Functions: We must find ways to 
        continue to reduce or eliminate redundancy in logistics, 
        intelligence, and medical services. Command and control, 
        communications, and information management, are additional 
        areas which are ripe for reform as well. Fifteen defense 
        agencies and seven field activities provide support to the 
        Defense Department, collectively accounting for over $65 
        billion in annual expenditures, or about 20 percent of the DOD 
        budget. Insulated as they are from true competitive pressures, 
        these agencies lack the incentives necessary to be efficient in 
        today's environment. Many of our agencies perform functions 
        that are available commercially, frequently at less cost. In 
        previous testimony, I have recommended that a comprehensive 
        examination of the functions and organization of our agency 
        structure be conducted as a matter of some priority. I continue 
        to support such a requirement.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander in Chief, U.S. European Command (EUCOM) and NATO's 
Supreme Allied Commander, Europe (SACEUR)?
    Answer. The Commander of the U.S. European Command is responsible 
for coordinating and conducting all U.S. military operations and 
activities across the 91 countries in the European Command area of 
responsibility (AOR) in pursuit of U.S. national military objectives. 
This AOR includes all of Europe, two-thirds of the African continent, 
the Middle East, and the Caucasus Region. After 1 October, it will 
include Russia, Iceland, Greenland and approximately half of the 
Atlantic Ocean as well. He is also responsible for the health, welfare, 
and security of the approximately 117,000 service members forward 
deployed within that AOR. Further, he coordinates the efforts of the 
Service Component Commands assigned to the European Theater.
    The primary responsibility of the Supreme Allied Commander Europe 
(SACEUR) is to contribute to preserving the peace, and to assure the 
security and territorial integrity of the 19 allied member states. In 
so doing, the SACEUR is responsible to the Military Committee for the 
overall direction and conduct of all alliance military matters within 
Allied Command Europe. This includes the responsibility for providing 
military advice and maintaining close relationships with the military 
leadership of the member nations. The responsibilities of the Commander 
EUCOM and the SACEUR are complementary, and the fact that they have 
traditionally been vested in one officer allows for effective 
coordination between the U.S. and NATO military command structures.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have been fortunate to serve in a number of assignments, 
which, I believe, have prepared me for these duties. As the Commanding 
Officer, 24th Marine Expeditionary Unit, I participated in Operation 
Provide Comfort's JTF ``Bravo'' during the Kurdish relief effort of 
1991. This operation represented the largest humanitarian peace 
operation the U.S. had participated in up to that time, and NATO's 
first out of area operation. As the Deputy Director of Operations, U.S. 
European Command, and Chief of Staff, JTF Provide Promise in Bosnia-
Herzegovina (1992-1994), I was exposed to the unique challenges of U.S. 
participation in coalition operations in the region, and in 
establishing our national presence in the Former Yugoslavian Republic 
of Macedonia. In my current capacity, I have become familiar with the 
challenges of providing the military forces employed by our combatant 
commanders. These assignments have given me an opportunity to acquire 
some of the operational and diplomatic skills that, I would imagine, 
are important for any SACEUR/CINCEUR.
    On a personal note, I was fortunate to be able to spend my 
formative years in Europe (1947-1961). This experience provided me with 
a cultural education and an understanding of European perspectives from 
a very young age. My parents remained in Europe long after my return to 
the United States, and through my frequent visits and increased 
professional contacts, I was able to broaden and deepen my sense of 
European perspectives. If confirmed, my intimate and life-long 
association with Europe should be of assistance in executing my duties 
as CINCEUR/SACEUR.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform these duties?
    Answer. Key to my ability to perform the duties of CINCEUR and 
SACEUR will be early visits to the countries within the AOR, meeting 
the Chiefs and Ministers of Defense, and meeting with our ambassadors 
and their country teams. Gaining an immediate appreciation of their 
insights and perspectives will be most important. I will need to meet 
with our commanders and our forces throughout the theater, particularly 
those involved in the ongoing operations in Bosnia, Kosovo, the Former 
Yugoslav Republic of Macedonia, Georgia, and Turkey.
    Question. In carrying out your duties, how will you work with the 
Secretary of Defense, the Chairman of the Joint Chiefs of Staff, the 
Under Secretary of Defense for Policy, the Assistant Secretary of 
Defense for International Security Policy, the Assistant Secretary of 
Defense for International Security Affairs, the other combatant 
commanders, and the Chiefs of Staff of the services?
    Answer. Regular and consistent communication with all of the 
leaders mentioned in the question above will be a priority should I be 
confirmed as the next Commander of EUCOM and as SACEUR. As political 
and military events and issues change, there is a corresponding 
necessity for timely consultations and decisions. If confirmed, I 
intend to seek the guidance and counsel of those mentioned in the 
question. I would intend to achieve the same spirit of cooperation with 
these leaders that I have enjoyed while serving in my current 
assignment.
    Question. In carrying out your duties, how will you work with the 
Secretary of State, the Under Secretary of State for Political Affairs, 
the Assistant Secretary of State for European and Eurasian Affairs, the 
U.S. Permanent Representative to the North Atlantic Council, and the 
U.S. chiefs of mission to the countries in EUCOM's area of 
responsibility?
    Answer. Engaging and maintaining close communications with each of 
these leaders is also very important to succeeding as the Commander, 
EUCOM and as SACEUR. Today's ``challenge'' is an interagency and 
coalition one. Close cooperation between State and Defense Department 
officials is absolutely critical.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next CINCEUR/SACEUR?
    Answer. The next CINCEUR/SACEUR faces five broad challenges: the 
global war on terrorism; NATO enlargement; the transformation of 
alliance military capabilities; the stability and security of the 
Balkans; and the evolving relationship with Russia during this period 
of change. Each of these issues also presents important opportunities 
for the United States and her allies.
    NATO nations, as well as several countries throughout the EUCOM 
area of responsibility, are contributing to the global war on 
terrorism. Among NATO nations, this has not been limited to being a 
military effort alone. Numerous international government agencies are 
involved in the prosecution of the war. The next Commander, EUCOM and 
SACEUR will continue to cultivate and manage allied and interagency 
support at the military level. Particular attention to the force 
protection requirements of U.S. and allied service members, their 
families, and the infrastructure, will be a pressing requirement. As 
the U.S. security establishment transforms to meet current and emerging 
challenges, the next CINCEUR/SACEUR must facilitate and manage the 
activities leading to military transformation within the theater. 
Service and interagency transformation efforts must be coordinated and 
integrated as they are implemented within the European Command. We must 
advocate truly new ways of combining the elements of military power, 
leveraging our strengths while denying our adversaries opportunities to 
gain any advantage against us. This will require bold action to modify 
and streamline command structures, develop relevant capabilities, and 
retire obsolete command structures and equipment. Our forces will 
become more capable, deployable, sustainable, and survivable in order 
to meet the needs of the future international security environment. The 
next SACEUR/CINCEUR must work to facilitate these changes.
    Likewise, within NATO, the next SACEUR must provide the strategic 
leadership and vision to implement the political decisions regarding 
transformation at the military level. NATO enlargement; the enhanced 
Defense Capabilities Initiative; the NATO Command Structure Review; and 
new NATO relationships with Russia, Ukraine and many other nations are 
among the transformational efforts that will be at the forefront during 
the near future. A major post-Prague Summit challenge lies in ensuring 
that the new invitees stay the course, continue to invest in the 
collective security, and implement the key defense reforms required for 
NATO interoperability. The development of newly invited countries into 
contributing members of NATO security will be a long-term process. We 
will also be required to adjust the Partnership for Peace (PFP) 
program. As new members join NATO, they leave the receiving end of the 
PFP program. Although PFP has been an extremely successful program, it 
must be updated to the needs of the remaining members.
    Lastly, I am mindful of the value of stability and security in the 
Balkans to Europe and the United States. In Bosnia and Kosovo, the next 
CINCEUR/SACEUR will need to work closely with NATO, U.N., international 
community, and local political authorities to facilitate restoration of 
the rule of law and public confidence in civil police. As progress 
continues in this area, we can continue to downsize both the NATO and 
U.S. military footprint as has happened during General Ralston's 
tenure. Similarly, the next CINCEUR/SACEUR will need to remain closely 
engaged with international efforts in the Former Yugoslavian Republic 
of Macedonia (FYROM) and Kosovo. With continued vigilance, this mission 
will be a NATO success story of historical proportions.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. In all the areas mentioned above, the key to success will 
be proactive engagement, vision, and clear direction. The next EUCOM 
Commander and SACEUR must establish clear priorities and provide a 
strategic vision to guide transformation, foster relationships, and set 
the conditions for the successful integration of the new member 
countries. Constant assessment and the courage to adjust as required 
will be critical enablers as we address the security challenges ahead.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of CINCEUR/SACEUR?
    Answer. The most difficult challenges facing the next EUCOM 
Commander and SACEUR will be associated with helping NATO define itself 
as an alliance which should have a goal of being even more effective in 
the 21st century than it was in the 20th century, should that be 
possible. As an expanding alliance which brings the promise of future 
security and freedom to its collective members, it has the potential to 
do many great things in the years immediately ahead. That an American 
officer is privileged to lead this historically unique alliance, from 
the military standpoint, should continue to be a matter of national 
pride. The challenges to the alliance are many. Today, some even 
question its relevance, absent the threat of the former Soviet Union, 
and others do not embrace the investment requirement for 
``transformation'' of the alliance's military capability. Still others 
are concerned by the current perception of American unilateralism in 
the conduct of our national foreign policy. Clearly, we will also have 
to address the very real and very substantive intricacies involved in 
any future NATO enlargement. There also exists the perception of a 
widening gap in military capabilities between the United States and our 
NATO allies. These are examples of the complexities of the 
relationships that the EUCOM Commander and SACEUR must recognize in the 
important relationships we have with our friends in an expanded Europe 
and a potentially emergent Africa.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. I believe it would be imprudent for me to arbitrarily 
establish timelines or specific management actions without first taking 
the opportunity to confer with our national leadership and the 
political and military leadership of NATO, as well as that of the 
nations within the EUCOM region. If confirmed, I intend to address the 
many challenges which face the alliance and our U.S. presence in Europe 
in ways which are clear, unambiguous, and effective.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the CINCEUR/SACEUR?
    Answer. If confirmed, my foremost priority as the Commander, EUCOM 
and SACEUR will be to ensure the readiness, interoperability and force 
protection of U.S. forces deployed within the theater. This is critical 
if we are to be capable of executing military missions in pursuit of 
national objectives. I will work diligently with the service chiefs and 
service component commanders to ensure that the weapons, training and 
equipment are appropriate to the mission, and that the supporting 
infrastructure in both the work and living environments adequately 
supports our service members and their families.
    In both roles, my priorities will be consistent with my response to 
Question 3. In the global war on terrorism, my priority will be to 
promote and sustain allied and interagency support for military 
activities--not only in Europe, but also in Africa, the Caucasus and 
the Balkans where often fragile governments can sometimes unknowingly 
and/or unwillingly provide terrorists with operating bases and network 
support.
    Leading the transformation of U.S. European Command and NATO forces 
to be better able to meet current and emerging threats will be a 
priority. This will require me to work closely and diligently with the 
leadership of the service component commands, interagency leaders, 
allied Chiefs and Ministers of Defense, and various organizations in 
the international community. It will also require me to keep my 
leadership here at home and within NATO both consulted and informed.
    Finally, facilitating those things that we can do on the military 
level to promote progress in reestablishing the rule of law and 
generating popular confidence in civil police institutions, so that we 
can eventually remove the NATO military presence in the Balkans, will 
be a continuing priority.
                       russia and the caspian sea
    Question. If confirmed, you would be the first CINCEUR to have 
Russia and the Caspian Sea assigned to your area of responsibility.
    What do you see as the most significant issues that will have to be 
faced vis-a-vis Russia in the next year or so?
    Answer. The most significant issues we will face with Russia in the 
near-term are:

        NATO-Russia Council: Russian President Putin has made an 
        impressive and clear choice to seek greater integration with 
        the west and this includes NATO. NATO, and in particular 
        President Bush, has responded to that choice with a new 
        mechanism for communication and cooperation, the NATO-Russia 
        Council. In the next 12 months, we must capitalize on the 
        historical opportunity to forge new military-to-military 
        initiatives and programs focused on institutionalizing NATO-
        Russia interoperability at the tactical and operational level.

        Deepening Cooperation in the Global War on Terrorism (GWOT): 
        Russia is a geo-strategically important partner for the United 
        States and for the west in general. Under President Putin's 
        leadership, Russia has been an important partner in the war on 
        international terrorism. Russia is a country rich in resources 
        and scientific knowledge and capability. We will need to 
        capitalize on these factors, as well as Russia's strong 
        connections to Central Asia and the Caucasus, to achieve our 
        mutual objectives in the war on terror. At the same time, we 
        need to continue to emphasize that some of the methods used by 
        Russian forces in the name of the war on terror (most notably 
        the prosecution of the campaign in Chechnya and the bombing of 
        sovereign Georgian territory) currently impede our ability to 
        progress towards the achievement of our mutual goals.

        Counter-proliferation: Russia must come to fully understand 
        that its transfers of nuclear and other dual-use technology to 
        unstable regimes or regimes tied to terrorism are just as 
        dangerous to Russia as they are to the U.S. and other European 
        nations. Russia's current programs, while providing short-term 
        economic and industrial benefits to Russia, threaten to 
        undermine current regional stability and security and seed a 
        complex and dangerous future security environment.

        Military-to-Military Contacts: The U.S. should strengthen 
        bilateral and multi-lateral military contacts with Russia at 
        the operational and tactical levels to increase 
        interoperability of U.S.-Russian forces. Our engagement 
        strategy must be multi-dimensional, maximizing the unique 
        engagement tools available to us in the European theater. 
        Examples of such tools include the Marshall Center, the Warrior 
        Preparation Center in Hohenfels, and co-deployment in the 
        Stabilization Force (SFOR) in Bosnia and the Kosovo Force 
        (KFOR). We must take the valuable accomplishments from our 
        common mission in SFOR and KFOR and apply this experience to 
        advance our cooperation in the global war on terrorism. At the 
        same time, our engagement strategy should be geared toward 
        building enduring relationships at every level: investing in 
        the future by working with tomorrow's leaders while 
        simultaneously enhancing the quality of our relationship with 
        today's leaders and commanders.

        Unified Command Plan (UCP) Change: We must create new 
        mechanisms for coordinating military-to-military cooperation 
        directly with the Russian General Staff and identify and 
        prioritize activities that directly support EUCOM missions and 
        goals. In the past, the Russians have dealt with the U.S. Joint 
        Staff for all military-to-military contacts. EUCOM will 
        henceforth coordinate most of these contacts and this change 
        will require the Russian General Staff to adjust accordingly. 
        There are numerous direct benefits for Russia in this changing 
        relationship. Russian forces and our European Command have a 
        long history of interaction over the past 7 years in the 
        Balkans and in other EUCOM based activities. In addition, the 
        Russian General Staff will now coordinate directly with the 
        commanders and staff who control U.S. military assets in 
        Europe. This experience and command authority will benefit the 
        overall military-military relationship.

    Question. What do you see as the impact of the development of the 
oil and natural gas resources of the Caspian Sea on United States' 
relations with Azerbaijan, Armenia, Georgia, Turkey and Russia?
    Answer. Security cooperation is already a U.S. priority for this 
region, particularly as mutually beneficial relationships enhance our 
collective abilities to combat global terrorism. Development and 
transmission of energy resources in the Caspian Sea region only 
increases the importance of our relationships with these countries. 
More specifically, the commercial dimensions of energy development 
underscore the requirement that EUCOM's security cooperation 
initiatives be coordinated with non-military approaches. In the context 
of energy development, regional stability becomes an even greater 
priority.
    Conflicts between Armenia and Azerbaijan, internal strife within 
Georgia, and various cross-border flare-ups are inherently detrimental 
to economic development in this region. The interests of all parties--
the Caucasus nations, Turkey, Russia and the U.S.--will suffer if the 
region is not stabilized. This region already presents a unique set of 
challenges. With the emergence of Caspian Sea energy development as a 
priority issue, the level of complexity only increases. To succeed in 
this environment, EUCOM will continue to pursue approaches that are 
based on a broad, all-encompassing vision for the region. Where 
possible, EUCOM would be well served to develop a consensus among these 
nations that cooperative efforts will reap long-term benefits, whether 
they are related to the GWOT or economic development.
    Question. In your view, what are the major challenges that will 
confront the next CINCEUR/SACEUR?
    Answer. The major challenges confronting the next Commander, EUCOM/
SACEUR with regard to Russia and the Caspian Sea include fostering 
stability in the Caucasus region; establishing a foundation for 
regional cooperation as it pertains to Caspian Sea energy development; 
building on bilateral and multilateral relationships to enhance our 
capacity to combat terrorism; and supporting the voices of 
democratization and military transformation in Azerbaijan, Armenia, 
Georgia and Russia.
                           nato capabilities
    Question. In their Statement on Capabilities issued on June 6, NATO 
Defense Ministers stated that ``We recognize that the ability of the 
Alliance to fulfill the full range of its missions in the changing 
security environment will depend largely upon our ability to increase 
substantially the proportion of our combat forces and support forces 
that are available for deployment on operations beyond home territory 
or where there is no substantial host nation support.'' General Klaus 
Naumann, former chairman of NATO's Military Committee, writing in the 
Summer 2002 NATO Review, put it boldly that, ``Unless the November 
meeting of Allied leaders in Prague, originally billed as the 
`enlargement summit,' is truly turned into a `transformation summit,' 
NATO will have outlived its utility and will fade away.''
    What are your views on the need for the transformation of NATO 
forces and the likelihood that NATO member nations will be willing to 
devote the required resources to bring that transformation about?
    Answer. The world's security environment has and continues to 
change. NATO must transform to maintain its effectiveness as an 
alliance in this changing environment--just as our own U.S. military 
must transform. The Secretary of Defense has proposed a new command 
structure to aid in NATO's transformation, which was reviewed by the 
first meeting of the Senior Officials Group (SOG) on September 6. The 
proposal would transform the current Allied Command Atlantic (ACLANT) 
from a strategic regional command into a strategic functional command 
specifically tasked for the transformation of the alliance. Our allies 
also recognize that transformation is needed, and many are proposing 
plans or preparing their positions on transformation for decision at 
the Prague Summit. Transformation will be the foremost agenda item at 
Prague, where the strategy is to pursue ``new capabilities'' (to 
include a new command structure), ``new members'' (potential 
enlargement), and ``new relationships'' (such as the new NATO-Russia 
Council).
    As to our allies' willingness to devote resources, I can only 
speculate at this point. Much depends on the final transformation plan 
on which the 19 member nations agree and how that plan is supported by 
each nation. We must continue to push our view of a transformed NATO 
and for burden sharing that supports that transformation.
    Question. In your view, what are the major challenges that will 
confront the next CINCEUR/SACEUR?
    Answer. Breaking down resistance to change and providing a vision 
for NATO transformation will be major challenges in the coming years. 
The next Commander EUCOM/SACEUR will be at the forefront of sweeping 
changes in the NATO command and force structure. Allied Command Europe 
(ACE) will likely take on a larger area of responsibility as the only 
operational Strategic Command. To further streamline the command 
structure, NATO will need to consolidate second and third tier 
headquarters, and this will be difficult for some nations who highly 
value the current NATO headquarters on their territory. Force structure 
must also change to match the new command structure--a process which is 
now underway through the development of deployable, Graduated Readiness 
Force Headquarters. Forces need to be more capable, deployable, 
sustainable, and survivable to meet the needs of the future 
international security environment. The next Commander EUCOM/SACEUR 
must work to facilitate these incredibly important, and necessary, 
changes.
              european security and defense policy (esdp)
    Question. The European Union is establishing--separate from NATO--
its own military capability, centered on a rapid-reaction force that 
will consist of 60,000 troops drawn from the militaries of the European 
Union members.
    How will the establishment of this force impact NATO's military 
capabilities?
    Answer. The military capability that the European Union (EU) is 
developing is, in great part, not ``separate from NATO.'' In effect, 
the dual EU/NATO members have largely pledged forces that are now 
triple-hatted to support existing NATO missions, a sovereign national 
mission and the new EU mission. The impact on NATO military 
capabilities is not significant unless a situation arises in which the 
EU requires the dual-hatted forces. The EU and NATO have not yet worked 
through developing the arrangements for EU access to these assets and 
capabilities (also known as ``Berlin Plus''). On the positive side, 
ESDP does have a civilian ``peace support'' capability that, as 
evidenced by the EU takeover of the United Nations International Police 
Task Force in Bosnia, can complement military personnel who are less-
suited to police operations. I am also hopeful that the European Union 
will prove more persuasive with respect to influencing the EU's NATO 
members to invest more on collective security, resulting ultimately in 
improved NATO military capabilities.
    Question. In your view, what are the major challenges that will 
confront the next CINCEUR/SACEUR?
    Answer. The EU's relationship with the non-EU NATO members and the 
nature and complexity of that relationship as it affects NATO linkages 
will remain a challenge. Additionally, should EU and NATO enlargement 
occur, the resolution of Berlin Plus will take on added importance and 
urgency. Finally, there is the matter of the International Criminal 
Court and current efforts to sign bilateral agreements with nations in 
order to protect U.S. forces deployed abroad. The next Commander EUCOM/
SACEUR will need to monitor each of these issues closely, and give his 
best military advice to U.S. and NATO political leaders on potential 
impacts as each of these issues develop.
                            nato enlargement
    Question. NATO will be deciding what nations, if any, it will 
invite to join the alliance at the November 2002 Summit in Prague.
    Assuming further enlargement of the alliance follows that summit, 
what challenges do you foresee that would have to be addressed (1) on a 
bilateral military to military level and (2) on the alliance level?
    Answer. On a bilateral basis, EUCOM will need to take account of 
enlargement decisions in its security cooperation program. The 
bilateral military-to-military exercises and other activities will 
support integration of the invited nations into NATO, while adjustments 
will be made to focus on the needs of those partners not invited to 
join. This will be a seamless transition, based on EUCOM's well-
established cooperation with members of NATO's Membership Action Plan 
(MAP) and Partnership for Peace (PfP) Program.
    On an alliance level, NATO and the new invitees will need to work 
out specific action plans to prepare for accession. These plans, which 
will build on the current work under the individual annual plans for 
MAP members, will focus on the critical legal, security, and 
interoperability objectives needed for integration as NATO members upon 
accession. Much progress has already been achieved through MAP, 
applying the lessons learned from the most recent accession of Poland, 
Hungary, and the Czech Republic. As in the case of those three nations, 
we must expect that effective integration of new members will require 
sustained efforts by those governments and their armed forces so that 
they can contribute to all alliance missions. It should be noted that 
most MAP nations have already gained much useful practical experience 
through their participation in alliance operations in the Balkans or in 
Operation Enduring Freedom.
    Question. Do you believe that a refusal by a candidate nation for 
NATO membership to agree to exempt Americans from the jurisdiction of 
the International Criminal Court would warrant U.S. opposition to such 
membership?
    Answer. No. While we should continue to pursue Article 98 
exemptions, linking the signing of such agreements with enlargement 
decisions would be an error. Other NATO allies would perceive that type 
of action as unjust unilateral pressure.
    Question. Based upon your experience as the EUCOM Deputy Director 
of Operations (J-3) and Chief of Staff, Joint Task Force Provide 
Promise, for operations in Bosnia-Herzegovina and Macedonia and your 
dealings with various NATO nations and international organizations, 
would you favor streamlining the NATO chain of command and 
decisionmaking process in a post-enlargement era?
    Answer. Yes. NATO leaders have already launched a comprehensive 
review of the command and force structures. Streamlining the NATO 
command structure is already a necessity and will be even more 
important in the post-enlargement era. This is an inherent part of the 
NATO transformation process.
    Question. The military operations NATO conducted in Kosovo revealed 
the problems inherent in conducting a military operation by consensus. 
At that time, agreement was needed only among the current 19 members. 
Would NATO be able to effectively conduct a military operation in the 
future with potentially 28 members?
    Answer. Increasing the number of NATO members from 19 to 28 should 
have very little impact on decisionmaking. The last round of 
enlargement, growing NATO from 16 to 19 members, had no noticeable 
effect on NATO decisionmaking. Today, NATO leads operations in Kosovo 
with the forces of 34 nations--and appears to be doing so with no 
problems with regard to decisionmaking. Our challenge will be to 
maximize the efficiency of the process by streamlining command 
structures and pushing decision making down to lower levels when 
reasonable.
    Question. In your view, what are the major challenges that will 
confront the next CINCEUR/SACEUR?
    Answer. A major post-Prague challenge will be ensuring the old and 
new invitees stay the course, continue to invest in defense, and 
implement the key defense reforms required for NATO interoperability. 
Turning newly invited countries into contributing members of NATO 
security will be a long-term process. Another challenge will lie in 
adjusting the PfP program. As new members join NATO they leave the 
receiving end of the PfP program. Although PfP has been an extremely 
successful program, it must be updated to the needs of the remaining 
members, many of whom will require more help than the invited nations.
               allied command europe mobile force (land)
    Question. NATO has announced the disbandment of Allied Command 
Europe Mobile Force (LAND)(AMF(L)). The NATO announcement stated, in 
part, that ``The concept of rapid deployment and flexible multinational 
forces, which was characteristic for AMF, is being incorporated into 
NATO's new concept of graduated readiness forces. Therefore the command 
and control structure of AMF(L) can be dissolved. . . .'' It would 
appear that AMF(L), a force that was created by NATO as a small 
multinational force that could be sent on short notice to any part of 
Allied Command Europe under threat, is the type of force that is suited 
to today's security environment.
    What are your views on this NATO decision?
    Answer. I concur with NATO's decision to move toward more rapid, 
deployable and responsive forces. The concept behind AMF(L) remains 
valid, but the new graduated readiness forces will be better at 
realizing the objectives of that concept than the AMF(L). What NATO 
gains with the new Graduated Readiness Forces is a rotational pool of 
air, land and maritime forces, available for rapid deployment. These 
forces will be capable of carrying out a full range of alliance 
missions, from out-of-area crisis response to Article 5 actions. I 
believe this is a win-win concept for both NATO and the U.S. by 
improving the readiness and operational flexibility of alliance forces.
    Question. In your view, what are the major challenges that will 
confront the next CINCEUR/SACEUR?
    Answer. First, I believe it is very important to recognize that not 
all of the challenges ahead can be conveniently categorized under the 
rubric of ally ``deficiencies.'' Our allies have developed superior 
capabilities and concepts of their own. We should recognize and 
incorporate the strengths they bring to the alliance, as well as the 
significant capabilities many are currently developing. Special 
Operations Forces are an example of a traditional strength for many 
NATO members, while increased investment in amphibious shipping by 
several members holds great promise for an increased out of area, 
expeditionary capability. Having said this, clearly there are areas 
where NATO must improve. For example, we have the continued challenge 
to assist NATO in implementing the Graduated Readiness Force 
Headquarters and streamlining the command and force structure, as well 
as the imperative to assist NATO in its transformation efforts. We 
should encourage our allies to take on tasks and build capabilities for 
which the U.S. has been the sole available provider. This will require 
our continued assistance and demonstrated support to ensure the success 
of their efforts.
                                  iraq
    Question. U.S. European Command (EUCOM) is presently commanding the 
forces operating from NATO ally Turkey in Operation Northern Watch to 
enforce the no-fly zone north of the 36th parallel in northern Iraq. In 
the aftermath of the Persian Gulf War, you participated in EUCOM's 
Operation Provide Comfort in northern Iraq under EUCOM. Iraq is within 
the Central Command's (CENTCOM) area of responsibility.
    If the United States should attack Iraq in the future and if part 
of the attacking force is based in Turkey, do you anticipate that EUCOM 
will exercise operational control over that part of the force that 
would operate from Turkey?
    Answer. Per direction of the Chairman of the Joint Chiefs of Staff 
(CJCS), the EUCOM and CENTCOM staffs have been conducting parallel 
planning since early July in regard to potential operations in Iraq. In 
this planning effort and during any actual operations, CENTCOM is the 
``supported'' combatant command; EUCOM the ``supporting'' combatant 
command. Any EUCOM naval, air, land and Special Operations Forces 
designated to support potential operations in Iraq--to include those 
forces that might be based in Turkey--will remain under EUCOM's 
operational control (OPCON) but under CENTCOM's tactical control 
(TACON). Both EUCOM and CENTCOM feel this is the appropriate command 
relationship in that it provides the CENTCOM commander with total 
authority, flexibility, and control concerning the manner in which 
these forces would be employed in Iraq--without burdening him with the 
tasks of getting them into the Iraqi theater of operations and 
sustaining them once they are there.
    Question. If so, how would unity of command and deconfliction of 
the attacking force be accomplished?
    Answer. As mentioned above, it is envisioned that CENTCOM will 
provide the sole commander making all decisions regarding force 
employment for any future operations in Iraq. This is not militarily 
difficult, but it is an important question to resolve at an early 
stage. We have done so.
    Question. In your view, how important do you believe the 
cooperation and involvement of regional and allied nations would be to 
an attack on Iraq?
    Answer. The cooperation and involvement of regional and allied 
nations is highly desirable in such an undertaking. The combatant 
commander has more varied and robust response options at his disposal 
in order to accomplish the mission if a strong coalition is formed and 
maintained. Success, both during hostilities and during post-conflict 
stabilization, is enhanced by increased participation of others in the 
region, and by allied partners from across the international community.
    Question. What lessons, if any, did you learn from your 
participation in Operation Provide Comfort?
    Answer. Operation Provide Comfort demonstrated two important 
lessons to me. First, that humanitarian and peace enforcement 
operations, like combat operations, are bolstered by the combined 
efforts of coalition partners. 25,000 elite members of European Armed 
Forces worked closely with American military personnel to ensure that 
the Kurdish relief effort was successful. We accomplished our mission 
because of our teamwork and the resources found in our diverse 
strengths. Second, that military power can be used in a credible way to 
accomplish stability and security missions with minimal violence. 
Operation Provide Comfort allowed half a million Kurds to return to 
their homes without bloodshed because the actions of European and 
American forces sent an unambiguous message that we had both the will 
and the capacity to achieve our objectives.
    Question. In your view, what are the major challenges that will 
confront the next CINCEUR/SACEUR?
    Answer. Working as a member of the U.S. Government (USG) 
interagency team, garnering the complete and timely military 
cooperation of regional partners and complex alliances is a traditional 
and continuing challenge. Sustaining the war on terrorism by conducting 
security cooperation activities and deterring proliferation of 
chemical, biological, radiological, nuclear, and enhanced high 
explosive (CBRNE) weapons, associated technologies and delivery systems 
will remain critical objectives. Ensuring that current and future 
operations are adequately supported as we adjust NATO and coalition 
command and force structures in the months ahead will present ongoing 
challenges. Finally, expanding European regional stability and security 
south and east will remain a goal of any conflict resolution with Iraq.
    african contingency operations training and assistance program, 
      formerly known as african crisis response initiative (acri)
    Question. EUCOM is the DOD executive agent for the military aspects 
of the African Crisis Response Initiative (ACRI). Some have suggested 
an expansion of the ACRI program to prepare African nations forces for 
peace enforcement as well as peacekeeping. Others believe that the ACRI 
program should be limited to preparation for peacekeeping. Still others 
believe the ACRI program should be terminated due to the strain on 
Special Operations Forces and the limited returns from the program.
    What are your views on the ACRI program?
    Answer. For the past 5 years, ACRI was a valuable tool in pursuing 
our engagement strategy in Africa. It not only built and strengthened 
partnerships with key African allies such as Senegal, Uganda, Malawi, 
Mali, Ghana, Benin, Cote d'Ivoire, Kenya, and Ghana, it has also 
created a real capacity for African nations and organizations to deal 
with African problems.
    African military leadership's feedback about ACRI was that the 
program was not tailored to a partner nation's unique capabilities and 
experiences. The African Contingency Operations Training and Assistance 
Program (ACOTA, formerly ACRI) addresses this issue in the form of a 
Program Development Team (PDT) charged with creating a concept of 
training after consultation with the host nation military and civilian 
leadership. A comprehensive military assessment is critical for ACOTA 
to achieve its goals and objectives. A military assessment will provide 
the requisite objective analysis of capability and then determine what 
training is required to address those capabilities.
    We recognize that each African military is unique and, accordingly, 
the ACOTA program will be individually designed in coordination with 
each African partner country to address that country's specific 
capabilities, needs, and priorities. In turn, the partner countries can 
target the program narrowly or broadly across the full spectrum of 
ground, naval, and air forces humanitarian relief and peace support 
operations skills and capabilities.
    Participation in ACOTA can enhance unit readiness. As we continue 
to pursue the global war on terrorism, the role of Africa in this war 
will take on increased importance. Our best strategy in Africa is to 
work towards the long-term objectives of building stability and 
security to avoid near-term problems. Programs such as ACOTA remain an 
integral part of this strategy.
                            war on terrorism
    Question. Although the main focus of the United States has been on 
the war in Afghanistan, U.S. Special Operations Forces are training 
host nation military forces in the Philippines, Georgia, and Yemen to 
enhance their counterterrorism capabilities.
    Please describe the Georgia Train and Equip Program (GTEP).
    Answer. GTEP is a time-phased training initiative that will enhance 
the capability of selected Georgian military units to provide security 
and stability to the citizens of Georgia and the region. The training 
was designed to educate the Georgian Ministry of Defense (MOD) on how 
to organize and employ their military forces, and to train five 
Georgian military units to provide them with a solid base upon which to 
build. Staff training was focused at the national level on joint 
interoperability and interagency coordination to enable the Georgian 
Ministry of Defense (MOD) to integrate with non-MOD agencies to build a 
cohesive national defense structure.
    Question. Provide an estimate as to when the Georgian security 
forces might be able to deal with the presence of outside forces in the 
Pankisi Gorge.
    Answer. [Deleted.]
    It is our understanding, however, that current Georgian laws and/or 
policies may prevent or hinder the use of the Georgian forces in an 
internal security situation. When these forces might be able to deal 
with the presence of outsides forces in the Pankisi Gorge is a question 
best answered by the Georgian civilian and military leadership.
    Question. What do you see as EUCOM's role in the war on terrorism?
    Answer. First and foremost, EUCOM's role is to protect the 
citizens, forces, and critical infrastructure of the United States, our 
friends and our allies from attack--or threat of attack--by a terrorist 
group or organization. A key component of this role is to prevent 
terrorists and terrorist organizations from developing, otherwise 
obtaining, and/or using weapons of mass destruction.
    Second, EUCOM's task is to work with the U.S. Government (USG) 
interagency and our coalition partners to find and defeat terrorist 
organizations. Simultaneously, we must work with the USG interagency 
and our coalition partners to convince their supporters--both state and 
nonstate actors--to stop their support for terrorism. Failing this, we 
must be prepared to compel these supporters to stop their activities--
using force when deemed appropriate. EUCOM must also work to establish 
arrangements and structures in the area of responsibility (AOR) that 
prevent the emergence or re-emergence of terrorism. This includes the 
absolutely essential role of building and maintaining a core coalition 
of nations committed to a long-term fight to defeat terrorism.
    Question. What do you see as NATO's role in the war on terrorism?
    Answer. NATO continues to play a critical role in the war on 
terrorism. NATO's response to the September 11 attacks reaffirmed the 
importance of the transatlantic partnership. The decision to declare 
Article 5 within hours of the attacks was not just a statement of 
solidarity. It was also a commitment by allies to offer the best 
practical support possible. The U.S. asked for a range of specific 
measures, such as enhanced intelligence support, blanket overflight 
rights and access to ports and airfields. Our allies gave us everything 
we asked for and more. The debate over out-of-area operations 
effectively ended as NATO countries deployed troops to Afghanistan in 
support of the war. Because of NATO engagement in central Asia via the 
Partnership for Peace Program, we were able to use bases in Uzbekistan. 
Because of NATO's emphasis on multinational interoperability, British 
tankers refueled U.S. Navy fighters over Afghanistan. NATO is a 
flexible alliance, contributing directly to the war on terrorism and 
adapting to meet the new threats of the 21st century. It provides the 
political base, the interoperable military capability and the 
foundation for building the right coalition to fight the war on 
terrorism.
                         bosnia and herzegovina
    Question. There is a strong consensus that the long-term stability 
of Bosnia is dependent upon bringing persons indicted for war crimes 
(PIFWCs), particularly Radovan Karadzic, to justice. On August 16, the 
NATO-led Stabilization Force (SFOR) concluded a large-scale operation 
whose purpose was to pursue information related to Karadzic's support 
network in southern Republika Srpska. Also on August 16, the High 
Representative, Paddy Ashdown, appointed a Senior Deputy High 
Representative to be the Head of the Rule of Law Unit. U.S. Ambassador 
to Bosnia, Clifford Bond, and the SFOR Commander, U.S. Lieutenant 
General John Sylvester, USA, both have called for a professional, 
capable police, backed up by reformed prosecutorial, judiciary, and 
penal systems in Bosnia as the basis for an exit strategy for SFOR. In 
the meantime, the European Union (EU) is planning to provide an EU 
Police Mission (EUPM), comprised of about 550 personnel, to take over 
from the U.N.'s International Police Task Force (IPTF) in January 2003.
    Please describe your view of the basis for an exit strategy for 
SFOR and the role that you believe the Office of the High 
Representative can play in achieving it.
    Answer. As you have pointed out, any exit strategy for Bosnia must 
address all of the elements of the rule of law in Bosnia, including 
prosecutorial, judiciary and penal-system reform. On that point I am in 
full concurrence with General Ralston, LTG Sylvester, and Ambassador 
Bond.
    The key challenge that we face in Bosnia-Herzegovina is the absence 
of an effective rule of law. It is manifested by the actions of an 
underpaid or sometimes unpaid police force, which supplements its 
income through graft and corruption; prosecutors and judges who take 
actions and make decisions based too often on ethnic backgrounds or 
political connections; a penal system which selectively implements, or 
which fails to implement sentences; and politicians who use the 
government bureaucracy to subvert various aspects of the legal system.
    With this challenge in mind, I believe the new High Representative, 
Lord Paddy Ashdown, can play a very important role in facilitating 
SFOR's exit strategy. I am greatly encouraged by reports that he is 
following through on his promises made to the Bosnian people to fight 
corruption and create jobs. In his short tenure as High Representative, 
Lord Ashdown has already relieved many corrupt officials from their 
functions. His decisiveness in tackling corruption in the judiciary 
realm seems to indicate promise for his slogan: ``First justice. Then 
jobs. Through reform.'' His progress in this realm can only help speed 
up the timetable for an eventual SFOR disengagement.
    Question. Do you believe that a EUPM of only about 550 personnel is 
sufficient to oversee the development of a professional, capable police 
force that is required for Bosnia?
    Answer. Yes, although the task before them will be challenging. The 
key will be for the EUPM to ensure that their efforts are well 
coordinated with the rest of the international community. The EU is 
apparently of the opinion that the U.N. mission has largely fulfilled 
its mandate of police training, so the EU focus will be different. The 
EU goal is to wean the Bosnian police from a ``cycle of dependence.'' 
The EU believes the local police will continue to defer policing to 
international monitors as long as they are available. Therefore, the EU 
plans to focus on mid- and upper-level management, not street policing. 
The challenge is to identify those mid- and upper-level managers who 
are corrupt or inept, then get rid of the corrupt ones and train the 
inept ones. This should tie in well with Lord Ashdown's 10-point plan 
to fight corruption and create jobs, and the shakeup of the judiciary 
that has accompanied his efforts.
    I think the primary challenge that lies before the EUPM will be to 
get the local people involved in policing their own society and 
managing the rule of law without outside assistance or supervision. It 
is my hope that in addition to cleaning up corrupt mid- and upper-level 
management the EUPM will likewise place a strong focus on training 
local people so that they can ultimately police themselves.
                                 kosovo
    Question. NATO Defense Ministers on June 6 approved a restructuring 
of the command and control structure of SFOR and the Kosovo Force 
(KFOR) along regional lines and the attainment of full operational 
capability of Operational and Strategic Reserve Forces. This NATO 
decision also involves, by the end of 2002, the draw down to 12,000 
troops for SFOR, while KFOR will reduce to 32,000 troops and, by the 
end of June 2003, further reductions to around 29,000 troops for KFOR.
    Please describe the new command and control structure for SFOR and 
KFOR and what the troop draw down will mean for the U.S. forces in 
those NATO-led missions.
    Answer. The new command and control structure for SFOR and KFOR 
will reduce and consolidate headquarters and be supported by NATO's 
development of an over-the-horizon reserve force, a concept which 
complements the alliance's in-place forces. Lighter, more mobile and 
more flexible forces will be cost effective, as well as better able to 
respond to security needs in the region. Relying upon mobility, these 
strategic forces will enable further force reductions commensurate with 
the security environment.
    With respect to the draw down, improvements in the Balkan security 
environment have allowed for significant and continued reductions in 
the level of forces there. KFOR has already been reduced to 32,000 
troops and, by the end of June 2003, will further reduce to 
approximately 27,000 troops. U.S. force levels will be approximately 15 
percent of the overall force levels. There will be approximately 1,800 
U.S. troops in SFOR by October 2002 and approximately 4,000 U.S. troops 
in Kosovo by November 2002. The North Atlantic Council's plan to 
further reduce NATO forces in Kosovo and Bosnia includes a 
proportionate reduction in U.S. forces.
    Question. What do you see as the road ahead for the eventual 
withdrawal of NATO forces from Kosovo?
    Answer. The law enforcement and civil administration programs 
initiated by the international community are now taking root in Kosovo. 
These programs strengthen the domestic rule of law each and every day, 
thereby contributing to safety and security throughout the province. We 
must also focus on economic developments in the region; crime and 
corruption, particularly reducing the influence of organized crime; and 
the return and incorporation of Serbian internally displaced persons. 
As domestic security strengthens, the need for KFOR diminishes, 
creating conditions for eventual NATO withdrawal, but this will depend 
on the eventual political decision on the final status of the province.
                          nato-eu relationship
    Question. NATO has extended the mandate of Task Force Amber Fox in 
Macedonia, whose mission is to protect EU and Organization for Security 
and Cooperation in Europe (OSCE) international monitors, until October 
26, 2002. That mandate will probably be renewed until the end of the 
year when the EU is expected to assume responsibility for the 
operation. Thus far, however, the inability of NATO and the EU to reach 
an agreement on the use of NATO assets and capabilities by the EU has 
prevented the EU from assuming responsibility for the operation.
    Please provide an update on the effort to negotiate a NATO-EU 
agreement and the impact that a failure to reach an agreement will have 
on NATO-EU relations.
    Answer. My understanding is that NATO-EU discussions have been 
stalled because of disagreements regarding the participation of non-EU 
allies in EU-led military operations and other, more technical issues 
such as the role of the European Deputy SACEUR. The overall set of 
arrangements known as ``Berlin Plus'' has, therefore, not been 
completed. However, the absence of that agreement has not prevented 
NATO and EU cooperation in joint political actions to strengthen 
stability in such tense areas as the Presevo Valley in southern Serbia 
or in Macedonia. In the longer term, failure to establish the Berlin 
Plus arrangements would likely lead to the development of EU military 
doctrines, procedures and mechanisms that would be different from those 
of NATO, raising the risk of competitive rather than complementary 
institutions. Accordingly, the member nations of NATO and the EU need 
to intensify their diplomatic efforts to overcome the current 
difficulties and establish the arrangements for close and effective 
cooperation.
                       joint contact team program
    Question. EUCOM's Joint Contact Team Program (JCTP) has been 
described as one of the most successful of the CINC's theater 
engagement programs.
    Please describe the JCTP and give us your evaluation of the 
program, including its benefits to the United States.
    Answer. The JCTP remains a pillar of EUCOM peacetime security 
cooperation activities in Central/Eastern Europe and the Trans-Caucasus 
region. The program supports the EUCOM theater objectives of stability, 
democratization, military professionalism, closer relationships with 
NATO members and preparing new members for NATO integration. Over 7,750 
military-to-military contacts, or ``events,'' have helped host nations 
address such fundamental topics as human rights guarantees for 
soldiers, civilian control of the military, establishment of military 
legal codes, and programs to develop professional noncommissioned 
officer and chaplain corps. Jointly staffed Offices of Defense 
Cooperation (ODC) are the key to executing this program in concert with 
the other EUCOM Security Cooperation activities.
    JCTP conducts basic familiarization and therefore has limited value 
for the more advanced countries in EUCOM's area of responsibility 
(AOR). As a result, the numbers of JCTP events in many countries have 
been reduced to free up resources to expand to more fertile regions. Of 
particular note is the recent standup of the JCTP in Bosnia and 
Herzegovina. JCTP events are providing critical information to senior 
government and military leadership while also providing opportunities 
for a growing dialog among mid-grade officers from all ethnic groups. 
Seeds are being planted today which will bear much fruit in the years 
to come.
    JCTP is also expanding in the Trans-Caucasus region. While the 
program has been active in Georgia since 1999, the repeal of Section 
907 of the Freedom Support Act enabled EUCOM to explore expansion of 
the JCTP into Azerbaijan and Armenia.
    The obvious benefits of the JCTP are increased regional stability 
and democratization, but the benefits go well beyond these. Over the 
years, EUCOM has seen an ongoing transformation, restructuring, and 
downsizing of eastern European militaries. All of the NATO aspirants 
have benefited from JCTP and their progress towards achievement of 
their Membership Action Plan goals has been aided by JCTP events. U.S. 
military actions in Bosnia, Kosovo and, most recently, Afghanistan, 
have all benefited from access to airspace and resources in Central/
Eastern Europe and the Trans-Caucasus. JCTP, as a visible presence, 
helps to assure this access. Also, many of our JCTP countries are 
active participants in the global war on terrorism and many JCTP events 
have been designed to provide necessary information in a timely manner.
    In summary, JCTP remains a pillar of EUCOM's peacetime security 
cooperation activities. With a reduction in the more advanced 
countries, EUCOM is able to redirect resources where they will provide 
the greatest return on investment.
    Question. In your view, what are the major challenges that will 
confront the next CINCEUR/SACEUR?
    Answer. Our challenge is to continue to ensure the relevancy of the 
JCTP in a changing world. New opportunities in the EUCOM AOR provide 
opportunities to influence the development of military power, advance 
democratic principles and expand U.S. access to critical areas of the 
globe.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes, I do. I fully recognize and understand the importance 
of congressional oversight. I have tried to be faithful to this pledge 
in the execution of my current responsibilities.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from those of the administration in power?
    Answer. Yes. Although the President is my Commander in Chief, and 
he and the Secretary of Defense constitute my U.S. chain of command, I 
recognize that my oath is to the Constitution. That document clearly 
divides responsibilities with regard to defense between the executive 
and legislative branches. For both the administration and Congress to 
execute their respective responsibilities appropriately, it is 
incumbent upon me to be honest and forthright with both while offering 
my best military advice.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the CINCEUR/SACEUR?
    Answer. Yes. That is an inherent part of my responsibilities as 
outlined above, and I will be happy to appear when called.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of Gen. James L. Jones, Jr., USMC 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 22, 2002.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Marine Corps to the grade indicated while assigned to a position of 
importance and responsibility under Title 10, U.S.C., section 601:

                             To Be General

    Gen. James L. Jones, Jr., 0000.
                                 ______
                                 
    [The biographical sketch of Gen. James L. Jones, Jr., USMC, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
       Resume of Career Service of Gen. James L. Jones, Jr., USMC
Date and place of birth: December 19, 1943, Kansas City, MO.

Years of commissioned service: 35 years.

Date of first commission: January 1, 1967.

Military and civilian schools attended:

------------------------------------------------------------------------
                                                                 Date
                                                               completed
------------------------------------------------------------------------
Georgetown University.......................................        1966
The Basic School, Quantico, VA..............................        1967
Amphibious Warfare School, Quantico, VA.....................        1974
National War College, Washington, DC........................        1985
------------------------------------------------------------------------


Major command assignments:

------------------------------------------------------------------------
                                     From       To           Grade
------------------------------------------------------------------------
  2d Battalion, 3d Marines,            1967      1968  2dLt/1stLt
   FMFPac, (Platoon Commander/
   Executive Officer/Aide de
   Camp).
  Training Battalion, MCB, Camp        1968      1970  1stLt/Capt
   Pendleton (Company Commander).
  Marine Barracks 8th & I, Wash        1970      1973  Capt
   DC (Executive Officer/Company
   Commander).
  2d Battalion, 9th Marines, 3d        1974      1975  Capt
   MarDiv (Company Commander,
   Company H).
  3d Battalion, 9th Marines, 3d        1985      1987  LtCol
   MarDiv (Commanding Officer).
  24th Marine Expeditionary Unit       1990      1992  Col
   (Commanding Officer).
  2d Marine Division (Commanding       1994      1995  MajGen
   General).
  Headquarters, U.S. Marine Corps      1999   present  Gen
   (DC/S for Plans, Policy &
   Operations).
------------------------------------------------------------------------


Major staff assignments:

------------------------------------------------------------------------
                                     From       To           Grade
------------------------------------------------------------------------
Personnel Management Division,         1976      1979  Major
 HQMC (Assistant LtCol Monitor).
Headquarters, U.S. Marine Corps        1979      1984  LtCol
 (Senate Liaison Officer).
Headquarters, U.S. Marine Corps        1987      1990  LtCol/Col
 (Aide de Camp to CMC/Military
 Secretary to CMC).
Expeditionary Warfare (N-85)           1995      1996  BGen
 (Director).
Headquarters, U.S. Marine Corps        1996      1997  LtGen
 (DC/S for Plans, Policy &
 Operations).
------------------------------------------------------------------------


Joint duty assignments:

------------------------------------------------------------------------
                                     From       To           Grade
------------------------------------------------------------------------
Deputy Director, J-3, U.S.             1992      1994  BGen
 European Cmd.
Joint Task Force Provide Promise   Sep 1993  Apr 1994  BGen
 (Chief of Staff).
Office of the Secretary of             1997      1999  LtGen
 Defense (Senior Military Asst,
 Secretary of Defense).
------------------------------------------------------------------------


Special qualifications: Designated a Joint Specialty Officer; French 
speaker.

Personal decorations: Defense Distinguished Service Medal w/Oak Leaf 
clusters; Silver Star; Legion of Merit w/4 gold stars; Bronze Star w/
combat ``VI''; Combat Action Ribbon.

Date of rank: July 1, 1999.

Mandatory retirement date: July 1, 2007.
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. James L. 
Jones, Jr., USMC in connection with his nomination follows:]
                                ------                                

                            Department of the Navy,
                  Headquarters, United States Marine Corps,
                                 Washington, DC, September 9, 2002.
Hon. Carl M. Levin,
Chairman, Armed Services Committee,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Commander in Chief, U.S. European 
Command. It supplements Standard Form 278 (SF 278), ``Executive 
Personnel Financial Disclosure Report,'' which has already been 
provided to the committee and which summarizes my financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my SF 278 will create any conflict of interest in the execution of 
my new governmental responsibilities. Additionally, I have no other 
interests or liabilities in any amount with any firm or organization 
that is a Department of Defense contractor.
    During my term of office, neither I nor any member of my immediate 
family will invest in any entity that would create a conflict of 
interest with my government duties. I do not have any present 
employment arrangements with any entity other than the Department of 
Defense and have no formal or informal understandings concerning any 
further employment with any entity.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation.
    I trust that the following information is satisfactory for the 
committee.
            Very respectfully,
                                       James L. Jones, Jr.,
                               General, United States Marine Corps.
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James L. Jones, Jr.

    2. Position to which nominated:
    Commander in Chief, U.S. European Command.

    3. Date of nomination:
    July 22, 2002.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 19, 1943; Kansas City, Missouri.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married.

    7. Names and ages of children:
    James (33); Jennifer (30); Kevin (27); Greg (27).

    8. Government experience: List any advisory, consultative, honorary 
or other part-time services or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currrently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Membership: List all membership and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other orgainiations.
    Member of the Alfalfa Club
    Board Member Navy-Marine Corps Relief Society
    Board Member Armed Forces Benefit Association

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committtees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                                James L. Jones, Jr.
    This 9th day of September, 2002.

    [The nomination of Gen. James L. Jones, Jr., USMC, was 
reported to the Senate by Chairman Levin on October 1, 2002, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on October 1, 2002.]
                              ----------                              

    [Prepared questions submitted to Adm. James O. Ellis, Jr., 
USN by Chairman Levin prior to the hearing with answers 
supplied follow:]
                                 ______
                                 
                         Question and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I strongly support the Defense Reorganization Act of 
1986 and the Special Operations reforms. They have strengthened our 
Armed Forces and enhanced the effectiveness of our combatant 
commanders.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe the Department of Defense has vigorously and 
successfully pursued implementation of these important reforms.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The most positive aspect is the overall improvement in our 
military operations. The Goldwater-Nichols Act resulted in much needed 
improvements in joint doctrine, joint professional military education, 
and joint strategic planning. Another important element is clarity in 
the chain of command from the President and Secretary of Defense to the 
combatant commanders and unambiguous responsibility placed upon each 
combatant commander for execution of mission and preparedness of 
assigned forces.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes. The law gives combatant commanders the authority they 
need to carry out their assigned missions. This has been well 
demonstrated through the many complex joint operations conducted since 
the legislation was enacted, including the current global war on 
terrorism.
    Question. Do you foresee the need for additional modifications of 
Goldwater-Nichols in light of the changing environment and possible 
revisions to the national security strategy? If so, what areas do you 
believe it might be appropriate to address in these modifications?
    Answer. It is clear that the Goldwater-Nichols Act has profoundly 
improved the performance and capabilities of the American military 
establishment. We have significantly improved our ability to conduct 
combat operations, manage defense resources, streamline management 
practices, and address organizational issues within the Department of 
Defense. As a result, I believe the Goldwater-Nichols Act remains an 
important and effective piece of legislation, and do not believe any 
major revisions are required at this time.
    Question. Based upon your experience as Commander, U.S. Naval 
Forces, Europe and Commander in Chief, Allied Forces, Southern Europe, 
do you believe that the role of the combatant commanders under the 
Goldwater-Nichols legislation is appropriate and that the policies and 
procedures in existence allow that role to be fulfilled?
    Answer. Yes. Unity of command, input into resource allocation, and 
most importantly, the imperative of combatant commanders to plan and 
fight in a joint environment are all provided for, while empowering the 
individual services in their roles of organizing, training, and 
equipping forces.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander in Chief, U.S. Strategic Command now that the Space 
Command and the Strategic Command have merged?
    Answer. My duties and functions as the Commander of this new, 
globally focused, and forward leaning command will be ensuring we do 
more than simply blend two previously separate organizations and 
missions. The creation of this command is a reflection of, and response 
to, the new global security environment, and it holds the very real 
promise of establishing a single organization with the flexibility, 
focus, and reach to meet both the current and as yet unforeseen 
challenges that lie ahead. My most important responsibilities will be 
to ensure this command not only plans for and if necessary executes the 
missions that are currently resident in U.S. Strategic and U.S. Space 
Commands, but also takes full advantage of the synergies created by 
combining these two commands.
    Question. What are the mission areas that will transfer from Space 
Command to the new Strategic Command?
    Answer. The current U.S. Strategic and U.S. Space Commands will be 
disestablished on October 1, and an entirely new command, U.S. 
Strategic Command will be established to carry out a broad range of 
assigned missions. In addition to carrying out each of the missions 
currently assigned to U.S. Strategic Command and U.S. Space Commands, 
the new Strategic Command will be well-positioned to take on new 
responsibilities and missions that require a global focus or global 
reach. In my view, establishing this command is a tremendous 
opportunity to view the international security environment through an 
entirely new prism, and develop entirely new mechanisms for dealing 
with the global issues that face us. For example, the Department of 
Defense is currently studying several mission areas that have not been 
assigned previously to a combatant commander, but may make sense as we 
look out into the 21st century. These missions include kinetic and non-
kinetic global strike, department-wide information operations, lead 
agency for C\4\ISR, and an integrator for missile defense.
    Question. What background and experience do you possess that you 
believe qualifies you to perform the space-related or other new duties 
that would be assigned to you as a result of the merger?
    Answer. I am privileged to have served in a full range of joint and 
service assignments that heavily integrated space capabilities into 
successful joint warfighting operations. Also, my personal and 
professional military education includes two graduate degrees in 
aerospace engineering and aeronautical systems, which I believe have 
prepared me well for the highly technical aspects of the space mission. 
Importantly, if confirmed, I look forward to continuing my education 
and training with the outstanding men and women of U.S. Space Command 
as we establish this innovative and globally-focused new U.S. Strategic 
Command.
    Question. What are the most important lessons that you have learned 
as Commander in Chief of the Strategic Command that will help you 
implement the merger of the Space and Strategic Commands?
    Answer. There are two critical lessons I have learned as Commander 
of U.S. Strategic Command that I believe have prepared me well for this 
new assignment. First, highly trained and motivated people are the key 
to success, and this new, highly-technical, globally-focused command 
will be no different. Second, an organization, whether military or 
civilian, must be both highly efficient and highly adaptive to ensure 
success now and into the future. In the 10 months I have served at U.S. 
Strategic Command, we have embraced and thrived on a full range of 
change, from the Nuclear Posture Review, to Unified Command Plan 
changes, to a new national security strategy, and I believe this will 
be the culture and expectation of the new U.S. Strategic Command.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Commander in Chief, 
U.S. Strategic Command?
    Answer. The decision to establish the new U.S. Strategic Command 
was made less than 4 months ago, and there are several important areas 
we continue to work to ensure the success of the new command. First, we 
are taking a dramatically different approach to componency, and are 
working with the services to develop innovative arrangements that would 
allow the command to ``reach through'' senior service component 
commanders to conduct rapid, responsive operations, but without 
requiring ownership of forces and the creation of redundant staffs at 
our headquarters. We are also considering new organization alignments 
within the headquarters to more efficiently carry out operations. 
Importantly, U.S. Strategic Command will leverage the best in 
information technology to carry out global operations, and we continue 
to refine our C2 requirements for both current and future missions. We 
also are working diligently to strengthen even further our 
relationships with the regional combatant commanders and the agencies, 
which have grown dramatically from the increased dialogue resulting 
from the findings of the Nuclear Posture Review.
    Question. If confirmed, what roles, including any related to 
establishing requirements or related to oversight, would you anticipate 
playing in space programs executed by the military services and defense 
agencies?
    Answer. Space is unquestionably critical to our Nation's future. As 
U.S. Strategic Command will have oversight on a wide range of issues on 
a global scale, the command will be in a tremendous position to 
articulate those requirements that remove old barriers and focus on the 
``operationalization'' of space. On behalf of the regional combatant 
commanders, the command will serve as the primary advocate for all 
warfighter space-related needs.
    Question. If confirmed, what would you anticipate your role would 
be in establishing requirements for missile defense programs executed 
by the military services and the Missile Defense Agency?
    Answer. With its global focus and space capabilities, U.S. 
Strategic Command is ideally-suited to contribute to establishing 
requirements using an operational focus for an integrated, multi-
layered, missile defense. Importantly, the command will work and 
coordinate with the regional combatant commanders to address those 
global, operational issues and warfighting requirements that have not 
been fully met to date.
    Question. Will Strategic Command retain the computer network 
operations mission that currently is charged to Space Command?
    Answer. U.S. Strategic Command will retain the computer network 
operations mission currently assigned to U.S. Space Command. 
Importantly, we will take full advantage of the opportunity to examine 
where we can further develop and integrate the other elements of 
information operations to more completely and comprehensively meet 
critical national security requirements.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Commander in Chief, U.S. Strategic Command, to the following 
officials:
    The Secretary of Defense.
    Answer. In accordance with Title 10, United States Code, section 
164, the Commander of U.S. Strategic Command performs his duties under 
the authority, direction, and control of the Secretary of Defense. He 
is directly responsible to the Secretary of Defense for the 
preparedness of the command and the ability to carry out missions 
assigned to the command.
    Question. The Deputy Secretary of Defense.
    Answer. In accordance with Title 10, United States Code, section 
132, the Deputy Secretary of Defense will perform duties and exercise 
powers as prescribed by the Secretary of Defense, and in the absence of 
the Secretary of Defense, perform his duties. If confirmed, I intend to 
work closely with the Deputy Secretary on all strategic matters.
    Question. The Under Secretaries of Defense.
    Answer. Title 10, United States Code, and current DOD directives 
establish the Under Secretaries of Defense as the principal staff 
assistants and advisors to the Secretary of Defense regarding matters 
related to specific functional areas. Within these areas, the Under 
Secretaries exercise policy and oversight functions, and in discharging 
their responsibilities the Under Secretaries may issue instructions and 
directive memoranda that implement policy approved by the Secretary. 
Importantly, as with other communications between the President, 
Secretary of Defense, and combatant commanders, communications between 
the Under Secretaries and combatant commanders are transmitted through 
the Chairman of the Joint Chiefs of Staff.
    Question. The Assistant Secretaries of Defense.
    Answer. With the exception of the Assistant Secretaries of Defense 
for C\3\I, Legislative Affairs, and Public Affairs, all Assistant 
Secretaries are subordinate to one of the Under Secretaries of Defense. 
Consequently, any relationship U.S. Strategic Command would require 
with the Assistant Secretaries of Defense would be with and through the 
appropriate Under Secretary of Defense. Since the Assistant Secretaries 
of Defense for C\3\I, Legislative Affairs, and Public Affairs are the 
Secretary of Defense's principal deputies for overall supervision of 
C\3\I, legislative matters, and public affairs, respectively, any 
relations required between the command and these Assistant Secretaries 
would be conducted along the same lines as those discussed above 
regarding relations with the Under Secretaries of Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is clearly established by Title 10, United 
States Code, as the principal military advisor to the President, 
National Security Council, and Secretary of Defense. He serves as an 
advisor and is not in the chain of command running from the President 
and Secretary of Defense to each combatant commander. The law does 
allow the President to direct communications between the Secretary of 
Defense and the combatant commanders be transmitted through the 
Chairman, which keeps the Chairman fully involved and informed as he 
executes his legal responsibilities. By law, and to the extent directed 
by the Secretary of Defense, the Chairman serves as spokesman for the 
combatant commanders and provides a vital linkage between the combatant 
commanders and other elements of the Department of Defense. If 
confirmed, I will work with and through the Chairman in the execution 
of my duties.
    Question. The Secretaries of the Military Departments.
    Answer. Title 10, United States Code, section 165, provides that, 
subject to the authority, direction, and control of the Secretary of 
Defense and subject to the authority of combatant commanders, the 
Secretaries of the Military Departments are responsible for the 
administration and support of the forces they have assigned to 
combatant commands. The authority exercised by a combatant commander 
over service components is clear, but requires close coordination with 
each secretary to ensure there is no infringement upon those lawful 
responsibilities a service secretary alone may discharge.
    Question. The Chiefs of Staff of the Services.
    Answer. As a result of the Goldwater-Nichols Act, the service 
chiefs are no longer involved in the operational chain of command. 
However, they perform two significant roles. Their primary function is 
to provide organized, trained, and equipped forces for employment by 
the combatant commander in the accomplishment of their missions. 
Additionally, as members of the Joint Chiefs of Staff, the service 
chiefs have a lawful obligation to provide military advice. 
Individually and collectively, the service chiefs are a source of 
experience and judgment every combatant commander can and should call 
upon. If confirmed, I would work closely and confer regularly with the 
service chiefs.
    Question. The Combatant Commanders, including the Commander in 
Chief of the Northern Command.
    Answer. The Commander of U.S. Strategic Command, has both supported 
and supporting relationships with the other combatant commanders. These 
relationships are primarily identified in the Unified Command Plan, the 
Forces For Unified Commands Memorandum, the Joint Strategic 
Capabilities Plan, specific command arrangement agreements, OPLANs, and 
CONPLANs. In general, at present U.S. Strategic Command is the 
supported combatant commander for the national strategic war plan, and 
is a supporting combatant commander for the remaining plans and 
missions. In the future, if confirmed, I would look to broaden and 
enhance the level and range of support to each of the regional 
combatant commanders.
    Question. The Director of the Missile Defense Agency.
    Answer. The Missile Defense Agency serves as the missile defense 
systems engineering and development organization for the Department of 
Defense. It provides the research, development, testing, and evaluation 
of the missile defense and associated support systems which would be 
employed by the combatant commanders. Consequently, U.S. Strategic 
Command will maintain a close and continuous relationship with the 
Director of the Missile Defense Agency as they develop the systems to 
support our warfighting requirements.
    Question. The Administrator of the National Nuclear Security 
Administration.
    Answer. In accordance with Title 32, section 3212, of the National 
Nuclear Security Act of 1999, the Administrator is responsible to the 
Secretary of Energy for all Department of Energy programs and 
activities involving the production, safety, and security of nuclear 
energy and nuclear weapons, including the Stockpile Stewardship 
Program. Though the Administrator is outside the Defense Department's 
chain of command, these issues are of vital importance to U.S. 
Strategic Command and contribute immensely to our mission of 
deterrence. If confirmed, I will work closely and confer regularly with 
the Administrator.
    Question. The Deputy Administrator for Defense Programs, National 
Nuclear Security Administration.
    Answer. The Deputy Administrator is responsible to the 
Administrator to oversee programs and efforts to prevent the spread of 
materials, technology, and expertise relating to weapons of mass 
destruction (WMD); detect the proliferation of WMD; eliminate 
inventories of surplus fissile materials; provide for international 
nuclear safety. These are strategic issues of concern to U.S. Strategic 
Command, and if confirmed, my staff and I will work closely and confer 
regularly with the Deputy Administrator on these issues.
                     major challenges and problems
    Question. In your view, what are the major challenges and problems 
that will confront the Commander in Chief, U.S. Strategic Command?
    Answer. We are in a new era of warfare--one in which we face 
increasingly asymmetric and technologically advanced threats--and the 
imperative for change is paramount. As we look to the future, we are 
developing warfighting skills and organizations that are capability-
based vice threat-based, and we must integrate a wider range of 
existing and developing capabilities that have never been previously 
combined, to better leverage them across the full spectrum of military 
operations.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges and problems?
    Answer. The new U.S. Strategic Command will bring together an 
incredibly broad range of capabilities and weave them into a more 
effective fabric of organizational structures, people, and forces 
capable of operating on a global scale and which can be quickly brought 
to bear on challenges across geographic and intellectual boundaries. I 
plan to focus on developing strong unity of effort among decentralized 
organizations, cultures, and processes to provide responsive, 
synchronized global support to the President, Secretary, and regional 
combatant commanders.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues which must be addressed by the Commander in Chief, U.S. 
Strategic Command?
    Answer. As stated above, if confirmed, my highest priority will be 
developing an organization, operating on a global scale, that is 
flexible and efficient enough to accept new missions as needed. We will 
structure the command to look to innovation and efficiencies first so 
as to work effectively support changing mission assignments in the 
dynamic international security environment of the 21st century.
               integration of strategic and space command
    Question. The mission of the Space Command was relatively easy to 
define, as was the mission of the Strategic Command prior to the 
merger. How would you define the overarching mission of the new, merged 
Strategic Command?
    Answer. The mission of U.S. Strategic Command is essentially 
twofold. At the most basic level, we will provide a global warfighting 
capability, second to none, to deter and defeat those who desire to 
attack the United States and its allies. Second, we will provide 
responsive, adaptive, and synchronized support to the President, 
Secretary, and regional combatant commanders to meet national security 
objectives.
    Question. If confirmed, what steps will you take to ensure that 
there is a smooth integration of the Space and Strategic Commands?
    Answer. Three months ago General Eberhart and I chartered 
Implementation and Transition Teams, comprised of experienced personnel 
from within our two commands, to shepherd the integration of the 
commands through important early milestones. He and I are fully 
supportive of this change and are both convinced of its value and 
contribution to national security. Importantly, we have been in close 
coordination with military and civilian leadership throughout the 
department as we shape the character and culture of this new 
organization. We continue to carefully examine the staff structure and 
organizational construct to ensure we fully address the needs of the 
new command and its people, both now and as we accept future new 
missions. We also continue robust dialogue within the two commands and 
with those from a wider range of partners who will be contributors to 
our global synergies. As General Myers stated, ``the only thing that 
will limit how far we go with this new command will be people's 
imagination.'' I will continue to foster such innovation to ensure the 
smoothest possible integration of the two commands.
    Question. In your view what are the most important challenges that 
you face in implementing the merger of the Strategic and Space 
Commands?
    Answer. The most important challenges are those associated with 
bringing together these two superb commands in this dynamic 
international security environment, particularly as we conduct 
operations in the war on terrorism. As Secretary Rumsfeld stated on 
numerous occasions, it is not the wrong time to reorganize; it is 
imperative we reorganize so as to meet the Nation's security needs. So 
I look upon this as an exciting opportunity to create new 
organizational constructs. Importantly, we have a clear vision of what 
is required to complete the transition, and the true metric or our 
success will be the support we provide to the President, Secretary of 
Defense, and regional combatant commanders.
    Question. If confirmed, how will you interact with the military 
commanders of the Service Space Commands and what role will each of 
these commands play in the transition to a consolidated Space and 
Strategic Command?
    Answer. The establishment of the new U.S. Strategic Command 
provides a timely and welcome opportunity to make dramatic improvements 
in how we provide responsive, adaptive, and synchronized support to the 
President, Secretary of Defense, and regional combatant commanders. As 
the organizations chartered with organizing, training, and equipping 
our space forces, the individual service Space Commands will be full 
collaborative partners with U.S. Strategic Command in developing the 
right forces and skills to execute our assigned missions. Also, as 
discussed earlier, U.S. Strategic Command is taking a dramatically 
different approach to componency, and is working with the services to 
develop innovative arrangements that would allow the command to reach 
through senior service component commanders for execution, without 
requiring full-time ownership of forces.
    Question. In your view, what are the advantages and disadvantages 
of merging the two commands and what will you do, if confirmed, to 
minimize any disadvantages?
    Answer. The advantages of establishing U.S. Strategic Command are 
numerous and compelling. We have a tremendous opportunity to bring 
together a wide range of global capabilities under a single unified 
commander, which will provide integrated, responsive, and synchronized 
support to the President and regional combatant commanders across the 
full spectrum of warfighting capabilities.
    From my perspective, there are no true disadvantages in creating 
this command, only the opportunities addressed earlier. We will 
continue to work the individual issues associated with specific areas 
such as the stockpile and assured access to space, and I remain mindful 
of the need to appropriately address this large span of control. As 
always, I am committed to working with this committee to address these 
and other important issues.
                 adequacy of space launch capabilities
    Question. What, in your view, must the United States do in the 
future, and what will you do if confirmed, to ensure continued reliable 
access to space?
    Answer. The United States should pursue, and I will advocate if 
confirmed, a responsive launch capability for the nation. Currently, 
the Department of Defense is evaluating several expendable and reusable 
launch vehicles. Evolved Expendable Launch Vehicles or EELVs have the 
potential to lower launch costs from the existing heritage vehicles and 
reduce launch generation timelines. In addition, the next generation of 
launch vehicles, often termed operationally responsive spacelift, may 
offer the U.S. a unique opportunity to meet post-2010 security 
requirements, by allowing rapid augmentation and reconstitution of on-
orbit capability, and providing an avenue for responsive space control 
and force application.
    Question. If confirmed, what improvements would you recommend to 
the U.S. East and West Coast space ranges?
    Answer. As Secretary Rumsfeld and Secretary Teets, Under Secretary 
of the Air Force, have each stated, we are committed to sustaining 
reliable access to space. The Eastern and Western space launch ranges 
are essential to national security, weapons system testing, and the 
commercial space industry, and we must sustain and modernize these 
national capabilities. These two ranges are in essence the nation's 
``Gateway to Space'' and I will continue to advocate critical range 
modernization and capability enhancements.
    Question. If confirmed, what would be your highest priority with 
respect to maintaining reliable access to space?
    Answer. I fully support the nation's ongoing efforts to maintain 
reliable access to and operations in space. It is absolutely essential 
we sustain a process of continually assessing, and when appropriate, 
upgrading the facilities, launch vehicles, and control systems to 
maintain our position as the world's preeminent space-faring nation.
    Question. If confirmed, would you recommend or support any changes 
in the Air Force Evolved Expendable Launch Vehicle (EELV) program?
    Answer. I commit to you that I will examine the EELV program 
carefully and comprehensively, and will be a full partner with the 
services and the Department of Defense in reviewing all requirements 
that impact our reliable access to space.
                           space requirements
    Question. In your view, are there current unmet requirements for 
space systems, and if so, what are they and what should be done to meet 
any such requirements?
    Answer. U.S. Space Command is in the process of finalizing its 
Integrated Priority List (IPL), which will be merged and prioritized 
with U.S. Strategic Command's to create an overall IPL for the new 
command. U.S. Space Command currently highlights several programs as 
requiring additional emphasis in the near future. Specifically, the 
nation will benefit from increased funding of the combatant commander's 
Integrated Command and Control System, protected satellite 
communications (AEHF), computer network defense/computer network attack 
capabilities, space-based surveillance, and space-based missile 
warning.
    Question. In your view what space programs should be accorded the 
highest priority?
    Answer. As the command assumes its larger warfighting role on 
October 1st, our principal focus will be on those elements of the DOD 
space program that support warfighting and are essential for homeland 
security. This includes the critical command and control, 
communications, and surveillance capabilities that are part of the 
space control, space support, and force enhancement missions.
                     deterrence and missile defense
    Question. Will the Strategic Command retain all of the duties 
related to missile defense currently performed by Space Command? If all 
of the duties will not be retained please identify those that will not 
be retained and to whom these duties will be assigned.
    Answer. The currently approved changes to the Unified Command Plan 
reassigns Space Command's missile defense duties to the new U.S. 
Strategic Command and the other theater combatant commanders. Under 
this construct, U.S. Strategic Command has the responsibility for 
developing requirements for missile defense and space-based support for 
missile defense, advocating the missile warning requirements of all 
combatant commanders, and providing warning of missile attack to the 
other combatant commanders. We are currently studying the next round of 
changes, which may include assigning a combatant command the role of 
global integrator for missile defense.
    Question. What are your views on the relationship between defenses 
against long range ballistic missiles and nuclear deterrence?
    Answer. The projected evolution of our strategic forces, as 
envisioned in the Nuclear Posture Review, is the creation of a new 
triad of offensive forces, active and passive defenses, and a robust 
infrastructure, all working together to meet the national security 
objectives of assurance, dissuasion, deterrence and defeat. In this 
construct, ballistic missile defense is an important, complementary 
capability that strengthens deterrence.
    Question. What role do you believe Strategic Command should play in 
ballistic missile defense?
    Answer. Under the approved changes to the Unified Command Plan, 
U.S. Space Command's previous missile defense duties are assigned to 
U.S. Strategic Command and the other regional combatant commanders, 
which includes the duties listed above. Importantly, the Defense 
Science Board 2002 Summer Study on Missile Defense recommended the 
Secretary of Defense and Chairman of the Joint Chiefs of Staff assign 
the global support mission for missile defense to U.S. Strategic 
Command, which would include responsibility for sensors, 
communications, planning and coordination with the agencies and 
regional combatant commanders. The Department of Defense is currently 
studying this critical mission, and I believe the new U.S. Strategic 
Command is the command best-suited to performing this role and would 
support its assignment to the command.
    Question. The Nuclear Posture Review and your predecessor as 
commander in chief both advocated strategic force posture based on 
strong offensive and strong missile defenses. Do you believe that the 
size and type of the U.S. strategic offensive forces should depend in 
some degree on the evolution of missile defenses? If so, how, and to 
what degree?
    Answer. Clearly there is a relationship between offensive and 
defensive forces, but the character of the relationship is not yet 
defined. As missile defense systems are fielded and become a part of 
the equation, we look forward to being an integral part of the study 
and dialogue.
    Question. In your view, should U.S. strategic offensive forces and 
missile defenses be linked doctrinally? If you believe they should, how 
should they be linked? Is there currently such a linkage, and if so how 
are you involved in this process?
    Answer. The relationship between offensive forces and missile 
defenses merits comprehensive analysis, but at this point remains 
undefined. There are efforts underway to clarify and codify what we 
feel is at this point an intellectual link, and we look forward to 
further study and analysis as defensive systems are developed. U.S. 
Strategic Command will have a significant role in both offensive and 
defensive systems, and I am confident we will achieve an appropriate 
balance.
    Question. Secretary Rumsfeld recently noted both the need for and 
the absence of a coordinated strategy for cruise missile defense. What 
is your view of the current state of cruise missile defense program 
coordination? In your view, should the newly combined Strategic and 
Space Commands play a role in cruise missile defense?
    Answer. I concur with the Secretary's assessment, and believe U.S. 
Strategic Command has an important role to play using our critical 
integrated threat warning and attack assessment capabilities. I 
envision a strong partnership with NORAD and the regional combatant 
commanders, and believe the command should assist on the issue where 
appropriate.
                         russian nuclear forces
    Question. In your view, does Russia's apparent intention to retain 
MIRVd land based intercontinental ballistic missiles (ICBMs) or mobile 
missiles pose any threat to U.S. national security interests or to the 
effectiveness of any U.S. missile defense system?
    Answer. Although multiple independently-targetable reentry vehicles 
(MIRVs) represent a significant military capability, in light of our 
increasingly nonadversarial relationship with Russia, MIRVd forces pose 
no significant increase in threat over that posed by non-MIRVd forces. 
As you would expect, MIRVd forces do pose engineering and design 
challenges for missile defense systems.
    Question. In your view, what is the current Russian strategic 
nuclear doctrine? If Russia has a launch on warning doctrine, what 
challenge does this pose for the Strategic Command?
    Answer. Russia's currently published nuclear doctrine is one of 
deterrence; they seek to maintain a nuclear potential capable of 
guaranteeing a level of damage on any aggressor under any circumstance. 
As part of their deterrent capability, Russia maintains an early 
warning system capable of warning of a strategic attack on Russia and a 
survivable, redundant command and control (C2) system for strategic 
force execution. Although possession of these warning and C2 systems 
inherently provides Russia with a launch on warning capability, it is 
not their published doctrine, and in the stable and nonadversarial 
relationship we now enjoy with Russia, it is not a likely scenario.
    Question. Do you support military-to-military exchanges between the 
Strategic Command and counterpart Russian commands and if so, what are 
your plans to resume these exchanges?
    Answer. I fully support continuing, and in fact expanding, our 
military-to-military exchanges with our Russian counterparts. These 
exchanges contribute to preserving and enhancing strategic stability as 
we continue to develop our country's promising relationship with 
Russia. Strategic Command is currently planning several exchanges in 
the upcoming year between our forces and those of Russia's strategic 
and space forces, and we look forward to additional opportunities as 
part of an approved DOD engagement plan.
    Question. Do you support efforts to implement the joint data 
exchange center? What is the current status of the center?
    Answer. U.S. Strategic Command supports those efforts that seek to 
ensure strategic stability with the other nuclear powers. The Joint 
Data Exchange Center may well play a role in continued cooperation, 
dialogue, and friendship with the Russian Federation; although, the 
JDEC program is currently on hold, pending U.S. and Russian government 
resolution of several issues, including cost sharing, tax, and 
liability issues.
 u.s. strategic force posture beyond the strategic offensive reduction 
                       treaty (the moscow treaty)
    Question. Have you established a schedule with milestones to come 
into compliance with the Moscow Treaty? If not, will you establish such 
a schedule and when?
    Answer. As outlined in the Nuclear Posture Review, the military 
plans to retire all 50 of its 10-warhead Peacekeeper ICBMs and remove 
four Trident submarines from strategic service. These reductions will 
occur over the next 4 years and will result in a reduction of over 
1,200 warheads. The additional steps the U.S. will take to reduce its 
inventory to 1,700-2,200 operationally deployed strategic nuclear 
weapons in 2012 have not been determined, but will likely include some 
adjustments to all legs of the current triad, while preserving the 
strengths each leg provides to our deterrence posture. As in the past, 
U.S. Strategic Command will be fully engaged with the administration 
and Secretary of Defense as we work to determine the exact schedule for 
completing the reduction by 2012.
    Question. In your view, should the United States reduce the total 
number of nuclear warheads in its inventory, including both tactical 
and strategic warheads? If so, how should the United States proceed? In 
your view, what is the next step in such reductions?
    Answer. U.S. Strategic Command fully supports the President's goal 
of reducing our operationally deployed stockpile to the lowest level 
consistent with national security. The command was consulted 
extensively during the Nuclear Posture Review, which studied the full 
range of strategic issues, and I concur with the determination that 
given the current international environment, emerging threats, and 
technology available, the nation's deterrence needs can be satisfied 
with 1,700-2,200 operationally deployed strategic nuclear weapons. An 
important and appropriate future step is addressing tactical nuclear 
weapons and, as the Secretary of Defense and Secretary of State have 
each stated before Congress, they will be a part of the future dialogue 
with Russia on this issue.
    Question. Do you believe that there is a minimum number of nuclear 
weapons or delivery systems that the United States should maintain 
under any scenario or circumstance?
    Answer. U.S. Strategic Command believes, as the President stated 
and the Secretary of Defense and Chairman of Joint Chiefs of Staff 
endorsed, the Nuclear Posture Review fully studied our strategic 
requirements and determined that our national security needs can be 
appropriately met at the level of 1,700-2,200 operationally deployed 
nuclear weapons in the projected national security environment.
    Question. In your view, what is the minimum number of strategic 
nuclear warheads that should be assigned to each of the inactive and 
active inventories of U.S. nuclear weapons as a result of the December 
2001 Nuclear Posture Review and the Moscow Treaty?
    Answer. Implementation of the drawdown articulated in the Nuclear 
Posture Review is already underway, and goals have been established to 
determine the appropriate levels of operationally deployed warheads we 
will require over the life of the Moscow Treaty. The size of the 
overall stockpile, active and inactive, to support these levels is part 
of an ongoing review and will consider the important factors of 
reliability and ongoing life extension programs.
    Question. On what strategy are these numbers based?
    Answer. U.S. Strategic Command is part of a larger dialogue which 
encompasses and balances many competing requirements to ensure we 
maintain a safe, secure, and reliable stockpile now and into the 
future. In this vein, the Secretary of Defense and Secretary of Energy 
are working to match DOD stockpile and DOE infrastructure capabilities 
to establish appropriate warhead levels based on the national security 
environment, refurbishment schedules, and the challenges associated 
with aging stockpile and delivery systems. As always, the goal is to 
maintain a fully credible deterrent capability in support of our 
national security objectives.
                            industrial base
    Question. From your perspective, are there key sectors of the U.S. 
space and strategic industrial base that must be protected in order to 
sustain U.S. strategic and space forces for the foreseeable future?
    Answer. Numerous core industrial capabilities and specialized 
functional areas have no counterparts in the commercial sector. With 
the help of our Strategic Advisory Group, the services, and industry, 
we determined specialized electronics, solid rocket motors, and 
guidance and reentry system technology are critical and unique sectors 
of the strategic U.S. industrial base. In the space arena, critical 
sectors of the industrial base include our national technological 
capabilities to surveil both earth and space, sustainable and cost-
effective spacelift, including launch vehicle technology and ranges, 
and satellite communication technology.
    However, most importantly, in each of these areas the most critical 
need for sustaining the necessary industrial base is recruiting and 
retaining the intellectual capital which drives the overall sectors. 
How we approach and accomplish this important task will be critical to 
our long-term success.
    Question. In your view, are the ongoing efforts in this area 
adequate?
    Answer. The Army, Navy, and Air Force have established or proposed 
coordinated programs to address these areas. Importantly, U.S. 
Strategic Command will advocate continued assessments of these critical 
areas and work to ensure our Nation's approach to sustaining the 
industrial base is an integrated, systematic approach addressing 
people, platforms, and facilities, and the associated management of 
associated risks.
                        tactical nuclear weapons
    Question. Should tactical nuclear weapons be brought under the 
auspices of Strategic Command?
    Answer. Classified.
    Question. What is your view as to the role Strategic Command should 
play with respect to tactical nuclear weapons, whether or not they are 
brought under the auspices of the Strategic Command?
    Answer. Classified.
                          annual certification
    Question. The annual stockpile certification has just recently been 
completed and submitted to Congress. What do you believe to be our 
biggest challenge in maintaining the nuclear weapons expected to be in 
the enduring stockpile in the future?
    Answer. Classified.
    Question. The administrative process for certifying the safety and 
reliability of the nuclear stockpile requires the Commander in Chief of 
the Strategic Command and the three nuclear weapons laboratory 
directors to report annually to the Secretaries of Defense and Energy, 
who in turn certify to the President whether the nuclear weapons 
stockpile remains safe and reliable.
    Since becoming Commander in Chief of the Strategic Command, have 
you identified any changes that you would recommend in this annual 
process?
    Answer. I believe the certification process is an accurate and 
responsive method for annually certifying the safety and reliability of 
the stockpile to the Secretaries and the President. My assessment as 
the Commander of U.S. Strategic Command is based on independent 
analysis conducted by my Strategic Advisory Group's Stockpile 
Assessment Team, a nationally-recognized group of nuclear weapons 
experts. Importantly, I am satisfied with the level of cooperation 
among the nuclear weapons laboratories, NNSA, U.S. Strategic Command, 
and the Department of Defense, and will continue to work closely with 
them as we share the collective challenges and responsibilities of 
maintaining the stockpile.
                      pit manufacturing capability
    Question. Have you reviewed the annual requirement for plutonium 
pit production, by weapons type, in light of the December 2001 Nuclear 
Posture Review and the signing of the SORT Treaty?
    Answer. In support of the Nuclear Posture Review, the nation is 
beginning to characterize the size of the active and inactive 
stockpiles that will be necessary to sustain the operationally deployed 
stockpile over the next decade. As we determine and refine the warhead 
levels, the Department of Defense will provide a requirement, approved 
by the President, to the Department of Energy for the numbers and types 
of weapons to be maintained in the nuclear stockpile. Based on this 
requirement, the Department of Energy will then determine the number 
and types of pits required.
    Question. If such a review has been completed, what are the results 
of that review?
    Answer. Although the National Nuclear Security Administration is 
still developing a concept for requirements, their early analysis 
supports establishing a small interim pit manufacturing capability at 
Los Alamos National Laboratory to meet near-term pit requirements and 
to continue planning the design of a Modern Pit Facility to meet the 
most probable range of long-term nuclear weapon stockpile requirements.
    Question. If such a review has not been completed, are you planning 
to conduct such a review, and when would that be completed?
    Answer. Although U.S. Strategic Command does not play a direct 
oversight role for pit production requirements, we are close partners 
with NNSA in maintaining a safe, secure, and reliable stockpile. As the 
nation completes its review of stockpile requirements and composition, 
we will work closely with NNSA to ensure we maintain a credible 
deterrent posture for the nation.
    Question. Has a validated pit production requirement, by weapons 
type, been provided to the DOE?
    Answer. As stated earlier, as part of the Nuclear Posture Review, 
we are defining our overall stockpile requirements. As the nation 
determines the appropriate levels of warheads necessary to meet 
national security objectives, the Department of Defense will provide a 
presidentially-approved requirement to the Department of Energy which, 
in turn, the National Nuclear Security Administration will use to 
determine the number and types of pits required.
                 robust nuclear earth penetrator (rnep)
    Question. In your view are there hardened and deeply buried targets 
which are beyond the reach of a U.S. military strike, given current 
U.S. military nuclear and conventional weaponry and capabilities?
    Answer. Numerous studies over the last several years have 
identified facilities that are too hard and/or too deep to be held at 
risk by our current nuclear and conventional weapons. A review of the 
full range of options the nation might pursue to deal with these 
facilities is a prudent and appropriate step at this time.
    Question. Is there a DOD requirement for producing a feasibility 
study on RNEP to determine if RNEP could place the most challenging 
HDBTs at risk?
    Answer. The requirement for a feasibility study has been validated 
many times over the past several years, including the Joint 
Requirements Oversight Council (JROC) validated HDBT Defeat Mission 
Need Statement (April 1994), the JROC validated HDBT Defeat Capstone 
Requirements Document (January 2001), and the Nuclear Weapons Council 
(NWC) approved RNEP Phase 6.2/6.2A study. Additionally, the mission 
need for this capability was identified in the SAND DUNE study (March 
1998), the Defense Science Board Report on Underground Facilities (June 
1998), the HDBT Report to Congress (November 2001), and the Nuclear 
Posture Review (December 2001).
    Importantly, our focus remains on conducting a detailed feasibility 
study and any production decision would be made as part of a separate 
process.
    Question. If there is such a requirement, what are the categories 
or types of targets that an RNEP would hold at risk?
    Answer. The types of targets RNEP would be designed to hold at risk 
are facilities of sufficient national security interest that may fall 
into categories such as national leadership, Strategic Command and 
control, weapons of mass destruction storage and production sites, and 
ballistic missile storage and launch facilities.
                 maintaining expertise in the military
    Question. If confirmed, what actions would you propose to take to 
ensure that nuclear- and space-related billets and assignments are not 
viewed as career-limiting and that nuclear and space programs and 
activities continue to attract top quality officers and enlisted 
personnel?
    Answer. The sustainment of intellectual capital through the 
recruitment, retention, and career progression of nuclear and space 
experts is one of the most difficult challenges facing this nation. 
Importantly, this is truly a national issue impacting more than just 
the Department of Defense, and we are engaged in dialogue on many 
levels to identify and implement possible solutions. The Center for 
Strategic and International Studies recently completed a study on 
revitalizing the nation's nuclear expertise, and we are evaluating 
proposals they have made to partner with U.S. Strategic Command to 
address this issue. I also recently made a personal video in support of 
the Defense Threat Reduction Agency's (DTRA) initiative to attract and 
retain nuclear scientists at DTRA and the nation's nuclear labs. Within 
the Department of Defense, I have spoken with each of the service 
chiefs about this vitally important issue, as we will be collaborative 
partners in developing nuclear and space expertise within the 
individual services. Finally, I look forward to seeing the results of 
Air Force Space Command's recently-created Space Professional 
Development Task Force which is chartered to address the Space 
Commission's recommendations for this important area.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer Yes. If confirmed, it is my duty to keep you, the 
representatives of the people, informed of the status of our computer 
network operations, space, and strategic forces.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from those of the administration in power?
    Answer. Yes. It is my responsibility to provide the best military 
advice regardless of the administration's views.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander in Chief, U.S. 
Strategic Command?
    Answer. Yes. If confirmed, I will make myself available to this 
committee or designated members as requested.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes. I will be forthcoming with all information requested.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Mary L. Landrieu
                   electronic countermeasure upgrades
    1. Senator Landrieu. Admiral Ellis, in recent years, the Senate 
Armed Services Committee has actively authorized funds to install ALQ-
172 electronic countermeasures in the B-52. B-52 crews and Wing 
Commanders covet the improvements they see in the planes that possess 
electronic countermeasures. Quite frankly, they would like to see all 
B-52s receive this particular upgrade. Would you comment on the success 
of the ALQ-172 electronic countermeasures upgrades?
    Admiral Ellis. The ALQ-172 upgrade, also known as the Electronic 
Countermeasure Improvement (ECMI), has enjoyed several important 
successes in the early stages of fielding. It met or exceeded all of 
its early flight test criteria, and the flight crews were extremely 
impressed by its effectiveness at countering threats. Although only 
three aircraft have been fitted with this important situational 
awareness and defensive upgrade, we have already seen tangible 
improvements in system maintainability. For example, ECMI Mean Time 
Between Failure (MTBF) was forecasted to improve from 16.8 hours to 78 
hours, but actual experience shows an improvement in MTBF to 128 hours.

    2. Senator Landrieu. Admiral Ellis, is the Air Force still on 
schedule to outfit the entire B-52 with electronic countermeasure 
upgrades fleet by fiscal year 2009?
    Admiral Ellis. Provided ECMI remains fully funded in the fiscal 
year 2004-2009 Program Objective Memorandum, the Air Force is on 
schedule to outfit the entire B-52 fleet by the end of fiscal year 
2009.

    3. Senator Landrieu. Admiral Ellis, would you support additional 
funding to include electronic countermeasures in the entire fleet prior 
to fiscal year 2009?
    Admiral Ellis. USSTRATCOM supports the Air Force's plan to install 
the ECMI on the entire B-52 fleet by fiscal year 2009.
                                 ______
                                 
               Question Submitted by Senator Bill Nelson
                           command ``vision''
    4. Senator Bill Nelson. Admiral Ellis, I would like to ask you some 
general questions on where we are and where we need to be going with 
regard to military space priorities, programs, and operations. While I 
know you will need more time to think about your new responsibilities 
for military space, will you share some of your initial thoughts on a 
``vision'' for this aspect of the command?
    Admiral Ellis. The creation of the new, globally focused U.S. 
Strategic Command is a reflection of, and response to, the new global 
security environment. My vision as the commander is establishing a 
single warfighting organization with the flexibility and focus to meet 
both the current and as yet unforeseen challenges that lie ahead. We 
will take full advantage of the synergies created in uniting the former 
Strategic and Space Commands to ensure those elements of the DOD space 
program that contribute to warfighting and homeland security--such as 
space control, communications, command, and control warning and 
surveillance--are fully integrated into synchronized, global operations 
in support of the President, the Secretary of Defense, and the 
combatant commanders.
    Importantly, U.S. Strategic Command will have oversight on a wide 
range of issues, and I envision the command serving as the advocate for 
all space-related warfighter needs. This includes contributing to the 
establishment of requirements for an intergrated, multi-layered, 
missile defense, and ensuring a responsive launch capability for the 
Nation.

                     challenges for military space
    5. Senator Bill Nelson. Admiral Ellis, what do you see as the 
greatest immediate opportunities and challenges for military space in 
support of our national security strategy? What do you think will be 
your highest priority as you assume new responsibility for space?
    Admiral Ellis. The new national security strategy identifies the 
grave dangers facing our Nation at the crossroads of radicalism and 
technology. Specifically, as we look to the future we are likely to 
face adversaries possessing or seeking weapons of mass destruction and 
who exhibit an increased likelihood of using them. Consequently, we are 
developing warfighting skills and organizations that will integrate a 
wider range of existing and developing capabilities that have never 
been previously combined to better leverage them across the full 
spectrum of military operations. The national security strategy further 
highlights our requirements for advanced, persistent remote sensing, 
long-range precision strike, information operations, the ability to 
defend the homeland, and protecting critical U.S. infrastructure and 
assets in outer space. We have the opportunity, and responsibility, at 
U.S. Strategic Command to play an integral role in each of these areas.
    My highest priority as I assume responsibility for the new U.S. 
Strategic Command is bringing together the incredibly broad range of 
capabilities and weaving them into a more effective fabric of 
organizational structures and forces capable of operating on a global 
scale and which can be quickly brought to bear on challenges across 
geographic and intellectual boundaries. I will focus on developing 
strong unity of effort among decentralized organizations, cultures, and 
processes to provide responsive, synchronized global support to the 
President, Secretary, and regional combatant commanders.

                      long-term requirements space
    6. Senator Bill Nelson. Admiral Ellis, what are the greatest long-
term requirements for and risks to our continued dominance in space?
    Admiral Ellis. Our greatest long-term requirements are knitting 
together the developmental efforts of separate, but cooperative 
agencies to create jointly used systems serving both national and 
tactical users. Systems such as the Space Based Infrared System (SBIRS) 
will be pathfinders leading to more integrated efforts between the 
national intelligence community and the combatant commanders. Follow-on 
systems will include Space Based Radar, enhancements to Blue Force 
Tracking capabilities, Future Imagery Architecture and the ever-
increasing need for space-based high speed data and communications. A 
carefully planned mixture of these systems will be critical to 
maintaining our technology and industrial edge in space system 
development and use.
    Risks to these high-cost architectures must be carefully managed. 
Spiral development that allows technology advances to be incorporated 
into follow-on designs is important, as is ensuring competition for the 
development of systems to maximize on-orbit capability at the lowest 
possible cost. In addition, a key aspect of continuing our preeminence 
in space is not only ensuring our ability to exploit space for military 
purposes, but also denying an adversary's ability to do so.

                       organization and operation
    7. Senator Bill Nelson. Admiral Ellis, how do you intend to 
organize and operate to influence the programmatic and budgetary issues 
confronting our current and future military space requirements, 
objectives, and risks?
    Admiral Ellis. In the 3-month period leading up to the creation of 
the new command, U.S. Strategic and Space Commands jointly created a 
plan to seamlessly merge the functions and staffs of the two commands, 
including preserving the relationships with other unified commands, 
mission partners, services and agencies that are critical to being an 
effective advocate for space capabilities and systems. Currently, U.S. 
Strategic Command is combining its requirements, planning and execution 
functions into a single end-to-end management structure to enhance the 
command's effectiveness in the PPBS process.
    One of the first products emerging from this combined staff will be 
the command's Integrated Priority List, which represents my highest 
priority requirements and programmatic concerns. It is scheduled for 
submission to the Chairman of the Joint Chiefs of Staff in November and 
will include the warfighter's perspective on space requirements. As we 
move toward full operational capability of the new command, we are 
creating an innovative organizational structure focused on assigned 
missions, which will facilitate identifying programmatic and budgetary 
requirement shortfalls.
    We also continue cooperating with other space stake holders, such 
as the Air Force, as the Executive Agent for Space, and the National 
agencies, to ensure a unity of effort in acquiring and employing space 
systems to protect the Nation and its global interests. In addition, my 
staff is participating in the National Security Space Architect (NSSA) 
review of the ``Virtual Space Program Objective Memorandum'' which will 
be presented to the Secretary of Defense in time to influence the PPBS 
process.

                       dod coordination with nasa
    8. Senator Bill Nelson. Admiral Ellis, what are your thoughts on 
greater cooperation and coordination between DOD space programs and 
operations with NASA?
    Admiral Ellis. A strong relationship between the Department of 
Defense and the National Aeronautics and Space Administration is 
imperative for the Nation's space programs. Continuing cooperation and 
coordination between our organizations provide great promise for 
improved access to space, faster research and development periods for 
space-based technologies, and unique employment methods for each 
organization's assets.
    As a new member of the Space Partnership Council, U.S. Strategic 
Command is committed to working with NASA to improve the effectiveness, 
efficiency, and costs associated with developing our Nation's future 
space programs and ensuring we remain the preeminent space-faring 
nation on earth.
                                 ______
                                 
    [The nomination reference of Adm. James O. Ellis, Jr., USN 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 3, 2002.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Navy to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To Be Admiral

    Adm. James O. Ellis, 0000
                                 ______
                                 
    [The biographical sketch of Adm. James O. Ellis, Jr., USN 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
       Resume of Naval Service of Adm. James Oren Ellis, Jr., USN
Date and place of birth: Born in Spartanburg, South Carolina, July 20, 
1947.

Military schools attended:
    BS (Aeronautical Engineering) U.S. Naval Academy, 1969
    MS (Aeronautical Engineering) Georgia Institute of Technology, 1970
    MS (Aeronautical Systems) University of West Florida, 1971
    Designated Naval Aviator, November 24, 1971
    U.S. Naval Test Pilot School, 1975
    Qualified in the Maintenance and Inspection of Naval Nuclear Power 
Plants, 1987


------------------------------------------------------------------------
                 Promotions                      Dates of appointment
------------------------------------------------------------------------
Midshipman, U.S. Naval Academy.............  June 30, 1965
Ensign.....................................  June 4, 1969
Lieutenant (junior grade)..................  June 4, 1970
Lieutenant.................................  July 1, 1972
Lieutenant Commander.......................  July, 1 1978
Commander..................................  October 1, 1982
Captain....................................  October 1, 1987
Rear Admiral (lower half)..................  September 1, 1994
Designated Rear Admiral while serving in     June 1996
 billets commensurate with that grade.
Designated Vice Admiral while serving in     October 1996
 billets commensurate with that grade.
Rear Admiral...............................  January 1, 1997
Vice Admiral...............................  February 1, 1997
Designed Admiral while serving in billets    August 28, 1998
 commensurate with that grade.
Admiral, Service continuous to date........  January 01, 1999
------------------------------------------------------------------------


Assignments and duties:

------------------------------------------------------------------------
                                         From                 To
------------------------------------------------------------------------
NROTC Unit, Georgia Institute of  June 1969.........  June 1970
 Technology (DUlNS).
Naval Air Basic Training          June 1970.........  June 1971
 Command, NAS Pensacola, FL
 (DUlNS).
Training Squadron TWO THREE       June 1971.........  November 1971
 (DUlNS).
Fighter Squadron ONE TWO ONE      November 1971.....  August 1972
 (DUINS).
Fighter Squadron NINE TWO         August 1972.......  November 1974
 (Training Officer).
U. S. Naval Test Pilot School,    December 1974.....  December 1975
 Patuxent River, MD (DUlNS).
Naval Air Test Center, Patuxent   December 1975.....  September 1978
 River, MD (Project Officer).
Fighter Squadron ONE TWO FOUR     September 1978....  June 1979
 (DUlNS).
Fighter Squadron ONE (Special     June 1979.........  July 1981
 Projects Officer).
Office of Legislative Affairs     July 1981.........  May 1983
 (Congressional Committee
 Liaison Officer).
Strike Fighter Squadron ONE TWO   May 1983..........  October 1983
 FIVE (DUlNS).
CO, Strike Fighter Squadron ONE   October 1983......  January 1986
 THREE ONE.
Office of the CNO (F/A-18         January 1986......  March 1986
 Program Coordinator).
Naval Nuclear Power School,       March 1986........  September 1986
 Naval Training Center, Orlando,
 FL (DUINS).
Naval Nuclear Power Training      September 1986....  April 1987
 Unit, Idaho Falls, ID (DUINS).
Naval Sea Systems Command (NA     June 1987.........  September 1987
 VSEA 08) (DUlNS).
XO, CARL VINSON (CVN 70)........  December 1987.....  December 1988
CO, USS LASALLE (AGF 3).........  June 1989.........  March 1990
Commander, Joint TaskForce FIVE   April 1990........  April 1991
 (Deputy Commander and Chief of
 Staff).
CO, USS ABRAHAM LINCOLN (CVN 72)  May 1991..........  September 1993
CINCLANTFLT (Inspector General/   November 1993.....  June 1995
 Director for Operations (N3)).
Commander Carrier Group FIVE/CTF  June 1995.........  November 1996
 70/75/77.
Office of the CNO (DCNO for       November 1996.....  August 1998
 Plans, Policy and Operations)
 (N3/N5).
Commander, U.S. Naval Forces,     October 1998......  November 2001
 Europe/Commander, Regional
 Command South (Commander, Joint
 Task Force Noble Anvil January-
 July 1999).
Commander in Chief, U.S.          November 2001.....  To date
 Strategic Command.
------------------------------------------------------------------------


Medals and awards:
    Defense Distinguished Service Medal
    Navy Distinguished Service Medal
    Legion of Merit with three Gold Stars
    Defense Meritorious Service Medal
    Meritorious Service Medal with one Gold Star
    Navy and Marine Corps Commendation Medal
    Joint Meritorious Unit Award with three Bronze Oak Leafs
    Navy Unit Commendation
    Meritorious Unit Commendation
    Navy ``E'' Ribbon
    Navy Expeditionary Medal
    National Defense Service Medal with two Bronze Stars
    Armed Forces Expeditionary Medal
    Vietnam Service Medal with one Bronze Star
    Southwest Asia Service Medal with one Bronze Star
    Armed Forces Service Medal
    Humanitarian Service Medal
    Sea Service Deployment Ribbon with one Silver Star
    Navy/Marine Corps Overseas Service Ribbon
    Coast Guard Special Operations Ribbon
    NATO Medal
    Republic of Vietnam Campaign Medal
    Kuwait Liberation Medal (Kuwait)
    Expert Pistol Marksmanship Medal

Summary of joint duty assignments:

------------------------------------------------------------------------
           Assignment                    Dates               Rank
------------------------------------------------------------------------
Office of Legislative Affairs     July 1981-May 1983  CDR
 (Congressional Committee
 Liaison Officer)*.
Commander, Joint Task Force FIVE  April 1990-April    CAPT
 (Chief of Staff).                 1991.
Commander, Regional Command       October 1998-       ADM
 South.                            November 2001.
(Commander, Joint Task Force
 Noble Anvil January-July 1999).
Commander in Chief, U.S.          November 2001-To    ADM
 Strategic Command.                date.
------------------------------------------------------------------------
*Joint Tour Equivalent

                                 ______
                                 
                             Department of Defense,
                           United States Strategic Command,
                                                    August 1, 2002.
Hon. Carl Levin,
Chairman, Armed Services Committee,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Commander, U.S. Strategic Command. It 
supplements Standard Form 278, ``Executive Personnel Financial 
Disclosure Report,'' which has already been provided to the committee 
and which summarizes my financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my Standard Form 278 will create any conflict of interest in the 
execution of my new governmental responsibilities. Additionally, I have 
no other interests or liabilities in any amount with any firm or 
organization that is a Department of Defense contractor.
    During my term of office, neither I nor any member of my immediate 
family will invest in any entity that would create a conflict of 
interest with my government duties. I do not have any present 
employment arrangements with any entity other than the Department of 
Defense and have no formal or informal understandings concerning any 
further employment with any entity.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
govermental inquiry or investigation.
    I trust that the foregoing information will be satisfactory to the 
committee.
            Very Respectfully,
                                               J. O. Ellis,
                                                Admiral, U.S. Navy.
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Adm. James O. 
Ellis, Jr., USN in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James Oren Ellis, Jr.

    2. Position to which nominated:
    Commander, United States Strategic Command

    3. Date of nomination:
    September 3, 2002.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 20, 1947; Spartanburg, South Carolina.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married--wife--Paula Dene Mattews.

    7. Names and ages of children:
    Patrick James Ellis, 30.
    Lauren Elizabeth Ellis Brandy, 28.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time services or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currrently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Membership: List all membership and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    U. S. Naval Institute.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Guggenheim Fellowship, Aeronautical Engineering, Georgia Institute 
of Technology, 1969.

    12. Commitment to testify before Senate committtees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                                James O. Ellis, Jr.
    This 1st day of August, 2002.

    [The nomination of Adm. James O. Ellis, Jr., USN was 
reported to the Senate by Chairman Levin on October 1, 2002, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on October 1, 2002.]
                              ----------                              

    [Prepared questions submitted to Lt. Gen. Michael W. Hagee, 
USMC by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of these reforms, particularly in your 
assignment as Commanding General, First Marine Expeditionary Force.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support full implementation of these defense 
reforms. These reforms have met the objectives of the Goldwater-Nichols 
Act and effectively transformed the way DOD thinks and fights. The 
Goldwater-Nichols Act balances the Title 10, U.S.C. responsibilities of 
the service chiefs to prepare and equip their services with the need to 
integrate military employment through the regional combatant 
commanders. The Marine Corps works well within the context of the 
current legislation. However, we will continue to examine our 
operations within the context of Goldwater-Nichols and propose such 
changes as may be necessary in the future.
    Question. Based upon your experience, what is your view of the 
extent to which these defense reforms have been implemented and the 
impact they have had?
    Answer. I believe that Goldwater-Nichols and the Special Operations 
reforms, both in principle and in spirit, have been institutionalized 
within DOD. This has been no small accomplishment in that it has 
constituted a complete reorganization of the Department and has changed 
the functions, responsibilities and interrelationships among all DOD 
components. The overall impact of these reforms has significantly 
strengthened the ability of the U.S. Armed Forces to respond to the 
varied threats and challenges faced over the last decade and a half.
    Question. What do you consider the most important aspects of these 
defense reforms?
    Answer. The foremost improvement provided by the legislation is the 
clear delineation of the functions, duties, and responsibilities among 
the combatant commanders, military departments, and the Joint Staff. 
The enhanced authority of the combatant commanders over their unified 
forces, along with clarified responsibilities, has made them better 
able to accomplish their assigned missions. In the same way, the 
legislation has defined and focused the function of the military 
departments on fulfilling the operational requirements of the unified 
commands thereby improving the overall warfighting capability of the 
Armed Forces. Lastly, Goldwater-Nichols has directly led to the better 
and more efficient use of our defense resources. The joint perspective 
gained through the maturation of the Joint Requirements Oversight 
Council process has made a key difference in the Department's 
transformational efforts.
    Question. Do you anticipate that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. Since inception of Goldwater-Nichols in 1986, dramatic 
changes have occurred within the national security environment that in 
my view now necessitate expansion of these reformational concepts to 
other Federal departments and agencies (e.g. Departments of Justice, 
Interior, Commerce, Energy, State, and Treasury as well as the Central 
Intelligence Agency). A ``Goldwater-Nichols II'' would be intended to 
review the interagency process in an attempt to realign the national 
security structure to better coordinate and employ all elements of 
national power. Specifically, new legislation should be aimed at 
achieving greater efficiencies and effectiveness by streamlining 
interagency coordination, reducing duplication, and accelerating the 
decisionmaking cycle. The threats posed by global terrorism and the 
proliferation of weapons of mass destruction make these reforms an 
imperative for the future.
    Question. What is your understanding of the duties and functions of 
the Commandant of the Marine Corps?
    Answer. The strategic role of the Marine Corps today remains 
unchanged from that defined by the 82nd Congress: to provide a capable 
expeditionary force-in-readiness that is versatile, adaptable, and 
powerful. The Marine Corps has always understood that people, not 
machines, ultimately determine success in peace and in war. 
Accordingly, in addition to his role as an adviser to the Secretary of 
Defense and the President and as a member of the Joint Chiefs, it is 
the foremost duty of the Commandant to develop, maintain, and sustain 
ready and decisive crisis response forces, comprised of highly trained 
men and women, capable of conducting any task across the full spectrum 
of conflict. Beyond making marines to win our Nation's battles, it is 
also the responsibility of the Commandant to ensure the welfare and 
quality of life of our marines and their families are protected. Taking 
care of our own is essential to the Corps, for it directly impacts on 
our readiness and our operational responsiveness. Finally, it is the 
function of the Commandant to imbue all marines with our institutional 
core values of Honor, Courage, and Commitment, deeply rooted ideals 
that will not only guarantee their success on the battlefield today, 
but enable them to become our civic leaders of tomorrow.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have had the good fortune to serve in key service billets 
and joint assignments within the Department of Defense. I have 
commanded marines at all levels from platoon to Marine Expeditionary 
Force as well as throughout the Marine Air Ground Task Force and in key 
elements of the supporting establishment. I have also served in 
educating our future Navy and Marine Corps officers and have had the 
opportunity to serve in other agencies of the executive branch outside 
the Department of Defense. As a general officer, I have served as the 
Executive Assistant to the Director of Central Intelligence. I have 
also served as Deputy Director of Operations, United States European 
Command and as Director, Strategic Plans and Policies, United States 
Pacific Command. Both of these latter billets along with my recent 
responsibilities as a MEF commander, gave me great insight into how to 
ensure that Marine Corps units can effectively support the combatant 
commanders in the execution of their duties and responsibilities. 
Conversely, I understand the challenges facing all the service chiefs 
today as they strive to meet their Title 10 responsibilities in support 
of the combatant commanders.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform these duties?
    Answer. I believe there are four fundamental actions I could take 
that would enable me to fulfill my Title 10 responsibility to train, 
organize, and equip our marines and sailors.
    (1) As a force-in-readiness, the Marine Corps, in close team work 
with the Navy, is proud of its contributions to America's forward 
presence and expeditionary power projection capabilities. The continued 
success of the Navy-Marine Corps Team depends on sustaining our 
enduring relationship with one another and I would work to foster this 
mutual bond at every opportunity.
    (2) Similarly, reinforcing our partnerships with our other sister 
services and U.S. Special Operations Command would not only promote 
future interoperability and operational understanding, but advance 
transformation of the U.S. military to a truly Joint Force.
    (3) Work with Joint Forces Command to continue to contribute to the 
development of joint capabilities through participation in Joint 
Concept Development and Experimentation; and
    (4) Continue to explore and capitalize on innovation and emerging 
technologies in order to further the continued transformation of naval 
capabilities for the future.
    The promotion of each of these actions will ensure our Corps 
remains both ready and relevant to meet the challenges of the 21st 
century.
    Question. In your view, what are the major challenges confronting 
the next Commandant of the Marine Corps?
    Answer. The major challenge confronting the next Commandant of the 
Marine Corps centers on organizing, training, and equipping forces to 
support the Joint Force Commanders now and into the future. Specific 
issues I believe will be important for the next Commandant to address 
include:

        <bullet> Properly resourcing the Marine Corps' near and long-
        term readiness requirements while at the same time transforming 
        the Marine Corps.
        <bullet> Ensuring leaders and staffs can operate in an 
        environment of ambiguity and uncertainty.
        <bullet> Ensuring sufficient expeditionary shipping is 
        available for our Expeditionary Strike Groups to effectively 
        strike with MAGTFs from the Enhanced Networked Seabase for 
        rapid and decisive joint maneuver operations from deep offshore 
        directly to deep inland objectives.
        <bullet> Providing a quality of life for our marines and their 
        families that ensures our continued warfighting effectiveness 
        and maximizes our significant investment in our marines.
        <bullet> Ensuring that the growing complexity of encroachment 
        issues do not curtail our efforts to conduct meaningful 
        training.
        <bullet> Ensuring business practices, to include acquisition 
        process, rapidly enhance and transform warfighting 
        capabilities.
    Question. Assuming you are confirmed, what plans do you have for 
addressing the major challenges confronting the next Commandant of the 
Marine Corps?
    Answer. If confirmed as Commandant of the Marine Corps, I would 
continue to focus on four key areas. First, opportunities can be 
created and exploited best by an agile organization, ready to adapt to 
change in future environments, maximizing the potential of both marines 
and their units. Second, operational changes, first expressed as 
concepts, will alter the means by which the operating forces project 
power and influence. Third, leap-ahead technology will create new 
opportunities for warriors of tomorrow. Finally, the Marine Corps will 
promote changes in business and acquisition processes, enabling the 
more rapid development of effective capabilities while generating the 
most efficient investment of the Nation's resources. Specific examples 
include:

        <bullet> Enhancing leaders' decisionmaking skills with 
        investments in education, wargaming, combat simulation 
        activities, and battlespace visualization techniques within a 
        joint or multinational framework.
        <bullet> Increasing the ability of the supporting establishment 
        to serve as the fifth element of the Marine Air Ground Task 
        Forces (MAGTF), as exemplified by the Marine Corps Intelligence 
        Activity's reach-back support to the warfighting requirements 
        of Task Force 58 during Operation Enduring Freedom.
        <bullet> Generating opportunities to align Marine Corps Reserve 
        units with Marine Expeditionary Forces in order to develop day-
        to-day working relationships between active and Reserve forces, 
        maximizing the diverse civilian-acquired expertise that 
        enhances military capabilities.
        <bullet> Integrating aviation capabilities across the Navy and 
        Marine Corps to generate increased capabilities for projecting 
        power from the sea.
        <bullet> Balancing transformation and modernization of our 
        ground and aviation assets to ensure effective combined arms 
        warfighting capability in our MAGTFs.
        <bullet> Developing the capabilities of Marine forces to 
        operate with Special Operations Forces (SOF) and reintroducing 
        the Air Naval Gunfire Liaison Company (ANGLICO) to support our 
        joint and coalition partners.
        <bullet> Creating and institutionalizing innovative units 
        dedicated for special missions or tasks such as the 4th MEB 
        (Anti-Terrorism) by relying on the adaptive, decentralized 
        organization of Marine Corps warfighting units.

    I believe it is critical that we fully integrate all of our efforts 
as part of the Nation's joint warfighting community. We would continue 
working closely and in partnership with the Joint Staff and Joint 
Forces Command (JFCOM) in joint concept development and experimentation 
efforts.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Commandant of the Marine Corps?
    Answer. In my opinion the most serious problem facing the 
Commandant of the Marine Corps is ensuring that the Marine Corps 
remains ready to fight and win while balancing our need for 
modernization. If confirmed, I would like to work with the Secretary of 
Defense, the Secretary of the Navy, and the other service chiefs to 
address such issues as acquisition reform, the impact of encroachment 
on training and readiness, and quality of life--all important subsets 
of this challenge.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. As Commandant, I would continue to work with the Secretary 
of Defense, the Secretary of the Navy, and the other Joint Chiefs to 
press for a more streamlined and responsive acquisition process, the 
means to balance our environmental stewardship responsibilities with 
our training requirements, and continue the momentum of quality of life 
initiatives to maintain our high level of readiness. My goal would be 
to make sure that marines are trained and equipped to provide ready, 
scaleable, flexible combined arms force packages for today and 
tomorrow's combatant commanders.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Commandant of the 
Marine Corps?
    Answer. My priorities would be ensuring continued readiness of our 
operating forces--to include sustaining emphasis on recruiting and 
retaining our outstanding young men and women and fully integrating the 
Navy-Marine Corps Team to provide effective maritime capabilities to 
the joint commander--while simultaneously maintaining our continuously 
evolving transformation of organizational and operational concepts, 
leap-ahead technologies, and business processes.
    Question. The main focus of the United States has been on the war 
in Afghanistan, and the Marine Corps has had a major role in that 
effort. That role, although still important, has declined in recent 
months.
    What do you see as the Marine Corps' role in the continuing war on 
terrorism?
    Answer. The Marine Corps will continue to play an important and 
significant role in the global war on terrorism.
    While one might perceive that the Marine Corps' role has declined 
since the successes of Task Force 58 in Afghanistan, it has in fact 
become less visible and we remain ready across the full operational 
spectrum. Over 3,600 active duty and Reserve marines remain deployed to 
the United States Central Command area of responsibility (CENTCOM AOR) 
in support of Operation Enduring Freedom. Additionally, over 170 
marines are deployed in support of Combined Joint Task Force (CJTF) 
operations in Guantanamo Bay, Cuba. In defending the homeland, marine 
ground and aviation units of the total force have supported the air 
defense efforts of Operation Noble Eagle and are currently providing 
dedicated reaction forces to respond to incidents west of the 
Mississippi River in Federal Emergency Management Agency (FEMA) Regions 
VI through X. Most recently, Marine Military Working Dog Teams and 
other security and response forces supported the United Nations General 
Assembly proceedings in New York. While not all-encompassing, these 
examples are indicative of the continuing role that the Marine Corps 
has, and will continue to play, in winning the global war on terrorism.
    Question. In the past, the Marine Corps' Chemical-Biological 
Incident Response Force (CBIRF) has played a major role in assisting 
first responders prepare for terrorist attacks.
    What relationship will the CBIRF have with the Homeland Security 
Agency?
    Answer. CBIRF is a component of the 4th Marine Expeditionary 
Brigade, Anti Terrorism (4th MEB (AT)) that was reactivated in October 
2001 in response to the Nation's campaign against terrorism. It 
provides any designated supported commander with rapidly deployable, 
specially trained, and sustainable forces that are capable of detecting 
terrorism, conducting activities to deter terrorism, defending 
designated facilities against terrorism, and conducting initial 
incident response in the event of chemical, biological, radiological, 
or nuclear terrorist attacks, worldwide.
    CBIRF support to the Homeland Security Agency may result from a 
request by the Secretary of the Homeland Security Agency to the 
Secretary of Defense (SECDEF) for support.
    Question. What role will CBIRF play in Northern Command's homeland 
security mission?
    Answer. When directed, the 4th Marine Expeditionary Brigade, Anti 
Terrorism (4th MEB (AT)) would forward deploy CBIRF to respond to the 
threat of a chemical, biological, radiological, nuclear, or high-yield 
explosive (CBRNE) incident in order to assist local, State, and Federal 
agencies or a designated combatant commander in the conduct of 
consequence management operations by providing capabilities for agent 
detection and identification; casualty search, rescue, and personnel 
decontamination; and emergency medical care and stabilization of 
contaminated personnel.
    Question. What role will the rest of the Marine Corps have in 
supporting the Homeland Security Agency?
    Answer. The organization with the capabilities most likely to be 
requested by the Homeland Security Agency is the 4th Marine 
Expeditionary Brigade, Anti Terrorism (4th MEB (AT)) which consists of 
approximately 4,600 marines and sailors primarily trained to perform 
their duties in situations where there is an increased threat of 
terrorist activity, when there has been a direct threat of terrorism 
against U.S. interests, or when a terrorist event has already occurred. 
In general, the Marine Corps, like the other services, will provide 
support to the Homeland Security Agency, as directed by the Secretary 
of Defense, in accordance with the Federal Response Plan. Further, it 
is perhaps important to reemphasize that defense of the homeland begins 
not on our shores, but on far shores. The value of our forward deployed 
forces around the globe continues to be demonstrated and will play an 
ever increasing role in future.
    Question. Is CBIRF intended to be utilized only domestically, or 
are there also plans to utilize it abroad? If CBIRF is deployed abroad, 
who takes on their domestic mission?
    Answer. CBIRF as a component of the 4th Marine Expeditionary 
Brigade, Anti Terrorism (4th MEB (AT)) is task organized to provide 
incident response anywhere in the world. Due to the nature of the event 
there may be multiple options for employing its unique capability. 
CBIRF is capable of reorganizing itself and deploying in modules to 
multiple incident sites that may involve agent detection and 
identification; casualty search, rescue, personnel decontamination; and 
emergency medical care and stabilization of contaminated personnel. 
CBIRF's capability to deploy to any location prior to an incident 
greatly enhances its capability to conduct medical treatment, 
decontamination and casualty search and rescue in the fatal first hours 
of an incident.
    In the event that CBIRF's capabilities were required to be 
replaced, it would require a collaborated response of existing units 
such as National Guard's Civil Support Teams, and the Army's Technical 
Escort Units and Chemical Biological Rapid Response Teams.
    Question. What do you see as the principal role for the United 
States Marine Corps in terms of our overall national security?
    Answer. The principal role of the United States Marine Corps in 
terms of America's overall national security is to be our country's 
premier expeditionary `` Total Force in Readiness.''
    The Marine Corps owes its role to the United States Congress. The 
Douglas-Mansfield Act, approved by the 82nd Congress on June 20, 1952, 
and signed as Public Law 416 by President Harry S. Truman, amending the 
National Security Act of 1947, confirmed the Corps' naval character and 
expeditionary nature, and legislated the Corps' organization as an air-
ground, combined arms team.
    At its very heart, the Marine Corps' mission is to defend America's 
national security, serving as a power projection force from the sea, 
giving the United States a unique and robust worldwide presence and 
crisis response capability.
    Question. What is your vision for the Marine Corps of the future? 
For example, what roles should the Marine Corps play in contingency, 
humanitarian, and peace operations?
    Answer. The Marine Corps of the future will remain true to its 
naval and expeditionary heritage while continuing its tradition of 
innovation and flexibility.
    As our Nation's premier expeditionary `` Total Force in 
Readiness,'' the Corps enables joint, allied, and coalition operations, 
and its operational units are scalable to meet combatant commanders' 
requirements. Accordingly, the Corps is capable of a multitude of 
missions across the spectrum of conflict. Indeed, per Title 10 of the 
U.S. Code (10 U.S.C. 5063), marines are always ready to ``perform such 
other duties as the President may direct.'' As seen in the Corps' 
contributions to contingency, humanitarian, and peace operations in the 
past, its readiness and adaptability are an ever-present resource for 
the President to employ on behalf of America's national interests.
    A salient example of the Corps' versatility is found in a survey of 
its operations during 1991. Marines helped liberate Kuwait in full-
scale combat, participated in stability operations in Northern Iraq, 
evacuated non-combatants from Somalia, and conducted massive 
humanitarian missions in Bangladesh and the Philippines--all in the 
first 6 months of 1991. The flexibility to perform those diverse 
operations and others is an inherent part of the Corps' promise to 
always be ready to answer our Nation's call. The Corps' vision for its 
future is nothing less.
    To achieve that vision, as threats and opportunities change, 
requires that the Corps continues to anticipate, innovate, experiment, 
and adapt. Throughout the course of its history, the Marine Corps has 
dramatically evolved from a naval constabulary. Marines, themselves, 
have been the source of those changes, seeking over-time to adjust 
America's Force in Readiness to meet future requirements and defeat 
future threats.
    Today, the Corps is transforming itself--harnessing new technology, 
developing new operational concepts, instituting organizational 
realignments, and implementing better business practices and 
acquisition reform. I have complete confidence that tomorrow's marines 
will carry these efforts forward through the 21st century, to be 
America's versatile, expeditionary force in readiness.
    Question. What foundations will you lay, if confirmed, to 
facilitate the attainment of that vision?
    Answer. I would build upon the foundations established by the 32nd 
Commandant of the Marine Corps. The fundamental constructs found in the 
Corps' capstone concept, Expeditionary Maneuver Warfare, and the vision 
statements Naval Power 21 and Marine Corps Strategy 21 would guide me, 
with your assistance, in leading the Corps as it transforms.
    I would remain committed to the Corps' partnership with the Navy--
as seen in our Carrier and Expeditionary Strike Group initiatives, 
integration of naval tactical aviation, and our sea-basing concept. 
Moreover, under my leadership, the Corps would continue to capitalize 
on innovation and experimentation to best integrate with and enhance 
joint and multinational operations, and more effectively serve 
America's national security needs.
    Question. If confirmed, do you plan any major changes to Marine 
Corps warfighting doctrine?
    Answer. No, the Marine Corps warfighting doctrine is sound. It is a 
product of our long history of innovation, our experiences, and the 
lessons we gleaned from those experiences. Our doctrine accurately 
reflects how we operate as an expeditionary force capturing both the 
nuances of our service culture and our naval character. I anticipate no 
substantial change to the way we do business in the foreseeable future.
    Question. If so, what modernization efforts support this doctrine?
    Answer. No, I do not plan to make significant changes to the 
doctrine we have just recently published, our capstone concept 
Expeditionary Maneuver Warfare (EMW). However, like all doctrinal 
publications--and EMW is no exception--it will continue to be ``a work 
in progress.'' All doctrinal publications need to be revised over time 
to adjust to changes in warfare. We are just beginning to explore the 
possibilities for EMW in the defense of our Nation and its allies, and 
we will continue to refine and revamp the concept as new situations and 
threats present themselves. Additionally, no doctrinal publication is a 
stand-alone document and EMW must be executed in the context of and in 
concert with several other doctrinal publications, such as 
Expeditionary Networked Seabasing (ENSeabasing).
    Question. General Jones has discussed establishing stronger 
relationships between the Marine Corps and the forces of the Special 
Operations Command (SOCOM).
    What do you see as the Marine Corps' role in Special Operations?
    Answer. Today the Marine Corps has 105 marines filling SOF billets 
around the world ranging from training support, to exchange pilots with 
Task Force 160 to intelligence analysts and security personnel. The 
fielding of the V-22 will also bring the Marine Corps and Air Force 
Special Operations Forces closer together. VMMT-204, based at Marine 
Corps Air Station New River in North Carolina, the V-22 training 
squadron, will train both Marine Corps and Air Force pilots and 
maintainers to fly and work on these aircraft and will enhance joint 
understanding concerning ``special'' capabilities. We also recognize 
that within our Marine Air Ground Task Forces (MAGTFs), we have the 
ability to execute a broad spectrum of capabilities, particularly when 
a requirement exists for the introduction of helicopter-borne or 
surface-borne forces from the sea. These operations tie-in directly 
with the Corps' traditional maritime-oriented missions for which we 
have statutory responsibility. Our highly trained, cost-effective, 
first on the scene forces, provide a much needed special operations 
capability that is complementary, not redundant, to the mission of our 
Nation's Special Operations Forces. Significant national military 
advantages exist in having Marine Corps MAGTFs trained in the conduct 
of maritime special operations capabilities while positioned aboard 
amphibious ships in proximity to a target, unencumbered by base and 
overflight rights and operating under established command and control 
systems. As a means to cement and expand our relationship with SOF, the 
Marine Corps and SOCOM have re-established the SOCOM Marine Corps Board 
to explore areas and issues of interoperability and in coordination 
with the Naval Special Warfare Command, the Marine Corps has developed 
an initial ``proof of concept'' force contribution to SOCOM that will 
be established in 2003 and deploy with Special Operations Forces during 
2004. The proof of concept will focus on special reconnaissance, direct 
action foreign internal defense, and collations support.
    Question. Can the Marine Corps make greater contributions in this 
area (Special Operations Forces), particularly related to working more 
directly with Commander in Chief, Special Operations Command (CINCSOC)?
    Answer. I believe so. In addition to the 105 marines filling SOF 
billets around the world, training more closely and sharing ideas are 
two areas where we can achieve greater contributions in special 
operations. Steps are already being taken to make improvements in these 
areas. A memorandum of agreement between SOCOM and the Marine Corps, 
signed in 1993, helps to coordinate policy matters of mutual interest 
to both organizations and bring us closer together. The board has met 
seven times since 1993; most recently in January of this year. At that 
gathering, eight working groups examined topics from operations and 
training to equipment and technology, and developed multiple action 
items focused on enhancing the interoperability between SOF and the 
Marine Corps. The next board, scheduled for October 2002, will likely 
expand that list. The Marine Corps possesses complementary skills that 
can be used and have been used in support of SOF. The fielding of the 
V-22 will also bring the Marine Corps and Air Force Special Operations 
Forces closer together. VMMT-204, based at Marine Corps Air Station New 
River in North Carolina, is the V-22 training squadron, which will 
train both Marine Corps and Air Force pilots and maintainers to fly and 
work on these aircraft. The jointness that will occur at this training 
squadron will go a long way toward promoting closer understanding and 
coordination between Marine Corps and Air Force Special Operations 
aviation units.
    Question. The committee has been concerned about the potential 
effects of the war on terrorism on readiness levels and potential 
demands on personnel in excess of normal operating tempo (OPTEMPO) 
goals.
    What is your assessment of the current state of readiness of the 
Marine Corps?
    Answer. Your Corps is capable and ready, with approximately 173,000 
marines serving in the active forces and approximately 40,000 in the 
Reserves. We continue to deploy globally as a total force in defense of 
this Nation and in prosecution of the global war on terrorism. 3,787 of 
our Reserves are on active duty assisting in the fight against 
terrorism. The missions assigned to our Reserves in the global war on 
terrorism are a clear reflection that they are ready to operate across 
the full spectrum of military conflict.

        <bullet> Two provisional security platoons relieved two Fleet 
        Anti-terrorism Support Team (FAST) platoons of the security 
        mission at U.S. Naval Base, Guantanamo Bay
        <bullet> Reserve marine helicopters and personnel are deployed 
        with the 11th and 24th Marine Expeditionary Units (Special 
        Operations Capable)
        <bullet> 2nd Battalion, 23rd marines is our ready reaction 
        force in support of Homeland Security and
        <bullet> HMH-769, 25th Marines Regimental Headquarters, and 
        detachments from Marine Aerial Transport Squadrons 234 and 452 
        provided much needed operational tempo relief for our Active 
        Component Forces.

    Our recent service in Afghanistan attests that our forward deployed 
Marine Forces remain ready, as do our other active and Reserve marine 
units. As you read this, 27,218 marines are forward deployed, forward 
based, forward stationed, or deployed for training. Current operational 
readiness is and will remain our highest priority. The Marine Corps, 
like everyone else, was surprised by the September 11, attacks, but we 
were not surprised by the nature of the threat. Over the past decade, 
we've anticipated a more chaotic world and a future strategic 
environment of increasing uncertainty that would place a premium on 
forces with speed, precision, and lethality. Speed not only in 
movement, but also in the ability to respond--to be truly 
expeditionary.
    Operation Enduring Freedom (OEF) validated our transformational 
Expeditionary Maneuver Warfare concepts and the value of seabasing, 
which the Corps has been developing over the past decade. OEF also 
marked the first time a Marine Corps General commanded a naval task 
force during wartime and the establishment of a closer relationship 
with Special Operations Forces that promises to carry forward into the 
future. One of OEF's most remarkable successes for the Marine Corps, in 
partnership with the Navy, was the execution of operations over vast 
distances with significant operational and logistical constraints. The 
distances were far in excess of those for which current doctrine, 
operational concepts, and our legacy warfighting systems were designed.
    The modernization programs and transformational systems we have 
pursued since the 1980s are the keys to executing our future 
warfighting concepts. However, the best and most modern equipment in 
the world means little if our marines and sailors cannot train with it 
in rigorous, realistic scenarios that match as closely as possible to 
the same stresses and chaos of combat. We are finding that the training 
and mission effectiveness of our marines are being degraded by the many 
forms of encroachment on our bases and stations. The impacts of 
encroachment are making it increasingly difficult to bring together the 
members of the Navy and Marine Corps team to train as they will fight. 
Increasing restrictions are resulting in training exercises becoming 
more administrative in nature than tactical. Encroachment issues will 
continue to be a 21st century problem. We will need to retain the areas 
where we train, particularly those where we train in combined arms.
    What you saw in Afghanistan is just the most recent example of what 
America can expect from the Marine Corps, which trains the way it will 
fight. Our marines are ready, our doctrine works, and with the new 
hardware ready to come on line, along with continued congressional 
assistance, you're going to get a Marine Corps that's leaner, more 
lethal, and even more ready than what you've experienced for the past 
226 years.
    Question. If confirmed, what will be your priorities for 
maintaining readiness in the near-term, while modernizing the Corps to 
ensure readiness in the outyears?
    Answer. The fiscal year 2003 budget addresses the Marine Corps' 
personnel, equipment, infrastructure, and modernization/transformation 
programs. We thank this committee for its support to the Marine Corps 
readiness.
    The modernization programs and transformational systems we have 
pursued since the 1980s are the keys to executing our future 
warfighting concepts. We need your continued support of our 
modernization and transformation efforts, and in terms of our forward 
deployed seabased platforms--amphibious shipping. Some of our 
cornerstones for future readiness are:

        <bullet> The V-22 Osprey remains the Marine Corps' number one 
        aviation priority. With it, Marine Forces operating from their 
        seabase will be able to take advantage of long-range maneuver 
        and strategic surprise.
        <bullet> The Advanced Amphibious Assault Vehicle (AAAV) remains 
        the Marine Corps' number one ground acquisition priority. It 
        will allow marines to eliminate the battlefield mobility gap 
        and, for the first time, conduct deep maneuver ashore in a 
        single seamless stroke.
        <bullet> The Short Takeoff and Vertical Landing variant Joint 
        Strike Fighter (STOVL JSF) will combine the basing flexibility 
        of the AV-8 with the multi-role capabilities, speed and 
        maneuverability of the F/A-18 to fulfill both the air-to-ground 
        and air-to-air requirements of the Marine Corps.
        <bullet> The increased range and speed of the AAAV and the V-22 
        will require weapons systems with greater range, lethality, and 
        tactical mobility.

                <bullet> The Light-Weight (LW) 155 and High Mobility 
                Artillery Rocket System (HIMARS) will provide the 
                ground fires necessary for our Marine Air Ground Task 
                Forces.
                <bullet> Naval Surface Fire Support: We must pursue the 
                development of a credible NSFS capability to support 
                EMW.

        <bullet> The KC-130J will bring increased capability and 
        mission flexibility with its communications system, 
        survivability enhancements, night systems, enhanced rapid 
        ground refueling, and improved aircraft systems.
        <bullet> Service Life Extension Programs: Until our new 
        equipment is fielded, we will continue to ensure the readiness 
        of our gear. Maximum advantage of Service Life Extension 
        Programs (SLEPs), for equipment like our Light Armored Vehicles 
        (LAVs) and CH-53s, will improve the reliability and 
        availability of our legacy systems.
        <bullet> Amphibious Shipping: Our amphibious lift requirement 
        remains 3.0 Marine Expeditionary Brigade (MEB) assault echelons 
        (AE), however, we are fiscally constrained amphibious lift 
        capability of 2.5 MEB assault echelon equivalents. Current 
        active duty shipping falls short of the 2.5 MEB AE. We are 
        working hard with the Navy to increase the rate of 
        expeditionary shipping.
        <bullet> Maritime Prepositioning Force (MPF): MPF saves 
        thousands of sorties of strategic lift. Unfortunately, the 
        leases on our ships expire in fiscal years 2009, 2010, and 
        2011. We are developing the future concept of MPF programs, and 
        with your help, will replace the existing program.

    The best and most modern equipment in the world means little if our 
marines and sailors cannot train with it in rigorous, realistic 
scenarios that match as closely as possible the same stresses and chaos 
of combat. The impacts of encroachment are making it increasingly 
difficult to bring together the members of the Navy and Marine Corps 
team to train as they will fight. We will need to retain the areas 
where we train, particularly those where we train in combined arms.
    Question. Have individuals in the Marine Corps been required to 
spend extended deployments overseas that have exceeded normal OPTEMPO 
goals?
    Answer. Yes, while we continue to closely manage our forces, 
current operational demands have resulted in increased PERSTEMPO. 
Forward presence is integral to our service culture and the 
approximately 21 percent of the Marine Corps which is forward based, 
stationed and deployed is consistent with the historical average over 
the past 10 years in comparison to end strength. In the last year, 
since September 11, 2001, three Marine Expeditionary Unit (Special 
Operations Capable) deployments have been extended for periods of 2 to 
6 weeks in order to support operations in Afghanistan. These extensions 
have impacted about 6,600 marines and sailors assigned to those units.
    Currently we have 190 marines beyond the congressionally mandated 
400-day payment threshold for PERSTEMPO. However, the data is 
inconclusive on the issue of whether these marines exceeded this 
threshold due to normal operations or as a result of September 11.
    Extensions thus far have been the exception--in fact the majority 
of marines and sailors during the past year have returned within the 
179-day limit set by service policy. Deployments are scheduled and 
managed with great care by the Marine Corps and Navy team not only to 
meet the requirements of the combatant commander, but also to preserve 
the readiness of the force and ensure the well being of the individual 
marine and sailor and their families.
    Question. Given the decreasing numbers of ships and increased 
number of contingencies, how do you intend to respond to continued 
requirements for naval presence while maintaining the deployment 
cycles, shore duty rotation, and retention goals?
    Answer. The Marine Corps and the Navy are concerned about the 
continued decline in the overall number of ships in our fleet and the 
affect on our forward presence posture. In the on-going global war on 
terrorism, we have managed our Marine Forces including use of Reserves 
at home and overseas. Our need, however, for modern expeditionary ships 
is critical. In peacetime as well as in war, numbers do count.
    The Marine Corps will continue to utilize reservists where prudent 
to alleviate deployment tempo as we currently are with reservists 
serving in Guantanamo, Cuba and with our 11th and 24th Marine 
Expeditionary Units (Special Operations Capable) (MEU(SOC))s.
    Amphibious shipping is vital to ensuring the mobility of Marine 
Forces to meet the Defense Planning Guidance (DPG). The most recent 
Quadrennial Defense Review (QDR) reaffirmed the fiscally constrained 
force level of 12 Amphibious Ready Groups (ARGs) each consisting of 3 
ships: a ``big deck'' LHA or LHD, an LSD, and an LPD class ship. Early 
retirements and block obsolescence have sharply reduced the total 
number of amphibious ships. Accordingly, the LPD-17 program, designed 
to be the functional replacement for four ship classes (LPD-4, LSD-36, 
LKA, LST), is essential to maintaining continued forward presence.
    Question. If confirmed, what force structure employment policies or 
doctrine would you consider as alternatives to stressing the people and 
platforms?
    Answer. Over the past few years, we have taken a number of steps to 
return as many marines as possible to the operating forces. By 
increasing the manning of our combat forces, we are spreading the load 
and reducing the stress on the individual marine. Since 1995, almost 
2,000 marines have been returned from the supporting establishment to 
our operating forces. Our strategy has been to review military manpower 
requirements at our bases and stations and identify those requirements 
that could be eliminated through efficiencies, performed by civilians, 
or outsourced. The marines freed up by these initiatives have been 
returned to the operating forces. We have also changed the way in which 
assign marines to units through a review of our manning and staffing 
precedence to ensure sufficient marines are available to the operating 
forces. Returning marines to the operating forces has been a priority 
of the Marine Corps over the last 4 years. We would continue these 
efforts as one of our initiatives to increase the capabilities of our 
operating forces and reduce the stress on the individual marine.
    In order to minimize stress on people and platforms, the Marine 
Corps Reserve would continue to implement increased interoperability 
and training between the active and Reserve components of the Marine 
Corps. This will not only allow the Reserve component to stand ready to 
reinforce the Active component during times of war, but will also allow 
valuable OPTEMPO relief to the Active component as has been 
demonstrated recently with marines from the Reserve component deploying 
with the 11th and 24th Marine Expeditionary, Special Operations 
Capable, and deploying to Guantanamo. Additional Reserve Force 
structure alternatives include realignments of the headquarters 
personnel within the battalions of the 4th FSSG and separate battalions 
in the 4th MARDIV to support independently deployable companies, align 
Reserve marines to contingency billets, and create new capabilities to 
meet emerging requirements.
    In addition, we are constantly pushing the doctrinal envelope with 
an eye toward optimizing the employment of our limited manpower and 
equipment resources. To this end, we are aggressively evaluating 
emerging concepts such as seabasing, space operations, and other joint 
techniques and procedures.
    Question. Have the deployment days of marines under your command in 
the First Marine Expeditionary Force been tracked and recorded in order 
to ensure management of the deployments of members? If so, what has 
this tracking shown about deployments?
    Answer. Yes. In accordance with the PERSTEMPO legislation and 
Marine Corps direction, since October 1, 2000, the deployment days of 
all marines under my command in the I Marine Expeditionary Force were 
tracked and recorded in order to ensure management of the deployments 
of members. This tracking and management continued, even after October 
8, 2001, when the Department of Defense wisely suspended the management 
and payment requirements of the PERSTEMPO legislation after the 
terrorist attacks on September 11, 2001. The PERSTEMPO suspension 
provided necessary operational flexibility.
    The majority of the 43,000 I MEF marines are in the range of 180 to 
300 days, representing a single deployment and associated inter-
deployment training during the 2-year period. We currently have about 
50 personnel deployed who are in excess of 400 days deployed in the 2 
years since implementation. As a result of Operation Enduring Freedom, 
about 5,000 marines and sailors in I Marine Expeditionary Force have 
either had scheduled deployments extended or deployed on unscheduled 
deployments. Of this number, 4,000 have been extended for about 3 weeks 
with deployed Marine Expeditionary Units and the remainder have 
deployed up to 179 days on unscheduled deployments. The latter 
includes: Aviation support in Manas, Kyrgyzstan; Augmentation of Marine 
Expeditionary Units with additional CH-53s and C-130s; Individual 
augmentation to Joint Task Force Consequence Management, Joint Task 
Force 180 in Afghanistan, Joint Task Force 170 in Cuba, Task Force 58 
in Afghanistan, Central Command headquarters, Marine Central Command 
headquarters, Combined Forces Land Component Commander and Combined 
Forces Air Component Commander for Central Command. These requirements 
are causing a greater number of marines to approach, and in some cases, 
exceed 400 days of deployment tempo. We realize the serious demands 
these increased requirements place on our marines and will continue to 
monitor deployment tempo.
    The data from PERSTEMPO tracking is inconclusive at this time. 
Prior to October 1, 2000, when the services began tracking and 
reporting PERSTEMPO, the Marine Corps did not have reliable data 
regarding the deployment of individuals. Instead, we relied on data 
regarding the deployment of units, vice individual marines. 
Additionally, the normal deployment cycle for our units and assigned 
personnel is about 2 years. We are only now reaching a convergence of 2 
years of deployments and data collection. We will need approximately 2 
more years, or one more deployment cycle, to have sufficient data to 
draw any specific conclusions about the current deployments. Initial 
analysis indicates that some individuals, occupational specialties and 
units are deploying more than others, but whether that is beyond the 
norm is not yet certain.
    Question. Do you believe the officer corps has confidence in the 
integrity of the officer promotion system in the Marine Corps?
    Answer. Yes, sir. I believe our officer corps has confidence in the 
integrity of the promotion system. Over the last 3 years we have 
leveraged technology to provide our promotion board members with a 
completely electronic view of each officer's official record. Further, 
we have utilized the internet to ``demystify'' the promotion process 
and give officers as much information as possible on how they can best 
prepare for their boards.
    Question. What role would you, as Commandant of the Marine Corps, 
expect to play in the officer promotion system?
    Answer. I believe the Commandant must execute the policies of the 
Secretary of the Navy to ensure that every officer receives fair and 
equitable consideration for promotion to the next higher grade. To this 
end, I would be active in a number of areas, beginning with upholding 
the requirements of Title 10. As such, I would ensure the impartiality 
of the process, as well as emphasizing the importance and value of the 
guidelines for joint and acquisition service. I would also recommend to 
the Secretary a promotion plan that provides adequate promotion 
opportunity balanced with the needs of the Corps. Further, I would 
continue to foster an environment where we are continually looking for 
ways to improve not only the selection process and our personnel 
evaluation system, but the system within which we develop and train our 
officers as well. Finally, I would ensure strict compliance with the 
high standards of conduct that we expect from all our officers.
    Question. What role would you, if confirmed as Commandant of the 
Marine Corps, expect to play in the general officer management and 
nomination process?
    Answer. The environment in which we operate today requires the 
Commandant to play an active role in the career management of general 
officers. I do not take this obligation lightly since we, collectively, 
are entrusted with our Nation's treasure--its youth. To that end, we 
develop, educate, and train our officer corps to be leaders of marines. 
At the top of this process is our general officer ranks. These marines 
have proven track records of superior performance, leadership and 
experience at all levels of command. The selection process is so 
competitive that less than 1 percent of those eligible are picked. Once 
selected, our general officers work alongside general/flag officers of 
the other services, and our civilian leadership, to maintain a defense 
establishment equal to the monumental challenges facing our country 
today. If confirmed, I would ensure that the training, education, and 
evaluation of officers result in the promotion of the best and 
brightest leaders. Our Country and Corps deserve nothing less. Second, 
I would carefully consider the skills of each general officer, and 
nominate marines who will be highly successful, both in the service and 
joint community.
    Question. In a recent essay in the Marine Corps Gazette, the 
argument was presented that the performance evaluation system (PES) 
currently in use is antiquated and not sufficiently useful in enabling 
Marine Corps leaders to identify and select the best-qualified officers 
for promotion. The author of the essay argued for a new system called 
the ``360 degree report,'' that would require evaluation of officers 
not only by their immediate supervisors, but also by two peers and 
three of their subordinates.
    What are your views about the efficacy of the current PES?
    Answer. Our current performance evaluation system ranks marines 
according to the definitions and requirements of each billet and puts 
controls in place to prevent the over-inflation of marks. The basic 
premise from which the current PES stems is that the person best-
qualified to assess a marine's performance in a particular billet is 
the person assigning the billet requirements--the reporting senior and 
his/her boss, the reviewing officer.
    The fitness report form offers space to evaluate the marine's 
billet description, accomplishments, job performance and character 
assessment. The information created from the data entered into the 
system has proven to be very helpful for board members to base their 
decision of who is best qualified for promotion. Most promotion boards 
feel that the current fitness report is a valuable tool for determining 
qualifications for promotion.
    The process for completing and mailing in a fitness report needs 
improvement, and is currently under contract to be automated. When 
these improvements are completed, the creation and submission of 
fitness reports will be streamlined. For example, reporting officials 
will no longer have to mail paper copies of fitness reports to our 
manpower department for subsequent entry into our system.
    Question. If confirmed, what steps, if any, would you take to 
implement changes to the PES, including the ``360 degree report?''
    Answer. I would not take any immediate steps to change our current 
PES. However, I would allow the improvements already in progress to 
continue. Our present PES became effective January 1, 1999. Compared to 
our previous system that served us well for many years, our present PES 
is an entirely new system. Our intent is to let the system mature for 5 
years without a major change. We have made some administrative and 
policy changes but have not altered the fitness report form itself, or 
the essence of the system. For example, based on the desires of our 
colonels, we now use the general officer evaluation concept for 
evaluating our colonels. Our next major change is to complete the 
automation of the preparation and submission process. We are under 
contract with a projected initial operating capability during the 
summer of 2003 and full operational capability during the spring of 
2004.
    Our present PES was developed by three entities. The Performance 
Appraisal Center at Western Michigan University analyzed all of our 
Armed Services' PES, various foreign military systems, and also 
considered evaluation systems used by industry. Concurrently, our 
brightest majors at the School of Advanced Warfighting conducted 
thesis-type research to conceptually design how marines should be 
evaluated and the criteria for evaluation. Also, an Executive Steering 
Committee of general officers, the Sergeant Major of the Marine Corps, 
legal counsel, and subject matter experts aided this effort. Many 
options were considered, including the ``360 degree'' type evaluation. 
This specific option was not selected for several reasons: (1) The 
military chain of command exists for sound reasons. Including 
subordinate and peer evaluations would be difficult to implement and 
adjudicate. (2) Our Marine Corps PES is used by the other services and 
civilian leaders when evaluating Marines assigned to them. Fifty-one 
percent of reporting seniors who evaluate marine colonels are not 
marines. Consequently, imposing a Marine Corps ``360 degree'' PES on 
the other services would be unrealistic, if not impossible. (3) Over 
200,000 fitness reports are prepared by individual reporting seniors 
annually; therefore, the sheer increase in the number of reports, by 
including peers and subordinates as additional reporting seniors, would 
make the ``360-degree'' concept impractical.
    Question. In your view, what are the quality of life challenges for 
the Marine Corps facing the next Commandant of the Marine Corps?
    Answer. Effective QOL programs and services are essential to 
maintaining stability in the force, enhancing personal and family 
readiness, and fostering retention. The Marine Corps has established 
five major QOL priorities: pay and compensation, health care, bachelor 
and family housing, infrastructure/installation management, and 
community services. I see our primary quality of life challenges to be 
managing the ever-increasing expectations for QOL, balancing the needs 
of single marines and marine families, and providing sufficient 
resources.
    Adequate compensation for marines is crucial to the success of the 
all-volunteer force. Comparability of pay with the civilian sector is a 
key aspect of recruiting and retaining quality, skilled men and women. 
Health care is a key QOL issue for marines and families, especially so 
for our spouses, who are most often the family health care managers. 
Providing a health care system that is prompt, hassle-free, and 
transparent to the patient benefits readiness and retention. We are 
achieving significant progress in improving family housing through a 
combination of basic allowance for housing (BAH) increases, which will 
result in a zero out of pocket BAH payment by 2005 as currently 
budgeted, and use of public private venture housing authorities to 
recapitalize our housing inventory.
    Marine Corps Community Services (MCCS) are the hub of our military 
communities, supporting and sustaining marines and family members. MCCS 
programs reduce readiness risks, produce fit marines and families, and 
provide outstanding activities and entertainment to our marines and 
their families.
    Question. Although the Marine Corps has an ambitious barracks 
improvement program, the Corps is constructing its barracks to the 
2<greek-e>0 room configuration, which is below the Department of 
Defense standard.
    In your view, should the waiver to exempt the Marine Corps from the 
Department of Defense 1<greek-e>1 standard be continued? If so, why?
    Answer. I believe the waiver should continue. The waiver, 
originally requested by General Krulak to support our efforts to 
improve unit cohesion and team building for junior enlisted Marines, 
still has merit.
    Question. What are your views regarding the privatization of Marine 
Corps military family housing and unaccompanied housing?
    Answer. My view concerning privatization of Marine Corps military 
family housing is to continue the stellar work we have begun. The 
Marine Corps implementation of public private venture (PPV) authorities 
is truly a legacy being left by the current Commandant of the Marine 
Corps. Under his direction, we are privatizing more than 95 percent of 
our housing inventory. In return we are getting high quality housing 
more quickly than we could using traditional methods, excellent 
management of these units by developers, and significant reduction in 
military construction investment.
    With regard to unaccompanied housing, I am aware of initiatives to 
test PPV with unaccompanied housing. If appropriate legislation is 
enacted, a pilot/test is being considered for one bachelor officer 
quarters and one bachelor enlisted quarters.
    Question. The Marine Corps has had praiseworthy success in 
recruiting new personnel.
    Based on your experience, what do you consider to be the keys to 
the Corps continuing success in appealing to American youth?
    Answer. The key to our success in appealing to the American youth 
lies in the message we communicate and the ways in which we communicate 
that message. Our message is that marines are ``smart, tough, elite 
warriors.'' To successfully communicate this message, we focus in on 
the transformation that a young man or woman must make to become a 
marine. This transformation metaphor is one that has been the 
centerpiece of Marine Corps advertising for the last 20 years. We 
utilize market based research and a thorough understanding of our 
target market to develop our communication strategy. So as the 
attitudes and values of our target market change, we adapt with them. 
Current research has indicated a generational shift in youth values and 
attitudes causing some to characterize the new generation of youth as 
the millennial generation. Capitalizing on research conducted of this 
new generation; we adapted our communication strategy to meet their 
unique needs, which culminated in our current advertising campaign `` 
The Climb.''
    Question. If confirmed, what goals will you set with respect to 
recruitment of new marines?
    Answer. I would not change our goals. We have exceeded DOD and 
Marine Corps standards for quality while achieving all contracting and 
shipping goals for the past 7 years.
    Question. Are there additional enlistment incentives that you would 
recommend in order to further improve the quality and quantity of new 
marine recruits?
    Answer. No. Our Recruiting Command works closely with Manpower and 
Reserve Affairs enlisted planners to ensure that all available funds to 
promote enlistment into the Corps are made available and used to 
support and enhance our recruiter's efforts to enlist quality 
applicants. Although there are always challenges to recruiting, I do 
not foresee the need for additional enlistment incentives. With that 
being said, we will certainly reevaluate our enlistment incentive 
program should the recruiting circumstances change.
    Question. Recent personnel information provided to the committee 
has shown increased difficulty in meeting first term retention goals.
    Are there any additional retention incentives that you would 
recommend in order to improve retention of first term and other 
experienced marine personnel?
    Answer. While the Corps continues to be successful in meeting our 
first term and career retention goals, this success has proven to be 
challenging. Commanders throughout our Corps are actively pursuing 
innovative ways to ensure we retain our best and brightest. Our success 
to date can be attributed to the leadership exercised by our commanders 
and their relentless pursuit of ensuring the success of our future 
through the retention of our best marines. In fiscal year 2001 and 
fiscal year 2002 we exceeded our first term retention goals and 
achieved a 97 percent and 99 percent MOS fill rate, respectively.
    The Selective Re-enlistment Bonus Program continues to be the 
primary incentive of a small, select group of marines to continue their 
service to our country. I believe that we have used this program 
prudently and effectively. We appreciate the support this committee has 
provided to this program in the past and I believe its continued use in 
the future will aid in our retention efforts.
    Question. What are the Marine Corps' most significant officer 
retention challenges, and, if confirmed, what goals will you set in 
order to improve retention?
    Answer. The Marine Corps is currently experiencing an 18-year high 
for officer retention. However, being a small force, our greater 
retention has challenged us to re-examine our force shaping abilities 
in order to adhere to our active and reserve component officer end 
strength limits and meet our requirements by grade and MOS.
    Question. The committee has found that among the reasons why 
TRICARE is not well accepted in the field is the lack of indications of 
support from the chain of command.
    Do you support TRICARE?
    Answer. I support TRICARE and understand the importance of health 
care to marines and their families, both in terms of readiness and 
quality of life.
    Question. What will you do, if confirmed, to ensure the chain of 
command, officer and enlisted, make TRICARE a matter of command 
interest and work to both educate soldiers and their families and to 
resolve problems with the health care delivery system?
    Answer. If confirmed, I would insist that a high priority is placed 
on the delivery of health care services. It is imperative that leaders 
are educated about TRICARE to ensure that marines and their family 
members know how to use their health plan, and where to find help when 
they have questions or issues. I would emphasize the importance of 
TRICARE to all commanders throughout the Marine Corps and ensure 
policies to assist personnel with TRICARE are implemented.
    Question. Since the war in the Persian Gulf, the Navy has retired 
the last two remaining battleships, virtually eliminating the Navy's 
ability to provide ship-to-shore fire support for an amphibious 
assault. Last year the DD 21 program was terminated and the DD(X) 
research and development ship was substituted in its place in the 
Future Years Defense Program (FYDP).
    Do you believe that current programs within the Navy and Marine 
Corps' budgets are adequate to meet Marine Corps fire support 
requirements within an acceptable time period?
    Answer. No, we currently have an acute shortage of naval fire 
support to meet the demands of forcible entry. The current situation 
will not be resolved until DD(X), armed with the 155mm Advanced Gun 
System (AGS) and the Advanced Land Attack Missile (ALAM), joins the 
fleet in strength post-2012.
    We are encouraged by programs under development such as the 5,,/62 
Naval Gun, Extended Range Guided Munition (ERGM), and the Autonomous 
Naval Support Round (ANSR) that will increase the capability of naval 
guns in the near-future. However, we would continue to work with the 
Secretary of the Navy and CNO for increased acquisition of surface and 
subsurface fire support systems.
    Question. The committee has been concerned about the Navy's level 
of commitment to supporting mine countermeasures programs and 
capability. The Navy decided last year to terminate the shallow water 
assault breaching system (SABRE) and distributed explosive technology 
(DET) shallow water mine clearance systems. The Navy made this 
cancellation decision in spite of the fact that the Navy has no near-
term alternative to provide this capability.
    This year, there have been reports that the Navy is considering 
canceling or truncating deployment of the Remote Minehunting System 
(RMS), a central component of the mine warfare campaign's goal of 
moving to a mine countermeasures capability organic to the battle 
group.
    Do you believe that the Navy's mine countermeasures modernization 
programs will be adequate to meet the Marine Corps' needs?
    Answer. I believe that the Navy possesses an adequate and improving 
capability to deliver Expeditionary Forces through deep water and to 
the 40-foot depth line of the littoral battle space--even in an anti-
access environment. However, with reference to very shallow water 
(VSW), surf zone (SZ) and beach zone (BZ) mine countermeasures, our 
efforts have so far not resulted in practical systems. I would continue 
to work with the Secretary of the Navy and CNO on these critical 
programs.
    Question. The Marine Corps has leased a high speed vessel (HSV) to 
support training operations for Okinawa-based forces, supplanting the 
need for airlift support from the Air Mobility Command.
    Do you believe that the Marine Corps needs access to more such 
HSVs?
    Answer. Yes, sir, we need more access to High Speed Vessels (HSVs). 
My recent participation in a Navy-Marine Warfighter and observations in 
the Pacific have convinced me of their potential utility, and I would 
look forward to meeting with the CNO to discuss how we would integrate 
HSVs with our naval concept for seabasing.
    The high speed vessels Joint Venture HSV X-1 and the III MEF 
Westpac Express are two examples of HSV capabilities that can 
significantly enhance littoral expeditionary operations across the 
spectrum of conflict. We believe that HSVs are multi-mission capable 
platforms that augment amphibious and prepositioned ships in order to 
provide expeditionary seabased capabilities to the current and future 
Joint Force.
    We intend to continue to conducting HSV experiments across the 
deployment, employment, sustainment and redeployment cycle in order to 
explore the full range of HSV capabilities in support of the current 
and future Joint Force. We are developing continued experimentation 
plans for the Joint Venture and its successor. Our future Joint Venture 
experiments will address how to capitalize on high-speed vessel 
technologies as enablers to (1) enhance and extend the operational 
reach of our current MPF capabilities, (2) capture lessons learned that 
we can apply to integrating HSV capabilities to support MPF (Future) 
operations, and (3) capitalize on the HSV's littoral mobility 
capabilities for operational and logistical support for combatant 
commanders.
    While we are still building the fiscal year 2003 HSV 
experimentation plan, our focus remains on continuing to develop/refine 
a concept of HSV employment in support of seabased operations. This 
concept should include at-sea arrival and assembly, at-sea selective 
off load, and at-sea reconstitution of forces. We are also looking at 
developing the required technologies to enable ship-to-ship and ship-
to-causeway interfaces. We also plan to continue experimentation with 
advanced force operations and operational maneuver, and begin 
experimentation with riverine operations.
    Westpac Express continues to participate in joint exercises 
throughout PACOM's area of responsibility. While basically being used 
as a ferry within the Western Pacific to ensure unit training is not 
hampered by delays in air movement, it is a prime example of improving 
operational mobility. Westpac Express will continue to conduct/develop 
cargo load trials and participate in exercises, most recently a NEO 
exercise at MCAS Iwakuni, Japan and the deployment of MPS offload 
personnel to Korea.
    Question. What would such access imply for modernization programs? 
For example, how could having such vessels affect requirements for 
amphibious shipping or for replacements for the current Maritime 
Prepositioning Force ships?
    Answer. While current HSVs possess the potential to significantly 
enhance littoral mobility for our warfighters, they cannot replace 
amphibious or prepositioning ships. While they can transport 
significant amounts of personnel and equipment long distances at high 
speed, they do not possess the loitering, survivability, and forcible 
entry capabilities necessary to support our Nation's requirements for 
naval forward presence forces. Nor do they provide the prepositioning 
capabilities necessary to compensate for shortfalls in strategic lift. 
Amphibious and prepositioning ships should be viewed as the key 
enablers to set the conditions to exploit HSV capabilities in assured 
access environments.
    Question. One of the Marine Corps' high priority development 
programs is the V-22 Osprey tilt-rotor aircraft. The Secretary of 
Defense has been quoted as saying that, even if the V-22 performs 
adequately in the new testing program, DOD may not move the program 
forward into full production.
    What is your assessment of the value of the V-22 for the marines?
    Answer. The V-22 is a key enabler of our capstone warfighting 
concept, ``Expeditionary Maneuver Warfare.'' Tilt-rotor technology, in 
conjunction with other cutting edge technologies, will bring this 
concept to fruition. The V-22 will provide us with the speed, range, 
self-deployability, and survivability that cannot be matched by any 
helicopter. It will allow us to maneuver from great distances to a 
point of advantage in the battlespace. Its speed will also increase our 
ability to rapidly build up forces ashore and ensure our MAGTF 
commander has the right force, in the right place, and at the right 
time. The V-22 will be truly transformational by providing the ability 
to rapidly deploy, employ, and re-deploy marines and Special Operations 
Forces.
    Question. Are you satisfied with the current testing plan?
    Answer. Yes. The V-22 program test plan has been developed to 
address all areas of concern identified by the Blue Ribbon Panel, NASA, 
and the Mishap Investigation Reports. The ``Event Driven'' plan 
addresses all high-risk technical concerns early and then moves forward 
based on measurable successes. If the aircraft and program do not 
perform as expected, we should know early in the testing process and 
could make adjustments as necessary to our overall aviation plan.
    Question. The Marine Corps has decided to forego buying the F/A-
18E/F and await development of a short takeoff, vertical landing 
(STOVL) variant of the Joint Strike Fighter (JSF).
    Do you agree with this approach?
    Answer. I fully support the decision to forego purchasing the F/A-
18E/F tactical strike fighter aircraft.
    Question. Is this plan consistent with modernizing the EA-6B forces 
within the Marine Corps?
    Answer. With current airframe and Improved Capabilities III (ICAP 
III) Electronic Warfare (EW) upgrades, the Prowler will remain viable 
against advanced air defenses through 2015. Procurement of 20 ICAP-III 
kits over the next 3 years will allow the Marine Corps to reach full 
operational capability (FOC) by 2007. This plan will save approximately 
$16.1 million in weapon system costs and will result in optimal unit 
pricing.
    I would continue to work with the Secretary of the Navy and CNO to 
evaluate the F/A-18G and alternative systems for our Airborne 
Electronic Attack (AEA) requirements.
    Question. The committee has been informed that the Navy and Marine 
Corps intend to integrate additional Marine Corps aviation forces into 
normal carrier air wing deployment operations.
    Do you support this initiative?
    Answer. Yes, I do. The TacAir integration initiative represents a 
critical piece in the DON transformation effort. Along with doctrinal 
changes already effecting naval operations, TacAir integration 
represents a path to greater combat capability through the efficient 
use of all available DON resources. This is predicated on heightened 
readiness levels across the DON heretofore unrealized. As a key element 
to naval transformation, TacAir integration can only be realized 
through a dedicated commitment to cultural and organizational change. 
The recent memoranda between the Navy and Marine Corps specifically 
address this challenge. It is imperative that readiness accounts are 
appropriately funded to ensure adequate readiness levels to support the 
integration.
    Navy and Marine Corps strike fighter squadrons will train, deploy 
and fight side-by-side as part of carrier air wings and land-based, 
deployed expeditionary squadrons. Having 10 Marine Corps squadrons 
fully integrated into carrier air wings and 3 Navy squadrons joining 
the USMC Unit Deployment Program will greatly improve our cross 
training, coordination and overall warfighting capabilities.
    Naval TacAir integration will maximize forward deployed combat 
power. This organizational construct, combined with ongoing doctrinal 
initiatives, will produce an affordable, precise, credible naval TacAir 
force that operates from sovereign sea bases and expeditionary austere 
sites ashore. As a result, TacAir integration will optimize the core 
capability of naval aviation forces that are provided to combatant 
commanders in support of joint operations.
    Question. Will such integration place additional demands on Marine 
Corps tactical aviation units that would cause them to exceed normal 
operating tempo goals for such units?
    Answer. The TacAir integration plan will conform to current 
peacetime PERSTEMPO and OPTEMPO goals.
    Question. If not, will current demands for such units go unmet?
    Answer. Current demands for expeditionary land and sea-based naval 
aviation forces will not go unmet based on the results of TacAir 
integration. In a time of limited resources, reduced forward basing and 
increased demand for the employment of all elements of national power, 
the DON looked hard at its requirements, took doctrinal integration 
into consideration and reduced procurement numbers appropriately. We 
did not sacrifice our ability to answer the call. We will preserve, and 
should exceed, our ability to meet all current operational 
requirements.
    Carrier air wings and expeditionary unit deployment requirements 
will be completely covered as they are today. In response to 
contingency or Oplan requirements, naval aviation forces will surge to 
support marine and joint ground forces alike. This point cannot be 
emphasized enough . . . Marine Air-Ground Task Forces are not losing 
air power. This will require a dedicated commitment to the development 
of a TacAir force whose readiness will allow such ``global'' sourcing 
of aviation assets. With improved readiness profiles in place, a more 
capable naval aviation force will be able to increase its 
responsiveness to the MAGTF and joint forces.
    Question. Do you agree with the current plan to upgrade the UH-1 
and AH-1 even with the cost growth problems identified in these 
programs earlier this year?
    Answer. I continue to believe that the H-1 Upgrades Program is the 
best and most cost-effective solution to satisfy the Marine Corps' 
warfighting requirements. The Program Office and Bell Helicopter have 
the right leadership and mechanisms in place to provide a quality 
product and prevent any further cost growth. In May of this year 
Secretary Pete Aldridge, OSD AT&L certified to Congress under the Nunn-
McCurdy Act that the H-1 Upgrade Program is viable, affordable and 
executable as currently structured.
    Question. What do you believe is the right approach for replacing 
the EA-6B electronic warfare aircraft for the Marine Corps?
    Answer. The Marine Corps remains committed to upgrading all of our 
EA-6B airframes and Electronic Warfare (EW) capabilities to the 
Improved Capabilities III (ICAP III) configuration. As indicated in the 
2001 Airborne Electronic Attack Analysis of Alternatives (AEA AOA), 
ICAP III capable aircraft will remain viable against advanced air 
defenses through 2015. I would look forward to working with the 
Secretary of the Navy and CNO on evaluating alternative systems for our 
Airborne Electronic Attack requirements.
    Question. The Advanced Amphibious Assault Vehicle (AAAV) is a high-
priority development program for the Marine Corps.
    Why is the AAAV important to the Marine Corps?
    Answer. The Advanced Amphibious Assault Vehicle program remains the 
Corps' highest ground acquisition priority and promises to allow high-
speed surface maneuver from ship-to-shore as well as on land. This 
vehicle will be able to deploy to objectives from over the visual 
horizon, 25 miles and beyond, and will allow our ships to remain beyond 
the range of many threat weapons and surveillance systems. It will help 
offset an enemy's anti-access strategies and bolster expeditionary 
operations from the sea. Once ashore, the AAAV will be one of the 
world's most capable Infantry Combat Vehicles. The vehicle's land 
mobility performance will surpass that of any wheeled or tracked 
vehicle in its class. It will possess ``state of the art'' C4I and 
survivability technologies, which will enable the AAAV to be a 
substantial force multiplier in support of ground combat operations. 
Furthermore, the Mk 44 30mm Automatic Gun will give the vehicle a 
lethal direct fire capability. Predictive diagnostics technology will 
be integrated to improve reliability and reduce the maintenance burden. 
When fielded to the operating forces, the Advanced Amphibious Assault 
Vehicle will be a decisive expeditionary warfare tool for operations in 
littoral areas worldwide.
    Question. When will the AAAV be fielded?
    Answer. The current AAAV acquisition plan initiates fielding in 
2007 and completes fielding in 2017.
    Question. In your view, is the current acquisition plan 
satisfactory?
    Answer. The AAAV acquisition plan is satisfactory, however the 
lengthy AAAV fielding schedule of 10 years (2007-2017) is less than 
optimal. The AAAV fielding can be accelerated providing full 
operational capability to the Marine Corps as early as 2013. This 
acceleration would require additional funding in budget years fiscal 
year 2009 through fiscal year 2013.
    Question. The Army is seeking to achieve a transformed force by 
developing a future combat system (FCS) to supplant current heavy 
armored forces and achieve greater deployability in the process.
    Since ``deploying'' is a central concern of the Marine Corps, 
should the Marine Corps be participating more extensively in the Army's 
FCS program?
    Answer. Marine Corps views success in rapid, agile deployments as a 
function of both both equipment and an expeditionary culture, and that 
that expeditionary culture includes doctrine, organization, and 
training. To the extent that the Marine Corps' perspective on 
deployability is inextricably tied to that expeditionary culture, there 
are likely to be some differences between the Army and the Marine Corps 
with regard to deployability constraints and the very nature of the 
force that each service's materiel solution must accommodate.
    Regarding the Army's development of more deployable equipment, we 
are currently participating with the FCS program through several 
venues. The Marine Corps has proactively engaged both the operational 
and technical system developers to ensure sufficient understanding of 
the Army's direction. This includes positioning liaison personnel at 
Army labs, and entering agreements with labs, development commands and 
DARPA. I consider the current level of Marine Corps participation in 
the FCS program to be appropriate.
    As FCS becomes better defined, the Marine Corps will continually 
reevaluate its position to ensure that the path chosen accommodates the 
unique needs of the Marine Corps, as well as the larger needs of 
interoperability and economy. The Marine Corps has identified and 
articulated a need for a mounted maneuver element through a Mission 
Need Statement for a MAGTF Expeditionary Family of Fighting Vehicles, 
which was validated by the Joint Requirements Oversight Council. We 
fully expect technology products from the Army's FCS program to be 
provide some of the building blocks for this Marine Corps program.
    Question. The Marine Corps identified night vision capability as a 
deficiency during the war in the Persian Gulf.
    Do you believe that the Marine Corps is making sufficient progress 
in correcting these identified deficiencies?
    Answer. Yes. The Marine Corps has made significant progress in 
correcting deficiencies identified during the Gulf War. Marine aviation 
has increased efforts to upgrade night vision capabilities, 
particularly in three critical areas: night vision goggles (NVGs), 
forward looking infrared (FLIR) sensors and night vision compatible 
aircraft lighting. Marine Corps fighter/attack (F/A) and attack 
aircraft have completely fielded Generation III NVGs, and the EA-6B and 
KC-130 communities have begun NVG training. Meanwhile, our rotary wing 
community is approximately 80 percent complete in fielding Generation 
III NVGs.
    Since the Gulf War, Marine aviation has either upgraded or 
purchased new FLIR sensors in six of our type/model/series (T/M/S) 
aircraft. NVG compatible internal and external aircraft lighting is 
nearing completion on eight of our T/M/S aircraft and the KC-130 has 
begun modifications for NVG-compatible cockpits.
    For our ground forces, the Marine Corps has fielded a substantial 
quantity of Generation III night vision devices, directed energy 
targeting devices and laser aiming devices. All of these devices have 
not only corrected the deficiencies identified after Operation Desert 
Storm, but have allowed us to train to a level of night fighting 
proficiency that is virtually unmatched.
    Question. What ISR programs are most important to the Marine Corps?
    Answer. Marine Corps intelligence must be able to support tactical 
units during their pre-deployment planning process; during the transit 
at sea; and while ashore conducting their mission. To do this, we need 
well-trained, experienced, and properly equipped Marine Corps analysts 
and collectors; we need systems that can collect, fuse, correlate, and 
display data in a variety of formats based on users' needs; and we need 
robust, redundant, and reliable connectivity between our own tactical 
units and back to national and theater databases and ISR collection 
platforms to complement our own organic capabilities.
    Our intelligence programs are specifically tailored to ensure 
success with this very important combination of training, experience, 
and equipment. A multiyear plan to revitalize our intelligence 
capability is ensuring that these marines are organized, trained, and 
equipped to provide optimum intelligence support to commanders at all 
levels conducting Expeditionary Maneuver Warfare in the 21st century 
(EMW 21). EMW 21 is our maneuver warfare concept for executing joint 
and multinational military operations with the Navy across the full 
spectrum of crisis and conflict. The intelligence demands of EMW 21 
necessitate that our Marine Air Ground Task Forces (MAGTFs) have a 
reach-back capability to leverage national and theater intelligence 
repositories, yet maintain a tactically self-sufficient ISR network to 
support MAGTF fires and maneuver. These two needs, coupled with the 
increasingly asymmetric nature of the threats we face, frame our 
programs for ISR.
    Within the MAGTF, we have organized our ISR assets into 
intelligence battalions, radio battalions, reconnaissance companies and 
unmanned aerial vehicle (UAV) squadrons. The standup of an intelligence 
battalion in each MEF has successfully provided an organizational focal 
point for MAGTF ISR operations and has additionally provided the 
primary node for the fusion of joint and tactical intelligence. The 
establishment of a third radio battalion at Camp Pendleton will provide 
dedicated signals intelligence (SIGINT) support to each Marine 
Expeditionary Force (MEF) and expanded access into the national SIGINT 
architecture and Regional Security Operation Centers. The Marine Corps 
Intelligence Activity (MCIA), headquartered at Quantico, Virginia, 
complements our tactical intelligence organizations by producing 
intelligence in support of expeditionary warfare and leveraging the 
capabilities of national intelligence agencies. MCIA provided critical 
reach-back intelligence support to the initial contingent of marines 
who deployed into Afghanistan. Our policy of assigning marines to 
national intelligence agencies and joint intelligence centers ensures 
that these organizations incorporate our unique perspectives and the 
needs of expeditionary warfare into their operations, products and 
programs.
    The Marine Air Ground Intelligence System (MAGIS) is the family of 
systems that supports our comprehensive ISR network. These systems 
collect and process information from all intelligence disciplines, to 
include direct feeds from joint and other service collection platforms. 
Our MAGIS systems meet the thresholds outlined by the Assistant 
Secretary of Defense for Command, Control, Communications, and 
Intelligence (ASD/C\3\I) in the Distributed Common Ground Systems Draft 
Capstone Requirements Document, making the MAGTF both a provider and an 
enabler of joint ISR. The Intelligence Analysis System serves as the 
all-source hub of MAGIS, enabling analysts to fuse input from 
throughout the MAGTF and theater into a tailored and scalable common 
picture for the commander. Our Marine Corps communications programs 
complement our Marine Corps ISR programs by incorporating plans for a 
robust wide-band communications infrastructure to support our reach-
back requirements and the tactical ISR network.
    The large-scale introduction of new technology necessitates that 
intelligence Marines remain capable of exploiting new capabilities, yet 
the increasingly asymmetric nature of the threat necessitates that our 
intelligence marines also be proficient in ``low tech'' skills, 
including language capability and cultural and regional knowledge. We 
have successfully restructured our intelligence officer career path to 
ensure that our intelligence leaders have both the technical depth and 
the operational breadth to meet these demands. Additionally, we have 
reorganized our enlisted counterintelligence and human intelligence 
marines into one military occupational specialty (MOS) to provide 
enhanced support and flexibility in the area of anti-terrorism and 
force protection without sacrificing our interrogator translator 
capability. Recent measures we have taken to identify, track, and 
reward marines proficient in foreign languages also enhance our ability 
to meet the asymmetric threat. In the realm of both new technology and 
asymmetric threat, we are currently working on a new secondary 
intelligence MOS that will add computer network exploitation and 
computer network defense to the capabilities of our radio battalions.
    I am satisfied that our ISR programs are moving along the right 
track to meet the demands of EMW 21 and help the Corps meet the 
transformation objectives of the Secretary of Defense.
    Question. How will these programs contribute to Marine Corps 
mission accomplishments?
    Answer. Intelligence contributes to Marine Corps mission 
accomplishment by optimizing the quality and speed of decisionmaking. 
Our concept of Expeditionary Maneuver Warfare (EMW) requires a thorough 
blending of the traditional domains of operations and intelligence. 
Commanders and their staffs must make decisions in an environment of 
chaos, uncertainty and complexity. They additionally must be prepared 
to act on incomplete information. The goal of our ISR programs is to 
enable the commander to discern the enemy's critical vulnerabilities 
and exploit them.
    Our ISR programs will enable our marines to produce intelligence 
that supports planning and decisionmaking by maintaining current 
situational awareness, monitoring indications and warnings, identifying 
potential targets and assessing the adversary's intent and capabilities 
at all levels of operations. Our systems and training place a heavy 
emphasis on producing a common, scalable and tailorable graphical 
``picture'' of the enemy and the battlespace that can quickly be 
assimilated and understood, thereby supporting rapid decisionmaking. By 
adhering to the joint interoperability standards of the Defense 
Information Infrastructure Common Operating Environment we will be able 
to seamlessly share this ``picture'' and an underlying common data set 
with our joint and combined mission partners, thus contributing to the 
mission effectiveness of the operation as a whole.
    Marine Corps ISR programs support multiple concurrent expeditionary 
operations and facilitate operational maneuver and precision engagement 
through a tactically self-sufficient ISR network that is tied into the 
joint force ISR network. Our ISR network supports both lethal and non-
lethal effects based operations by reaching back to pre-positioned 
intelligence support materials and employing a robust array of target 
acquisition platforms that are tied into our fire support network with 
sensor to shooter links and procedures. Additionally, our intelligence 
marines leverage joint and national systems and the tools provided by 
the Marine Air Ground Intelligence System to provide rapid assessment 
of the effects of our operations in support of retargeting decisions.
    We will continue to meet the evolving challenges of the 21st 
century by providing quality, well-trained, and educated personnel 
equipped with the proper tools. We continually update our career paths, 
training programs, organizations and systems to meet evolving threats 
and capitalize on emerging technology.
    Question. How do you intend to focus Marine Corps research and 
development for 21st century platforms and Marine Corps equipment to 
enable the Marine Corps to field the agile and adaptable force needed 
to prevail in the 21st century?
    Answer. If confirmed, I would focus our research and development 
efforts on ensuring that our forces are ready to fight and win the 
Nation's battles. Specifically, our research and development efforts 
will be focused to:

        <bullet> Enhance our ability to project power, enabled by the 
        capabilities detailed in our concept papers for Ship to 
        Objective Maneuver and Enhanced Networked Seabase, focused on 
        command and control, fires, maneuver, intelligence, logistics, 
        force protection, and aviation in support of naval and joint 
        operations.
        <bullet> Develop command and control systems that support joint 
        and multinational warfighting, en route planning and rehearsal, 
        permitting the immediate employment of Marine forces in 
        response to a crisis.
        <bullet> Promote technology that simplifies operational 
        sustainment including advanced C4 systems; inter-modal and 
        unitized containerization; advanced packaging and repackaging 
        capabilities; and improved reliability, maintainability, and 
        fuel efficiency.
        <bullet> Project power from the inherent maneuver space and 
        protection afforded by the sea through advanced tilt-rotor 
        aircraft, expeditionary fire support systems, and amphibious 
        fighting vehicles.
        <bullet> Decrease reliance on built-up and easily targeted 
        airfields and facilities through development of Short Take-Off 
        and Vertical Landing (STOVL) aircraft.
        <bullet> Increase situational awareness, gain tactical 
        information advantages, and support maneuver forces with the 
        use of tactical unmanned aerial and ground vehicles.
        <bullet> Develop promising non-lethal technologies via the 
        Marine Corps-led Joint Non-Lethal Weapons Directorate.
        <bullet> Procure realistic and easy to use information 
        technology (minimum training, no specialized/unique equipment 
        requirements, human-machine interface) to support combat 
        operations.

    Question. Are there any vital technologies that you think are not 
being purchased?
    Answer. A technology that I believe will transform the way we wage 
war that is not yet available in large quantities is that of unmanned 
vehicles and remote presence. The primary reason we have made few large 
procurements, however, is lack of maturity of the technology. Having 
said that, this decade will bring a number of unmanned systems into 
military use, improving situational awareness while keeping our people 
out of harm's way.
    A good example is the Dragon Eye small unmanned air vehicle, a 5-
pound UAV that assembles/disassembles in seconds, fits in a backpack, 
flies autonomously (operator simply programs in GPS way points) and 
shows real-time what's around the corner or over the next hill. Dragon 
Eye is a product of the Marine Corps Warfighting Lab and the Naval 
Research Laboratory.
    A technology especially important to the marines is mine 
countermeasures. While we have invested extensive science and 
technology (S&T) dollars in MCM throughout the 1990s, the challenge 
today is to transition technology investments into fielded 
expeditionary warfare capability for our sailors and marines.
    Finally, it is clear that we will fight jointly in the future, and 
all services must be able to share the same common relevant operational 
picture. We must develop and acquire command, control and communication 
systems that capitalize on the rapidly advancing technology base 
without making obsolete those legacy systems used currently by each of 
the services. This is a difficult, but solvable problem, and we must 
get on with the solution.
    Question. In order to exercise its legislative oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committee of Congress?
    Answer. Yes, sir.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes, sir.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commandant of the Marine 
Corps?
    Answer. Yes, sir, I would.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, sir.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Mary L. Landrieu
                                 lpd-17
    1. Senator Landrieu. General Hagee, in response to a question posed 
at the April 9 hearing of the Seapower Subcommittee, General Whitlow 
said: ``Increasing the LPD production rate to the original rate of two 
per year (currently one per year fiscal year 2004 through fiscal year 
2009 with two ships in fiscal year 2008) would allow earlier de-
commissioning of the LPD 4 class ships (five of which would have 
already exceeded service life) and increase amphibious lift 
capabilities to the 2.5 Marine Expeditionary Brigade Assault Echelon 
level by fiscal year 2012.'' Do you agree with General Whitlow's 
assessment?
    General Hagee. We remain concerned that further schedule slippages 
in the LPD-17 program will directly impact our ability to maintain 
forward deployed naval capabilities sufficient to meet the challenges 
of both peace and war. Congressional support for amphibious shipping is 
vital to our continued success and we are grateful for your support as 
we replace four classes of older ships with the new LPD-17-San Antonio 
amphibious class ship.
    The current Navy amphibious shipbuilding plan results in an active 
amphibious force capable of lifting a fiscally constrained 2.5 MEB 
equivalents, which is not achieved until 2015 upon delivery of the 
twelfth and final LPD-17-class ship. Today's amphibious lift force 
structure can support only two-thirds of the 3.0 MEB AE requirements in 
certain aspects of the lift requirement. Therefore, the Marine Corps 
would look favorably upon any effort to accelerate the LPD-17 
production rate in the fiscal year 2004-2009 budget, provided that this 
increase in production does not adversely impact other Marine Corps 
programs.

                      landing craft air cushioned
    2. Senator Landrieu. General Hagee, the Landing Craft Air Cushioned 
(LCAC) serves as a vital component of the Marine Corps' ability to 
provide high speed ship-to-shore movement of troops and equipment. Many 
parts of the LCAC fleet are nearing the 18-20 year age range, where 
Service Life Extension Programs (SLEP) are necessary. Do you support a 
SLEP rate of 4-6 LCACs per year?
    General Hagee. Yes, we support a SLEP rate of at least 4-6 LCACs 
per year. The LCAC will continue to serve a vital role as part of the 
future amphibious mobility triad. It provides rapid, flexible, at-sea 
maneuver. It also delivers the majority of the MAGTF's ground combat 
equipment and logistical sustainment. Marine Corps revolutionary 
concepts of Operational Maneuver from the Sea (OMFTS), Ship to 
Objective Maneuver (STOM) and Enhanced Networked Seabasing dictate a 
requirement for high speed, heavy lift (75-ton payloads), over-the-
horizon, ship-to-shore movement of troops and equipment. By increasing 
the rate at which the LCACs receive their SLEP upgrades--advanced 
communications equipment, new buoyancy boxes and skirts, and enhanced 
engines--the longevity and readiness of our critical ship-to-shore 
movement assets is assured.

                  marine forces reserve in new orleans
    3. Senator Landrieu. General Hagee, I have worked at length with 
your predecessor, General Jones, and your able commander of Marine 
Forces Reserve (MARFORRES) in New Orleans, Lieutenant General McCarthy, 
on personnel issues in New Orleans. Specifically, MARFORRES has sought 
to transfer some billets out of New Orleans and relocate them to Camp 
Pendleton and Camp Lejeune.
    We have received repeated assurances from General Jones and General 
McCarthy that this movement of personnel will have no negative impact 
on the number of Marine Corps personnel stationed in the New Orleans 
area. The addition of new Reserve units in the New Orleans area, 
specifically of the headquarters elements of new Reserve battalions, 
will help alleviate any losses that the transfer of MARFORRES billets 
might have. When the Marine Corps has finalized its plans for the 
transfer out of MARFORRES billets and the location of new Reserve units 
to New Orleans, will you furnish me with a side-by-side comparison of 
these two movements?
    General Hagee. Once we have completed the comparison of movements 
from New Orleans to Camps Pendleton and Lejeune, we will provide you 
the requested side by side comparison.

    4. Senator Landrieu. General Hagee, could you reaffirm the 
commitment that General Jones and General McCarthy made to Senator 
Breaux and I that MARFORRES would remain in New Orleans for the long-
term?
    General Hagee. Our commitment remains constant. The Marine Corps 
and Marine Forces Reserve will be a part of the New Orleans community 
for years to come. Our partnership with the city remains strong and is 
an integral component of the future readiness of the Marine Corps 
Reserve.

                             personal gear
    5. Senator Landrieu. General Hagee, most of my questions have 
focused on the larger systems that are necessary for conducting war, 
but I think it is important that we focus on the personal gear that 
individual sailors and marines are issued. In the Emerging Threats and 
Capabilities Subcommittee, we have heard testimony from Special 
Operations Command on integrating off-the-shelf technology into our 
forces. There have been news reports out of Afghanistan (Marine Corps 
Times, February 18, 2002) that some of the new gear that the Marine 
Corps has developed recently simply did not stand up to the harsh 
conditions of the Afghan environment. Specifically, the new MOLLE packs 
that have been put into the fleet were reported to fall apart in the 
field. Are you aware of this problem, and are you looking at acquiring 
off-the-shelf technology to answer the problem?
    General Hagee. I will support the effort begun by my predecessor to 
address the deficiencies noted in the MOLLE system. An Integrated 
Product Team (IPT) was chartered to define the operational requirement 
for improved load bearing equipment. That IPT continues to direct a 
concurrent acquisition effort to locate potential commercial-off-the-
shelf (COTS) materiel solutions for that requirement. We have set a 
deadline of July 1, 2003 for final downselect and movement into 
procurement. Our expected end state will be the procurement of a COTS 
system with minor modifications to increase its suitability for Marine 
Corps use. Further, the Marine Enhancement Program (MEP) is undergoing 
review to increase its flexibility and responsiveness in meeting the 
demands of the operating forces. Many items of personal equipment, to 
include the improved load bearing equipment, are being developed and 
procured under the umbrella of the MEP.

    6. Senator Landrieu. General Hagee, what do you intend to do to 
address this situation as the Commandant of the Marine Corps?
    General Hagee. I will support the effort begun by my predecessor to 
address the deficiencies noted in the MOLLE system. An Integrated 
Product Team (IPT) was chartered to define the operational requirement 
for improved load bearing equipment. That IPT continues to direct a 
concurrent acquisition effort to locate potential commercial-off-the-
shelf (COTS) materiel solutions for that requirement. We have set a 
deadline of July 1, 2003 for final downselect and movement into 
procurement. Our expected end state will be the procurement of a COTS 
system with minor modifications to increase its suitability for Marine 
Corps use. Further, the Marine Enhancement Program (MEP) is undergoing 
review to increase its flexibility and responsiveness in meeting the 
demands of the operating forces. Many items of personal equipment, to 
include the improved load bearing equipment, are being developed and 
procured under the umbrella of the MEP.

                           special operations
    7. Senator Landrieu. General Hagee, Operation Enduring Freedom 
showed how effective Special Operations units could be in a place like 
Afghanistan. As a result, General Jones has initiated greater 
cooperation between USMC and SOCOM. Please share your thoughts with the 
committee on this issue. Would you support moving some USMC units over 
to SOCOM?
    General Hagee. The Marine Corps has, throughout its history, 
maintained a capability to conduct certain ``special'' operations, 
especially those that were directly related to, or supportive of, our 
primary maritime missions. Within our Marine Air Ground Task Forces 
(MAGTFs), we have the ability to execute a broad spectrum of 
operations, particularly when a requirement exists for the introduction 
of helicopter-borne or surface-borne forces from the sea. These 
operations tie-in directly with the Corps' traditional maritime-
oriented missions for which we have statutory responsibility. Our 
highly trained, economic, first on the scene forces provide a much-
needed special operations capability that is complementary, not 
redundant, to the mission of our Nation's Special Operations Forces. 
Significant national military advantages exist in having Marine Corps 
MAGTFs trained in the conduct of maritime special operations 
capabilities while positioned aboard amphibious ships in proximity to a 
target, unencumbered by base and overflight rights and operating under 
established command and control systems. As a means to cement and 
expand our relationship with SOF, the Marine Corps and USSOCOM have re-
established the USSOCOM Marine Corps Board to explore areas and issues 
of interoperability. Additionally, in coordination with the Naval 
Special Warfare Command, the Marine Corps developed an initial ``proof 
of concept'' force contribution to USSOCOM that will be established in 
2003 and deploy with SOF during 2004. The mission areas this 
contribution is designed to execute include special reconnaissance, 
direct action, foreign internal defense and coalition support and 
will--act as the foundation for potential future contributions.

                       future of the marine corps
    8. Senator Landrieu. General Hagee, currently the Marine Corps is 
doing an excellent job of fulfilling its duties as the Nation's medium 
weight expeditionary force, bridging the gap between America's Special 
Operations Forces and the Army's critical land war-winning capability.
    One of the major components of the Army's vision of transformation 
is the medium weight brigade, built around the Stryker vehicle, which 
is capable of rapidly responding to a crisis. How will this development 
affect the mission of the Marine Corps in the future?
    General Hagee. The Army's vision of transformation is complementary 
to the Marine Corps' own innovation found within the capstone concept 
of Expeditionary Maneuver Warfare (EMW). Building on the scalable, 
flexible Marine Air Ground Task Force (MAGTF), EMW continues to focus 
on existing Marine Corps competencies, evolving capabilities, and 
innovative concepts to ensure that we continue to provide the joint 
force commander (JFC) with forces optimized for forward presence, 
engagement, crisis response, antiterrorism, and warfighting. The Marine 
Corps' expeditionary culture, with its focus on the scalable, tailored 
response of the MAGTF, will continue to be relevant in light of Army 
initiatives. This cannot be better illustrated than in our recent 
participation in Operation Enduring Freedom. I believe that while 
planned improvements in the Army's strategic agility will continue to 
provide the Nation with an even more capable war-winning Army, the 
Marine Corps' continued relevance as the Nation's premier expeditionary 
force in readiness--from MEU(SOC) to the Marine Expeditionary Force to 
our new antiterrorism brigade--will not affect the mission of the 
Marine Corps.
                                 ______
                                 
    [The nomination reference of Lt. Gen. Michael W. Hagee, 
USMC follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 10, 2002.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as Commandant of the 
Marine Corps, and appointment to the grade indicated while assigned to 
a position of importance and responsibility under Title 10, U.S.C., 
sections 5043 and 601:

                             To Be General

    Lt. Gen. Michael W. Hagee, 0000.
                                 ______
                                 
    [The biographical sketch of Lt. Gen. Michael W. Hagee, USMC 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
      Resume of Career Service of Lt. Gen. Michael W. Hagee, USMC
Date and place of birth: December 1, 1944 Hampton, Virginia.

Date of first commission: June 5, 1968.

Years of commissioned service: 34 years.

Civilian and military schools attended:

------------------------------------------------------------------------
                                                                 Date
                                              Degree           completed
------------------------------------------------------------------------
U.S. Naval Academy..................  BS....................        1968
U.S. Naval Postgraduate School......  MS....................        1969
------------------------------------------------------------------------


Military schools attended:

------------------------------------------------------------------------
                                                                 Date
                                                               completed
------------------------------------------------------------------------
The Basic School, Quantico, VA..............................        1970
Command and Staff College, Quantico, VA.....................        1982
Naval War College, Newport, RI..............................        1987
------------------------------------------------------------------------


Major command assignments:

------------------------------------------------------------------------
                                   From         To            Grade
------------------------------------------------------------------------
1st Battalion, 8th Marines, 2d        1988        1990  LtCol/Col
 MarDiv (Commanding Officer).
11th Marine Expeditionary Unit        1992        1993  Col
 (Commanding Officer).
1st Marine Division                   1998        1999  MajGen
 (Commanding General).
I Marine Expeditionary Force          2000     present  LtGen
 (Commanding General).
------------------------------------------------------------------------


Major staff assignments:

------------------------------------------------------------------------
                                   From         To            Grade
------------------------------------------------------------------------
U.S. Naval Academy (Marine            1990        1992  Col
 Corps Representative).
Headquarters, U.S. Marine             1993        1994  Col
 Corps (Military Secretary to
 ACMC).
U.S. Naval Academy (Head,             1994        1995  Col
 Character Development
 Division).
------------------------------------------------------------------------

Joint duty assignment:

------------------------------------------------------------------------
                                   From         To            Grade
------------------------------------------------------------------------
Office of the Secretary of            1995        1995  Col/BGen
 Defense (Military Assistant
 to DepSecDef).
Central Intelligence Agency           1995        1996  BGen
 (Military Assistant to the
 Director).
U.S. European Command (Deputy,        1996        1998  BGen
 J-3).
U.S. Pacific Command                  1999        2000  MajGen
 (Director, Strategic Planning
 & Policy, J-5).
------------------------------------------------------------------------


Special qualifications: Vietnamese Speaker; Joint Specialty Officer.

Personal decorations:
    Defense Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit w/two gold stars
    Bronze Star w/Combat ``V''
    Defense Meritorious Service Medal
    Meritorious Service Medal w/gold star
    Navy Achievement Medal w/gold star
    Combat Action Ribbon 

Date of rank: November 1, 2000.

Mandatory retirement date: July 1, 2006.
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Lt. Gen. 
Michael W. Hagee, USMC, in connection with his nomination 
follows:]

                                                 September 6, 2002.
Hon. Carl M. Levin,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Commandant of the Marine Corps. It 
supplements Standard Form 278 (SF 278), ``Executive Personnel Financial 
Disclosure Report,'' which has already been provided to the committee 
and which summarizes my financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my SF 278 will create any conflict of interest in the execution of 
my new governmental responsibilities. Additionally, I have no other 
interests or liabilities in any amount with any firm or organization 
that is a Department of Defense contractor.
    During my term of office, neither I nor any member of my immediate 
family will invest in any entity that would create a conflict of 
interest with my government duties. I do not have any present 
employment arrangements with any entity other than the Department of 
Defense and have no formal or informal understandings concerning any 
further employment with any entity.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation.
    I trust that the following information is satisfactory for the 
committee.
            Very respectfully,
                                        M.W. Hagee,
                     Lieutenant General, U.S. Marine Corps,
                  Commanding General, I Marine Expeditionary Force.
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael William Hagee.

    2. Position to which nominated:
    Commandant of the Marine Corps.

    3. Date of nomination:
    September 10, 2002.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 1, 1944; Hampton, Virginia.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married.

    7. Names and ages of children:
    Jesko Michael Hagee (29); Stephanie Wilma Hagee (26).

    8. Government experience: List any advisory, consultative, honorary 
or other part-time services or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Membership: List all membership and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other orgainiations.
    Marine Corps Association
    1st Marine Division Association
    Veterans of Foreign Wars (Honorary) and American Legion (Honorary).

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Honorary Member: American Legion and Veterans of Foreign Wars.

    12. Commitment to testify before Senate committtees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                                  Michael W. Hagee.
    This 6th day of September, 2002.

    [The nomination of Lt. Gen. Michael W. Hagee, USMC was 
reported to the Senate by Chairman Levin on October 1, 2002, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on October 1, 2002.]
                              ----------                              

    [Prepared questions submitted to Charles S. Abell by 
Chairman Levin prior to the hearing with answers supplied 
follow:]

                  Assistant Secretary of Defense,  
                                    Washington, DC, April 19, 2002.
Hon. Carl Levin,
Chairman, Committe on Armed Services,
United States Senate,
Washington, DC
    Dear Mr. Chairman: Enclosed are the answers to the advance 
questions the Senate Armed Services Committee asked me to complete.
            Sincerely,
                                          Charles S. Abell,
                                     Assistant Secretary of Defense
Enclosure: As stated
cc: Senator John Warner,
     Ranking Minority Member.
                                 ______
                                 
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support the implementation of the defense reforms. 
The establishment of the unified and specified combatant commands, the 
delineation of responsibilities, and most importantly, the focus on 
``jointness'' outlined in the Goldwater-Nichols Department of Defense 
Reorganization Act of 1986, has enhanced the readiness and warfighting 
capabilities of the U.S. Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I am impressed by the ways in which these reforms have 
changed the way the Department of Defense works by strengthening the 
role of the Chairman of the Joint Chiefs of Staff and the combatant 
commanders, and significantly improving the ability of the Department 
to execute America's national security strategy. The reforms have 
helped improve communication, joint operations and interoperability--we 
have strengthened the Armed Forces through these reforms through joint 
planning and execution of operations.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. I would consider each of the goals noted below to be an 
important aspect of these defense reforms. Each one has enhanced the 
ability of the Department of Defense to carry out its assigned 
responsibilities.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. While there seems to be a continuous undertone of 
conversation with regard to amending Goldwater-Nichols, I am not aware 
of any serious effort to make significant changes at this time. I 
believe that any effort to modify the principles of this landmark 
legislation would require careful study, research and extensive 
consultation.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Deputy Under Secretary of Defense for Personnel and Readiness?
    Answer. If confirmed as the Principal Deputy, I will assist the 
Under Secretary of Personnel Readiness in carrying out every aspect of 
his responsibilities, functions, relationships, and authorities in law 
and by DOD directive 5124.2, ``Under Secretary of Defense for Personnel 
and Readiness (USD(P&R)).'' I will be his primary assistant and will 
assist him in providing staff advice and assistance to the Secretary of 
Defense and the Deputy Secretary of Defense for Total Force management 
as it relates specifically to manpower; force management; planning; 
program integration; readiness; National Guard and Reserve component 
affairs; health affairs; training; personnel requirements and 
management; and compensation. This includes equal opportunity, morale, 
welfare, recreation, and quality of life matters for both civilian 
personnel but also for military personnel and their families.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have served as the Assistant Secretary of Defense for 
Force Management Policy and as the Principal Deputy Under Secretary of 
Defense for Personnel and Readiness for almost a year. Before my 
appointment in the Department of Defense, I was privileged to serve as 
a staff member on the Personnel Subcommittee of this committee. My 
experience as a member of the Armed Services Committee staff prepared 
me to address the breadth and complexity of the issues I have found to 
be facing the Under Secretary of Defense for Personnel and Readiness. I 
have also found my years of military service provide me a good 
background for understanding the issues and the environment in which 
our soldiers, sailors, airmen and marines work and live.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Deputy Under 
Secretary of Defense for Personnel and Readiness?
    Answer. I have a healthy curiosity about my profession and the 
drive to do the very best job that I can. As such, I look for 
opportunities to learn new things, to hone my abilities and to broaden 
my horizons. I plan to continue to travel to installations, units and 
activities in order to gain an appreciation for different perspectives 
on issues common to the total force and on unique situations from which 
I can learn of innovative, creative ways to address a problem. I have 
found discussions with business, academic and government leaders to be 
educational and I plan to continue to take advantage of the 
capabilities of these sources as well.
    Question. In carrying out your duties, how will you work with the 
Assistant Secretary of Defense for Health Affairs, the Assistant 
Secretary of Defense for Reserve Affairs, and the Service Secretaries?
    Answer. If confirmed, I hope to work with the Assistant Secretaries 
as a team, each providing expertise and leadership in his or her area 
of responsibility, to help carry out the responsibilities for which I 
might be held responsible. With the Service Secretaries I hope that I 
could look to these officers as my service partners in carrying out the 
human resource obligations of the Department at large, most especially 
ensuring that DOD attracts, motivates, and retains the quality people 
it needs.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Deputy Under Secretary of Defense for Personnel and 
Readiness?
    Answer. Recruiting and retaining men and women with the capability 
and character to ensure success in a demanding national security 
environment are formidable challenges for the Department. DOD's 
transformation of personnel policies and programs must address the 
changing demographics and expectations of a 21st century military force 
by providing relevant programs and policies to attract and retain 
service members and the families who support them. The total force 
policy and the integration efforts of the past decade have paid great 
rewards, and we must continue to examine the most productive and 
meaningful employment of the Reserve components and the National Guard 
as we face the ever-shifting challenges of force management. Finally, 
we must take a strategic and modernized approach to the management of 
the DOD civilian workforce. In all of these areas, we will look to our 
developing Human Resources Strategy to evaluate the challenges and 
shape our responses.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will continue to review current policies 
and initiatives in the above areas to determine their effectiveness and 
to recommend adjustments where needed in order to accomplish these 
goals.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues which must be addressed by the Deputy Under Secretary 
for Personnel and Readiness?
    Answer. If confirmed, I would hope to prioritize issues that 
reflect the recognition that people are central to accomplishment of 
the DOD mission. Priority issues could include the attraction, 
retention, and motivation of a high quality force; integration of the 
active and reserve military, civilian employees, and support 
contractors into a cohesive, flexible, and responsive total force; and 
enhancement of the quality of life for the total force that supports 
military members, their families, and retirees across the full human 
resource life cycle.
                        recruiting and retention
    Question. Recruiting and retention in the military services 
improved significantly last year and so far this year.
    In your view, what changed that resulted in improved recruiting and 
retention in the Armed Forces?
    Answer. Improved recruiting and retention is due to greater 
investments and a lot of hard work--and more of the same is required if 
we are to sustain recent success. First and foremost, our recruiters 
work longer and harder than they have in the past--more than two thirds 
work 60-plus hours each week. Additionally, the Department has invested 
greatly in recruiting in recent years. In fact, our investment-per-
accession has risen 36 percent since 1997 to over $12,500; we are 
fielding more recruiters than we have fielded in a decade, and we offer 
more types of enlistment bonuses. These bonuses range from bonuses 
given to young people willing to ship to basic training during the hard 
to fill spring months to bonuses for advanced education and bonuses 
used to guide young people into less desirable skills. In the short-
term, these solutions have paid off, but we are looking toward the 
future by implementing a range of test programs. One type of program, 
implemented by Army and Navy, recognizes the fact that nearly two-
thirds of high school seniors enroll in college directly after 
graduation. So, these programs allow young people to complete a 2-year 
degree, with a variety of level of financial aid, before enlisting. 
Another key effort is a study we commissioned with the RAND Corporation 
to look at the types of enlistment incentives college-oriented youth 
(college-bound high school students, college students, drop-outs, and 
stop-outs) find appealing. Programs like these coupled with continued 
investment will enable the Department to recruit successfully in the 
future.
    With regard to retention, the work Congress has done in the past 
several years to improve the monetary and non-monetary benefits for 
military members has paid off. The pay raises, both across-the-board 
and targeted, enhancements to special and incentive pays, efforts to 
improve housing and reduce out of pocket housing expenses, the 
authorization for military members to participate in the Thrift Savings 
Plan and improvements in medical care and retirement reforms are among 
the most significant factors that have helped retain military members.
    Question. If confirmed, what actions will you take to continue this 
success?
    Answer. I will continue to work with the services and Congress to 
field programs and resources sufficient to get the job done in manning 
units with the people they require.
    Question. The services are still experiencing difficulties in 
retaining members with certain special skills.
    If confirmed, what steps will you take to assist the services in 
retaining members with special skills?
    Answer. I will work with the Military Departments to take full 
advantage of the authorities you gave the Department in the fiscal year 
2002 National Defense Authorization Act, which permits additional 
targeted benefits to members serving in critical skills. Exploitation 
of new programs like the Montgomery GI Bill transferability, the 
savings bond reenlistment incentive, and existing bonus programs all 
serve to generate targeted improvements in our critical specialties. I 
will also work with the services, the Joint Staff and others on the OSD 
staff to reduce or mitigate the effects of our high PERSTEMPO.
    Question. In response to questions relating to your confirmation as 
the Assistant Secretary of Defense for Force Management Policy, you 
stated that you would help the services gain access to high schools by 
personally and productively engaging with local education agencies, in 
cooperation with State agencies and the Department of Education, to 
ensure that the recently enacted laws regarding military recruiter 
access to secondary schools were followed.
    Recognizing that these laws are not effective until July 2002, what 
steps have you taken thus far to improve military recruiter access to 
secondary schools students and to directory information concerning 
these students?
    Answer. We have taken several preparatory steps. First, we have 
taken care to get the word out to recruiters defining their roles and 
responsibilities. Second, we have fielded a database that includes all 
high schools nationwide, including the nature of access each service is 
provided, whether the school is public or private, if there is a school 
board policy in effect concerning recruiter access or not, and a wealth 
of other pertinent information. We've asked all the services to use 
this database in the time leading up to July to focus on those schools 
that deny access. Finally, at the request of the services, we've 
created a simple background paper that senior visitors may use as a 
guideline in planning their visits to non-compliant schools beginning 
in July. In addition to these steps, we're communicating with the 
Department of Education concerning their responsibility to advertise 
this legislation, which is included in the No Child Left Behind Act as 
well as the National Defense Authorization Act, to every high school.
                           optempo/perstempo
    Question. We continue to hear that our Armed Forces are being 
stretched, and that there are not enough military personnel to do all 
that is asked of them. Yet, the administration has requested an 
increase in end strength in fiscal year 2003 only for the Marine Corps.
    Do the Army, Navy, and Air Force need increases in end strength to 
perform their assigned missions? If so, how much of an increase for 
each service?
    Answer. The services have requested consideration of increased end 
strengths. We are currently reviewing these requests. We are analyzing 
the nature and extent of the additional requirements, and the 
Department's ability to accommodate them by reprioritizing functions, 
using civilian personnel, the Reserve components, or commercial 
enterprises to perform other less critical duties. We are examining how 
to meet these requirements in the near-term, and from a longer-range 
perspective such as using technology to reduce the need for manpower in 
certain functions, a review of current missions and our overseas 
presence. This issue is one of the most pressing challenges facing the 
Department, and is receiving our close attention.
    Question. Have military personnel been withdrawn from activities 
and locations to reduce OPTEMPO and PERSTEMPO? If so, describe the 
activities and locations from which they were withdrawn.
    Answer. Secretary Rumsfeld has challenged everyone in the 
Department to examine every detail, task, fellowship, and assignment 
that diverts military personnel from performing their operational 
military duties. As the Assistant Secretary of Defense for Force 
Management Policy, I have been at the center of this process. We are 
challenging each arrangement in which a military individual is working 
outside the Department of Defense. At the same time, we are 
aggressively pursuing the congressionally-directed reductions of the 
management headquarters activities in order to return military 
personnel to operational duties. We are also examining current missions 
and our overseas presence to determine whether there are areas in which 
we can reduce the burden on the force.
    Question. The Deputy Secretary of Defense recently approved a two-
phase plan to reduce significantly the mobilization requirements in 
support of Operation Noble Eagle/Operation Enduring Freedom.
    What is the reason for this decision? What will the impact be, if 
any, on military operations of reducing the number of mobilized Reserve 
component forces?
    Answer. The Department asked the services to conduct a mid-year 
review to evaluate the existing activations of National Guard and 
Reserve personnel. The services were asked to aggressively review their 
commitments for the current level of operations and the mobilization of 
their reserve components, both voluntarily and involuntarily. The 
directive did not assign the services any numerical goals. The review 
was to be mission-based. Much has changed in Operations Noble Eagle and 
Enduring Freedom since October 2001. Certainly there are cases in which 
missions have changed, workloads have decreased, or suitable 
substitutes to manpower can be employed. Force changes resulting from 
this review should enable us to return our reserve component personnel 
to their homes, families, and jobs. Conservation and proper use of the 
Reserve components is a critical responsibility of the Department and 
one we take seriously.
    Question. Will reduced mobilization have an impact on the already 
high PERSTEMPO of Active-Duty Forces?
    Answer. That depends largely on the nature of future missions and 
future call-ups, but we don't believe it will, and we are taking 
measures to ensure it doesn't.
    Each of the services has been asked to evaluate its existing 
activations of National Guard and Reserve personnel. In conducting 
their reviews, the services have been asked to keep in mind that 
certain mission areas critical in the early stages of the operation may 
not be required in a steady state.
    Our goal is to optimize the use of our Reserve component forces to 
address both scenarios. By doing so, we will be in a better position to 
prosecute the war on terrorism over the long haul without adversely 
affecting the PERSTEMPO of our Active-Duty Forces.
    Question. Employers of some mobilized National Guard and Reserve 
service members were informed that their employees would be mobilized 
for up to a year. How does the Department believe civilian employers 
may react to early release of National Guard and Reserve service 
members?
    Answer. Employers have been very supportive of reservists who have 
been mobilized in support of Operations Noble Eagle and Enduring 
Freedom. There are employers who have demonstrated positive support of 
their reservists by continuing civilian pay of reservists or making up 
the difference between civilian salary or wage and reserve pay, 
continuing health coverage for family members, and continuing other 
benefits. Some municipalities have passed local ordinances extending 
wage and benefit coverage.
    We believe most employers will welcome their employees back if 
released early. However, there may be cases where employers have made 
contractual arrangements for replacement labor and early return of the 
reservist may result in overstaffing. We must be cognizant of the 
employers' situation and considerate of their position.
    Question. The services have asked for relief from the provisions 
for managing deployments of members contained in section 991 of Title 
10, United States Code, and section 435 of Title 37, United States 
Code. Section 574 of the Floyd D. Spence National Defense Authorization 
Act for fiscal year 2001 required the Secretary of Defense to report on 
the administration of section 991 of Title 10, United States Code, and 
to make recommendations for any revisions that the Secretary considers 
appropriate.
    Do you recommend changes to either of these provisions for managing 
deployments of members?
    Answer. We are not proposing changes to these provisions at this 
time. However, we are currently working to develop a number of 
recommended improvements based on our experiences to date.
                         women in the services
    Question. Press reports implied that the recent changes made by the 
Department of Defense to the charter for the Defense Advisory Committee 
on Women in the Services (DACOWITS) would restrict the activities and 
responsibilities of this committee.
    Please describe the changes in the DACOWITS charter and the reasons 
for the changes.
    Answer. The DACOWITS charter was revised to reflect the realities 
of military service in the 21st century. The new charter sets a 
priority on recruiting and retaining highly qualified professional 
women while still considering the treatment, employment, integration, 
and well-being of female service members. Additionally, the charter 
broadens the committee's focus to include providing advice and 
recommendations on family issues related to the recruitment and 
retention of a highly qualified professional military.
    These changes to the charter support the transformation of the 
Armed Forces for the 21st century. They are in consonance with the 
Department's recently completed human resource strategy and ``Social 
Compact.'' Elements of the human resource strategy could significantly 
change the way we manage military personnel. Having the eyes and ears 
of DACOWITS in the field will be an important azimuth check on our 
efforts. Further, the new quality of life ``Social Compact'' modernizes 
the way we provide family support. DACOWITS will again serve to track 
our progress in this area.
    Smaller changes to the charter include the following:

        <bullet> The committee shall be composed of no more than 35 
        members; fewer than this are expected to be appointed. The old 
        charter stated the membership would be between 30 and 40. 
        Appointing fewer members will help to streamline the committee.
        <bullet> Members may be allowed transportation and per diem for 
        all Government-directed travel. This allows for installation 
        visits to be directed and paid. To date, members have done 
        installation visits at their own expense and to the 
        installations of their own choosing (usually nearest their 
        home).
        <bullet> The requirement for a minimum of two formal annual 
        conferences has been removed. The new charter calls for two 
        annual meetings. These meetings will be smaller and more 
        business-like, thereby making them more efficient.
        <bullet> The annual operating budget, which includes staff 
        support, decreased from $673,485 to $520,000. However, with a 
        smaller membership and the elimination of large conferences, 
        this should not negatively impact the committee's 
        effectiveness.

    Together, these changes will make DACOWITS more relevant for the 
21st century, more effective, and more efficient.
                     defend our freedom act of 2002
    Question. Does the Department support a military component to a 
national service program?
    Answer. Military service has traditionally been the cornerstone of 
national service, therefore the Department believes that any national 
service program should include a military component--one that helps, 
rather than hurts, the flow of volunteers and the achievement of cost-
effective manning.
    Question. Please provide the Department's views on S. 2068, the 
Defend Our Freedom Act of 2002.
    Answer. The Department supports the broad concepts of S. 2068, but 
has reservations about some of the specifics. We welcome the 
opportunity to work with the committee to overcome reservations--in 
particular, the development of legislation that would provide a short-
term enlistment option for young Americans while preserving the 
viability of incentives which have proven to be cost-effective in 
sustaining the flow of volunteers for military service.
                  anthrax vaccine immunization program
    Question. Over the last several years, the Department has 
significantly reduced the scope of the Anthrax Vaccine Immunization 
Program because of a shortage of FDA approved anthrax vaccine. The FDA 
has recently approved the license for the production of this vaccine, 
reactivating the supply of approved vaccine.
    Does the Department plan to reinstate or modify the existing 
Anthrax Vaccine Immunization Program now that increased supplies of 
vaccine are available?
    Answer. The Food and Drug Administration's approval of the BioPort 
renovated facility provides not only DOD, but also the nation, with the 
capability of producing high quality safe and effective anthrax 
vaccine. The Department is currently reviewing several options to 
determine the most appropriate priorities and use of the vaccine.
                               recoupment
    Question. In response to advance policy questions for your last 
confirmation hearing, you committed to review and recommend legislative 
changes to the many provisions of law concerning service obligations 
and recoupment to bring order and consistency to these requirements.
    Have you conducted this review?
    Answer. A review has been conducted, and it is currently being 
staffed within the Department.
    Question. What legislative changes do you recommend?
    Answer. I do not have any recommendations for specific legislative 
changes at this time, but one approach the Department is considering 
would be to recommend that the numerous laws which govern the 
recoupment of special pays, bonuses, educational assistance, and other 
benefits be reformed into a single statute.
                       officer management issues
    Question. If confirmed, what role do you expect to play in the 
officer promotion system?
    Answer. If confirmed, I will continue to play a very active role in 
providing policy oversight of the officer promotion system, and I will 
continue to be directly responsible to the Under Secretary of Defense 
for Personnel and Readiness to assist him in carrying out his duties 
and responsibilities with regard to the officer promotion system. 
Having now served as the Assistant Secretary of Defense for Force 
Management Policy, I am confident that the Department has a clear and 
detailed policy for the Military Departments to use in ensuring the 
integrity of the officer promotion system in choosing the best 
qualified officers for promotion. The Department's procedures and 
practices are designed specifically to provide safeguards against 
unauthorized influence, ensure consistency of board practices, and 
provide for the active involvement of civilian officials in the 
process.
    Question. If confirmed, what role will you play in the general/flag 
officer management and nomination process?
    Answer. If confirmed, I expect to remain fully engaged in the 
general and flag officer promotion and nomination process. I will 
continue to be directly responsible to the Under Secretary of Defense 
for Personnel and Readiness to review and monitor the Military 
Departments' efforts to fully implement all applicable requirements in 
the general and flag officer management and nomination process. I will 
continue to intensely scrutinize officer promotion and nomination 
packages that include adverse or alleged adverse information to ensure 
the officer nominated is qualified to assume the responsibilities of 
the highest grade and to perform the duties of the position he or she 
will fill. I also remain fully committed to ensuring the Senate Armed 
Services Committee is fully apprised of adverse information and 
notified when alleged adverse information becomes known concerning an 
officer who is pending confirmation.
                     armed forces retirement homes
    Question. What progress has the Department made in implementing the 
changes in organization for the Armed Forces Retirement Homes (AFRH) 
authorized in the Fiscal Year 2002 Defense Authorization Act?
    Answer. We are proceeding with the recruitment of a Chief Operating 
Officer (COO), and expect to fill the position this summer. The AFRH 
has contracted with an executive search firm with extensive experience 
in recruitment of Continuing Care Retirement Community (CCRC) 
professionals to conduct the recruitment process. In the interim, we 
continue to work closely with the AFRH Board to ensure continued 
oversight of home management and a smooth transition to the COO.
    In addition, we have solicited active duty military nominees for 
the Director, AFRH-Washington position from the Military Departments. 
The Air Force and the Navy chose to defer to the Army nomination, which 
is currently being staffed within the Department for final appointment 
by the Secretary of Defense.
    Question. Will the Department implement the previous authorized 
increase in the monthly contribution from 50 cents to one dollar?
    Answer. The 2002 congressional appropriation of $5.2 million to the 
AFRH Trust Fund has enabled further review of the options that are 
available to secure the long-term financial solvency of the home. All 
feasible strategies to ensure the home's financial security are being 
weighed carefully. Congress can be assured that the home's future 
viability has my full attention and my commitment to ensuring an 
appropriate and timely solution.
    Question. Have you identified additional areas in which 
improvements can be made to address the solvency of the homes?
    Answer. The AFRH has responded to declining levels of revenues to 
the AFRH Trust Fund in a variety of ways, seeking to reduce costs and 
infuse new funds to stem the tide of insolvency. Actions have been 
taken to downsize the total capacity of the homes from that of the 
early 1990s, and to implement efficiencies of operations. In spite of 
inflation and annual increases in civil service salaries, operations 
and maintenance funding for the AFRH has steadily declined from Fiscal 
Year 1995 to the present. The AFRH has undergone a Most Efficient 
Organization study over the last 2 years that has resulted in 
reductions in personnel and additional savings and efficiencies.
    The AFRH has actively sought to lease 49 acres of undeveloped land 
adjacent to the AFRH-Washington campus. While this effort has taken too 
much time, we are proceeding in a deliberate manner recognizing that 
each decision faces the high probability of a legal challenge. In 
addition, the AFRH-Washington has leased a number of unused facilities 
on campus to other government organizations, including the Smithsonian 
and the Army Corps of Engineers, and continues to seek suitable tenants 
for other unused buildings. The AFRH has partnered with the National 
Trust for Historic Preservation for the refurbishment of the former 
Anderson Cottage, resulting in a cost avoidance in maintenance for this 
historic structure.
    Both homes currently operate at well below capacity, due primarily 
to prior renovations and uncertainty of the financial future of the 
home. The AFRH has developed new marketing materials and strategies to 
inform potential residents of what the home has to offer, with the hope 
of increasing income from resident fees. The AFRH has also worked with 
the Military Departments to increase voluntary allotments from military 
retirees and has fostered opportunity for donations through the Armed 
Forces Retirement Home Foundation.
               compensation for service members in korea
    Question. The Commander of U.S. forces in Korea, General Schwartz, 
came before this committee on March 5, and described the difficulty the 
Army has in persuading mid-career officers to accept command of units 
in Korea. General Schwartz has urged increases in the pay and 
allowances given to service members in Korea to address this problem.
    What are your views about the adequacy of compensation for military 
members, both officer and enlisted, assigned to Korea?
    Answer. It is the Department's philosophy that military pay should 
rise as members perform duty away from their families, serve in 
overseas areas with a significantly lower quality-of-life, or serve in 
positions that place them directly in harm's way.
    Pay for members in Korea reflects the fact that members serve there 
in a permanent versus deployed temporary duty status. This means that 
members in Korea do not receive a temporary duty per diem allowance, 
unlike their counterparts serving in areas such as Bosnia, Kosovo, and 
Afghanistan. To illustrate, an E-6 with 12 years of service, who is 
assigned to an unaccompanied tour of duty in Korea outside of the 
demilitarized zone (DMZ), is paid $150 more per month than the same 
member serving in the continental United States (CONUS). If the same 
individual were assigned duty in the DMZ, he would receive $250 more 
per month than his CONUS counterpart.
    Question. What steps do you recommend to address the issues raised 
by General Schwartz?
    Answer. Army leadership is currently working with General Schwartz 
to determine if there is an adequacy-of-pay issue in Korea. Should that 
review support changes in compensation for members in Korea, we will 
work to accommodate such changes. Our joint goal is to ensure that 
compensation, quality of life, quality of service, and personnel 
management needs for those in Korea fit that situation, as well as fit 
those military personnel similarly situated around the globe.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Under Secretary of 
Defense for Personnel and Readiness?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                      experimental hiring program
    1. Senator Levin. Secretary Abell, Section 1101 of the Fiscal Year 
1999 National Defense Authorization Act established an experimental 
hiring program for scientific and technical personnel for the Defense 
Advanced Research Projects Agency (DARPA). This authority has since 
been extended to the services and other defense agencies. What is the 
status of the program's execution in the military services and DARPA?
    Secretary Abell. The Department looks forward to providing a report 
to Congress on our use of these critical flexibilities by December. At 
this time, we are in the process of obtaining data from the Defense 
Components.

    2. Senator Levin. Secretary Abell, what is the status of the 
overdue annual reports on the program that are required by the 
authorizing statute?
    Secretary Abell. We are still in the process of obtaining data from 
Defense Components on their use of these flexibilities and expect to 
provide a report to Congress no later than this December.

    3. Senator Levin. Secretary Abell, what lessons have been learned 
from the program that will shape future scientific and technical 
personnel policies?
    Secretary Abell. The first lesson we have learned is that these 
flexibilities are critical to the morale of these communities. 
Laboratory staff have enthusiastically designed and implemented these 
new authorities.
    The next lesson we have learned is that our employees want greater 
responsibility for managing themselves and are willing to accept some 
level of risk in doing so.
    We have also learned that there is value in adopting common 
practices across the ``demos.'' Under current demonstration practices, 
not all of the laboratories enjoy the same flexibilities. There remains 
some ``stovepiping'' among the laboratories in terms of adopting the 
same flexibilities. We believe that this stovepiping may be costly in 
terms of strategic focus, corporate awareness of personnel challenges, 
competitive recruitment, automation requirements, administrative 
support, and manpower. If there were a mission critical reason for 
differentiating flexibilities, we would certainly recognize that. 
However, so far we have not seen evidence of that. Finally, we believe 
that the positive reception of these flexibilities indicates that we 
should export these kinds of authorities to the rest of the scientific 
and engineering workforce. The experience of the laboratory and 
acquisition communities in utilizing the flexibilities granted by 
Congress--for recruiting, assigning, compensating, and developing--have 
formed a critical base for defining best personnel management practices 
for the entire defense civilian white collar workforce in staff and 
line functions. We look forward to submitting a proposal to Congress 
and in working with the committee in shaping the most appropriate 
framework for making these flexibilities available to the defense white 
collar workforce.

               flexibilities in personnel demonstrations
    4. Senator Levin. Secretary Abell, in your testimony, you indicated 
that the science and technology and laboratory personnel demonstrations 
will be released shortly. It is my understanding that the affected 
organizations have proposed some novel flexibilities for their 
individual demonstrations, for example, modifying pay-increase systems 
to be based on individual laboratory missions and employee 
contributions, or developing new merit-based awards for deserving 
technical personnel. Please enumerate which flexibilities under those 
demonstrations will not be carried forward due to the review, and were 
these flexibilities suspended due to a lack of congressional 
authorization or for other reasons?
    Secretary Abell. Last spring, the Under Secretary for Personnel and 
Readiness chartered a review of best practices within and outside the 
Department. This review included human resources (HR) and non-HR 
functional personnel, and Defense Component personnel and resulted in a 
determination about the most promising flexibilities for Department-
wide application. We are now working with the laboratory community on 
Federal Register notices amending the demonstration projects for three 
projects--the Air Force Research Laboratory, the Army Research 
Laboratory, and the Army Medical Research and Materiel Command. We seek 
to align these and other proposed changes with the results of our best 
practices review to ensure that--to the maximum extent possible and for 
the reasons stated above--that common practices for expanded 
flexibilities are available to all laboratory managers.

                        direct hiring authority
    5. Senator Levin. Secretary Abell, in his testimony before this 
committee on April 26, 2001, Under Secretary Aldridge noted that 
``Congress authorized the Secretary of Defense to provide direct hiring 
authority to the Defense laboratory directors, to allow them to compete 
better with the private sector for scientific talent.'' Is there any 
reason for the delay in providing that authority to the lab directors?
    Secretary Abell. The Department suspended action on changing the 
current laboratory demonstration projects or starting new ones until we 
had the opportunity to review, with the laboratory community, those 
human resources flexibilities that are identified as best practices. We 
did not want to approve new changes or new starts and then have the 
laboratory community face the human and fiscal cost of undoing those 
changes or starts if we adopted variants of the proposed changes or new 
starts.

    6. Senator Levin. Secretary Abell, please provide a schedule of 
when laboratory directors will be provided with direct hiring 
authority.
    Secretary Abell. As noted in the response to question four, we have 
developed draft final Federal Register notices that would implement 
changes to three existing demonstration projects and provided those 
drafts to the laboratory community for their comment.

                       human resource challenges
    7. Senator Levin. Secretary Abell, many experts, including the 
National Academy of Sciences and the Defense Science Board, have 
indicated that the Federal Government faces unique human resource 
challenges with respect to scientists and engineers. Do you agree?
    Secretary Abell. Yes, the entire Federal community does indeed face 
human resources challenges with respect to scientists and engineers. We 
can only agree with a June 2000 summary from the Defense Science Board 
(DSB) stating that the ``current civil service personnel system has a 
very negative impact on the capabilities and morale of the DOD and 
Service Laboratory and Center technical personnel.'' We would also 
note, more broadly, that the February 2000 DSB report on ``Human 
Resources Strategy'' stated (on page 33) that ``in general, there is 
great disparity among the services in managing civilian personnel. . . 
. This decentralized and dispersed system has contributed to the fact 
that improvements to civilian force-shaping tools tend to lag those 
that focus primarily on military personnel. It also creates an 
environment where it is very difficult to make timely changes to 
civilian human resource policies in response to evolving DOD needs.'' 
This is very much why we seek a more coordinated and corporate approach 
to simplifying civilian human resources management throughout the 
Department.

    8. Senator Levin. Secretary Abell, please identify some of these 
unique challenges and how you intend to work with the Department's 
research and technology organizations in addressing them.
    Secretary Abell. As alluded to earlier, in the spring of 2002 the 
Under Secretary for Personnel and Readiness chartered a working group 
to extract the best human resources practices from demonstration 
projects and special personnel systems within and outside the 
Department. The defense laboratory community as well as the defense 
acquisition community at large are members of that working group which 
includes managerial and executive level personnel. The primary insight 
gained from the work was that while the core values of Title 5, United 
States Code remain relevant (valuing merit, veterans, equal 
opportunity, ethical behavior, political neutrality, and sanctions for 
violation of these values), the Title 5 system of management is too 
restrictive.
    We found that the current statutory system takes opportunity from 
employees and responsibility from managers in the name of preventing 
the possibility of mistakes. This has resulted in a system of 
management that is primarily passive. We need a system that is much 
more agile and that restores both opportunity and responsibility in the 
name of performance. We must address both the human resources 
management challenges in the laboratory community as well as in the 
Department at large. We cannot achieve the flexibility envisioned for 
the laboratory community even within the laboratory community without 
reconciling personnel systems into a more coherent system. Personnel 
system stovepipes are costly in terms of strategic focus, corporate 
awareness of personnel challenges, competitive recruitment, timely 
retention, automation requirements, administrative support, and 
manpower. They also limit the Department's ability to move employees 
between laboratories and other job locations in DOD. The results of the 
best practices working group provide the ``ways'' while the legislative 
proposal for greater flexibility in the Department provides the 
``means'' for utilizing those results. Our ``ends'' are an agile 
workforce capable of meeting our national security requirements.

    9. Senator Levin. Secretary Abell, the current pending laboratory 
demonstrations have taken years to negotiate and finalize. The 
Department's new proposed alternative personnel system may also take 
years to be coordinated with Congress, the services, unions, and other 
groups. What is the implementation schedule for the new system?
    Secretary Abell. We are not able to provide an implementation 
schedule at this time. However, we do recognize that implementing a new 
approach to civilian personnel management in the Department, should 
Congress grant this additional flexibility, will require an intensive 
and multi year effort of coordination, orientation, training, testing, 
feedback, and continuous communication with all stakeholders, including 
Congress, in order to be successful. The Department's best practices 
working group is still developing the proposed more flexible system 
which will integrate best practices into current laboratory and 
acquisition demonstration projects. We will use the existing 
authorities to the maximum extent possible. We are also in discussions 
about the appropriate legislative vehicle for obtaining authority to 
expand the flexibilities now enjoyed by the laboratory and acquisition 
communities in the Department.
    10. Senator Levin. Secretary Abell, in the meantime, what steps 
will be taken so that the laboratories can continue to work 
innovatively to address their workforce crisis?
    Secretary Abell. The existing laboratory demonstration projects are 
continuing to use innovative practices. As mentioned previously, the 
laboratory community is a major participant. in our human resources 
best practices working group. The immediate result of that interaction 
is a series of draft Federal Register notices on changes to three 
demonstration projects to provide them flexibilities that they did not 
have before. We will continue to work with the defense laboratory 
community to expand available authorities and to learn from best 
practices to improve our human resources management processes.
                                 ______
                                 
Questions Submitted by Senators Joseph I. Lieberman, Mary L. Landrieu, 
                           and Jeff Bingaman
                  recruiting and retaining new talent
    11. Senators Lieberman, Landrieu, and Bingaman. Secretary Abell, 
the Department of Defense's long-term military and technological 
capabilities will be dependent on its ability to recruit and retain 
scientific and engineering talent for its laboratories. Despite this 
critical need, the DOD has been largely ineffective at recruiting and 
retaining new talent. Consequently, the defense laboratories have 
witnessed a steady erosion of talent, which has been exacerbated by an 
aging workforce, lengthy hiring processes, and competition from the 
private sector. Please describe your views regarding this issue. In 
particular, describe how much of a priority it is for you to find new 
solutions for addressing the problem; your evaluation of the steps the 
DOD has undertaken in the past to remediate this trend, including why 
these steps have failed to reverse the decline; the effectiveness of 
ongoing DOD programs or plans to remedy the problem; what approaches 
you will implement in light of past DOD failures; and when you plan to 
implement them.
    Secretary Abell. I agree with your assessment of the urgent need to 
make certain that our system of human resources management ensures that 
the defense laboratories will be able to recruit and fully utilize the 
best possible talent. The Department's best practices initiative is one 
avenue we have taken to address these issues. We will continue to work 
with the laboratory community to determine the cause of any recruitment 
and retention issues.

                      alternative personnel system
    12. Senators Lieberman, Landrieu, and Bingaman. Secretary Abell, 
the DOD has recently attempted to propound legislation seeking to 
establish a DOD-wide alternative personnel system that would transfer 
control and approval authority over demonstration projects, including 
those at defense R&D facilities, away from the Secretary, contrary to 
the statutory provisions and the congressional intent underlying 
Section 342 of the Fiscal Year 1995 National Defense Authorization Act 
and Section 1114 of the Fiscal Year 2001 National Defense Authorization 
Act. Please explain why you believe the DOD is actively supporting an 
alternative personnel system that is contrary to statutory language and 
the congressional intent motivating Sections 342 and 1114.
    Secretary Abell. We recognize that Congress provided these 
flexibilities to the Department for its laboratory community without a 
requirement for the Office of Personnel Management approval in order to 
provide greater flexibility to the Department in managing this 
workforce. We will modify our alternative personnel proposal to retain 
the authority you provided.

    13. Senators Lieberman, Landrieu, and Bingaman. Secretary Abell, 
please describe your own views regarding whether or not control and 
approval authority for DOD R&D facility demonstration projects should 
be taken away from the Secretary, and what specific steps you will 
undertake to ensure that such authority remains with the Secretary, 
consistent with existing law.
    Secretary Abell. I support initiatives that would provide Secretary 
Rumsfeld the maximum management flexibility. As indicated in the answer 
to question number 12, we will modify our legislative proposal to 
comply with previous congressional language and intent.

    14. Senators Lieberman, Landrieu, and Bingaman. Secretary Abell, 
please explain in detail how you will ensure that the defense 
laboratories will retain direct hire authority, consistent with 
congressional intent, in the event that a DOD-wide alternative 
personnel system is established.
    Secretary Abell. Our legislative proposal for greater civilian 
personnel opportunity, accountability, an flexibility envisions a 
system in which managers will have increased flexibility in recruiting, 
assigning, developing, assessing, rewarding, and managing employees. In 
addition, the Department has traditionally delegated as much personnel 
management authority as possible to the lowest appropriate level 
consistent with corporate policies and systems requirements. We believe 
that both managerial flexibility and corporate policy and operating 
guidelines provide the most effective and efficient approach to 
personnel management in this diverse Department. We will ensure that 
DOD laboratories have the maximum flexibility allowed under law to hire 
new employees.

    15. Senators Lieberman, Landrieu, and Bingaman. Secretary Abell, 
would a pilot program that authorized a limited number of excepted 
service personnel positions for defense laboratories help address the 
problem of attracting and retaining the best technical workforce for 
the Department of Defense?
    Secretary Abell. We believe that such a strategy would only provide 
limited relief to what is a more comprehensive need for personnel 
management flexibility across the entire Department. We believe our 
proposal for greater opportunity and accountability in hiring, 
assigning, compensating, developing, and managing the workforce offers 
the best prospect for attracting and retaining the most professional 
and capable workforce in the defense laboratories and across the 
Department. If Congress is concerned about the Department implementing 
an alternative personnel system across the Department simultaneously, 
you might consider a phased approach. I am suggesting a concept in 
which the Department is authorized to implement the alternative 
civilian personnel system according to our legislative proposal, but 
direct that the implementation be phased over 2 or 3 years. In such a 
proposal, the laboratories, the science and technology and the 
acquisition workforce could be implemented in the first phase and other 
functions within the Department could be converted to the new personnel 
system in later phases. This would allow the Department to plan for 
full implementation while permitting Congress to monitor our progress 
in the functional areas of most interest.

    16. Senators Lieberman, Landrieu, and Bingaman. Secretary Abell, in 
your opinion, have the past activities of the science and technology  
and acquisition workforce demonstrations contributed positively to the 
goal of attracting and retaining the best technical workforce for the 
Department of Defense?
    Secretary Abell. Yes, the science and technology and acquisition 
workforce personnel demonstration projects have indeed contributed 
positively to attracting and retaining talented employees. That is why 
we want to take the lessons learned in these demonstration projects and 
make all the flexibilities available to all organizations in DOD, not 
just laboratories or acquisition organizations. Additionally, the 
events of September 11, 2001, and the national security environment we 
face today, have underscored the urgent need for new vision, new 
strategies, and new tools to ensure the best performance of national 
security personnel. The time is critical for the Department of Defense 
to adopt a more flexible and adaptable system of defense civilian 
personnel management if it is going to fully support a capabilities-
based defense strategy.
                                 ______
                                 
               Questions Submitted by Senator John Warner
                        active duty end strength
    17. Senator Warner. Secretary Abell, the sufficiency of the numbers 
of military personnel on active duty has been a matter of great concern 
for several members of this committee, and has resulted in strong 
efforts to raise the level called for in the President's budget request 
for fiscal year 2003. You previously have indicated that several 
studies were being conducted to determine what levels of active duty 
end strength should be planned for. What is the status of the 
Departmental studies regarding active duty end strength?
    Secretary Abell. The studies I discussed, which involved re-
examining overseas presence, roles and missions, technological 
substitution for manpower, civilian substitution for military manpower, 
and DOD headquarters structure were completed and forwarded to the 
services as potential alternatives to increasing military manpower 
requirements. In particular, the required force structure moves and the 
required interaction with the international community make the overseas 
presence review a complex, long-term effort. By contrast, we expect to 
achieve fairly quick results from our civilianization efforts, which 
will allow marginal military manpower to be redirected to priority 
tasks required by the war on terrorism. In like fashion, the Secretary 
remains committed to transforming the Department's headquarters 
structure. This is directly opposed to past practices of simply 
reducing the numbers of personnel assigned, which simply yielded 
smaller, less effective versions of often inefficient organizational 
structures. We are, in particular, focusing our efforts on reducing 
military presence in positions where military expertise is not 
immediately evident. The results of our studies are now under 
consideration as we engage in the Fiscal Year 2004 Program/Budget 
Review. Again, optimizing our military manpower is a key topic in the 
current program review.

    18. Senator Warner. Secretary Abell, in order to meet the manpower 
needs of the services, including greater force protection requirements, 
do you believe that increases in active duty end strength are 
necessary?
    Secretary Abell. In the aggregate, I believe our military manpower 
numbers are adequate to meet the challenges posed by the war on 
terrorism and associated force protection responsibilities. The 
Secretary is convinced our primary challenge is to reallocate and re-
prioritize our military manpower resources. The civilian substitution 
initiative has great and fairly expeditious potential to offset the 
vast majority of the military end strength increases DOD components 
have identified to us.

                         short-term enlistments
    19. Senator Warner. Secretary Abell, last year Congress approved a 
short-term enlistment pilot program for the Army. This year, Senator 
McCain has led the way--with the Department's advice and assistance--in 
creating a short-term enlistment program that is calculated to appeal 
to youthful volunteers who are responding to the President's call for 
service to America. What are the keys to successful implementation of a 
short-term enlistment program, in your judgment?
    Secretary Abell. I believe that there are several keys to 
successful implementation of a short-term enlistment program. First, we 
must ensure that short-term enlistment offers a meaningful experience 
to all participants, with real training and real jobs. Second, we must 
ensure that the incentives for such service, either as a bonus or as an 
education allowance, are varied enough and sufficient to encourage 
youth, who would otherwise not enlist, to serve an abbreviated term of 
service. Lastly, we also must ensure that those incentives are not so 
lucrative that they would siphon off youth from the more traditional 
enlistment options.

    20. Senator Warner. Secretary Abell, based on your experience, do 
you think that Senator McCain's National Call to Service proposal will 
be successful in attracting talented youth to military service?
    Secretary Abell. Senator McCain's proposal, as included in the 
Senate version of the Fiscal Year 2003 Defense Authorization Bill, is 
an intriguing proposal that offers the services the tools and 
incentives that could assist in expanding the recruiting market to 
young Americans interested in alternatives to more traditional terms of 
enlistment.
                                 ______
                                 
    [The nomination reference of Charles S. Abell follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 20, 2002.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Charles S. Abell, of Virginia, to be Deputy Under Secretary for 
Personnel and Readiness. (New Position)
                                 ______
                                 
    [The biographical sketch of Charles S. Abell, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

Biographical Sketch of Charles S. Abell, Assistant Secretary of Defense 
                      for Force Management Policy

    Charles S. Abell was sworn in as the Assistant Secretary of 
Defense for Force Management Policy on May 8, 2001. A 
Presidential appointee confirmed by the Senate, he is 
responsible for policies, plans and programs for military and 
civilian personnel management, including recruitment, 
education, career development, equal opportunity, compensation, 
recognition, discipline, quality of life and separation of all 
Department of Defense personnel, both military and civilian.
    Prior to this position, Secretary Abell served as a 
professional staff member of the Senate Armed Services 
Committee. Secretary Abell joined the Armed Services Committee 
staff in 1993, after a 26-year career in the Army. He was the 
lead staffer for the Subcommittee on Personnel, responsible for 
issues concerning military readiness and quality of life. His 
responsibilities also encompassed manpower; pay and 
compensation; and personnel management issues affecting active 
duty, reserve and civilian personnel; and organization and 
functions within the Department of Defense.
    In recent years, Secretary Abell has had the primary 
committee responsibility for a broad array of important 
initiatives aimed at restoring cost-of-living adjustment (COLA) 
equity for military retirees and survivors; improving the 
military health care program; upgrading Survivor Benefit Plan 
coverage; and enhancing pay, allowances and retirement programs 
for active duty and reserve members and TRICARE for Life, 
guaranteeing all retirees coverage within TRICARE and the 
military health care system. He also worked on codification of 
the homosexual conduct policy and legislation concerning the 
assignment of women within the Department of Defense.
    Secretary Abell entered active duty service as an enlisted 
soldier and concluded his Army career by retiring as a 
Lieutenant Colonel. He served two tours in Vietnam in various 
positions; Infantry Platoon Leader, Company Commander and Cobra 
Attack helicopter pilot. His career progressed through 
increasingly responsible positions at every level of Army 
operations. His decorations include the Legion of Merit, (2) 
Bronze Stars (Valor), Purple Heart, the Meritorious Service 
Medal (with 4 Oak Leaf Clusters), 14 Air Medals (2 for Valor), 
the Army Commendation Medal (for Valor), and the Combat 
Infantryman's Badge.
    Secretary Abell holds a Master of Science from Columbus 
University in Human Resource Management and a Bachelor of 
Science in Political Science from the University of Tampa.
    Secretary Abell and his wife, Cathy, reside in Fairfax, 
Virginia.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Charles S. 
Abell in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Charles S. Abell.

    2. Position to which nominated:
    Deputy Under Secretary of Defense for Personnel and Readiness.

    3. Date of nomination:
    March 20, 2002.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 20, 1946; Sayre, Pennsylvania.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married; Nora (McCaffrey) Abell.

    7. Names and ages of children:
    Jennifer Ann; 26.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Wyoming Seminary High School, 1962-1964, High School Diploma
    Wake Forest University, 1964-1966, None.
    University of Tampa, 1975-1976, B.S.
    Columbus University, 1998-1999, M.S.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    United States Army, Army Officer, 1966-1992
    Assistant Secretary of Defense (Force Management Policy), May 2001-
present.
    Senate Armed Services Committee, 228 Russell Senate Office 
Building, Washington, DC, Professional Staff Member, 1993-Present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time services or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currrently held as 
an officer, director, trustee, partner, proprietor, agent, 
representative, or consultant of any corporation, firm, partnership, or 
other business enterprise, educational, or other institution.
    None.

    12. Membership: List all membership and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Life Member, The Retired Officers Association.
    Life Member, National Rifle Association.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $500.00 to Bush/Cheney For President, August 1999.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements.
    Alpha Chi National Honor Society.
    Militia Award, Enlisted Association of the National Guard of the 
United States--1994.
    TROA Meritorious Service Award, The Retired Officers Association; 
two awards--2000 and 2001.
    Order of Military Medical Merit, Army Medical Department--1998.
    Award of Merit, The Military Coalition--1998.
    Friend of the Regiment, Army Medical Department--1997.

Military Awards:
    Legion of Merit, two awards
    Bronze Star with ``V'' device, two awards
    Purple Heart
    Meritorious Service Medal, four awards
    Air Medal with ``V'' device, 15 awards
    Army Commendation Medal with ``V'' device, two awards
    Good Conduct Medal
    National Defense Service Medal
    Armed Forces Reserve Medal
    Overseas Service Ribbon, two awards
    Vietnam Campaign Medal
    Combat Infantryman's Badge
    Army Aviator Wings

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delievered during the last 5 years of which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committtees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                                  Charles S. Abell.
    This 12th day of March, 2001.

    [The nomination of Charles S. Abell was reported to the 
Senate by Chairman Levin on October 1, 2002, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on November 12, 2002.]
                              ----------                              

    [Prepared questions submitted by Rear Adm. Thomas Forrest 
Hall, USN (Ret.) by Chairman Levin prior to the hearing with 
answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. Almost 15 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support the implementation of the defense reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. The Goldwater-Nichols Department of Defense Reorganization 
Act of 1986 enhanced our overall readiness and warfighting capacity. 
The clear chain of command from the unified and specified combatant 
commands through the Secretary of Defense to the President has greatly 
improved both the efficiency of the system and the decisionmaking 
process. The reforms have strengthened the chain of command and 
improved the ability to execute joint operations, improved 
communication, and integrated planning and interoperability.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. Clearly, the goals in section three are the most important 
aspects of these defense reforms. Each of the goals has enabled the 
Department of Defense to perform more efficiently, allow increased 
flexibility, and carry out assigned responsibilities.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control; improving military advice; placing clear responsibility on the 
combatant commanders for the accomplishment of their missions; ensuring 
the authority of the combatant commanders is commensurate with their 
responsibility; increasing attention to the formulation of strategy and 
to contingency planning; providing for more efficient use of defense 
resources; and enhancing the effectiveness of military operations and 
improving the management and administration of the Department of 
Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols in light of the changing environment and possible revisions to 
the national strategy.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I do not personally know of any plan to modify Goldwater-
Nichols, nor do I have any opinion that it should be modified. 
Therefore I have no proposals to submit or discuss.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense for Reserve Affairs?
    Answer. If confirmed as the Assistant Secretary, I will perform 
those duties as stated in law (Title 10 U.S.C. Sec 138) and DOD 
directive 5125.1, ``Assistant Secretary of Defense for Reserve 
Affairs.'' I will perform as . . . ``the principal staff assistant and 
advisor to the Under Secretary of Defense for Personnel and Readiness 
(USD(P&R)) and the Secretary and Deputy Secretary of Defense for 
Reserve component matters in the Department of Defense.'' I will be 
responsible for overall supervision of all Reserve component affairs in 
the Department of Defense.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I successfully completed 34-plus years in the Navy, was the 
Deputy Director of the Naval Reserve, and later the Chief, Naval 
Reserve and have had 10 plus years' experience with Reserve component 
matters. While Chief, Naval Reserve, I developed close working 
relationships with the Chiefs of the other Reserve components. As the 
Executive Director of the Naval Reserve Association, I have also worked 
closely with all members of the Military Coalition, and have developed 
an understanding of the relevant issues.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of Defense for Reserve Affairs?
    Answer. If confirmed, I intend to travel widely, as I did as Chief 
of the Naval Reserve, and talk to those Guard and Reserve members ``on 
the ground,'' whether deployed or at home station. I also intend to 
seek advice and counsel from my peers, and from others to gain 
perspectives that I might not have, focusing on the total force, 
mobilization, de-mobilization, readiness and training.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. I've already mentioned those duties prescribed in law and 
regulation and I would assume like all other positions I've held, there 
will be ``other duties as assigned,'' and I will perform those to the 
best of my ability.
    Question. In carrying out your duties, how will you work with the 
Under Secretary of Defense for Personnel and Readiness, the Commander 
in Chief of Northern Command, the Assistant Secretaries in the military 
departments who are responsible for Reserve Affairs, the Chief of the 
National Guard Bureau, the Chiefs of Reserves of each of the services, 
the Assistants to the Chairman of the Joint Chiefs of Staff for Guard 
and Reserve Matters, and the Reserve Forces Policy Board?
    Answer. If confirmed, I intend to work within the P&R framework, as 
I will report directly to Dr. Chu. The full range of NORTHCOM's 
responsibilities are still in development, but I will work through the 
chain of command within the Department to ensure Guard and Reserve 
matters are dealt with successfully. The office has monthly information 
interchange meetings with the Reserve component chiefs now, and I would 
certainly continue those meetings. The JCS Assistants and the RFPB are 
represented in those monthly meetings. I would also consult with the 
Service Assistant Secretaries for Manpower and Reserve Affairs to 
ensure our mutual interests are covered.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of Defense for Reserve Affairs?
    Answer. I believe the most pressing issue is the current 
mobilization and the follow-on demobilization of the Guard and Reserve 
personnel involved in all the various operations. The continued use of 
the Guard and Reserve in the current partial mobilization as well as 
other contingency operations and Presidential recalls and their impact 
on families and employers, is probably the major challenge I'll face.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. I intend to work with all interested and affected parties, 
acknowledge the challenges, address their concerns and work toward 
successful solutions.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of Defense 
for Reserve Affairs?
    Answer. I know of no serious problems in the performance of those 
functions. I see a very professional staff that acts in the best 
interest of the total force and national defense.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. I intend to be both vigilant and proactive in addressing 
any problems I might encounter now or in the future.
                               priorities
    Question. If confirmed, what broad priorities will you establish in 
terms of issues which must be addressed by the Assistant Secretary of 
Defense for Reserve Affairs?
    Answer. I believe that the major challenges and issues listed above 
will drive the priorities that I will set, if confirmed. I am aware of 
the Active component/Reserve component Comprehensive Force-Mix Review 
that Reserve Affairs is conducting, and would certainly see it through 
to a successful completion. In addition, there are compensation, health 
care, accessibility, and other Reserve component-related studies that 
must be reviewed and I intend to follow through there also.
                        recruiting and retention
    Question. Some have expressed concern that the current mobilization 
of Reserve component members for lengthy deployments will have an 
adverse effect on retention in the Reserve components.
    If confirmed, what actions will you take to enhance retention of 
experienced members of the Reserve components?
    Answer. While similar concerns were expressed during the Persian 
Gulf crisis, Reserve component attrition and retention has remained 
quite stable over the last 15 years. I believe appropriate, meaningful 
use of Reserve members will have a positive effect on retention. If 
confirmed, I will work to ensure that we use our dedicated Reserve 
component members appropriately; that we offer meaningful, quality 
training; that adequate incentives are available to allow us to retain 
skilled individuals; and that we strengthen our connection with the 
families and employers of our Reservists to minimize the personal and 
financial impacts of using the Reserve components.
    Question. Historically, the Reserve components have successfully 
recruited prior service personnel as they leave active duty. With the 
downsizing of our Active-Duty Forces, the pool of prior service 
personnel is shrinking. Additionally, service members who have been 
held on active duty because of ``Stop-loss'' may be less interested in 
continuing service in the Reserve components when they are finally 
released from active duty.
    If confirmed, what actions will you take to assist the recruiting 
efforts of the Reserve components?
    Answer. I know the Department has a number of ongoing force 
integration initiatives that may enhance the ability of the Reserve 
components to attract personnel separating from the Active component. 
It is important to continue efforts to facilitate the transition from 
Active to Reserve service. We need to ensure adequate incentives are 
available to retain our valuable trained human resources. Also, I 
intend to work with the Reserve components to ensure that high quality 
non-prior service personnel continue to be recruited. One area in which 
I believe we may be able to focus more effort is in the college market.
                       use of guard and reserves
    Question. Today's total force concept relies heavily on National 
Guard and Reserve forces for both day to day and contingency 
operations. The role of the Reserves is so integral in the total force 
that military operations involving major, extended missions are 
required to include reserve participation. Members of the National 
Guard and Reserve forces are performing more and more duties that have 
been traditionally performed by Active-Duty Forces.
    In your view, is such extensive use of National Guard and Reserve 
personnel for duties that have historically been performed by members 
of the active components appropriate?
    Answer. In my view, the use of the Reserve components has continued 
to evolve since the advent of the All-Volunteer Force and the Total 
Force Policy of the early 1970s. It is clear that the Reserve 
components are no longer just a force in reserve, but are involved in 
military operations at many levels. The Department's recent Quadrennial 
Defense Review (QDR) emphasized that ``DOD will continue to rely on the 
Reserve components forces.'' This seems to me to be both necessary and 
appropriate.
    Question. Do you see a need to change the legal authorities used to 
order members of the Reserve components to active duty?
    Answer. From my vantage point it would seem that this mobilization 
was far more successful than the last one in which I was involved 
(Operations Desert Shield/Desert Storm). The Department has nearly 6 
months of effort expended on the Active component/Reserve component 
Comprehensive Force-Mix Review. It is important to consider the results 
of this review, which will examine Reserve component roles and missions 
and force mix. If confirmed, I intend to review the study thoroughly 
before recommending any changes to existing legal authorities.
    Question. If confirmed, what actions will you take to enhance the 
support of civilian employers of members of the Guard and Reserves?
    Answer. While the use of the Reserve components has increased 
significantly over the past decade and a half, we have only anecdotal 
evidence that indicates there might be a problem with employer support 
of the Guard and Reserve. I intend to make every effort to strengthen 
the National Committee for Employer Support of the Guard and Reserve 
and to foster better communications with employers, in order to capture 
more thorough and timely information on reservist-employer issues and 
on the attitudes and concerns of employers toward participation of 
their employees in the Guard and Reserve.
                           homeland security
    Question. The United States Commission on National Security/21st 
century (Hart-Rudman Commission) report on homeland security 
recommended that the National Guard be given homeland security as a 
primary mission.
    What do you see as the appropriate role of the National Guard in 
homeland security?
    Answer. The use of the National Guard to respond to domestic 
threats is well founded in law and history. I believe the National 
Guard would have to play a major role in any homeland security effort. 
I don't think this should be termed a ``primary mission,'' but rather 
an additional or ongoing mission.
    Question. How would this effect affect the use of the National 
Guard for overseas missions?
    Answer. I believe the National Guard should continue to participate 
in the full range of missions that are currently assigned to the United 
States military forces.
               employment of full time support personnel
    Question. Under current National Guard Bureau and Department of the 
Army guidance, National Guard Title 32, active Guard and Reserve 
soldiers providing full time support are prohibited from performing 
state active duty missions even in emergencies or disaster situations. 
On occasion, this can deny an important resource, e.g., aviation 
capability, to a State Governor in need of assistance.
    Do you think that, as a matter of policy, AGR members should be 
prohibited in all cases from performing State active duty missions?
    Answer. I believe the balance between Federal and State missions of 
the National Guard has worked well over the years. I am not fully 
conversant with the authorities surrounding Title 32 and the case law 
involved. Therefore, I feel uncomfortable commenting on this issue 
until I have a chance to study and be briefed on the legal aspects of 
the question before making any definitive statements.
    Question. Under what circumstances, if any, do you believe such use 
should be authorized
    Answer. Certainly, AGR members should be employed with the National 
Guard unit they are assigned to support. Other circumstances may derive 
from the Guard's role in homeland security and homeland defense as a 
result of the September 11, attacks, but I have not had an opportunity 
to fully evaluate the impact of the global war on terrorism on the role 
of the National Guard. Again, I need to defer until I have some 
knowledge based on the analysis that the General Counsel could provide 
me, if I am confirmed.
                            starbase program
    Question. One of the key recommendations from the Secretary of 
Defense's Defense Strategy Review is to engage the American public by 
expanding citizenship and community outreach programs. The Department 
of Defense STARBASE program is a very effective community outreach 
program that exposes youth, parents, and teachers to the value of 
military service. It currently operates at 39 locations associated with 
active, Guard, and Reserve commands throughout the United States.
    What are your views about the STARBASE program?
    Answer. The STARBASE program provides an excellent opportunity for 
youth within the community to participate in a variety of learning 
experiences designed to increase interest in and knowledge of math, 
science and technology. These activities also help students to develop 
positive self-esteem, focus on setting and achieving personal goals, 
and develop a drug free life-style.
    Question. Do you believe that Guard and Reserve personnel should be 
involved in the STARBASE program?
    Answer. Yes. I believe that the unique position that the Guard and 
Reserve have as the hometown force of the Department of Defense creates 
the opportunity to give back to the local community through programs 
such as STARBASE. It should also be noted that several active duty 
installations have a STARBASE program that adds value and enhances the 
relationships between the military and the local community.
    Question. Do you believe that it is appropriate to fund this 
program through the Department of Defense budget?
    Answer. I believe that the current funding approach is working 
well. The STARBASE program supports the Department of Defense outreach 
efforts to actively engage students in applied science and math through 
real-world applications.
                 national guard youth challenge program
    Question. In 1993, the National Guard, as part of their community 
mission, established the Youth Challenge Program to help at-risk youth 
improve their life skills, education levels, and employment potential. 
In 1998, the Federal share of funding for this program was reduced to 
75 percent, with a subsequent annual decrease of 5 percent each year 
through 2001, so that the Federal share is now 60 percent. Advocates 
for Youth Challenge have urged restoration of the 75 percent Federal 
and 25 percent State cost sharing for this program in order to increase 
the number of youths who are able to participate and to facilitate more 
states offering programs.
    What are your views about the National Guard Youth Challenge 
Program?
    Answer. The National Guard Youth Challenge Program is an 
outstanding community-based program that leads, trains, and mentors at-
risk youth so that they may become productive citizens in America's 
future.
    Question. Do you believe this program should be funded through the 
Department of Defense budget, or through some other means?
    Answer. I feel that the current funding approach is working well. 
This enables the Department to ensure the money is applied to the 
program as Congress intended. The Office of the Assistant Secretary of 
Defense for Reserve Affairs provides oversight of the execution of the 
program.
    Question. What is your recommendation about the appropriate level 
of Federal (versus State) funding of this program?
    Answer. I am aware of proposed legislation to lesson change the 
state matching funds requirements. If confirmed, I intend to review the 
funding of the Challenge program.
                          reserve end strength
    Question. As Executive Director and Chief Operating Officer of the 
Naval Reserve Association you have been a strong critic of reductions 
in end strength for the Naval Reserve.
    Do you believe the current end strengths for the National Guard and 
Reserve are adequate for the missions they are assigned?
    Answer. I do believe that the National Guard and Reserve are being 
tasked quite heavily, at the current time, to support Operation 
Enduring Freedom, Operation Noble Eagle, and other operational and 
peacekeeping commitments. The ongoing Active component/Reserve 
component Comprehensive Force-Mix Review should provide greater insight 
into the best use of the Reserve forces needed to accomplish future 
commitments.
                            pay and benefits
    Question. Are the pay and benefits for Reserve personnel 
appropriate for the types of service they provide?
    Answer. In general, yes. However, in light of the increased use of 
Reserve component members to accomplish service missions, and in 
keeping with the total force goals of parity in all areas, I plan to 
continue the current ongoing review of various pays and benefits to 
determine whether any change is needed, if confirmed.
    Question. Would you recommend any changes to Reserve personnel 
compensation policies and statutes?
    Answer. While I do not have any to recommend today, I will continue 
the current initiatives designed to more closely align Active and 
Reserve component compensation. If confirmed, I plan to look closely at 
special and incentive pays, retired pay, and allowances for housing and 
travel.
                  selected reserve montgomery gi bill
    Question. Montgomery GI Bill (MGIB) educational benefits for 
members of the Selected Reserve under chapter 1606 of Title 10, United 
States Code, are an important recruiting and retention incentive. 
However, the level of the monthly benefit has not risen proportionately 
over time with that of MGIB benefits payable to eligible veterans under 
chapter 30 of Title 38, United States Code.
    What is your view of the adequacy of the current monthly benefit 
levels under the Selected Reserve MGIB?
    Answer. It is my understanding that the Reserve components are 
meeting their end strength objectives and that the MGIB--Selected 
Reserve has been one of the most effective recruiting and retention 
tools available. While I am aware that there are some differences 
between the Active and Reserve programs, I would want to look very 
closely at the effectiveness of current benefits and do a cost-benefit 
analysis before recommending any change.
    Question. Would you recommend any changes to this program?
    Answer. I believe that extending the period of eligibility for the 
Montgomery GI Bill-Selected Reserve from the current 10-year period may 
merit consideration.
                       health care for reservists
    Question. Members of the Reserve and National Guard who are called 
to active duty under Executive Order 13223 in response to the September 
11, 2001, terrorist attacks are eligible for the same health care and 
dental benefits under TRICARE as other active duty service members. In 
addition, the Department has offered newly enhanced health benefits for 
activated Reservists' families under a demonstration program which 
waives deductibles, provides authority for higher payment rates, and 
waives the requirement to obtain a non-availability statement for 
inpatient care. This demonstration program seems to go a long way 
toward eliminating problems experienced by members of the Reserve 
components in transitioning from a civilian health care plan to TRICARE 
and back.
    What are your views on the adequacy of Reserve health care? Do you 
have any suggestions for improving continuity of care for Reserve 
members and their families?
    Answer. For the Reserve component member, I believe two of the most 
important considerations in determining adequacy of Reserve health care 
are the degree to which our Reserve component members are medically 
ready for mobilization and deployment, and the extent to which they are 
provided adequate protections and required treatment, in the event of 
injury, illness or disease while serving on duty. Adequate health care 
is one of the hot topics concerning families and their quality of life. 
I know Congress has addressed health care needs and I appreciate that 
the TRICARE Demonstration Project initiated during the current national 
emergency provides considerable flexibility for families of mobilized 
Guardsmen and Reservists to remain under their civilian health care 
provider. If confirmed, I look forward to reviewing these types of 
initiatives.
                equipping the national guard and reserve
    Question. Position papers available from the Naval Reserve 
Association indicate that the services are not adequately addressing 
Reserve component requirements in their budget requests. Unfunded 
equipment and training requirements lists, analogous to those of the 
active forces, have been compiled by the Reserve components. In 
addition, the Naval Reserve Association has called for independent 
advocacy to ``educate and assist Congress in identifying and funding 
the real requirements of the Naval Reserve and other Reserve 
components.''
    What are your personal views about the adequacy of the programming 
and budgeting process as it pertains to the Reserve components?
    Answer. During each programming and budget process, it's the job of 
the Office of the Assistant Secretary of Defense for Reserve Affairs to 
to look at the adequacy of review the services' budget submissions to 
determine the adequacy of their support to Guard and Reserve 
requirements. If confirmed, I look forward to continuing that oversight 
and review process and applying pressuremaking recommendations for 
change when necessary.
    Question. If confirmed, what steps would you take to ensure the 
modernization and recapitalization of the equipments needs of the 
Reserve components are being addressed in the DOD budget process?
    Answer. I believe the budget process works to fund the most 
critical priorities. The services have made progress in building a 
force that is less segregated establishing equipment requirements that 
are equitable across all components--Active and Reserve. However, the 
challenge is to continue that progress. If confirmed, I intend to 
actively work actively with the services, DOD staff, Guard and Reserve 
components to ensure the Reserve components are equipped to do the 
missions we assign them.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Reserve Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follows:]
            Questions Submitted by Senator Mary L. Landrieu
            reservists retirement and retention act of 2002
    1. Senator Landrieu. Admiral Hall, recently I introduced S. 2751, 
the Reservists Retirement and Retention Act of 2002. Many Reservists 
and Guardsmen would like to collect retirement at age 55, but the 
Department finds this retirement age too cost prohibitive. 
Additionally, lowering the retirement age may cause key Reservists and 
Guardsmen to retire at a time when they are needed by their respective 
services. S. 2751 would allow Reservists and Guardsmen to retire 
earlier if they stay in the service beyond 20 years on a two for one 
buy-down basis. For instance, if a Reservist serves for 22 years, he/
she could collect retirement at 59. This measure allows qualifying 
Guardsmen and Reservists to collect their retirement prior to age 60, 
and it encourages these service men and women to remain in the military 
beyond 20 years. Would you please review this legislation and comment 
on its merits or any ways it could be improved?
    Admiral Hall. I have reviewed S. 2751, which provides an 
incremental early retirement benefit for Reserve component members who 
serve beyond 20 qualifying years of service. While the bill may provide 
an incentive to serve longer, we currently have no analytical tools 
that can help us predict retention behavior of the reserve force that 
could result from this proposed change to the reserve retirement 
system. It is important to assure that the non-regular retirement 
system helps achieve an optimum balance of youth, experience, knowledge 
and skill mix, as well as satisfies future expectations for the force 
in the 21st century.
    The Department is currently conducting a comprehensive study of 
both the regular and non-regular retirement systems to assess how 
changes in retirement systems in the private sector might be 
incorporated into the military retirement systems, to determine the 
effects of system reform on accessions and retention, and to assess the 
expectations of today's workforce. One goal of this study will be to 
develop a military retirement system in which the regular and reserve 
elements are as closely aligned and as seamless as possible. While the 
changes proposed in S. 2751 may support this goal, we must first be 
able to predict the effects on force management, both positive and 
adverse, that could occur if S. 2751 were to be enacted.
    In addition to the force management issues, enactment of this bill 
will have cost implications for the Department and the United States 
Treasury, which could be significant. These costs would result not only 
from the enhanced retirement benefit, but also the entitlement to 
access to military health care by retirees who qualify for retired pay 
earlier and their eligible family members.
    Since we may find that other force management and shaping tools or 
retirement alternatives could be more effective and less expensive in 
achieving the desired force structure, I would prefer to defer taking a 
position on S. 2751 until the current study is complete. At that time, 
the Department will be in a better position to determine if the changes 
proposed in S. 2751 are appropriate and merit the support of the 
Department, or if other approaches would be more suitable.

                    military leave from universities
    2. Senator Landrieu. Admiral Hall, recently I introduced S. 2993. 
This legislation requires colleges, universities, and community 
colleges to grant a military leave of absence to student Reservists and 
Guardsmen who are mobilized. The bill would require schools to preserve 
the academic standing and financial aid status the student had before 
mobilization. Please share your thoughts on this bill, including any 
ways it could be improved. 
    Admiral Hall. I have reviewed S. 2993, which would establish a 
``military leave of absence'' benefit for student-Reservists who are 
called to Federal active duty (other than active duty for training) and 
National Guard members performing State active duty. While I support 
the intent of S. 2993, and the Department wants to ensure that student-
Reservists who are called to active duty are not disadvantaged because 
of their military service, the partnership we have established with the 
Servicemembers Opportunity Colleges (SOC) has proved very successful 
over the past 10 years. SOC is a consortium of national higher 
education associations and has worked on behalf of mobilized student-
Reservists to successfully resolve issues they encounter as a result of 
being called to active duty. While some student-Reservists have 
encountered difficulties, to date, we are not aware of any cases that 
have been brought to the attention of SOC that they have not 
successfully and satisfactorily resolved on behalf of the student. As 
an example, upon receiving information that a mobilized Rutgers student 
was being told he would have to reapply for admission, SOC contacted 
the Vice President of Rutgers and was told this was a case of 
``misinformation'' by the Camden Campus and the student would not have 
to reapply.
    Most schools, colleges and universities work with their student-
Reservists to accommodate them when they must leave school in the 
middle of a semester because they have been called to active duty. As 
such, we are concerned that in addition to mobilizing the majority of 
educational associations and institutions against us to oppose 
legislation, if enacted, legislation would set a minimum standard which 
would likely become the accepted standard, and lessen the highly 
successful voluntary efforts in effect today to assist student-
reservists who are ordered to active duty. Moreover, we currently have 
no evidence that the relationship we have established with SOC and the 
educational community in supporting our mobilized Reservists is 
faltering. Should we find that our current voluntary program is no 
longer effective, we would then support enactment of student protection 
legislation.

    3. Senator Landrieu. Admiral Hall, please comment on the 
difficulties faced by students upon activation, and explain what 
actions the Department is taking to improve the ease at which students 
transition from the classroom to their military orders, if called up.
    Admiral Hall. There are three primary issues student-Reservists 
face when they are suddenly called to active duty in the middle of a 
term: obtaining a refund of the tuition and fees they have paid for the 
semester they cannot complete, receiving partial course credit or a 
grade of incomplete, and being able to return to the institution upon 
completion of their active service.
    The Department has taken a number of steps to assist student-
Reservists. First, working with the education community and education 
associations, we continued our program of voluntary support for 
student-Reservists who answer the call to duty. We also reaffirmed our 
partnership with the SOC--a consortium of national higher education 
associations and over 1,350 institutional members--which will intercede 
on behalf of mobilized reservists who are experiencing problems due to 
the current mobilization.
    Further, we asked the services to widely publicize the assistance 
that is available to student-Reservists through SOC and placed 
extensive information on student assistance in our mobilization 
resources and information guide, which was developed shortly after the 
events of September 11. This information can be accessed through the 
Reserve Affairs website. The information on our website includes how to 
contact SOC, information from the Department of Education on loan 
relief for military personnel called to active duty following the 
terrorist attacks, and letters from the American Council on Education 
(on behalf of 16 individual education associations) and the American 
Association of State Colleges and Universities advising their 
colleagues of the Department of Education loan relief program and 
describing how they can support activated student-Reservists by 
refunding tuition and fees, award academic credit for work that is in 
progress and address the enrollment status of mobilized Reservists.
    In addition to enlisting the support of a number of selected 
educational associations in communicating student-Reservists' needs to 
educational institutions nationwide, on three separate occasions during 
the 1990s, the Secretary of Defense wrote to each of the State 
governors urging their support in encouraging their respective State 
educational institutions to be responsive to the needs of student-
Reservists.
    Recently, the National Committee for Employer Support of the Guard 
and Reserve began an effort to support student-Reservists who 
experience a problem with their educational institution because of 
their military service. They will perform the same type of informal 
mediation with colleges and universities that they perform with 
employers of Guard and Reserve members when problems arise.
    Finally, in 1999, the National Science Foundation (NSF) submitted 
the results of its statutorily directed forum for government officials, 
representatives of the postsecondary education community and members of 
the Reserve components of the Armed Forces, which was convened to 
discuss and seek consensus on appropriate resolution to the problems of 
student-Reservists. In responding back to the Chairman of the House 
Committee on Science, the NSF ``proposed that solutions might best be 
sought through enhanced communication and awareness of the issues both 
within and between the Armed Forces and the post-secondary education 
community.''
                                 ______
                                 
    [The nomination reference of Rear Adm. Thomas F. Hall, USN 
(Ret.) follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 22, 2002.
Ordered, that the following nomination be referred to the Committee on 
    Armed Services:
    Thomas Forrest Hall, of Oklahoma, to be an Assistant Secretary of 
Defense, vice Deborah Roche Lee, resigned.
                                 ______
                                 
    [The biographical sketch of Rear Adm. Thomas F. Hall, USN 
(Ret.) which was transmitted to the committee at the time the 
nomination was referred, follows:]

     Biographical sketch of Rear Adm. Thomas F. Hall, USN, Retired

    A native of Barnsdall, Oklahoma, Rear Admiral Hall graduated from 
the U.S. Naval Academy in 1963 and was designated a Naval Aviator in 
1964. He holds a Master of Science degree in Public Personnel 
Management from George Washington University and is a distinguished 
graduate of the Naval War College and the National War College. He was 
selected for flag rank in 1987 and in August of 1991 was promoted to 
Rear Admiral (Upper Half).
    His initial fleet assignment was with Patrol Squadron Eight. In 
1968 he returned to the U.S. Naval Academy and served as a Company 
Officer and Executive Assistant to the Commandant of Midshipmen. In 
1972 he reported to Patrol Squadron Twenty-Three where his duties 
included Training Officer and Officer in Charge of Unit AS XN Air 
Detachment. Following a tour at the Naval War College, he reported to 
the Bureau of Naval Personnel where his billets included Aviation 
Training Command Placement Officer, Aviation Staffs Placement Officer, 
Head of Air Combat Placement, and Assistant Head of Aviation Junior 
Officer Assignment. Rear Admiral Hall reported to Patrol Squadron Eight 
in 1978 where he served as Executive Officer and Commanding Officer. 
Following a tour of instruction at the National War College, he joined 
the staff of the Chief of Naval Operations where he served as Head of 
the Program Objective Memorandum (POM) Development section.
    Rear Admiral Hall served as the Chief of Staff for Commander, Fleet 
Air, Keflavik/Iceland ASW Sector from June 1982 to June 1985. From 
August 1985 to July 1987, he served as the Commander, Naval Air Station 
Bermuda and Commander, Bermuda ASW Sector. Following his assignment in 
Bermuda, he served as a Senior Fellow on the Chief of Naval Operations 
Strategic Studies Group (SSG). In September he assumed the duties of 
Deputy Director of the Naval Reserve in the Pentagon. In May 1989, he 
became the 22nd Commander, Iceland Defense Force, based in Keflavik. 
Additional duties included Island Commander, Iceland; Commander, Fleet 
Air, Keflavik; and Commander, Iceland Sector Antisubmarine Warfare 
Group. He served as Commander, Naval Reserve Force, Chief of Naval 
Reserve and Director of Naval Reserve from September 12, 1992-September 
12, 1996. During his tour of duty as the Chief of Naval Reserve, he 
attended Harvard University in the National Security Decision Program 
at the Kennedy School of Government.
    He retired from active duty on October 1, 1996, and on November 1, 
1996 became the Chief Operating Officer/Executive Director of the Naval 
Reserve Association. In addition to his position with the Naval Reserve 
Association, he serves on a number of non-profit and for-profit Boards 
and works as a volunteer within his community.
    Among his military awards are the Distinguished Service Medal, 
Defense Superior Service Medal, and the Legion of Merit. In July 1992, 
Rear Admiral Hall was awarded the Icelandic Order of the Falcon, 
Commander's Cross with star, by the President of Iceland. In May 2000, 
he was inducted into the Oklahoma Military Hall of Fame. In October 
2000, he was awarded the ``International Partnership Award'' for his 
work in ``advancing the shared interests of the United States and 
Iceland.''
    Rear Admiral Hall is married to the former Barbara Ann Norman of 
Jacksonville, Florida. They have one son, Thomas David, who is a Boy 
Scout Executive. His interests include all sports.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Rear Adm. 
Thomas F. Hall, USN in connection with his nomination follows:]

                                                    April 24, 2002.
Hon. Carl Levin,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Assistant Secretary of Defense, Reserve 
Affairs. It supplements Standard Form 278, ``Executive Personnel 
Financial Disclosure Report," which has already been provided to the 
committee and which summarizes my financial interests.
    I do not believe that any of the financial interests listed on my 
Standard Form 278 will create any conflict of interest in the execution 
of my new governmental responsibilities if I am confirmed. However, any 
potential conflict of interest issues will be resolved as indicated in 
the ethics agreement attached to my SF 278. There are no additional 
potential conflicts of interest to report in part C of the Committee's 
Biographical and Financial Information Questionnaire (or 
Questionnaire). Additionally, I have no other interests or liabilities 
in any amount with any firm or organization that is listed as a 
``Department of Defense Prime Contractor Receiving Awards over 
$25,000.''
    During my term of office, neither I, nor my spouse, will invest in 
any organizations identified as Department of Defense contractors or 
any other entity that would create a conflict of interest with my 
governmental duties.
    If confirmed, I am committed to serve in this position at the 
pleasure of the President throughout his term of office.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation other than that which was reported in part D of my 
questionnaire. To the best of my knowledge, there have never been any 
lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated. To the best of my knowledge, 
I am not presently the subject of any governmental inquiry or 
investigation.
    I am a member of certain organizations/professional societies, 
which have been previously provided to the committee. None should pose 
any conflict of interest with regard to my governmental 
responsibilities. I trust that the foregoing information will be 
satisfactory to the committee.
            Sincerely yours,
                                        Thomas Forrest Hall
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Thomas Forrest Hall.

    2. Position to which nominated:
    Assistant Secretary of Defense for Manpower and Reserve Affairs.

    3. Date of nomination:
    April 22, 2002.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 17, 1939; Barnsdall, Oklahoma.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Barbara A. (Norman) Hall.

    7. Names and ages of children:
    Thomas David Hall; 32.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Harvard University; Two Week National Security Course 1994; No 
Degree.
    National War College; 1980-1981;No Degree.
    Naval War College; 1974-1975; No Degree.
    George Washington University; 1968-1971; MS Management; Degree in 
1971.
    U.S. Naval Academy; 1959-1963; BS Engineering; Degree in 1963.
    Oklahoma State University; 1958-1959; Majored in engineering; No 
Degree.
    Barnsdall High School; 1954-1958; High School Diploma; Diploma in 
1958.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Officer in the United States Navy; Employer, U.S. Navy at locations 
and assignments throughout the world, 1963-1996.
    Naval Reserve Association; Executive Director, 1619 King Street, 
Alexandria, VA, 1996-Present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time services or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    11. Business relationships: List all positions currrently held as 
an officer, director, trustee, partner, proprietor, agent, 
representative, or consultant of any corporation, firm, partnership, or 
other business enterprise, educational or other institution.
    Naval Reserve Association; Executive Director; Non-profit.
    Navy Mutual Aid; Board of Director; Non-profit.
    Association of Naval Aviation; Board of Directors; Non-profit.
    Boy Scouts of America, National Capitol Area; Board of Directors; 
Non-profit.
    Vinson Hall Retirement Home; Board of Directors; Non-profit.
    Bermuda Maritime Museum; Board of Directors; Non-profit.
    Naval Academy Foundation; Trustee; Non-profit.
    Military Advantage (military.com); Board of Advisors; For profit.
    Logistics Management Engineering; Board of Directors; For profit.

    12. Membership: List all membership and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other orgainiations.
    Reserve Officers Association.
    The Retired Officers Association.
    Naval Academy Alumni Association.
    Oklahoma State University Alumni Association.
    American Legion.
    Harvard University Alumni Association.
    Naval Enlisted Reserve Association.
    Naval War College Alumni Association.
    Military Chaplains Association.
    Bermuda Biological Association.
    Navy League.
    Naval Order of the United States.
    Military Order of the World Wars.
    AARP.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Worked during the last election, privately on the behalf of the 
election of President George W. Bush.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements.
    Distinguished Service Medal.
    Defense Superior Service Medal.
    Legion of Merit.
    Meritorious Service Medal.
    Order of Falcon with Commander's Cross From the Government of 
Iceland.
    Oklahoma Military Hall of Fame.
    International Partnership Award from the U.S. and the Government of 
Iceland.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Have written numerous articles about the Naval Reserve which have 
been published in various reserve publications from 1992-present.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    From 1980 to Present I have made hundreds of speeches in an 
official capacity at events such as: Navy Birthday Balls, Changes of 
command, High School Graduations, Memorial Day Ceremonies, etc. All 
were military in nature and do not relate directly to the position of 
which I have been nominated. I do not have copies of the speeches, 
since I do not speak from prepared text.

    17. Commitment to testify before Senate committtees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                               Thomas Forrest Hall.
    This 24th day of April, 2002.

    [The nomination of Rear Adm. Thomas F. Hall, USN (Ret.) was 
reported to the Senate by Chairman Levin on October 1, 2002, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on October 2, 2002.]
                              ----------                              

    [Prepared questions submitted to Charles E. Erdmann by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
    Question. What is your view of the primary responsibility of the 
Court of Appeals for the Armed Forces?
    Answer. The primary responsibility of the Court of Appeals for the 
Armed Forces is to provide an independent civilian appellate review of 
those areas specified in Article 67, UCMJ. The purpose of that review 
is to protect the rights of the accused while ensuring that the 
military is able to maintain good order and discipline and also to 
ensure uniformity in enforcement of the UCMJ in the different services.
    Question. In your view, has the Court of Appeals for the Armed 
Forces fulfilled the expectations of Congress which the Court 
established in 1951?
    Answer. Yes.
    Question. Are there any legislative changes needed in statutes 
concerning the Court of Appeals for the Armed Forces?
    Answer. Based on my present knowledge of the Court, I do not 
believe that any legislative changes are necessary at this time.
    Question. Are there any changes needed in the jurisdiction of the 
Court of Appeals for the Armed Forces?
    Answer. Based on my present knowledge of the jurisdiction of the 
Court, I do not believe that any changes are necessary at this time.
    Question. Are the current compensation and retirement provisions 
for the Court sufficient to ensure that, if confirmed, you will be able 
to exercise your responsibilities in an impartial and independent 
manner?
    Answer. Yes.
    Question. Please describe the three decisions of the Court of 
Appeals for the Armed Forces which you believe to have been the most 
significant.
    Answer. United States v. Jacoby, 29 C.M.R. 244 (C.M.A. 1960)--
stating that ``the protections of the Bill of Rights, except those 
which are expressly or by necessary implication inapplicable, are 
available to members of our Armed Forces.''
    United State v. Thomas, 22 M.J. 388 (C.M.A. 1986)--definitively 
stating that unlawful command influence is ``the mortal enemy of 
military justice.''
    Navy-Marine Corps Court of Military Review v. Carlucci, 26 M.J. 328 
(1988)--protecting the independence of military judges.
    Question. In your view, what are the major strengths and weaknesses 
of the military justice system?
    Answer. Major Strengths:

        <bullet> Oversight by independent civilian court.
        <bullet> Greater protections against self-incrimination are 
        provided under Article 31 than in civilian criminal 
        proceedings.
        <bullet> Every military accused is entitled to free military 
        defense counsel.
        <bullet> The investigating officer in an Article 32 
        investigation is independent from the prosecutor and the 
        accused's right to participate in that proceeding provide 
        greater protections than in the civilian criminal proceeding.

    Major Weaknesses:

        <bullet> Real and perceived instances of unlawful command 
        influence.
        <bullet> Lack of understanding of the procedures and 
        protections afforded under the UCMJ that contribute to a 
        misconception in the eyes of the public and civilian bar that 
        the military justice system is flawed.
        <bullet> The perception that the commander has too great a role 
        in pre- and post-trial procedures.

    Question. What is your view of the relationship between the rights 
of service members and the disciplinary role of commanders?
    Answer. The balance between the rights of service members and the 
necessity for commanders to maintain good order and discipline lies at 
the heart of the UCMJ. The two interests need not be in conflict and 
are so interrelated that they cannot be analyzed separately. A military 
commander needs the ability to enforce behavior standards in a wide 
variety of situations not found in civilian society. An efficient 
military force requires high morale that is fostered by a military 
justice system that ensures that the rights of military members are 
vigorously protected.
    Question. What is your view of the role of the doctrine of stare 
decisis in terms of prior decisions of the Court of Appeals for the 
Armed Forces?
    Answer. The doctrine of stare decisis is important in that it 
provides stability, consistency and predictability for both military 
commanders and service members. The doctrine, however, does not mean 
that precedence should be cast in iron. The law is an evolving process 
that must be flexible enough to address the changing conditions and 
circumstances that our military justice system encounters. Judicial 
change should be evolutionary and done only with careful consideration.
    Question. In view of Article 36 of the UCMJ, what is your view as 
to the hierarchy of sources of law that must be applied by the Court in 
determining appropriate rules of evidence and procedure in courts-
martial?
    Answer. The hierarchy as to the sources of law in the military 
justice system is similar to the hierarchy found in State and Federal 
courts. The U.S. Constitution is the highest source followed by federal 
statutes (UCMJ), Executive Orders (Manual of Courts-Martial), and 
administrative directives (DOD and service regulations). All lower 
sources of authority must be consistent with higher authority, although 
they may provide greater protections for service members.
    Question. In your view, what is the standard for determining when 
the court should apply a rule that is different from the rule generally 
applied in the trial of criminal cases in the Federal District courts?
    Answer. Where the Manual for Courts-Martial provides guidance on a 
particular matter and that guidance is not contrary to or inconsistent 
with the UCMJ or the Constitution, it should be applied. Where the 
Manual is silent, the rules generally used in the trial of criminal 
cases in Federal courts can be utilized if not inconsistent with the 
UCMJ.
    Question. The problem of command influence, including instances 
involving judge advocates as well as commanders, is a constant threat 
to the military justice system. What is your view as to the role of the 
Court of Appeals for the Armed Forces in addressing this problem?
    Answer. The Court of Appeals for the Armed Forces has adopted a 
strong position that unlawful command influence cannot be tolerated in 
the U.S. military justice system. The Court must continue to be 
vigilant in this area and protect service members from unlawful command 
influence.
    Question. What is your view of the role of legislative history in 
judicial interpretation of the law?
    Answer. Under the standard rules for statutory interpretation, a 
court first looks to the plain language of the statute. If that 
language is unclear or ambiguous, the court can look to relevant 
legislative history. In those situations, legislative history is 
extremely helpful to courts in determining the intent of Congress.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
       recommendations for change in the military justice system
    1. Senator Warner. Mr. Erdmann, with your Marine Corps and Air 
National Guard experience, along with your impressive legal experience 
in the private sector and State government, you bring a knowledgeable 
eye to the position of Judge of the U.S. Court of Appeals of the Armed 
Forces. What do you hope to accomplish, if confirmed?
    Mr. Erdmann. While the U.S. Court of Appeals for the Armed Forces 
has developed an enviable tradition, the Court should continue to 
strive for greater efficiencies and effectiveness. With my judicial and 
international background, I hope to bring new suggestions and ideas to 
the court to assist in that continual quest for excellence. I am 
mindful that a judge on an appellate court has no individual authority 
and can contribute only as a member of the entire court. In this 
regard, I will bring experience in consensus building and collegiality 
to the Court. I also believe that the last 4\1/2\ years that I spent in 
the Balkans working as an international judge and in various judicial 
reform activities will allow me to bring an international perspective 
to the Court.

    2. Senator Warner. Mr. Erdmann, what changes do you think may be 
necessary in the military justice system?
    Mr. Erdmann. Military law has changed and evolved over the years as 
the result of congressional and Presidential actions. The first 
Articles of War were adopted by the Second Continental Congress in 
1776, and remained the core of our military justice system until the 
adoption of the Uniform Code of Military Justice in 1950. The UCMJ was 
further amended in 1968 and 1983 to include greater protections for 
service members. In our rapidly changing world the UCMJ should 
continually be reviewed to ensure that it promotes justice, assists in 
maintaining good order and discipline, promotes efficiency and 
effectiveness in the military establishment and thereby strengthens the 
national security of the United States.
    To assist in that review, Article 146 of the UCMJ created a Code 
Committee to make an annual comprehensive survey of the operation of 
the UCMJ. In addition, the Department of Defense has established the 
Joint Service Committee on Military Justice to review the Rules for 
Court-Martial and the Military Rules of Evidence and other issues in 
the military justice arena. I look forward to working with these 
committees to ensure that the goals mentioned above are achieved.
    Other sources of analysis should also be taken into consideration 
in the ongoing review of the military justice system. The National 
Institute of Military Justice sponsored a commission in 2000 to 
evaluate the need for change in the UCMJ upon the Code's 50th 
anniversary. That Commission was chaired by former Chief Judge Walter 
Cox of the United States Court of Appeals for the Armed Forces and was 
know as the Cox Commission. The Cox Commission report made a number of 
recommendations as to how the UCMJ should be changed. Continued input 
from groups outside the military establishment should be encouraged.
                                 ______
                                 
    [The nomination reference of Charles E. Erdmann follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    August 1, 2002.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Charles E. Erdmann, of Colorado, to be a Judge of the United States 
Court of Appeals for the Armed Forces for the term for 15 years to 
expire on the date prescribed by law, vice Eugene R. Sullivan, term 
expired.
                                 ______
                                 
    [The biographical sketch of Charles E. Erdmann, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Charles E. 
Erdmann in connection with his nomination follows:]
                                                 September 3, 2002.
Hon. Carl Levin,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Judge on the United States Court of 
Appeals for the Armed Forces. It supplements Standard Form 278, 
``Executive Personnel Financial Disclosure: Report'' which has already 
been provided to the committee and which summarizes my financial 
interests.
    To the best of my knowledge, none of the financial interests listed 
on my Standard Form 278 will create any conflict of interest in the 
execution of my new governmental responsibilities. Additionally, I have 
no other interests or liabilities in any amount with any firm or 
organization that is a Department of Defense contractor.
    During my term of office, neither I nor any member of my immediate 
family will invest in any organization identified as a DOD contractor 
or any other entity that would create a conflict of interest with my 
government duties.
    I do not have any present employment arrangements with any entity 
and have no formal or informal understandings concerning any further 
employment with any entity. If confirmed, I am committed to serve in 
this position for the full 15 year term.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to and 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation.
    I am a member of certain organizations and professional societies 
which have been previously provide to the committee. None of these 
should pose any conflict of interest with regard to my governmental 
responsibilities. I trust that the foregoing information will be 
satisfactory to the committee.
            Sincerely,
                                        Charles E. Erdmann.
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Charles Edgar Erdmann II.

    2. Position to which nominated:
     U.S. Court of Appeals for the Armed Forces.

    3. Date of nomination:
    August 1, 2002.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    June 26, 1946; Great Falls, Montana.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married--Renee Steckler Erdmann

    7. Names and ages of children:
    Jerrod Anthony Erdmann, 33 (Son)
    Jennifer Erdmann Tabish, 30 (Daughter)
    Kenneth Nicholas Jacques, 33 (Stepson)
    Ryan Charles Jacques, 30 (Stepson)

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Montana School of Law, 1972-1975, Juris Doctor
    Montana State University--Billings, 1970-1972, Bachelor of Science
    Montana State University--Bozeman, 1964-1966, (Left for Marine 
Corps)
    Great Falls High School--Great Falls, Montana, 1961-1964, diploma

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Office of High Representative of Bosnia and Herzegovina
    Emerika Bluma 1, Sarajevo, Bosnia, and Herzegovina
    [USAID Contractor]
    March 2002-July 2002
    OHA Judicial Reform Supervisor
    Supervised the creation of the new ``Rule of Law'' Department at 
the Office of High Representative (OHR) and implemented a revised 
``rule of law'' program based on recommendations I made in November 
2001 and adopted by the Peace Implementation Council in February 2002.

    Office of High Representative of Bosnia, and Herzegovina
    Emerika Bluma 1, Sarajevo, Bosnia, and Herzegovina
    [Organization for Security and Cooperation in Europe Contractor]
    November 2001
    Analyzed status the international community's judicial reform 
efforts in Bosnia and Herzegovina and drafted: ``Assessment of the 
Current Mandate of the Independent Judicial Commission and a Review of 
the Judicial Reform Follow-on Mission for Bosnia and Herzegovina.''

    Booz-Allen & Hamilton--USAID Commercial Law Project, Serbia
    Knicaninova 7, Belgrade, Serbia
    April-August, 2001
    Judicial Reform Consultant
    Analyzed Serbian commercial court system and developed 
recommendations for reform.

    Organization for Security and Cooperation In Europe
    Obala Kulina Bana 7, Sarajevo, Bosnia, and Herzegovina
    [U.S. State Department Contractor]
    January 2000-March 2001
    Chief Judge of Bosnian Election Court
    Chief Judge of 7 member election court (2 Serb Judges; 2 Croat 
Judges; 2 Bosnlak [Moslem] Judges and 1 International judge) 
established by Dayton Agreement to hear disputes from election process 
while elections were supervised by the international community. I was 
the only American international judge in Bosnia.

    Office of High Representative of Bosnia and Herzegovina
    Emerika Bluma 1, Sarajevo, Bosnia, and Herzegovina
    March 1989-December 1999
    Held a variety of positions at OHR including: Program Manager I 
Anti-Fraud Unit; OHR Judicial Reform Coordinator; Head of Human Rights 
and Rule of Law Department. Supervised an international and national 
staff responsible for development and enforcement of political, 
economic and social rights; revision of property laws; establishment of 
the rule of law; development of non-governmental organizations and 
civil society; establish of gender equity, programs; monitoring of 
domestic war crimes trials; and liaison with the International Criminal 
Tribunal for the Former Yugoslavia in the Hague.

    Montana Supreme Court
    Justice Building, 121 No Sanders, Helena, Montana 59634
    September 1995-January 1997
    Associate Justice

    Erdmann Law Office
    1145 Butte Avenue, Helena, Montana 59601
    October 1989-September 1895
    Owner of small law practice with several associates and support 
staff.

    Erdmann and Wright
    208 North Montana, Helena, Montana
    July 1986-September 1989
    Partner

    Charles E. Erdmann, Attorney at Law
    Fourth Floor, Power Block Building, Helena, Montana
    March 1986-July 1989
    Sole Practitioner

    Montana School Boards Association
    1 South Montana, Helena, Montana
    September 1982-March 1986
    Staff Attorney

    Montana Medicaid Fraud Control Bureau
    Montana Department of Revenue, Mitchell Building, Helena, Montana
    September 1980-September 1982
    Bureau Chief 

    Montana Anti-Trust Enforcement Bureau
    Montana Attorney General's Office
    Justice Building, 121 Sanders, Helena, Montana
    June 1978-June 1980
    Chief Staff Attorney 

    Montana State Auditor's Office
    Mitchell Building, Helena, Montana
    June 1976-December 1978
    Chief Staff Attorney

    Montana Attorney General's Office
    Justice Building, 121 Sanders, Helena, Montana
    July 1975-June 1976
    Assistant Attorney General

    10. Government experience: List any advisory, consultative, 
honorary or other part-time services or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    Helena Police Commission (Member and Chairman), 1982-1988
    Helena Regional Airport Commission (Member), 1993-1995

    11. Business relationships: List all positions currrently held as 
an officer, director, trustee, partner, proprietor, agent, 
representative, or consultant of any corporation, firm, partnership, or 
other business enterprise, educational or other institution.
    President, Mountainhouse Consulting Inc., this is a professional 
corporation I utilize in my consulting business. I am the only 
employee.

    12. Memberships: List all membership and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Marine Corps League
    Air Force Association
    Montana Air National Guard Officer's Association
    Kiwanis Club

    13. Political affiliations and activities: 
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    General Counsel, Montana Republican Party (1988-1990)--volunteer 
position.
    I was a candidate for the Montana Supreme Court in 1996 which is a 
non-partisan position in Montana.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity or $100 or more for the past 5 years. (Amount of contributions 
are estimated.)
    Karla Gray, nonpartisan candidate for Chief Justice of Montana 
Supreme Court, 2000, $750.00.
    Joe Mazurek, Democratic primary candidate for Governor, 2000, 
$500.00.
    Mitch Tuttle for Senate, Republican primary candidate for State 
senate, 2002, $200.00.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements.
    College: Who's Who in American Universities and Colleges; 
Yellowstone County Bar Association Pre-Law Scholarship; President, 
Veterans Club; Vice President, Alpha Psi Kappa (Business Honorary); 
President. Senior Class; Member, Student Senate; Chairman, Midland 
Empire Economic Conference.
    Law School: Cascade County Bar Association Scholarship; Albyn F. 
McCulloch Scholarship; President, Phi Delta Phi Legal Fraternity.
    Military: Meritorious Service Medal; Air Force Commendation Medal 
w/one OLC; Joint Meritorious Unit Award: Air Force Outstanding Unit 
Award; Air Force Outstanding Excellence Award; Marine Corps Good 
Conduct Medal; National Defense Service Medal; Air Force Longevity 
Service Award w/four OLC; Armed Forces Reserve Medal; NATO Medal: 
Minuteman Award, National Guard Bureau.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Standards for Dismissal of Teachers in Montana--An Overview, 
Montana School Boards Association School Law Review, Vol. 1, No. 2, Dec 
1988.
    Termination of Teachers for Cause, MSBA School Law Review, Vol. 1, 
No.4, June 1989.
    Another Arrow in the Plaintiff's Quiver--An Overview of 42 U.S.C. 
1983, MSBA School Law Review, Vol. 21, No.7, March 1991.
    A Comprehensive Anti-Corruption Strategy for Bosnia and 
Herzegovina, February 1999, Office of High Representative of Bosnia and 
Herzegovina.
    Comprehensive Judicial Reform Strategy Bosnia and Herzegovina, July 
1999, Office of High Representative of Bosnia and Herzegovina.
    Assessment of the Current Mandate of the Independent Judicial 
Commission and a Review of the Judicial Reform Follow-on Mission for 
Bosnia and Herzegovina, Office of High Representative of Bosnia and 
Herzegovina.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                             Charles E. Erdmann II.
    This 3rd day of September, 2002.
                                 ______
                                 
            Supplemental Questionnaire for Judicial Nominees
    1. Full Name:
    Charles E. Erdmann.

    2. Employment Record:

    Office of High Representative of Bosnia and Herzegovina
    Emerika Bluma 1, Sarajevo, Bosnia, and Herzegovina
    [USAID Contractor]
    March 2002-July 2002
    OHR Judicial Reform Supervisor

    Supervised the creation of the new ``Rule of Law'' Department at 
the Office of High Representative (OHR) and implemented a revised 
``rule of law'' program based on recommendations I made in November 
2001, which were adopted by the Peace Implementation Council in 
February 2002.

    Office of High Representative of Bosnia and Herzegovina
    Emerika Bluma 1, Sarajevo, Bosnia, and Herzegovina
    [Organization for Security and Cooperation In Europe Contractor]
    November 2001

    Analyzed status the international community' judicial reform 
efforts in Bosnia and Herzegovina and drafted: ``Assessment of the 
Current Mandate of the Independent Judicial Commission and a Review of 
the Judicial Reform Follow-on Mission for Bosnia and Herzegovina.''
    Booz-Allen & Hamilton--USAID Commercial, Law Project, Serbia
    Knicaninova 7 I Belgrade, Serbia
    April-August, 2001
    Judicial Reform Consultant
    Analyzed Serbian commercial court system and developed 
recommendations for reform.
     Organization for Security and Cooperation In Europe
    Obala Kulina Bana 7, Sarajevo, Bosnia, and Herzegovina
    [U.S. State Department Contractor]
    January 2000-March 2001 
    Chief Judge of Bosnian Election Court
    Chief Judge of 7 member election court (2 Ser Judges; 2 Croat 
Judges; 2 Bosniak [Moslem] Judges and 1 international judge) 
established by Dayton Agreement to hear disputes from election process 
while the elections were supervised by the international community. I 
was the only American international judge in Bosnia.
    Office of High Representative of Bosnia and Herzegovina
    Emerika Bluma 1, Sarajevo, Bosnia, and Herzegovina
    March 1989-December 1999
    Held a variety of positions at OHR including; Program Manager, 
Anti-Fraud Unit; OHR Judicial Reform Coordinator; Head of Human Rights 
and Rule of Law Department. Supervised an international and national 
staff responsible for development and enforcement of political, 
economic, and social rights; revision of property laws; establishment 
of the rule of law; development of non-governmental organizations and 
civil society; establish of gender equity programs; monitoring of 
domestic war crimes trials; and liaison with the International Criminal 
Tribunal for the Former Yugoslavia in the Hague.

    Montana Supreme Court
    Justice Building, 121 N. Sanders, Helena, Montana
    September 1995-January 1997

    Associate Justice

    Erdmann Law Office
    1145 Butte Avenue, Helena, Montana
    October 1989-September 1995
    Owner of small law practice with several associates and support 
staff.
    Erdmann and Wright
    208 North Montana, Helena, Montana
    July 1986-September 1989

    Partner

    Charles E. Erdmann, Attorney at Law
    Fourth Floor, Power Block Building, Helena, Montana
    March 1986-July 1986

    Sale Practitioner

    Montana School Boards Association
    1 South Montana, Helena, Montana
    September 1982-March 1986

    Staff Attorney

    Montana Medicaid Fraud Control Bureau
    Montana Department of Revenue, Mitchell Building, Helena, Montana
    September 1980-September 1982

    Bureau Chief

    Montana Anti-Trust Enforcement Bureau
    Montana Attorney General's Office
    Justice Building, 121 Sanders, Helena, Montana
    June 1978-June 1980

    Chief Staff Attorney

    Montana State Auditor's Office
    Montana Insurance Department/Montana Securities Department
    Mitchell Building, Helena, Montana
    June 1976-December 1978

    Chief Staff Attorney

    Montana Attorney General's Office
    Justice Building, 121 Sanders, Helena, Montana
    July 1975-June 1976

    Assistant Attorney General

    3. Honors and Awards:
    College: Who's Who in American Universities and Colleges; 
Yellowstone County Bar Association Pre-Law Scholarship; President, 
Veterans Club; Vice President, Alpha Psi Kappa (Business Honorary): 
President, Senior Class; Member, Student Senate; Chairman, Midland 
Empire Economic Conference.
    Law School: Cascade County Bar Association Scholarship; Albyn F: 
McCulloch Scholarship; President, Phi Delta Phi Legal Fraternity
    Military: Meritorious Service Medal; Air Force Commendation Medal 
w/1 OLC: Joint Meritorious Unit Award; Air Force Outstanding Unit 
Award; Air Force Outstanding Excellence Award: Marine Corps Good 
Conduct Medal; National Defense Service Medal; Air Force Longevity 
Service Award w/4 OLC; Armed Forces Reserve Medal;! NATO Medal; 
Minuteman Award, National Guard Bureau  

    4. Bar Associations:
    Montana Bar Association
    1975-Present

    5. Other memberships:
    Montana Council of School Attorneys (Co-Founder--1989; President--
1989, 1990).
    National Council of School Attorneys (Member).
    National Organization of School Attorneys (Member).
    National Republican Lawyers Association (Montana Chapter CoChair 
1988-1990).
    Phi Delta Phi Legal Fraternity (President, 1974).
    Alpha Psi Kappa Business Honorary (Vice President).
    Sigma Chi Fraternity (Member).
    Marine Corps League (Member).
    Air Force Association (Member).
    Montana Air National Guard Officer's Association (Bylaw Committee; 
Legal Committee).

    6. Court Admissions:
    All Montana Courts, 1975
    Federal District Court of District of Montana, 1975
    Ninth Circuit Court of Appeals, 1976
    U.S. Court of Appeals for the Armed Forces, 1982
    Fort Belknap Tribal Court, 1988
    Blackfeet Tribal Court, 1992
    Chippewa-Cree Tribal Court, 1992
    Northern Cheyenne Tribal Court, 1994

    7. Published Writings:
    Standards for Dismissal of Teacher in Montana--An Overview, Montana 
School Boards Association School Law Review, Vol. 1, No. 2, December 
1988.
    Termination of Teachers for Cause, MSBA School Law Review, Vol. 1, 
No. 4, June 1989.
    Another Arrow in the Plaintiff's Quiver--An Overview of 42 U.S.C. 
1983, MSBA School Law Review, Vol. 21, No. 7, March 1991.
    A Comprehensive Anti-Corruption Strategy for Bosnia and 
Herzegovina, February 1999, Office of High Representative of Bosnia an 
Herzegovina.
    Comprehensive Judicial Reform Strategy for Bosnia and Herzegovina, 
July 1999, Office of High Representative of Bosnia and Herzegovina.
    Assessment of the Current Mandate of the Independent Judicial 
Commission and a Review of the Judicial Reform Follow-on Mission for 
Bosnia and Herzegovina, Office of High Representative of Bosnia and 
Herzegovina.
Papers Attached in Annex 1

    8. Health:
    The state of my health is very good. I had a comprehensive physical 
examination in Sarajevo, Bosnia in June of 2002 which reflected that my 
health was excellent. (Exam Results Attached In Annex 2) In August 
2002, however, after I returned to the United States I experienced some 
tightness in my chest. As a precaution I checked into the emergency 
room. An EKG was normal but the doctors recommended a heart 
catheterization. That procedure detected a blood vessel that had a 
partial blockage. They performed an angioplasty procedure and implanted 
a stent in the blood vessel. Following the procedure the cardiologist 
stated that he would characterize my health as ``very good'' and that I 
could resume my normal activities.

    9. Legal Career:

    (a) Describe chronologically your law practice and experience after 
graduation from law school.

    Montana Attorney General's Office
    Assistant Attorney General
    June 1975-December 1976, Represented various State agencies, Argued 
criminal appeals in Montana Supreme Court.
    Montana State Auditor's Office
    Chief Counsel
    December 1976-June 1978, Represented the Montana
    Securities Department and the Montana Insurance Department
    Antitrust Bureau, Montana Attorney General's Office
    Chief Counsel
    June 1978-June 1979, Represented the State of Montana in several 
antitrust actions in Federal court.
    Medicaid Fraud Bureau, Montana Department of Revenue
    Bureau Chief
    September 1979-September 1982, Started the first Medicaid
    Fraud Bureau in Montana--supervised the investigation and 
prosecution of Medicaid fraud cases
    Montana School Board Association
    Staff Attorney
    September 1982-March 1986, represented the Association and school 
districts in Montana
    Charles E. Erdmann, Attorney at Law
    Sole Practitioner
    March 1986-July 1986, primarily represented Montana school 
districts
    Erdmann & Wright
    Partner
    July 1986-September 1989, Continued to primarily represent school 
districts in issues such as: employment and labor relations law, 
election law, State and Federal discrimination laws, contract law, and 
a variety of constitutional issues. The remainder of my practice 
included the representation of a statewide insurance trust and 
representation of individuals in employment matters and other disputs.
    Erdmann Law Office
    Owner
    October 1989-September 1995. No change in nature of practice.
    Montana Supreme Court
    Associate Justice
    September 1995-January 1997
    Office of High Representative of Bosnia and Herzegovina
    Program Manager, Judicial Reform Coordinator, Head of Human Rights 
and Rule of Law Department
    March 1998-December 1999
    Bosnian Election Court
    Chief Judge
    January 2000-March 2001
    Booz-Allen & Hamilton
    Judicial Reform Consultant
    April 2001-August 2001
    Office of High Representative of Bosnia and Herzegovina
    Judicial Reform Consultant
    November 2001
    Office of High Representative of Bosnia and Herzegovina
    Judicial Reform Supervisor
    March 2002-July 2002

    (b)(1) What has been the general character of your law practice, 
dividing It into periods with dates of its character that has changed 
over the years?

July 1975-September 1982...............  Government Practice
September 1982-March 1986..............  Association of Public School
                                          Districts
March 1986-September 1997..............  Private Practice of Law
September 1995-January 1997............  Judicary--Montana Supreme Court
March 1989-December 1999...............  Interntianal Rule of Law and
                                          Human Rights
January 2000-March 2001................  intenational Judiciary--Bosnian
                                          Election Court
April 2001-July 2002...................  International Judicial Reform
                                          Consulting



    (2) Describe your typical clients, and mention the areas, if any, 
in which you have specialized.
    While in private practice I represented public school districts, 
other public entities, insurance companies, unions, and individuals. 
Ispecialized in school law and discrimination law.

    (c)(1) Did you appear in court frequently, occasionally, or not at 
all? If the frequency of you appearances varied, describe each such 
variance, giving dates.
    While in private practice I appeared in court 2-3 time a month and 
before administrative tribunals 3-4 times a month.

    (2) Provide an estimate of the percentage of these appearances that 
were in Federal courts, including courts-martial; State courts of 
record, other courts.
    (A) Federal courts; 10 percent.
    (B) State courts; 40 percent.
    (C) Administrative Bodies; 50 percent.

    (3) Provide an estimate of your litigation that was: civil; 
criminal.
Government Practice:
    (A) civil proceedings; 30 percent.
    (B) criminal proceedings; 20 percent.
Private Practice:
    (A) civil proceedings; 100 percent.
    (B) criminal proceedings; 0 percent.

    (4) Provide an estimate of the number of civil cases in courts of 
record you tried to verdict or judgment (rather than settling), 
indicating whether you were sole counsel, chief counsel, or associate 
counsel.
    While in private practice I estimate that I took over 50 cases to 
final judgment, acting as sole practitioner or lead counsel in all 
cases.

    (5) Provide an estimate of the percentage of these trials that was: 
jury; non-jury.
    All of my cases were either determined by administrative hearing 
officers or tribunals or judge alone trials.

    (6) Provide an estimate of the number of cases you were briefed 
and/or argued before appellate courts indicating whether you were sole 
counsel, chief counsel, or associate counsel.
    I estimate that I briefed and argued over 30 cases before the 
Montana Supreme Court and the 9th Circuit Court of Appeals, all as the 
sole counselor chief counsel.

    (d) Describe a representative sample of the litigated matter which 
you personally handled.
    I have attached a summary of 10 representative litigated matter 
that I have personally handled in Annex 3.

    (e) List any judicial offices you have held, whether such position 
was elected or appointed, and a description of the jurisdiction of each 
such court.
    Montana Supreme Court
    September 1995-January 1997
    Appointment by Governor Marc Racicot to fill an unexpired term. 
Defeated in the 1996 election for a full term on the Court. (51.2 
percent-48.8 percent).
    I have attached a list of 10 significant decisions that I authored 
while on the Montana Supreme Court and the Bosnian Election Court in 
Annex 4.

    10. Experience with military law or civilian criminal justice 
system: In addition to such information as may be described elsewhere 
in this section, describe your experience working with military law, 
military justice, or civilian criminal justice systems.
    The first position I held after law school was with the Montana 
Attorney General's Office. My primary duty was to draft appellate 
briefs for criminal appeals before the Montana Supreme Court and to 
argue the appeals. I later handled criminal prosecutions as head of the 
Montana Medicaid Fraud Bureau in both State and Federal court. While on 
the Montana Supreme Court I authored and participated in numerous 
criminal decisions.
    I graduated from the Air Force Staff Judge Advocate Orientation 
Course at Maxwell AFB in preparation for my duties as an Air National 
Guard Staff Judge Advocate. As a result of that course, during 
subsequent yearly  updates, and with my work in the Air National Guard, 
I am familiar with the Uniform Code of Military Justice.
    During my work in Bosnia in 1998, I was member of a group of 
international and national experts that revised the Federation of 
Bosnia and Herzegovina's criminal code and criminal procedure code. 
Those changes were adopted by the Federation Parliament. While in 
Bosnia in 2002 I supervised the drafting of the first criminal code and 
criminal procedure code at the Federal level of Bosnia and Herzegovina. 
Working on these projects with international experts helped expand my 
knowledge and understanding of criminal justice systems and philosophy.

    11. Assistance to the Disadvantaged: An ethical consideration under 
Canon 2 of the American Bar Association's Code of Professional 
Responsibility calls for ``every lawyer, regardless of professional 
prominence or professional workload, to find some time to participate 
in serving the disadvantaged.'' Provide a representative sample of any 
activities you have undertaken in this regard.
    While in private practice I provided legal services and advice to 
individuals referred to me by friends and others who otherwise could 
not otherwise afford legal services. I also participated in the formal 
``pro bono'' system. During that period I also had a policy of 
encouraging my associates to perform ``pro bono'' work during their 
regular workday.

    12. Discrimination: The American Bar Association's Commentary to 
its Code of Judicial Conduct states that it is inappropriate for a 
judge to hold membership in any organization that invidiously 
discriminates on the basis of race, sex, or religion. Do you belong, or 
have you ever belonged, to any organization which so discriminates--
through either formal membership requirements or the practical 
implementation of membership policies?
    No.
                                 ______
                                 
                           Signature and Date
    I hereby state that I have read and signed the foregoing 
Supplemental Questionnaire for Judicial Nominees and that the 
information provided therein is, to the best of my knowledge, current, 
accurate, and complete.

                                             Charles E. Erdmann II.
    This 3rd day of September, 2002.

    [The nomination of Charles E. Erdmann was reported to the 
Senate by Chairman Levin on October 1, 2002, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on October 2, 2002.]
                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the Chairman. 
They will not be available for public inspection.)

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 19------.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS
                      Instructions to the Nominee:
    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        Committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the Chairman.]

                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the Committee by the Executive Branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the Committee by the Executive Branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county or municipal law, regulation or ordinance, other 
than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 19------.

                                 <all>
      

</pre></body></html>
